<html>
<title> - ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2001 BUDGET</title>
<body><pre>[Senate Hearing 106-802]
[From the U.S. Government Printing Office]






                                                        S. Hrg. 106-802

                   ENVIRONMENTAL PROTECTION AGENCY'S 
                    FISCAL YEAR 2001 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2000

                               __________

  Printed for the use of the Committee on Environment and Public Works



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-378                     WASHINGTON : 2000


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 23, 2000
                           OPENING STATEMENTS

Chafee, Hon. Lincoln U.S. Senator from the State of Rhode Island. 6, 76
Crapo, Hon. Michael, D., U.S. Senator from the State of Idaho....     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     3
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    76
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    22
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     1
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming....... 3, 76
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6

                                WITNESS

Browner, Hon. Carol M., Administrator, Environmental Protection 
  Agency.........................................................    10
    Prepared statement...........................................    77
    Responses to additional questions from:
        Senator Bennett..........................................   104
        Senator Chafee...........................................   106
        Senator Inhofe.......................................28-58, 110
        Senator Hutchison........................................   109
        Senator Lautenberg......................................67, 126
        Senator Lieberman........................................   126
        Senator Smith............................................63, 80
        Senator Thomas..........................................19, 128
        Senator Voinovich........................................   130

                          ADDITIONAL MATERIAL

Letter, TMDL program and forestry, to Senator Baucus, from J. 
  Charles Fox, Assistant Administrator for Water, EPA............    70

                                 (iii)

  

 
       ENVIRONMENTAL PROTECTION AGENCY'S FISCAL YEAR 2001 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 23, 2000

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:40 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Robert Smith 
(chairman of the committee) presiding.
    Present: Senators Smith, Inhofe, Thomas, Chafee, 
Lautenberg, Crapo, Reid, Voinovich, and Warner.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. The hearing will come to order.
    Good morning, Administrator Browner.
    Ms. Browner. Thank you.
    Senator Smith. We watched you on the Agriculture Committee 
and are glad you finished up pretty close to the time that we 
had anticipated.
    Ms. Browner. Thank you.
    Senator Smith. Today's hearing serves two purposes. First, 
we will receive testimony from Administrator Browner on the 
President's fiscal year 2001 budget, the request for the EPA. 
Second, this is the first step in the biannual EPA 
authorization process, which is new for the committee that we 
are planning to start next year, to comprehensively review 
programs within EPA's jurisdiction, as well as EPA's funding 
priorities. It will be the first of several EPA oversight 
hearings. Throughout the year we will be working with the 
subcommittee chairmen to conduct followup, detailed hearings on 
specific EPA programs.
    Upon the completion of those subcommittee hearings, each 
subcommittee chair will then report to the committee an 
authorization bill for fiscal year 2002 and 2003 covering their 
respective areas of jurisdiction.
    The full committee will then integrate the individual 
subcommittee bills into a final bill that establishes the EPA 
program.
    With a budget exceeding $7 billion a year, reporting a 
biannual authorization bill is the most effective way for the 
Authorizing Committee, in my view, to examine EPA's priorities 
across all the programs and target limited resources in those 
areas where they can achieve the greatest results.
    So for the upcoming fiscal year the President has requested 
approximately $7.3 billion in discretionary spending for the 
Environmental Protection Agency. After reviewing next year's 
budget request, I do have some concerns, and I would just like 
to highlight a couple of those before yielding to my 
colleagues.
    Year after year, the EPA requests funding for numerous 
unauthorized programs, sometimes at the expense of programs 
that directly benefit the States' and the EPA's core programs. 
One example of this is this year's funding request for the 
clean water State revolving fund. The Administration request 
for the SRF is $550 million below last year's enacted level, 
and the clean water SRF is a proven program that has been 
extremely successful helping communities comply with the 
numerous and expensive regulations imposed by the Clean Water 
Act.
    I hear from my own constituents in New Hampshire, as I am 
sure my colleagues hear from their respective States, that it 
is more important than ever to make sure that the clean water 
SRF is adequately funded, because the majority of the 
wastewater facilities are at the end of their design life, and 
so reduced funding will mean less clean water in those 
communities.
    Second, I am concerned with a decrease in the requested 
funding for the National Institute of Environmental Health 
Science. This is the sound science risk assessment portion of 
the budget, in my view, and I hate to see that being cut back. 
This will hinder the development of cost-effective Superfund 
programs, delay new understanding of health effects, and the 
development of innovative technologies, which I think 
ultimately are going to resolve many of our environmental 
problems.
    I am also concerned with the significant number of 
unauthorized programs, or ``EPA initiatives,'' as they are 
often called, that are allocated funding. Some may be good, 
some may not be, depending on one's view. But the 
Administration requests, for example, funding for a number of 
these initiatives. They include a clean air demonstration 
program, a high-production volume chemical testing program, and 
the Better America Bonds initiative.
    Some of these initiatives, such as these new initiatives, 
such as brownfields program, for example, I support, but we 
must recognize that they compete with core statutory 
responsibilities, and I think we need to try to get a balance 
here.
    The extensive oversight process that the committee will 
engage in this year should focus EPA's resources in a manner 
that ensures that the American taxpayer is getting the biggest 
bang for the buck.
    In my view, that means EPA must first meet its core 
statutory obligations, and, second, to the extent that EPA has 
this statutory authority to exercise discretion in allocating 
resources, they must do so in a manner that will maximize risk 
reduction for the greatest number of citizens.
    So I want to take this opportunity to welcome Administrator 
Browner and the EPA officials who have accompanied her here 
today and thank them for coming.
    Let me move to my colleagues on the committee. Senator 
Lautenberg has just arrived. While he is collecting himself, I 
will turn to Senator Inhofe.
    Senator Inhofe. No statement, Mr. Chairman.
    Senator Smith. OK. Senator Thomas.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Thomas. I will be very brief. Thank you, Mr. 
Chairman.
    I know you and I and all the members of this committee want 
to ensure that EPA's budget priorities reflect the programs 
that Congress has entrusted to the Agency.
    In previous years, the budgeting contained funding for 
several initiatives, which I would question whether or not they 
actually reflect Congressional intent. For this year, the 
Administration is requesting the largest increase in the 
operating budget, while at the same time cutting some funds for 
the popular and successful State programs. So I certainly hope 
that we can focus some on that.
    Thank you very much. I look forward to hearing about the 
budget.
    Senator Smith. Senator Lautenberg?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman. I heard 
a 9-1-1 dial from EPA and I came rushing over here. But I do 
not think that EPA needs any help, Mr. Chairman.
    I thank you for the opportunity to review the EPA budget 
and the Authorizing Committee. I think it is fair to say that, 
even if we have occasional disagreement on some things, that we 
do listen attentively and we want to try to do the best we can 
by the environment.
    As you know, Mr. Chairman, I sit on the VA/HUD 
Appropriations Subcommittee, which is under the capable 
leadership of Senator Bond, and we annually review the same 
issues that we are going to hear about today using this kind of 
a sequence.
    Appropriators, however, sometimes view manners in a 
different light than authorizers, and I think it is useful to 
use both perspectives in reviewing the Agency's critical work.
    Mr. Chairman, I am particularly interested in providing 
adequate funding for EPA's core programs. We sometimes get so 
distracted by the newest hot issue that we lose sight of the 
programs mandated by statute that are the backbone of the 
Agency.
    Whether we are cleaning up Superfund sites, updating water 
discharge permits, reassessing pesticide tolerances, or setting 
standards for toxins in the air, EPA's core programs are a 
tremendous benefit to the health of our constituents, and we 
must never lose sight of those.
    So, Mr. Chairman, I look forward to what I assume will be a 
useful, excellent presentation by the EPA administrator. We are 
doing the right thing here by hearing from EPA concerning the 
budget, and I look forward to the testimony.
    Senator Smith. Thank you, Senator Lautenberg.
    Senator Crapo?

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you, Mr. Chairman. I will be brief, 
also.
    I was interested to note that I came here prepared to talk 
about several of the issues that you, yourself, raised--the 
Clean Water Act State Revolving Fund and the NIEHS and research 
funding, in general. And I also will have some issues on the 
Safe Drinking Water Act, which fall within the jurisdiction of 
my subcommittee.
    I appreciate the opportunity for us to review these 
matters, because I think it is very critical that the 
Authorizing Committee focus very carefully on these budget 
items, and I just wanted to let Administrator Browner, Mr. 
McCabe, and Mr. Ryan know those areas of interest.
    Senator Smith. Thanks, Senator.
    Senator Inhofe?

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Madam Administrator, this may be the last time that you 
will be before this committee, and I wanted to kind of review--
--
    Ms. Browner. You are not going to have me back this year?
    Senator Lautenberg. That is why I said 9-1-1.
    Senator Inhofe. Yes, 9-1-1. I never get those calls.
    Anyway, I would like to review a few things that have 
happened during the years that you have been in office.
    In 1993, I remember when President Clinton made his State 
of the Union message. He said that he said that the Superfund 
program was broken and legislation would be necessary to fix 
it, and then in 1995 the Administration said legislation was no 
longer necessary and you announced your polluter pays 
principle, although you failed to explain that you did not 
actually have to be a Superfund polluter to pay, but just have 
deep pockets. And so I will not repeat my story of Mill Creek 
Lumber and Jimmy Dunn, but Oklahoma City car dealers were 
finding themselves in a position to make large payments when, 
in fact, they were not the ones who were the pollutants.
    In 1993, you announced that there would be no more bean 
counting. This was a term that was used to talk about the 
number of finds, the number of enforcement actions, the number 
of lawsuits that were filed, and yet this last year you filed 
more lawsuits, enforcement actions, and fines than you had in 
any other year.
    I have been very much concerned about the Administration's 
attitude toward lawsuits and consent agreements that we have 
talked about before. The Natural Resource Defense Council v. 
EPA, the Environmental Defense Fund v. EPA, the Sierra Club v. 
EPA--all of these were--you entered into consent agreements. 
There is even some discussion that we may have even paid for 
some of these, while at the same time lawsuits from the 
American Truckers Association, Michigan v. EPA, Appalachian 
Powers v. EPA, you announced that the EPA would fight the cases 
all the way to the Supreme Court.
    I see this as rewriting laws through consent agreements, 
and probably that would be covered when we get into the Clean 
Air reauthorization next year.
    And last I might mention that in the State of the Union 
message this time the President was talking about the booming 
economy and all the progress that has been made there, and yet 
a lot of these enforcement actions have gone to these companies 
that are accountable for and these industries that are 
accountable for the fine economic environment that we have 
today.
    So I am concerned about enforcement. I am concerned about 
getting something done meaningful on such things as Superfund. 
But it appears that we will probably have to wait to get some 
of these meaningful things accomplished by this committee.
    So I look forward to your testimony and working with you.
    [The prepared statement of Senator Inhofe follows:]

   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma

    Ms. Browner, since this is probably your last hearing before this 
Committee, I wanted to spend just a few to review some of the 
environmental issues over the last 7 years, as we in Congress take a 
hard look at your budget for fiscal year 2001.
On Superfund
    In 1993, President Clinton announced in his State of the Union 
speech that the Superfund program was broken. Legislation was 
necessary.
    In 1995, The administration said legislation was no longer 
necessary, and you announced the ``Polluter Pays Principle'' Although 
you failed to explain that you didn't have to actually be a Superfund 
polluter to pay, you just need a deep pocket.
    In 1996, You took credit for all of the cleanups that occurred 
during the Reagan/Bush years.
    In 1999, You began looking for excuses as to why cleanups have 
actually slowed down in the 1990's.

On Enforcement

    In 1993, The Administration announced consolidation of the 
Compliance groups out of the Program Offices and into one large 
Enforcement and Compliance Office for better coordination.
    You announced no more bean counting.
    In 1999, While the Air Office has spent the last 6 years rewriting 
the New Source Review regulations because they are unclear; apparently 
in a well coordinated effort the you and Janet Reno announced lawsuits 
using the same old unclear regulations.
    This year, The EPA Enforcement Office announced that the beans were 
up in every enforcement category.
On the EPA Budget
    Over the last several years you have decried the so-called 
``Congressional earmarks'' for specific programs around the country, 
including the full-funding of Clean Water Act State Revolving Fund.
    In 1999 and this year, You requested $100 million for the Clean Air 
Partnership Trust Fund Slush Fund for undefined specific programs 
around the country.

On Lawsuits
    NRDC v. EPA
    EDF v. EPA
    Sierra Club v. EPA
    The EPA settled lawsuits, and entered into consent agreements,

    American Truckers Assoc. v. EPA
    Michigan v. EPA
    Appalachian Powers v. EPA
    You announced that the EPA would fight the cases all the way to the 
Supreme Court.

A Final Note On The EPA Budget and The President's State Of The Union

    Finally, last month during the State of the Union, President 
Clinton said we have proved that you can grow the economy and clean up 
the environment at the same time.
    I agree. However, your Agency is trying to prove otherwise.
    Your enforcement office has filed lawsuits against industry for 
alleged Clean Air Permit violations, saying that over 95 percent of 
companies have violated their permits. They have been threatened with 
hundreds of millions in fines. These violations affect not only the 
utilities and refiners, but also the telecommunications industry, 
computer industry, and traditional manufacturers, the backbone of our 
thriving economy.
    The number one piece of evidence you enforcement office is using is 
the production growth over the last 10 years, which is our strong 
economy. Where most people see economic growth, your enforcement people 
see targets for fines.
    You can't have it both ways. If your enforcement people are right, 
then you and President Clinton are wrong, and future economic growth 
will be jeopardized.
    Senator Smith. Senator Chafee?

           OPENING STATEMENT OF HON. LINCOLN CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman.
    Thank you for conducting this important hearing on the 
President's fiscal year 2001 budget request for the 
Environmental Protection Agency. I would like to extend my 
appreciation to Administrator Browner for being here today.
    As chairman of the Subcommittee on Superfund, Waste 
Control, and Risk Assessment, I am particularly interested in 
hearing your testimony regarding funding for Superfund, 
brownfields, underground storage tanks, and the Resource 
Conservation Recovery Act.
    In today's atmosphere of limited resources, we must ensure 
that every dollar spent returns the highest yield possible.
    I am especially interested to hear how EPA plans to ensure 
that cleanup activities continue at an acceptable rate.
    In addition, I am eager to hear testimony on EPA's efforts 
to enhance brownfields redevelopment. This is an issue with 
important implications for Rhode Island, and I commend 
Administrator Browner on the focus EPA has placed on 
brownfields.
    I would also like to take this opportunity to express my 
concern about the proposed $550 million cut to the clean water 
revolving fund, which would have adverse impacts on Rhode 
Island and many other States. This is a program that has worked 
incredibly well, and is supported by virtually all the 
stakeholders.
    Last year, Congress refused to cut this important program, 
and I urge my colleagues to once again protect funding for the 
clean water SRF.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Chafee.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman, for conducting this hearing on the 
Environmental Protection Agency's fiscal year 2001 budget. I 
wanted to start off by saying that this Nation has seen 
dramatic improvements to its environmental quality, thanks in 
part to the environmental programs of the USEPA and their 
partners in State government, although some State EPAs have 
complained that the EPA could have been a little better partner 
to them during the last several years.
    I am glad to have Administrator Browner here to discuss 
EPA's budget. While the Administration is proposing a slight 
decrease in funding for EPA next year, I am concerned, as other 
members of this committee, that there is an 11 percent increase 
for operating programs.
    We face limited budgets at all levels of government, and it 
is important that we use our limited resources wisely.
    I am also concerned that the Administration is proposing 
new initiatives when some of our current environmental needs 
are going unmet. As we consider the last budget of this 
Administration, I am concerned that, instead of building on 
initiatives begun in this Administration and giving priority to 
unmet needs, the Administration is proposing new initiatives.
    When I was mayor of Cleveland and Governor of Ohio, in my 
last year in office we concentrated on finishing what we had 
started, rather than beginning new initiatives that we would 
not be around to implement.
    I believe that the EPA should be determining what needs 
have gone unmet, which performance goals still need to be 
achieved, and then determine how to go about meeting those 
through its current programs, instead of proposing new 
initiatives. This Administration needs to focus on the 
continuing challenges that we face.
    For example, I see one of EPA's primary goals is to expand 
the public access to information. In fact, the Administration 
seeks a $38 million fund to expand the right-to-know programs, 
mostly for your integrated information system. I applaud that, 
because in too many instances States are responding to 
environmental groups based on information that is not totally 
correct.
    For example, in our State there was an allegation that 14 
of 22 major Ohio factories had violated the Clean Water Act at 
least once during the past 2 years. They went on to say the EPA 
had taken only one enforcement on one facility, when, in fact, 
there were nine enforcement actions. So the information needs 
to be improved.
    I strongly believe our challenge in the new millennium is 
to work harder and smarter and do more with less and spend our 
resources in a way that best protects the environment and the 
health of our citizens.
    We need to do a better job of setting environmental 
priorities and spending our resources wisely.
    This has already been mentioned, but, for example, with the 
sorry state of our Nation's wastewater and treatment 
facilities, I am disappointed that this Administration has not 
sent up a reauthorization of the clean water SRF program, which 
expired at the end of fiscal year 1994. And the failure to 
reauthorize the program sends an implicit message that 
wastewater collection and treatment is not a national priority.
    In addition, the Administration proposes to allow states to 
reserve up to 19 percent of the clean water SRF for 
capitalization grants to provide grants of no more than 60 
percent of the cost of implementing nonpoint source and estuary 
management projects.
    Now, while these projects are very worthwhile, the health 
and well-being of the American public depend on the contract of 
our Nation's wastewater collection and treatment systems. The 
cost of poor environmental infrastructure needs to be 
addressed. Too much time and energy are spent on boutique 
projects that make good for public relations. Perhaps the EPA 
is following the advice of a former Governor of Ohio, who said 
to me 1 day, ``George, never put anything in the ground, 
because the people do not see it.''
    As March, 1999, needs gap study found, the sanitary sewer 
overflow needs in the 1996 clean water needs survey were 
grossly underestimated. Originally estimated at total of $10.3 
billion, today's sanitary sewer overflows need an estimate of 
$81.9 billion, bringing the total national water infrastructure 
needs to more than $200 billion.
    Neither the $139.5 billion nor the $200 billion EPA 
estimate reflects replacement costs. These are costs that are 
there. We are not even looking at replacement costs.
    Clearly, these incredible needs should be addressed.
    Moreover, I am very concerned. The Administration budget 
proposes only $800 million for the clean water SRF program--and 
I think that Senator Chafee has made that point--for fiscal 
year 2001, a $550 million reduction from the fiscal year 2000 
enacted levels of $1.35 billion.
    I believe that in the last budget of this Administration we 
ought to go back to basics that reflect the unmet environmental 
needs of this country and not undertake new initiatives that 
may not be embraced by the next Administration.
    Thank you.
    [The prepared statement of Senator Voinovich follows:]

 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio

    Thank you, Mr. Chairman for conducting this hearing on the 
Environmental Protection Agency's fiscal year 2001 budget. I want to 
start off by saying that this nation has seen dramatic improvements to 
its environmental quality thanks in part to the environmental programs 
of the U.S. EPA as well as our many state environmental agencies.
    I am glad to have Administrator Browner here to discuss EPA's 
budget with us. While the Administration is proposing a slight decrease 
in funding for EPA next year, I am concerned that there is an 11 
percent increase for operating programs. We face limited budgets at all 
levels of government and it is important that we use our limited 
resources wisely. I also am concerned that the Administration is 
proposing new initiatives when some of our current environmental needs 
are going unmet.
    As we consider the last budget of this Administration, I am 
concerned that instead of building on initiatives begun in this 
Administration and giving priority to unmet needs, the Administration 
is proposing new initiatives. When I was Mayor and Governor, in my last 
year we concentrated on finishing what we had started rather than 
beginning new initiatives that we would not be around to implement.
    I believe EPA should be determining which needs have gone unmet, 
which performance goals still need to be achieved, and then determine 
how to go about meeting those through its current programs. Instead of 
proposing new initiatives, this Administration needs to focus on the 
continuing challenges we face.
    For example, I see one of EPA's primary goals is to continue to 
expand the public's access to information. In fact, the Administration 
seeks an additional $38 million to expand right-to-know programs, 
mostly for the Integrated Information Initiative.
    Recently an environmental group issued a report based on 
information that it received from EPA's Sector Facility Index Project 
that 14 of 22 major Ohio factories have violated the Clean Water Act at 
least once in the past 2 years. It went on to say that Ohio EPA has 
taken enforcement action at only one facility. However, in reality, 
Ohio EPA is taking or has already taken action at 9 of these facilities 
not just one. I would say that the information provided on this 
database is grossly inaccurate.
    The public does have a right to know about issues affecting their 
environment including the information that an agency is using to make 
decisions during the rulemaking process. However, currently there are 
no assurances that EPA is providing accurate information. I think EPA 
first needs to figure out how to step up efforts to ensure that the 
information they are putting out there for the public is correct. 
Otherwise the states' ability to enforce these programs is 
unnecessarily called into question.
    I strongly believe our challenge in the new millennium is to work 
harder and smarter and to do more with less and spend our resources in 
a way that best protects the environment and the health of our 
citizens. We need to do a better job of setting environmental 
priorities and spending our resources wisely. We should not do things 
simply because of appearances.
    In addition, we need to ensure that effective programs are not 
being undercut by well-intentioned policies and regulations that lack 
scientific backing. Quite frankly, I believe that EPA's policies often 
run counter to the efforts, and even the mission, of other Federal 
agencies. For example, the Federal Government has a number of effective 
programs that promote education, safety and economic development, such 
as HUD's empowerment zones, welfare reform, urban school programs and 
transportation projects. However, at the same time EPA is thwarting 
these efforts though policy decisions that are not always based on 
sound science and that undermine efforts to revitalize our urban areas. 
There needs to be a coordinated effort among agencies, in fact even 
within EPA itself, to ensure that a program's success is not being 
undercut by unnecessarily restrictive regulations that do not increase 
protection of public health or the environment.
    Two of my top legislative priorities are handled within EPA's 
Office of Water and Office of Air. For example, I will shortly be 
introducing legislation to amend the Clean Air Act to add the same risk 
assessment and cost-benefit analysis provisions that we added to the 
Safe Drinking Water Act in 1996--the same provisions that the 
Administration supported. This will help ensure that reasonable and 
cost-effective rules are being set that have scientific backing so that 
we are sure that we are getting a real bang our of the dollars we are 
investing in the environment.
    In addition to working for cleaner air, I am also working on 
improving the quality of our nation's water. Last year I introduced S. 
1699, the Clean Water Infrastructure Financing Act of 1999. This bill 
will reauthorize the highly successful, but undercapitalized, Clean 
Water State Revolving Loan Fund (SRF) Program. The Clean Water SRF 
Program is an effective and immensely popular source of funding for 
wastewater collection and treatment projects. However, the condition of 
our nation's environmental infrastructure remains alarming.
    With the sorry state of our nation's wastewater and treatment 
facilities, I'm disappointed that this Administration has not sent up a 
reauthorization of the Clean Water SRF program, which expired at the 
end of fiscal year 1994, and the failure to reauthorize the program 
sends an implicit message that wastewater collection and treatment is 
not a national priority.
    In addition, the Administration proposes to allow states to reserve 
up to 19 percent of their Clean Water SRF for capitalization grants to 
provide grants of no more than 60 percent of the cost of implementing 
non-point source and estuary management projects. While these projects 
are very worthwhile, the health and well-being of the American public 
depend on the condition of our nation's wastewater collection and 
treatment systems. The costs of poor environmental infrastructure need 
to be addressed. Too much time and energy are spent on boutique 
projects that make for good public relations. Perhaps EPA is following 
the advice of a former Governor of Ohio who said ``never put anything 
in the ground because the public can't see it.''
    A March 1999 EPA Needs Gap Study found that sanitary sewer overflow 
needs in the 1996 Clean Water Needs Survey were grossly underestimated. 
Originally estimated at a total of $10.3 billion, today sanitary sewer 
overflow needs are estimated at $81.9 billion, bringing the total 
national wastewater infrastructure needs to more than $200 billion. 
Neither the $139.5 billion nor the $200 billion EPA estimate reflects 
replacement costs. Independent studies indicate that when 20-year 
replacement costs are added, the total wastewater infrastructure needs 
will exceed $300 billion.
    Clearly, these incredible needs must be addressed. Moreover, I am 
very concerned that the Administration's budget proposes only $800 
million for the Clean Water SRF program for fiscal year 2001, a $550 
million reduction from the fiscal year 2000 enacted level of $1.35 
billion.
    I believe that in the last budget of this Administration we ought 
to go back to basics that reflect on the unmet environmental needs of 
this country and not undertake new initiatives that may not be embraced 
by the next Administration.
    This country will not be well served by Federal policies and 
regulations that do not improve the protection of public health and the 
environment. I believe we also need to carefully review how taxpayer 
dollars are being spent, particularly when these funds are spend on 
programs that negate or overlap one another. I look forward to 
exploring these issues not only during today's hearing, but in future 
oversight hearings as well.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator Voinovich.
    Administrator Browner, welcome. We look forward to your 
testimony and that of your colleagues.

  STATEMENT OF ENVIRONMENTAL PROTECTION AGENCY ADMINISTRATOR 
                        CAROL M. BROWNER

ACCOMPANIED BY:
        W. MICHAEL McCABE, ACTING DEPUTY ADMINISTRATOR
        MICHAEL W.S. RYAN, ACTING CHIEF FINANCIAL OFFICER
        MARGARET N. SCHNEIDER, DEPUTY ASSISTANT ADMINISTRATOR FOR 
            ENVIRONMENTAL INFORMATION
        DIANE E. THOMPSON, ASSOCIATE ADMINISTRATOR, OFFICE OF 
            CONGRESSIONAL AND INTERGOVERNMENTAL RELATIONS (OCIR)
        ROBERT PERCIASEPE, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND 
            RADIATION
        SUSAN H. WAYLAND, ASSISTANT ADMINISTRATOR, OFFICE OF 
            PREVENTION, PESTICIDES, AND TOXIC SUBSTANCES (OPPTS)
        RICHARD FARRELL, ASSOCIATE ADMINISTRATOR, OFFICE OF POLICY AND 
            REINVENTION
        J. CHARLES FOX, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
        TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
            WASTE AND EMERGENCY RESPONSES (OSWER)
        STEVEN A. HERMAN, ASSISTANT ADMINISTRATOR, OFFICE OF 
            ENFORCEMENT AND COMPLIANCE ASSURANCE
        NIKKI TINSLEY, INSPECTOR GENERAL
        GARY GUZY, GENERAL COUNSEL
    Ms. Browner. Thank you, Mr. Chairman.
    Let me begin by apologizing. I was testifying in another 
hearing this morning, which took a few minutes longer than they 
had thought it would take, and I apologize for being late to 
this very, very important hearing and to this very important 
committee.
    Mr. Chairman, members of the committee, I am very pleased 
to be here today to present the Clinton/Gore Administration's 
budget request for the U.S. Environmental Protection Agency. 
Accompanying me here today are many of the Agency's senior 
managers, including Mike McCabe, the Acting Deputy 
Administrator, and our Acting Chief Financial Officer, Mike 
Ryan.
    Mr. Chairman, I might just take a moment to congratulate 
you on your chairmanship and to say how much I look forward to 
working with you.
    I might also say how much I admired your predecessor, Mr. 
Chafee. He was a model of bipartisanship on behalf of 
environmental protection, and he offered me some very wise and 
some sound advice at my confirmation hearing more than 7 years 
ago in which he said to me, ``I want you to remember one thing, 
and one thing only: your job is to protect our environment. 
That is your job.''
    He was a great man and a person we enjoyed working with, 
and I know you will follow in his footsteps and lead this 
committee in the same bipartisanship manner as we look at how 
best to strengthen our public health and environmental 
protections for the people of this country.
    The budget that we are putting forward today we believe 
achieves that goal. We have presented a budget that maintains 
fiscal discipline, while making essential investments in 
environmental priorities.
    This Administration has repeatedly demonstrated that we can 
enjoy enormous prosperity. We are now experiencing the longest 
economic expansion in history. I think, if we cannot agree on 
anything else today, we can probably all agree on that.
    At the same time that we are enjoying this economic 
prosperity, we have been very, very successful in implementing 
important environmental and public health protections.
    Over this past 7 years of unprecedented economic progress, 
the Administration, working with this committee and many in 
Congress, has distinguished itself through unprecedented 
environmental progress.
    The 1996 amendments to the Safe Drinking Water Act, were 
authored in this committee and then passed in the U.S. Senate 
with, I think, not a vote against them. We supplied the first-
ever funding, $2.3 billion loan program, for communities to 
upgrade drinking water systems. We have set up the first public 
right-to-know program for ensuring that all consumers of tap 
water know the source and the quality of their tap water. We 
have announced new measures to protect the health of 140 
million Americans by strengthening protections from emerging 
threats in our drinking water, like cryptosporidium.
    As a result of our joint efforts, this committee, in 
authoring the new Safe Drinking Water Act and our work with you 
to implement that new law, 89 percent of Americans now get tap 
water from drinking water systems that meet health standards. 
That is an increase of 6 percent since the standards went into 
effect in 1994.
    In every area, this Administration, the Clinton/Gore 
Administration, has moved to provide this kind of common sense, 
cost-effective environmental protection.
    We have tripled the pace of cleaning up toxic waste in the 
Superfund program. Senator Inhofe, we continue to believe that 
legislation would make that program a better program. We have 
simply been unwilling to support legislation which would 
undermine the responsibility of the largest polluters to pay 
their fair share.
    We have been very, very clear that small parties should not 
be caught up in Superfund. In fact, through administrative 
reforms we have removed 21,000 small parties and we have done 
everything short of begging Congress to pass legislation to 
make it even easier for us to do that.
    At the end of 1999, a total of 670 Superfund sites have 
been cleaned up. Of these sites, 515 have been completed since 
1993. We are out in the communities getting these sites cleaned 
up and turned back over to these communities.
    As a result of our efforts in the fight for clean air, some 
43 million Americans today are breathing cleaner air. We have 
reduced emissions from autos and small trucks by 75 to 95 
percent, and for the first time ever we have ensured that SUVs, 
minivans, light duty trucks will meet the same requirements, 
the same pollution requirements as other passenger vehicles, 
but doing it in a way that gives the individual companies the 
kind of management flexibility they need to meet pollution 
standards.
    We have cut toxic air pollution from municipal combusters 
and other important source categories by 90 percent or more, 
and we have unveiled new efforts to improve air quality in 156 
national parks and wilderness areas.
    At the same time, we have dramatically increased the 
public's right to know about toxic chemicals released into 
their communities.
    Under the President's leadership, we have nearly doubled 
the number of chemicals that must be reported to communities 
and required over 6,000 new facilities to report releases of 
toxic emissions.
    As a result, in the past decade toxic pollution has fallen 
by nearly 50 percent, partly as a result of simply giving 
communities and citizens in communities the right to know about 
the quality of the air they breathe, the water in their 
communities.
    We have revitalized communities by accelerating the cleanup 
of brownfields, the abandoned or contaminated properties that 
we all know can be put back into commercial use.
    Communities across America are gaining new hope, with 
nearly $70 million in seed grants awarded to over 300 
brownfield projects. These projects are creating jobs, they are 
expanding the tax base for local communities, bringing decaying 
areas of cities back to vibrant economic life.
    Working with Congress, again, we passed the new Food 
Quality Protection Act, that, for the first time set pesticide 
safety standards that are protective of children. We have 
already taken action to significantly reduce special risks 
posed to children by limiting uses of two of the pesticides 
most widely used on foods found in the diets of our children.
    And, while ensuring strong environmental protection, we 
have reinvented government in innovative ways to achieve 
greater environmental results at less cost.
    Reforms by the Clinton/Gore Administration have eliminated 
more than 26 million hours of paperwork for business and 
communities, the equivalent of returning more than .5 million 
work weeks back to the private sector, at a cost savings to 
industry of $800 million over the past 4 years.
    The President's budget request, $7.3 billion for EPA and 
$2.2 billion for the Better America Bonds program, builds on 
and continues 7 years of environmental achievement under this 
Administration.
    You are right, the budget does provide an 11 percent 
increase for EPA's core programs. This is where we do the work 
of setting the air standards, the water standards, the 
research, and food safety enforcement. This is the core 
environmental programs for the people of this country, and it 
is appropriate that funding for these programs should be 
increased. This is the largest increase in EPA's operating 
budget in the history of the Clinton/Gore Administration.
    We are also requesting funds for programs such as the 
President's Clean Water Action Plan, a program designed to 
finish the job of cleaning up America's waters and restoring to 
full use our magnificent lakes, our rivers, our bays, our 
streams.
    It provides for a new initiative--and this is a new 
initiative, but it builds on work over the last 7 years. It is 
an initiative to protect and improve one of our Nation's 
greatest shared treasures, and that is the Great Lakes.
    This budget also provides for the President's program for 
cleaner waters across America, which for the first time targets 
individual waterways for cleanup plans tailored specifically to 
their needs. It provides new and additional funding to protect 
our waterways from pollutant runoff, the largest remaining 
threat to America's water quality.
    This part of EPA's budget gives States the flexibility they 
need to fight polluted runoff. All of your States are telling 
us they need more money to fight pollutant runoff. We are 
asking in the appropriations bill for the ability to allow 
States the flexibility to use up to 19 percent of their clean 
water money, if they choose--they do not have to, but if they 
choose--for polluted runoff.
    The President's budget also provides for a creative Clean 
Air Partnership Fund. The fund would promote reductions in air 
pollution, foster partnerships and flexibility between State 
and local governments with the private sector.
    The President's budget provides necessary funding for one 
of the Administration's top environmental priorities, 
protecting children's health, including targeting such special 
threats to children as lead contamination. It is a completely 
preventable illness, and yet we still have millions of children 
in the United States today who suffer lead contamination, who 
experience lead poisoning.
    Asthma is now the single-largest cause of childhood 
hospital admissions in the United States. We are here seeking 
funding to enhance protections for the children of this country 
against dangerous levels of pesticide residues.
    The budget calls for continuing to expand the public's 
right to know, including--and I appreciate, Senator Voinovich, 
your comments in this respect--work with the States to develop 
a network of key environmental data.
    We are seeking $30 million in funding. More than half of 
that we would envision going to the States who desperately want 
to upgrade their system so that they have the kind of accurate 
information that is fundamental to the decisions that they need 
to be making.
    We have worked with several States already in developing 
these programs. I think, Mr. Chairman, we offered a briefing to 
the staff of this committee to show you just how successful 
these programs can be.
    These are not EPA-created programs, these are State-created 
programs, everyone from Louisiana to New Jersey, and we would 
be more than happy to make that available to anyone who might 
be interested.
    The budget also calls for continuing our success at 
cleaning up the Nation's worst toxic sites. It calls for 
investing in our highly successful brownfields program. And we 
call again on Congress to work with us to fashion legislation, 
Better America Bonds. It is an innovative financing tool to 
give communities the resources they need to make their own 
decisions about preserving green spaces, addressing water 
pollution, promoting attractive settings for economic 
development.
    In conclusion, Mr. Chairman and members of this committee, 
this budget builds on 7 years of proven success by the Clinton/
Gore Administration. It builds on 7 years of developing the 
kind of programs that the American people want. It is a budget 
that will build strong American communities through 
partnerships and cooperation, through tough health standards, 
through innovative, flexible strategies. It is a budget that 
will ensure a strong economy and a healthy environment for this 
country.
    We look forward to working with this committee. We look 
forward to answering any questions that you may have.
    And I hope, Mr. Chairman, this will not be my last 
appearance before this committee, but that we will find much 
which we can work on and I will be able to return here and work 
with you in a bipartisanship manner to do the job the American 
people expect all of us to do.
    Thank you.
    Senator Smith. Thank you very much, Administrator Browner.
    I certainly know I speak on behalf of all my colleagues 
when I say thank you for your comments regarding my predecessor 
in this job, Senator Chafee, who certainly was respected and 
loved by all. It is not a very good circumstance to have to 
assume a chairmanship in this regard.
    Let me just start. We will go with 6-minute rounds, 
including the chairman. I will make sure that I stick to my 6 
minutes, as well.
    In trying to address the environmental problems that we 
face, it seems to me that we would have to try to come up with 
some prioritization as to what is the worst environmental 
problem that we face in America and perhaps putting them down 
from one, two, three, four, right on down to the last 
theoretically.
    In your view, what would be the top two or three 
environmental issues or problems facing America today, if you 
had to rank them?
    Ms. Browner. I am happy to do that. Before I do that, I 
want to say something about ranking environmental problems.
    I wish it were simple. I wish it were easy. It is driven as 
much by the science as it is by an individual's experience.
    A mother raising her child in a lead-contaminated apartment 
in downtown Baltimore will tell you that is the most important 
environmental challenge she faces. An asthmatic growing up in 
an urban center will tell you air pollution is the most 
difficult problem they face. The citizens of Milwaukee, when 
faced with cryptosporidium in their drinking water, will tell 
you drinking water was the most critical problem they face.
    There is never an easy answer, in terms of one, two, three, 
four. What we have to do at the U.S. Environmental Protection 
Agency is take the guidance of Congress, the laws that you 
pass--you sit in judgment of what is the most important thing 
when you reauthorize or you add another environmental public 
health statute--and implement them in the best of our ability 
in a sensible and a common, cost-effective manner.
    When I look broadly across this country, the problems that 
I see--and I will not say one, two, three, but the problems 
that I see include clean water--yes, we have made a lot of 
progress, but we are not done, and there are real repercussions 
from the fact that we are not done.
    And when we talk about water, I think we have to also 
remember not simply to talk--and this is not necessarily EPA's 
jurisdiction, but I think when we think about these issues, not 
simply the quality of water, but the quantity, the 
availability. For growing areas in this country, this has been 
a challenge in the west for a long time, but in my home State 
of Florida, as you now know, Mr. Chairman, this is a real 
problem--not enough water. So water would be an issue.
    Air. There is clear evidence that air pollution has very 
real, and in some instances permanent, health consequences. We 
can do better. We do not have to accept the levels of air 
pollution that far too many people breathe in this country. We 
do not have to accept the consequences. Acid rain in your own 
State is one of the consequences of air pollution.
    There are solutions. There are cost-effective solutions. 
There are market mechanisms, including trading programs that 
can drive down the cost of pollution reductions.
    And then I would say, from a global perspective, the 
challenge of global warming and climate change. It is, in some 
ways, the most difficult environmental and public health 
challenge the world will ever face, because once we are clearly 
in the thick of global warming, once the scientists can say 
there are a thousand data points, as opposed to a hundred, and 
we are clearly in the thick of it, it will be too late to fix 
the problem. Once the ocean rises, once the salt water is 
forced into our freshwater supplies in our coastal areas, we 
cannot reverse it.
    So, from a global perspective, climate change. It will be 
very, very hard to solve. It will take all of us probably the 
rest of our lives to even begin to address.
    Senator Smith. Well, thank you for your candor in 
prioritizing those priorities. Let me respond. We deal with on 
this committee--roughly $7.5 billion. If you add the other 
fund, it is about $9.5 billion. We know that other moneys are 
spent.
    Ms. Browner. Right.
    Senator Smith. They are spent in the private sector, they 
are spent by States and local communities to clean up 
environments, so we are not saying that $7.5 billion is the 
only money that is spent here.
    Ms. Browner. Right.
    Senator Smith. In looking at the budget, you have about 38 
percent of your budget for water, which I think would match 
your statement if you say water is the first priority, so I 
think you have hit that. Second, though, at about 20 percent is 
waste.
    Ms. Browner. Yes.
    Senator Smith. And air is only 11.5 percent, which, 
interestingly, the percentage of air is less in terms of the 
$9.5 billion that we are talking about or $7.5 billion, is less 
than the operating expenses of the EPA, which is 13.8 percent.
    Ms. Browner. Yes.
    Senator Smith. So, when you break these things down, to see 
that sometimes the priorities we express--for example, you 
mention lead and exposure to children. That is $68 million out 
of a--well, it is not even all lead. So sometimes the 
priorities do not match the dollars.
    Ms. Browner. And, if I might respond, Congress never 
decided to create a loan program for air pollution. That was a 
decision Congress could have made. We are, in fact, asking for 
a modest partnership fund, which Congress chose not to support 
last year. We hope you will this year.
    But the big difference between air and water is simply--and 
I support this decision--a decision made by Congress that the 
Federal Government would become a partner, a financial partner 
in the solutions, but Congress has never made that decision 
about air pollution.
    The vast majority of air pollution reductions that occur, 
occur because of expenditures in the private sector, in large 
measure. I mean, we do some research and development, and we 
develop new technologies which are then purchased, installed, 
and managed by the private sector. That is a fundamental 
difference that Congress made, and the budget does have to 
reflect those differences in the statutes.
    You know, if everyone could start over again and we could 
simply say, ``OK, we have made a lot of progress. There are no 
environmental statutes. It is zero-based funding. What are the 
environmental statutes we would create? What are the programs 
we would create? And then how would we allocate funds,'' I do 
not doubt that it would be a very, very different world. But we 
come to this with a huge amount of history and a lot of 
Congressional decisions, the vast majority of which I support.
    Senator Smith. Thank you. I will followup on that later.
    Senator Lautenberg?
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    Ms. Browner, I commend you for the statement that you just 
delivered. I think it is important to note the progress that 
has taken place.
    I think some time in the past there was an automatic 
rejection of some of the programs as being wasteful, etc., 
etc., but when we hear about the number of sites that have been 
cleaned up and dealt with, it is a heartening thing for me.
    As a matter of fact, I think you have done such a good job 
as EPA administrator, that if you leave here I am leaving here.
    [Laughter.]
    Ms. Browner. I am going with you.
    Senator Lautenberg. Anyway, can you tell us about some of 
the changes in proposed--did you want me to stay?
    Senator Inhofe. I was just commenting, it sounded like a 
prediction. But go ahead.
    Ms. Browner. I would be happy to come back next year.
    Senator Lautenberg. All right. You come back. I am coming 
back. I ought to tell the guys trying to get my seat.
    The changes in proposed funding for Superfund, we have 
increasingly limited cleanup funds, and I think it important 
that we ensure that we have responsible parties performing the 
work to the maximum extent possible.
    How would you describe the provisions in the Superfund 
budget request in terms of ensuring that we continue to make 
those who are responsible do the job they have to do?
    Ms. Browner. I think one of the great successes of our 
administrative reforms was to move to a program of entering 
into agreements with the large responsible parties on the front 
end so that not only did they share the financial 
responsibility, but they actually do the work under our 
supervision.
    In the early days of the Superfund program, EPA would end 
up doing the work. We would go out and hire the people, have 
them do the work, and then we would try and get the company to 
reimburse the Government, and that had a whole set of 
challenges.
    Increasingly, we have been able to move toward getting the 
responsible parties to actually handle the operations and cover 
the cost, and they have some flexibilities in terms of managing 
costs that we do not always have in the Federal Government, and 
that has certainly contributed to a lowering--almost 20 percent 
reduction in cost for cleanup.
    I think it has also contributed to our ability to quicken 
the pace of cleanups. We are running now at about 20 percent 
faster in terms of getting these cleanups done.
    Senator Lautenberg. Good. You know that I am particularly 
interested in the brownfields program, and I understand you are 
going to be designating ten showcase communities.
    Ms. Browner. Yes.
    Senator Lautenberg. When do you plan to do that, if I may 
ask? And tell me just briefly some of the successes about the 
brownfields program, because I think that there is a general 
regard for it, and I would like to maximize the opportunity to 
expand and extend that program.
    Ms. Browner. This has been a hugely successful program. 
Each and every site has been different. Some of the earliest 
sites that we focused on, going back 5 or 6 years ago now, are 
completely cleaned up, they are completely redeveloped. They 
are contributing to the local tax base, everything from 
hydroponic tomato farms to a site I just visited in Baltimore 
which is now a large commercial area. Companies have relocated 
their headquarters to this location.
    Showcase communities was an opportunity to bring together 
all of the Federal family. What we found, as we were out 
working at these sites with communities, is that sometimes it 
was not simply EPA's assistance they needed, but, perhaps with 
a little assistance from HUD or from someone else, they could 
do even more. And so showcase communities was announced by the 
Vice President, I guess 2 years ago, as an effort to bring 
together the Federal family.
    We already have 16 showcase communities that are up and 
running, and we will be designating 10 more in October of this 
year.
    In the meantime, Senator Lautenberg, just so you know, we 
are currently accepting applications for two other brownfields 
programs. One is the grants program, the site assessment 
program, which is sort of the traditional, the older program. 
Now we have a revolving loan fund program with funds up to 
$500,000, that can go to a city, who then can loan it out, be 
repaid, and loan it out to other communities. We just got that 
program. Congress gave us authority about 18 months ago, and 
the first loans are now being made.
    We will have another round of the site assessment type 
grants coming out probably in the next 2 months. There should 
be another round of those announcements. The revolving loan 
program is up and running. A second round of showcase 
communities is due in October.
    Senator Lautenberg. I just got back from a trip to the 
South Pole, and I would encourage my colleagues to take that 
trip and see the National Science Foundation at work, but also 
to see the problems up front that we could potentially face--
the things you talked about, the supply of fresh water, and the 
difference when the fresh water mixes with the seas.
    This talk about rising levels of oceans is not just idle 
scare talk, and I would encourage you--it is a tough trip. 
Senator Voinovich and I have gone to a couple of hot spots, and 
this is one cold spot, George, I would recommend that you visit 
when you get a chance.
    The work our people are doing is a site to behold. The 
dedication, the zeal of people who live in isolation, 
virtually, for months or sometimes a couple of years at a time, 
removed from all semblance of civilization--they look happy, 
for some reason.
    The fact of the matter is that you are not just raising 
empty scares when you talk about that, and I commend you for 
your comments.
    Thanks, The Chairman.
    Senator Smith. Thank you, Senator Lautenberg.
    Senator Thomas?
    Senator Thomas. Thank you.
    Let me go a little bit to the air quality thing. Carbon 
dioxide is not defined as a pollutant in the Clean Air Act. How 
much of your budget requests activities relating to 
CO<INF>2</INF> emissions?
    Ms. Browner. The climate change request, which is, I 
presume, what you are asking me about, the total request is 
$227 million. The base is $103 million. In other words, for the 
climate change technology initiative, Congress funded last year 
at $103 milliion and we are asking for $227 million.
    Senator Thomas. But I am focusing more on the 
CO<INF>2</INF>. You talked about priorities.
    Ms. Browner. Yes.
    Senator Thomas. And CO<INF>2</INF> is not listed in the 
clean air budget proposal. How much money then do you spend on 
something----
    Ms. Browner. We do not have regulatory programs, as I think 
you are well aware, focusing on greenhouse gases. What we have 
been doing is working in a partnership with the business 
community, working through technology initiatives.
    But if what you are trying to ask me is if there is some 
regulatory----
    Senator Thomas. Yes, that is what I am trying to ask you. 
How much money do you spend on something that is not in your 
authority?
    Ms. Browner. We do not work on programs not within our 
authority.
    Senator Thomas. I do not agree with you, and I do not think 
you do, either. You know that you work on CO<INF>2</INF> a 
great deal.
    Ms. Browner. We do not have any effort underway to set any 
standard. We do not. We do work, as I said--and it is well 
known and we can give you the names of the companies we work 
with on voluntary energy efficiency programs. We do our 
scientific work through research and development. We do not 
have any regulatory effort underway at the Environmental 
Protection Agency on greenhouse gases. We do not.
    [Additional information submitted for the record by EPA 
follows:]
                       Energy Star Program Facts
    Over $15 billion will be saved by U.S. companies and organizations 
thanks to investments already made through EPA'S ENERGY STAR programs.
    The United States is home to 4,836 companies and public entities 
participating in Energy Star partnerships.
    Over 8 billion square feet of U.S. building space are currently 
committed to the Energy Star Buildings and Green Lights partnership--an 
area 20 times the size of the office space in Manhattan.
    371 Energy Star Labeled Product manufacturers arc located in the 
United States.
    Investments already made through the Energy Star program in the 
United States will prevent over 330 billion pounds of carbon dioxide 
(CO<INF>2</INF>). This reduction in CO<INF>2</INF> emissions is 
equivalent to planting 45 million acres of trees--an area 37 times the 
size of the Grand Canyon.
    Nitrogen oxide (NO)x) emissions will be reduced by 790 million 
pounds and sulfur dioxide (SO<INF>2</INF>,) by 1.6 billion pounds due 
to existing Energy Star investments in the United States.
Highlights
    Great accomplishments in energy cost savings and pollution 
reduction have been made through the Energy Star program in each of the 
50 states and the District of Columbia. There is tremendous potential 
in every state for even greater achievements. Attached are state 
summaries that highlight the accomplishments to date and the potential 
for further savings and pollution reductions in each state. [Note: 
State data is held in committee files.]
Market Potential
    The United States has 77 billion square feet of Energy Star 
Buildings- upgradable floor space and an enormous potential for further 
using Energy Star products. If all available opportunities for 
profitable energy efficiency improvements were taken advantage of, by 
2010.
    <bullet>  More than $230 billion would be saved;
    <bullet>  730 million metric tons of carbon equivalent (MMTCE) 
would be prevented;

                       EPA'S ENERGY STAR PROGRAMS

Energy Star Buildings and Green Lights Partnership
    Energy Star Buildings and Green Lights is a voluntary partnership 
between U.S. organizations and the U.S. Environmental Protection Agency 
to promote energy efficiency in commercial buildings. U.S. 
organizations can save over $130 billion by 2010 by becoming more 
energy efficient. To reach this potential, the partnership focuses on 
reducing energy use and improving building performance through the use 
of strategic energy management and more efficient technologies. EPA 
provides the participants with technical information, customized 
support services and other resources. EPA also provides the ability to 
benchmark individual buildings, and distinguish those buildings that 
demonstrate superior performance. Investments already made through 
Energy Star Buildings will save participants over $9.5 billion and 
prevent 203 billion pounds of CO<INF>2</INF> from being released into 
the atmosphere. The program currently has over 3,200 participants, 
representing more than one out of every seven commercial square feet in 
America.

Energy Star Products
    The U.S. Environmental Protection Agency and the U.S. Department of 
Energy (DOE) are working together to help consumers choose energy-
efficient equipment for their homes and offices by awarding the Energy 
Star Label to efficient, high-quality products. These products save 
money because they use much less energy. For those with somewhat higher 
costs up front, the cost is quickly offset by energy bill savings. 
Manufacturers or retailers volunteer to place the Energy Star label on 
those product models that meet or exceed energy and performance 
criteria set by EPA and DOE. The Energy Star label now appears on more 
than 26 energy consuming products ranging from computers to 
refrigerators to televisions. The number of Energy Star qualified 
models across these products has grown to more than 3,400 in the past 
year. Energy Star products that have already been purchased will save 
consumers over $7 billion and prevent 130 billion pounds of 
CO<INF>2</INF>.

Energy Star Homes
    The Energy Star Homes Program promotes voluntary partnerships with 
builders to construct residences that are at least 30 percent more 
energy efficient than the current Model Energy Code. The Program 
provides approved builders with a brand name label and preferred 
mortgage financing. Energy Star homes include such features as advanced 
insulation, tight construction, advanced duct sealing, high-performance 
windows, and high-efficiency heating and cooling systems and 
appliances. They cost less than ordinary homes because energy savings 
typically exceed the small increase in monthly mortgage costs from the 
improved energy features. The Program saves thousands of dollars over 
the life of a mortgage, increases the resale value of a home and 
reduces air pollution. The Energy Star Homes Program currently includes 
over 1,500 organizations and 6,600 homes.
    Senator Thomas. All right. I will not press that any 
further, but I am not talking just about regulatory programs. I 
am talking about priorities in your budget.
    Ms. Browner. Yes.
    Senator Thomas. You mentioned, I think, in a previous 
hearing here, that EPA's proposed TMDL rule is not clear and 
causing confusion. Do you intend to withdraw that?
    Ms. Browner. What I have indicated is that we have had the 
benefit of a tremendous amount of public input on our proposal, 
and we have every intention, as I just testified before the 
Agriculture Committee, of incorporating that.
    It is a complicated proposal. We are the first to admit 
that. But, in terms of the actual program and the kind of 
flexibilities and the recognition of best management practices 
going on in States today, we think this program offers a huge 
opportunity to work with the States to help them meet the water 
quality standards, many of which the States, themselves, have 
set, and we will absolutely take into account all of the 
comments that we have heard as we make our final decisions, and 
hopefully put out a final program this summer.
    Senator Thomas. I asked Mr. McCabe about this a while back, 
and then you had some disagreement with the Department of 
Agriculture. Have you resolved that?
    Ms. Browner. If you are referring to the letter that was 
sent by Under Secretary Lyons, Secretary Glickman appeared with 
me, or I appeared with him, before the Agriculture Committee 
this morning. I think you are aware. You were also there. But 
in Secretary Glickman's testimony--and I am going to paraphrase 
here, but I am sure there is a record of his testimony--he 
essentially said that the letter did not reflect his position; 
that he had not been aware of the letter; while some of the 
concerns and questions raised in the letter were questions that 
they were working with us to resolve, the letter did not 
reflect the Department's position.
    Senator Thomas. Well, I have had several responses, not all 
of which are the same, from the Secretary.
    My point is that a program the Department of Agriculture 
was working on--nonpoint source, is doing some things, mostly 
incentive oriented. Here comes EPA to push that out of the way 
and say, ``Here is what we are going to do, folks, instead, in 
the clean water regulations.''
    Again, we are talking about priorities.
    Ms. Browner. Yes.
    Senator Thomas. And so----
    Ms. Browner. Senator Thomas, if I might just point out, the 
budget that we are here discussing today does seek increases in 
funding, largely for the States' nonpoint source grants. We are 
seeking a $50 million increase in funding. The current funding 
level is $200 million, and we are asking Congress to increase 
that to $250 million for the section 319 nonpoint source 
grants, which are extremely popular with States.
    We are also asking for additional moneys for States as they 
do what they are required to do under the Clean Water Act in 
terms of the TMDL program. The base for Section 106 grants is 
$115 million, and we are asking for an increase of $45 million 
for the States.
    So we do believe that these nonpoint source programs are 
very, very successful. That is why we are here asking for 
increases. We think these proposed goals partner very nicely 
with USDA programs and a number of industry best management 
practices type programs.
    In fact, at the hearing this morning in the Agriculture 
Committee, I gave an example here in the Chesapeake Bay, where 
a reforestation of a riparian buffer zone, a stream bank, if 
you will, was reforested--about 60 acres. Already, they are 
measuring reductions in important pollutants, including, I 
think, a 4,000 pound reduction in nitrogen per year, a 
reduction in phosphorus.
    So we are completely in agreement with you, and I said to 
you earlier that I thought that parts of your statement this 
morning were very, very helpful--that these kind of best 
management practices that are going on today in the field in 
many instances are the real tools and the key to solving 
remaining water pollution challenges in this country.
    Senator Thomas. The Agency has required the States to 
change what they were doing before. Will all 50 States be 
eligible for the money you are talking about now?
    Ms. Browner. Yes.
    Senator Thomas. The 319 funds?
    Ms. Browner. I think this is a complicated question for the 
rest of the committee because in Senator Thomas' State, unlike 
most of your States, they have not sought delegation from us of 
all of the authorities they are eligible for. We have tried to 
work with them.
    Senator Thomas. That is because the State was not willing 
to do all the things that you required them to do.
    Ms. Browner. Forty-nine other States have. Anyway----
    Senator Thomas. Well, the point is this----
    Ms. Browner.--we tried to work that out.
    Senator Thomas. You have got the 319 program, which you 
have asked for money for. It is questionable as to whether it 
should be there.
    Ms. Browner. Yes, you do get the 319 money.
    Senator Thomas. And I want to make sure that it is done--if 
you are going to have partners, you need to be partners, not 
one dog and one horse kind of an arrangement.
    Ms. Browner. But you are eligible for 319 and for the 
increase in funding for 319, which hopefully----
    Senator Thomas. That is an illustration, but I am talking 
about partnerships, and I hope that we think of partnerships as 
partnerships and not people in Washington telling what the 
partnership is going to be, and that has really been the issue.
    Thank you.
    Senator Reid. Mr. Chairman, could I ask the committee's 
indulgence for a unanimous consent request?
    Senator Smith. You certainly can.
    Senator Reid. I ask unanimous consent that the statement 
that I prepared be made part of the record.
    Senator Smith. Without objection.
    Senator Reid. It basically does a lot of things, but 
indicates what a great job you are doing.
    Senator Smith. You are up, Senator Reid.
    Senator Reid. I am? I thought----
    Senator Smith. Are you finished?
    Senator Reid. Are there not people here ahead of me?
    Senator Smith. Well, we use the early bird rule, but we can 
switch back and forth.
    Senator Reid. I think I would not want to do that. I think 
I got here late and I think it should go to the people that 
have been waiting here.
    Senator Smith. All right. In that case we will go to----
    Senator Reid. You will allow me to put my statement in the 
record?
    Senator Smith. Certainly. Without objection, so ordered.
    [The prepared statement of Senator Reid follows:]
   Statement of Hon. Hary Reid, U.S. Senator from the State of Nevada
    Thank you Mr. Chairman for holding this hearing to review the 
proposed budget for the Environmental Protection Agency. I think we all 
agree that the work done by EPA to protect human health and the 
environment represents the preeminent environmental protection in the 
world. I know we all value EPA's efforts to safeguard and improve 
America's air and water quality and I appreciate this opportunity to 
discuss this budget request.
    Thank you Administrator Browner for appearing here to testify in 
support of EPA's fiscal year 2001 budget request. First, I complement 
you on your visionary and tireless leadership at the helm of EPA. Your 
dedication to enhancing and protecting public health and environmental 
quality improves each of our lives and guarantees that we will leave a 
better planet to future generations.
    The superb economic and environmental record of the Clinton-Gore 
Administration demonstrates quite clearly that we need not choose 
between economic growth and environmental protection. Over the past 7 
years, this Administration has shown that meeting environmental and 
economic challenges are highly compatible goals. As a result, few 
people would dispute the observation that a healthy environment 
provides the foundation for a prosperous economy.
    The fiscal year 2001 budget request includes funding for many 
valuable programs and initiatives. For example, the Better America 
Bonds (BABS) initiative represents a creative funding mechanism, which 
will help communities achieve their local environmental protection and 
conservation goals. Rather than mandating a standardized approach, the 
BABS program allows state and local governments to decide how to 
protect their air, water, and landscape while they develop their 
communities. For example, BABS would provide communities the 
flexibility to sponsor brownfields redevelopment projects or open space 
and parkland conservation. Last year, Senators Baucus and Hatch 
introduced legislation similar to the Administration's BABS proposal 
and I hope we will move this bill forward this year.
    In light of our shared goal to improve air quality, I applaud the 
inclusion in this budget request of $227 million for the Climate Change 
Technology Initiative (CCTI). The voluntary programs of the CCTI 
represent a common sense approach to improving our energy efficiency. 
In addition to protecting earth's climate, reducing U.S. energy use 
will reduce our dependence on expensive foreign oil supplies and 
improve our balance of trade. Some have criticized the CCTI because it 
would help us reduce our nation's greenhouse gas emissions. This 
criticism reflects the fact that some confuse voluntarily reducing 
greenhouse gas emissions with implementing the Kyoto Protocol. The 
Kyoto treaty notwithstanding, a growing body of scientific evidence 
suggests that climate change poses a very real threat to the global 
environment. Failure to reduce our greenhouse gas emissions would be 
foolhardy.
    Finally, I look forward to our upcoming discussions regarding EPA's 
proposed rule on total maximum daily loads. This rulemaking process is 
generating a great deal of discussion and I look forward to a final 
rule that ensures meaningful protection of our nation's lakes and 
rivers so that we will 1 day achieve the our long-standing goal of 
having all of America's waters fit for swimming and fishing.
    Thank you again for holding this important hearing, Mr. Chairman, I 
look forward to working with you and the other members of the Committee 
to ensure that America continues to enjoy an increasingly healthy 
environment and vigorous economy.
    Senator Smith. Senator Crapo?
    Senator Crapo. Thank you very much, Mr. Chairman.
    Administrator Browner, I again thank you for coming here 
today. I had a whole series of questions on TMDLs, which I 
suspect you have already gotten some at the Agriculture meeting 
and so forth, but, as you are probably aware, the subcommittee 
which I chair, the Fisheries, Wildlife, and Water Committee, 
will be holding a series of hearings on the TMDLs, and I will 
ask those questions at that time.
    Ms. Browner. Thank you.
    Senator Crapo. I did want to let you know, though, that I 
share a lot of the concerns that you are hearing, and we are 
going to be conducting more oversight on that proposal.
    Ms. Browner. Good.
    Senator Crapo. I would like to ask you first, you have 
heard from several of the members of the committee today about 
concerns with regard to the $550 million reduction in the clean 
water State revolving fund. Why is the EPA proposing such a 
reduction in that fund?
    Ms. Browner. We are carrying forward the same request that 
we made last year, and the reason is the same as last year.
    We believe it is incredibly important to reauthorize the 
Clean Water Act and to modernize the funding, Federal funding 
to the States. We think that, through a reauthorization process 
we would see that the challenges today have changed. Senator 
Voinovich, I think you suggested that the Administration had 
not sent up an SRF reauthorization. In fact, we did, I think, 
in 1994 send up a comprehensive Clean Water reauthorization 
proposal.
    I mean, the challenges as we understood them 10, 15 years 
ago are different than the challenges we have today.
    We made a commitment at the beginning of this 
Administration that the Clean Water State Revolving Fund would 
revolve at $2.2 billion in the year 2004. In other words, there 
would be $2.2 billion to be lent out annually in the year 2004.
    We are going to meet that commitment in the year 2002. We 
are meeting it earlier. And we think this gives us an 
opportunity now to work together in a bipartisan manner, and 
perhaps, Senator Voinovich, if we cannot do the whole Clean 
Water Act reauthorization--which would be our preference--but 
if that is not possible, then let us focus on the funding 
provisions and let us focus on what are the appropriate 
flexibilities that would help States meet clean water 
challenges as we understand them today but perhaps did not 
understand them previously.
    Senator Crapo. But why should we wait while we do 
reauthorize the Clean Water Act? I do not think there is any 
disagreement? Why should we wait when Congress is ready to give 
a higher priority to these infrastructure needs?
    As Senator Voinovich indicated, we have $130 to $200 
billion of infrastructure need.
    Ms. Browner. Yes.
    Senator Crapo. Congress is willing to provide the resources 
for this, and yet the Agency is not asking for it.
    Ms. Browner. We think the issue is not simply 
infrastructure needs. We think the clean water challenges go 
beyond infrastructure needs, and we would like to see changes 
in the funding programs give States the flexibility to meet the 
variety of challenges beyond the infrastructure.
    Senator Crapo. Well, we may be able to agree on that, but, 
as you said previously in your testimony, the law we have today 
is this process.
    Ms. Browner. Actually, it is an expired law.
    Senator Crapo. Agreed. But you have a Congress that is 
ready to work with this. Why not take those resources where 
they are so badly needed?
    You are not disagreeing that we do have the infrastructure 
needs, are you?
    Ms. Browner. We are not disagreeing that there are 
significant water pollution problems that remain in this 
country. Absolutely not. We are simply saying, ``Let us all get 
together. Let us look at the universe of needs, not just one 
segment of the needs, and let us structure a funding program to 
meet the universe of needs.''
    We are doing better by the States than anyone else ever 
did, and even more than we promised the States we would do. 
They are going to get their revolving money. It is going to be 
moving out at a higher level sooner than they ever imagined.
    Senator Crapo. Let me shift gears for just a minute.
    You also indicated in your testimony that we could 
prevent--I cannot remember if you said all or a large part of 
the lead poisoning that occurs.
    Ms. Browner. I said it is a preventable disease.
    Senator Crapo. It is a preventable disease. What are the 
major sources of the lead poisoning?
    Ms. Browner. Most of the remaining challenges are in older 
stock housing.
    Senator Crapo. So it is basically the housing problem is 
the source of the----
    Ms. Browner. Yes. We have done a good job of educating 
caretakers and parents about paint chips.
    Senator Crapo. Yes.
    Ms. Browner. So they know that children should not eat even 
a chip of paint the size of a thumbnail. In some ways, lead 
dust is probably worse. It is insidious. If you open and close 
an old window or old door, the dust gets on the floor. The 
child plays on the floor. The children puts their hands in it 
and put their hands in their mouth. The lead dust is a major 
concern in older, urban areas, although other areas are of 
concern also.
    I think in Baltimore they estimate in the urban center of 
Baltimore as much as 70 percent of their housing stock may be 
lead contaminated.
    Senator Crapo. And the dust is contaminated from what 
source?
    Ms. Browner. The dust is contaminated by the lead paint 
that is on the windows.
    Senator Crapo. OK.
    Ms. Browner. Lead in paint was banned in 1972, so 
construction post-1972 is not a problem.
    Senator Crapo. All right.
    Ms. Browner. It is the pre-1972 construction. And there are 
really horrible instances where parents sanded the paint in 
their homes and poisoned their own children because no one told 
them about lead dust.
    We have had a very aggressive program to work very closely 
with both landlords and realtors to notify parents as they are 
buying a home. Lead paint and dust continue to be a real 
problem.
    And I just simply pointed out, as in a risk analysis, if 
you are living in one of these houses, I will tell you right 
now it is your number one environmental problem.
    Senator Crapo. That is a good point to make.
    I have a series of questions on Superfund, but I will hold 
off and see if we get another round.
    Senator Smith. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Browner, a few minutes ago you alluded to the clean air 
partnership fund or partnership trust, I guess, which you have 
requested funding for in the past, and last year I asked you 
for specifics as to what would be funded and what would be on 
that program, which I did not receive, but in your statement 
here I think you pretty much answered it. You said--and this is 
a quote, and I think this is what Senator Thomas was trying to 
get at, too. You said, ``The fund will demonstrate smart, 
multi-pollutant strategies that reduce greenhouse gases, air 
toxics, soot, smog, to protect our climate and our health.'' So 
you list greenhouse gasses first and climate before health.
    Ms. Browner. Yes.
    Senator Inhofe. Well, my observation on this is that you 
are making an effort to start implementing the provisions of 
the Kyoto Treaty by using this program, and I remember when 
Congressman Nolan Berger put his first amendment on the 
appropriation bill that--and I think this actually violates 
that amendment. That is my observation on it. Do you disagree 
with that?
    Ms. Browner. Yes, with all due respect.
    Senator Inhofe. All right. Would you say that if we were to 
fund that program, that you, specifically, would not use any of 
those funds for regulation of CO<INF>2</INF>?
    Ms. Browner. This program is designed to get multi 
pollution reductions. It is not designed to develop regulatory 
standards. It is a voluntary program.
    Senator Inhofe. But you are talking about greenhouse gases.
    Ms. Browner. But reductions, not regulations----
    Senator Inhofe. You have answered the question. Let me 
ask----
    Ms. Browner.They are two different things, with all due 
respect. A regulation is, for example, in the case of air 
pollution, a standard that is set which is then required to be 
met. That is a regulation.
    Senator Inhofe. I know what a regulation is.
    Ms. Browner. I know, but nowhere in this are we proposing a 
regulation. We are not proposing a regulation.
    Senator Inhofe. Well, along the same line, last month the 
First Lady made an announcement in a speech in New York that if 
you elect her to the Senate that she will--I want to get the 
words right here--``would force the Senate to vote on the 
treaty,'' referring to the Kyoto Treaty.
    I do not very often agree with the First Lady, but in this 
case she made that statement and I agree with it. I think that 
we should be forced to vote on the treaty. But, unfortunately, 
the President has not yet sent the treaty to Congress for 
ratification.
    Do you agree with the First Lady in wanting the Senate to 
vote on ratification of the Kyoto Treaty?
    Ms. Browner. The Administration has been very, very clear 
that the President will not send the Kyoto Treaty to the 
Congress until the issues regarding developing countries and 
the work we are attempting to do within the restrictions of 
Congress with developing countries have progressed. Nothing in 
the Administration's position has changed on that.
    Senator Inhofe. So you would not agree with her statement?
    Ms. Browner. I am not familiar with her statement.
    Senator Inhofe. Because she did not qualify that with 
developing nations.
    Ms. Browner. I am not familiar with her statement.
    Senator Inhofe. All right. Then let me ask you this 
question. You know, we have the COP program, the Conference of 
the Parties.
    Ms. Browner. Yes.
    Senator Inhofe. We just came back from one. You probably 
attended it.
    Ms. Browner. No, I did not.
    Senator Inhofe. You did not? And the next one is scheduled, 
but I do not know when. Never on the agenda has anything 
appeared that addresses developing nations on that issue. Now, 
in the United States, we have signed the treaty but we have not 
ratified it.
    Ms. Browner. Right.
    Senator Inhofe. But we are participating in the COP 
programs.
    Ms. Browner. Yes.
    Senator Inhofe. I think the last was COP-5.
    Ms. Browner. That is right.
    Senator Inhofe. Would you want to recommend that the issue 
be placed on the agenda? If not, why not? You continue to use 
as an excuse for it not to be sent it to the Senate for 
ratification the fact that it does not affect the developing 
nations. We are not getting it submitted for ratification, and 
so it is not ratified. It is not un-ratified, and yet 
Administration signed the treaty.
    Do you support putting that on the agenda at one of the 
parties' meetings?
    Ms. Browner. Yes. But I think two points it is important to 
note. The agendas for those meetings are the subject of their 
own intense negotiations, of which the United States is one of 
many parties.
    Senator Inhofe. But we are a major----
    Ms. Browner. One of the many parties.
    Senator Inhofe. We are a major, important player at those 
conferences. No question about it. And it would seem to me that 
we should just walk out if we are not going to be able to get 
this on the agenda, because it is something that needs to be 
resolved. We are in a dilemma today, and that is I think it 
goes without saying, if the treaty were sent to the Senate for 
ratification it would not be ratified.
    That is why we need to address the developing nations 
issue.
    Ms. Browner. We agree.
    Senator Inhofe. And we, I think, should be in a position to 
do that. Would you try to make an effort to get that on the 
agenda from the Administration's perspective?
    Ms. Browner. I will speak from my perspective at EPA. We 
are one of many Administration parties that work with the State 
Department, who is the lead in representing the United States 
in international negotiations. I am more than happy, from EPA's 
perspective, to raise this within the State Department.
    Senator Inhofe. Thank you.
    Ms. Browner. I would be happy to do that.
    Senator Inhofe. I know we just have a few seconds, but I 
have one more question I feel that I really want to get in here 
and address.
    The TMDL, the total maximum daily load issue--under the 
proposed rule, the States would have 15 years to develop TMDLs.
    Ms. Browner. Yes.
    Senator Inhofe. David Holme, who is the president of 
ASIWPCA--that is a good one. You may not have heard of that one 
before, Senator Voinovich, but that is the Association of State 
and Interstate Water Pollution Control Administrators. He 
stated before the House authorizing committee that these 
regulations would require one TMDL to be approved each work day 
for the next 15 years by each of the 10 EPA regional offices 
and would cost the States somewhere between $670 million and 
$1.2 billion annually.
    Now, do you agree with that approximation of cost?
    Ms. Browner. I do not know what example he is using. I am 
happy to look at it. I do not know what he is----
    Senator Inhofe. Well, this is a proposed rule.
    Ms. Browner. Right, and he is obviously doing some analysis 
which I am not privy to, which I would be happy to look at.
    Senator Inhofe. Have you done an analysis for the cost of 
this?
    Ms. Browner. Yes, we have.
    Senator Inhofe. And what is it?
    Ms. Browner. We have made that public. I am happy to 
provide it to you. We have complied fully with the executive 
order on cost/benefit analysis, and I am happy to provide that.
    Senator Inhofe. OK, then give me a round figure. He is 
talking between $670 million and $1.2 billion.
    Ms. Browner. The annual cost for the States to do the 
development of the plans we estimate at $70 to $90 million per 
year.
    Senator Inhofe. Well, the only reason I brought that up, 
Mr. Chairman, is that I can remember during the ambient air 
discussion that your discussion was between $6 and $8 billion, 
and the President's Council on Economics came up with some $60 
billion, some 10 times that amount, then the Reason Foundation 
came up with $120 billion, some 20 times that amount, so I take 
these approximations of funding of cost to the public very 
seriously.
    Ms. Browner. We do, as part of any proposal, make these 
analyses public and take comment on them, and if adjustments 
are warranted we make adjustments.
    Senator Inhofe. Thank you, Mr. Chairman.
    [The information supplied by EPA follows:]

  Analysis of the Incremental Cost of Proposed Revisions to the TMDL 
                          Program Regulations

                           December 21, 1998

          Prepared for U.S. Environmental Protection Agency, 
               Office of Wetlands, Oceans and Watersheds

                    Prepared by Environomics, Inc. 
          4405 East-West Highway, Suite 307 Bethesda, MD 20814

                              INTRODUCTION

    This report estimates the incremental costs of EPA's proposed 
revisions to the TMDL program regulations. The costs estimated here are 
the costs of the revised TMDL program beyond those that will be 
incurred for the base program--beyond those that would be necessary to 
meet the requirements of current regulations, consent decrees and State 
commitments. For the purpose of estimating incremental costs, the 
proposed regulatory revisions can be grouped into five categories:
    I. Changes affecting the listing program. The changes clarify or 
revise the format and content of the State 303(d) submissions, and also 
require additional public participation. The proposed regulations also 
request comment on options that may alter the required frequency of 
submissions ranging from leaving the frequency at the current 2 years 
to reducing it to once every 4 or 5 years.
    II. Changes affecting the development and content of TMDLs. The 
proposed regulations specify elements that must be included in each 
TMDL, including an implementation plan. Enhanced public participation 
in developing TMDLs is also required. Most of the specified TMDL 
elements are already required by existing regulations. The new required 
elements for TMDLs do not mandate additional monitoring, data 
acquisition or analysis, but specify that existing information that 
must be obtained anyway for other ongoing water program purposes should 
be organized, formatted or reported in a new manner.
    III. Changes affecting the schedule for completing TMDLs. The 
proposed regulations specify that all required TMDLs must be developed 
within 15 years, and that TMDLs for high priority waterbodies must be 
developed first. For those few States that have not already committed 
to a schedule of 15 years or less, this requirement will mandate an 
acceleration of program effort.
    IV. Changes affecting Agency effort. The proposed changes in the 
listing program for States will result in increased EPA effort, and 
proposed changes in the content of TMDLs will increase the Agency's 
effort in reviewing TMDLs. The proposed regulations highlight an option 
for the public to petition EPA to take a desired action rather than 
proceeding directly to litigation. EPA also will propose to provide 
reasonable assurance for implementation of a TMDL when a State does not 
do so--the specific procedures are included in the proposed revisions 
to the Agency's permitting regulations, and a separate analysis 
addresses the incremental costs that may result.
    V. Summary of the impact on the Agency's Information Collection 
Request. The Agency is in the process of renewing its Information 
Collection Request for the 305(b) and 303(d) programs. The proposed 
regulations increase the level of effort estimated by the Agency for 
States and for EPA. However, the savings that can result from adopting 
an option to reduce the frequency of the required 303(d) lists could 
more than compensate for the increased burden from the other changes 
affecting the listing program.
    In no case do any of these proposed revisions require any new 
monitoring or data collection. States are already collecting the needed 
information as part of this program or under other parts of the water 
program. In some cases, it may be necessary to accelerate the 
development of information that is already required. By and large, the 
intent of many of these requirements is to improve efficiency and 
national consistency by establishing uniform formats, eliminating 
ambiguities, encouraging prudent planning, improving information for 
public participation, and perhaps by extending the intervals between 
required 303(d) lists. However, we recognize that States meeting these 
requirements for the first time will likely require additional effort 
in the near term, while the benefits will accrue in later years.
    The remainder of this introduction summarizes the estimated costs 
of the proposed regulations and outlines the general procedures we used 
to develop the estimates. The remaining chapters of the report are 
organized according to the five categories described above. In each 
chapter, each proposed regulatory change is described in terms of its 
effect, its relation to the baseline, and its potential incremental 
cost.

Summary of Estimated Costs
    The following summarizes the results of this analysis for those 
aspects of the proposed rule that are expected to result in incremental 
costs or savings to States and to the Agency. In addition, these 
incremental costs are placed into perspective by comparing them to the 
cost of ongoing State, Territorial and authorized Tribal programs for 
water quality.

Overall Summary
    The following table summarizes the results of this analysis for 
those aspects of the proposed regulations that are expected to result 
in incremental costs or savings to States. As shown in the table, the 
proposed regulations are expected to increase the costs to States by 
approximately $10.3--$24.4 million annually from the present through 
2015. As shown in the summary table, the bulk of the additional costs 
($10.1-23.8 million) are associated with the proposed requirements 
affecting the content and development of TMDLs. For the listing 
program, if the listing cycle is lengthened, then the resulting savings 
could offset the increased listing costs associated with the proposed 
regulations.
    The Agency anticipates that its costs will increase significantly 
in the future, primarily as a result of the increased State activity 
for developing TMDLs that is expected to occur in the baseline. As 
reflected in the Agency's proposed Information Collection Request, the 
Agency anticipates that its annual burden for the 303(d) program will 
increase from about 600 hours annually to about 6,600 hours annually. 
The bulk of this increase (5,600 hours) is for increased Agency effort 
for approving or disapproving TMDLs that are developed by States--this 
burden will occur regardless of the proposed regulation. As already 
reflected in the EPA's proposed ICR for the period 3/1/99-2/28/01, the 
Agency anticipates that the proposed regulation will further increase 
its burden by about 450 hours annually at a cost of about $18,000 
annually. If the listing cycle is lengthened, then the savings that 
result to the Agency would offset the increased burden associated with 
the proposed regulation.

Perspective on the Magnitude of These Incremental Costs
    The requirements of the proposed revisions will impose a relatively 
small additional cost to ongoing State, Territorial and authorized 
Tribal programs. In fiscal year 99 States, Territories and authorized 
Tribes will receive $200 million for nonpoint sources under section 
319. This represents an increase of $100 million dollars specifically 
targeted for implementation of the Clean Water Action Plan. Identifying 
impaired and threatened waterbodies and initiating activities designed 
to attain water quality standards is a key part of establishing TMDLs. 
In addition, States, Territories and authorized Tribes will receive 
$105 million under section 106 for implementing their water quality 
management programs, including the development of lists of impaired and 
threatened waterbodies and establishment of TMDLs as required by 
section 303(d). Thus, the proposed regulation's incremental costs of 
$10.3-24.4 million represent only 3-8 percent of the amount of support 
provided annually by the Federal Government for these programs, and 
undoubtedly a much smaller proportion of the total State spending for 
these activities.
    The proposed regulation is expected to increase EPA's costs by 
$18,000 annually. This is an insignificant increase compared to the 
overall annual cost of $279 million budgeted by EPA for water quality 
program management.
    As the number of waterbodies identified stabilizes and increasing 
numbers of TMDLs are established, the additional annual costs 
associated with the proposed regulation are expected to decrease. At 
the same time, water quality will improve as TMDLs lay the groundwork 
for more cost-effective and improved controls.

 Summary of the Incremental Costs and Savings To States Associated with
                        the Proposed Regulations
------------------------------------------------------------------------
                                                              Annualized
                     Proposed Revision                           Cost
------------------------------------------------------------------------
Changes to the Listing Program:
    I.5. LISTED WATERBODIES Are grouped into 4 Parts. Only          0.02
     Part 1 waters require TMDLs. M/M/L priorities must be
     set for Part 1. (Additional public part. cost is
     included in 7)........................................
    I.6. A State's list must include a schedule for                 0.01
     establishing each TMDL................................
    I.7. Listing methodologies must be subject to public            0.19
     review and submitted to EPA by January 31 each year a
     list is due...........................................
    I.8. A new format is prescribed for the listing                0.01,
     methodology...........................................
        Subtotal Annualized Cost...........................         0.23
    I.10. Option C: Changing to a 5-year cycle from a 2-         (0.32),
     year cycle after the 2000 listing.....................
        Subtotal Annualized Cost Including Option C........       (0.09)
Changes Affecting the Content and Development of TMDLs
    II.1. TMDLs must include specified elements (costs are
     for implementation plan) 5.3-14.3.....................
    II.2. Minimum required public participation in TMDL
     development 4.8--9.5..................................
Subtotal Annualized Cost 10.1-23.8
Changes Affecting the Schedule for Completing TMDLs
    III.2. TMDLs for all Part 1 waterbodies must be              .01-.4,
     developed within 15 years of listing..................
        Subtotal Annualized Cost...........................      .01-.4,
        Total Annualized Cost (Excluding Savings from I.10.    10.3-24.4
         Option C).........................................
------------------------------------------------------------------------

Methodology--General Procedures For Developing The Cost Estimates
    This section reviews several general elements of our cost 
estimating methodology. We use the approach described in this section 
to develop, in subsequent chapters, estimates for the costs of the 
individual provisions of the proposed regulations. This sections covers 
the following topics:
    <bullet>  Definition of the Baseline
    <bullet>  Data Sources
    <bullet>  Time Period for Cost Estimates and Annualization 
Procedure
    <bullet>  The Number of TMDLs to be Developed
    <bullet>  Labor Rates and Costs for Supervisory and Clerical 
Functions
    <bullet>  Affected Entities
    <bullet>  Costs When EPA Performs a Function Rather Than a State

Definition of the Baseline
    Estimates of the incremental impact of some of the proposed 
revisions are sensitive to how the baseline of current program 
requirements is defined. The more that is said to be already required 
in the baseline, the less is the incremental burden of the proposed 
regulations. For this report, the baseline has been defined as the 
greater of:
    1. The requirements of existing TMDL regulations, other existing 
water program regulations, and consent decrees affecting the program; 
and
    2. Current State program practice, as reflected in the combination 
of recent State TMDL program performance and commitments the States 
have made regarding future performance.
    Practices called for by EPA's TMDL program guidance materials--to 
the extent they go beyond existing regulatory requirements and to the 
extent State performance falls short of them--are therefore not 
included in the baseline.
    Several examples will clarify the application of this definition. 
First are instances where State practice falls short of existing legal 
requirements:
    In some cases, existing Federal regulations require States to do 
something that they may not have done in practice. For example, 
existing regulations \1\ require each State to describe the methodology 
it used to develop its 303(d) list. Despite the existing regulation, in 
some cases some States have not provided this description of their 
listing methodology. The proposed regulations restate and clarify the 
requirement to describe the listing methodology. Under our definition 
of the baseline, we attribute no incremental cost to this provision of 
the proposed regulations. States are required by existing regulations 
to describe their listing methodology. The cost of doing so is 
associated with the current program; it is not a cost of the proposed 
revisions.
---------------------------------------------------------------------------
    \1\ 40 CFR 130.7(b)(6).
---------------------------------------------------------------------------
    The proposed regulations go further to specify the format of the 
State's description of its listing methodology. This does not appear in 
existing regulations, and few if any States have described their 
listing methodology in this manner. In our view, this proposed 
requirement does impose incremental costs beyond the baseline. The 
incremental costs we estimate, however, are not the entire costs for a 
State to describe its listing methodology, but the added costs of 
describing the methodology in this particular manner. A description of 
the State's listing methodology and the on-going costs of preparing the 
description are part of the baseline. The costs of this proposed 
regulatory provision are whatever additional costs accrue in providing 
the description in this more specific format rather than in the less 
specific format that would suffice under the existing regulations. 
Further, the effort to reformat the description would only be a one-
time cost.
    In other cases, State practice exceeds what is called for by 
existing legal requirements (current regulations and existing consent 
decrees). Here we assume that States will continue their current 
practice, and the proposed regulations will impose costs only to the 
extent that they require more than what States are currently doing. 
Here are two examples:
    Existing Federal regulations do not explicitly require an 
implementation plan as a part of each TMDL. The consensus among TMDL 
practitioners, however, is that a thorough TMDL should include such a 
plan, describing how the TMDL decisions will be implemented and how 
progress will be monitored toward attainment of the water quality 
standards. Accordingly, many of the TMDLs that States have developed 
recently (perhaps roughly \1/4\ of them, as discussed in chapter II) 
have included an implementation plan, even though EPA regulations have 
not required these plans. The proposed regulations will now explicitly 
require implementation plans for all waters for which TMDLs will be 
developed. We assume in the baseline that States will not backtrack on 
their current practice of preparing these plans for about \1/4\ of the 
TMDLs. In the absence of the proposed regulations, States will continue 
to do this. We therefore estimate that the incremental cost of the 
proposed regulations requiring these plans will be roughly the average 
cost of preparing such plans for a typical TMDL multiplied by \3/4\ of 
the total number of TMDLs to be prepared.
    Existing Federal regulations do not specify the time by which a 
State must complete TMDLs for all its listed waters. Nevertheless, due 
to public pressures, legal action and other factors, most States have 
now committed to complete their TMDLs within some specified timeframe. 
Eleven States have signed consent decrees committing to deadlines for 
completing all their TMDLs, and 40 additional States have made other 
deadline commitments to EPA. States have chosen a variety of timeframes 
for completing their TMDLs, ranging from as little as 3 years to as 
many as 20. The proposed regulations will now require all States to 
complete their TMDLs within 15 years after listing, thus effectively 
requiring that all TMDLs for waters listed in the year 2000 (the first 
list to which the new regulations would apply) must be completed by 
2015. We assume the existing State commitments to be part of the 
baseline--we assume that State practice will match what they have 
committed to. All but 4 of the States have committed through consent 
decrees or otherwise to complete TMDLs for all their currently listed 
waters by 2015--three states are in the process of making their 
commitments and one state planned on completing its TMDLs by 2018. 
Thus, the proposed regulations may have an incremental impact on these 
four States to the extent it requires them to accelerate their planned 
pace for completing their TMDLs.
    To summarize, the baseline we define for purposes of incremental 
costing is the greater of existing legal requirements (regulations and 
consent decrees) and existing practice (recent State performance and 
commitments).

Data Sources
    Most estimates of the amount of staff level of effort (LOE) needed 
to perform a new task required of States by the proposed regulations 
have been provided by a State representative. Estimates of the State 
LOE associated with the baseline 303(d) listing program have been drawn 
from EPA's analysis of the respondent burden for this program as 
reported in the Agency's most recent approved Information Collection 
Request (ICR) submission. Similarly, estimates of the Federal LOE 
required for tasks under the baseline listing program are also drawn 
from the ICR.
    Other information is drawn from a review of State 303(d) list 
submissions, TMDLs submitted to the Agency, and a data base of listed 
waters prepared by Tetra Tech, Inc. \2\ This information was current as 
of early December, 1998. It includes those State list submissions and 
TMDLs received by EPA Headquarters and entered into the data base as of 
this time. For most States, this means their 1998 lists, but for some 
States that had not yet submitted their final 1998 lists or for which 
data base entry was not yet complete, our information is based on their 
1996 lists. This information can be updated as more 1998 lists are 
submitted and analyzed. The cost estimates will likely change slightly 
as this newer information is incorporated.
---------------------------------------------------------------------------
    \2\ Kevin Kratt, Tetra Tech. ``Updated memo on TMDL listing and 
development questions relating to EPA's new regulations.'' November 20, 
1998.
---------------------------------------------------------------------------

Time Period for Cost Estimates and Annualization Procedure
    The first 303(d) lists to which the proposed regulations will be 
fully applicable will be the lists to be submitted in 2000. The 
proposed regulations will require TMDLs for all listed waters to be 
completed within 15 years, by 2015. We have chosen the time period for 
the cost analysis as extending from the beginning of 1999 through 2015 
so as to encompass the full cycle of program activities for this set of 
waters--from initial work on the listing through completion of TMDLs 
for all these waters. We estimate the incremental costs associated with 
each provision of the proposed regulations over this 17-year period. 
Some of these costs will occur once during this period (such as the 
one-time costs associated with adopting a new format), some will occur 
several times (e.g., under one option proposed for the listing program, 
lists will be required to be submitted every 5 years, starting in 2000 
and then in 2005, 2010 and 2015), and some will occur each of the 
thousands of times a TMDL is developed during this period. In each 
case, we estimate the amount of the cost and how often and when it will 
recur during this period. Projected costs are then summed for each year 
from 1999 through 2015 and discounted back to the beginning of 1999 
using the OMB-recommended real discount rate of 7 percent annually. 
When discounting, we assume that all of the costs incurred in a year 
occur at the beginning of the year--this is a conservative assumption 
that tends to increase the present value cost of the proposed 
regulations. We then annualize this present value figure over the 17-
year period of analysis. The result is the estimated annual cost of 
each proposed regulatory requirement.

The Number of TMDLs to be Developed
    One of the most important data elements needed in estimating the 
costs of the proposed regulations is the number of TMDLs that will need 
to be developed over this time period. Some of the proposed regulatory 
requirements increase or accelerate the cost of developing a typical 
TMDL. The total cost of such requirements can generally be estimated by 
multiplying the cost increase for a typical TMDL by the number of TMDLs 
to be developed. Unfortunately, there are several unknowns in 
estimating the number of TMDLs to be completed.
    The best initial indicator of the number of TMDLS is the number of 
waters listed by States in their 303(d) lists. By combining the most 
recent lists from each State, we estimate a current national inventory 
of some 20,198 listed waters. The ultimate number of TMDLs needing 
development will differ from this number for several reasons:
    Several sorts of waters must be included on States' 303(d) lists 
even through they will not in the future need TMDLs developed for them. 
These sorts include: 1) Waters that are impaired or threatened by 
pollution (e.g., flow alteration or exotic species) rather than 
pollutants and that are thus not amenable to TMDLs; 2) Waters that have 
already had TMDLs developed for them, but for which WQS have not yet 
been attained; and 3) Waters that are impaired, but for which planned 
activities other than TMDLs will bring them into attainment. Under the 
proposed regulations, these three sorts of listed waters not needing 
TMDLs would be classified in separate parts of a State's 303(d) list.
    Many additional currently listed waters will eventually prove not 
to need TMDLs. States often list waters on a conservative basis, 
choosing to list a water even though the information suggesting that it 
is impaired is very limited. Subsequent monitoring may find that the 
water is not impaired and need not be listed.
    On the other hand, not all the waters that will eventually need 
TMDLs are currently known and listed. States have monitored or assessed 
only a fraction of their waters. As assessment and monitoring efforts 
expand to more of the Nation's waters, more impaired waters needing 
TMDLs will be found. The States' 303(d) lists submitted in 2000 will 
undoubtedly include some waters recently discovered to be impaired that 
were not on the 1998 lists. Similar additions will occur in the lists 
due in future years after 2000.
    Some perspective on the likely balance between the factors tending 
over time to increase the number of listed waters and other factors 
decreasing it is provided by the change between 1996 and 1998 in the 
number of waters listed by States. For the 38 States for which 1998 
list data has been tabulated, the 1998 lists in total are about 35 
percent longer than the 1996 lists. This suggests that the discovery 
over time of new impaired waters that should be added to the lists has 
had a greater impact than the process of paring the lists down by 
eliminating waters that really do not need to be listed (in effect, 
that the third of the buffeted factors mentioned above has outweighed 
the second).
    Additional factors complicate the relationship between the number 
of listed waters and the number of TMDLs that will need to be done:
    Many listed waters have more than one cause of impairment, and a 
TMDL may be needed to address each cause. For the 1998 303(d) lists, 
there are about twice as many causes of impairment as waters. If each 
cause were to require a separate TMDL, then about twice as many TMDLs 
would be required as there are waters. However, it is often possible to 
develop a single TMDL that simultaneously addresses multiple causes of 
impairment in a water.
    The geographic scale at which TMDLs are developed may not match the 
scale at which waters are listed. Some listed waters are very large, 
and multiple TMDLs will likely need to be developed for different 
portions of a single listed water. Conversely (and probably more 
commonly) some listed waters have water quality problems and potential 
solutions that are very closely related to those for adjoining listed 
waters, and a single TMDL can be developed on a watershed basis 
addressing a set of several listed waters.
    In sum, there are large uncertainties about how many currently 
listed waters will not need TMDLs done for them, about how the number 
of listed waters will change over time, and about how many TMDLs will 
be needed per listed water. Assessing the combined impact of the 
various factors affecting the relationship between the number of 
currently listed waters and the number of TMDLs that will eventually 
need to be done through 2015 is extremely difficult. Our rough guesses 
are that:
    The three factors we cited initially--the three sorts of currently 
listed waters that will not need TMDLs, the deletion from the lists of 
waters that ultimately prove not to be impaired, and the addition to 
the lists of additional waters found to be impaired--on balance will 
result in a number of waters eventually needing TMDLs that is somewhat 
greater than the current number of listed waters.
    The ``causes'' information suggests that a minimum of 1 and a 
maximum of 2 TMDLs on average will need to be developed per listed 
water.
    The frequency of geographic consolidation of TMDLs (developing one 
TMDL on a watershed basis that covers several listed waters) will prove 
much greater than the frequency of geographic disaggregation 
(developing multiple TMDLs to cover disparate sections of a single 
listed water).
    On balance, we will assume, we believe conservatively, that the 
roughly 20,000 currently listed waters will result in the need to 
develop between about 20,000 and about 40,000 TMDLs over the period 
from the present through the year 2015.
Labor Rates and Costs for Supervisory and Clerical Functions
    A State representative provided an estimate of $80,000 as the 
typical current fully loaded cost (including salary, all benefits and 
indirect costs) of a technical State FTE with typical qualifications 
for performing TMDL work. This is generally consistent with estimates 
made by states that have prepared workload estimates for their water 
quality and TMDL programs. \3\ By contrast, the cost of an EPA FTE 
working on the 305(b) or the 303(d) program has been estimated to be 
somewhat higher, at $83,971 per year. \4\
---------------------------------------------------------------------------
    \3\ For example, the Washington State Department of Ecology 
developed a detailed workload model for their TMDL program. For this 
model, they estimated that the current annual cost of an FTE is roughly 
$80,000 per year. (Total maximum Daily Loads Workload Model, Program 
Definition and Cost. Department of Ecology Publication No. 98-26, July 
1998, page 9).
    \4\ EPA's recent ICR for the 305(b) and 303(d) programs assigned 
that work was done by staff at an average salary level of Grade 10 Step 
7, and applied an overhead rate of 110 percent. Using 1998 salary 
rates, this amounts to a loaded labor rate of $83,971 per FTE.
---------------------------------------------------------------------------
    The State representative also expressed some concern that EPA's 
proposed TMDL program regulations might slightly increase the average 
quality of the State technical staff needed (e.g., the increased public 
participation requirements would increase the need for skilled public 
meeting facilitators) and increase States' needs for travel money and 
laptop computers. He suggested that, in order to be conservative in our 
cost estimates, we might want to assume that the additional State LOE 
required by the new regulations, with support, might cost slightly more 
than the $80,000 figure for the fully loaded average cost of an FTE 
under the current program. In response to this suggestion, we have 
assumed that the additional State FTE required by the new regulations 
will cost as much as an EPA FTE, or $83,971 per year. EPA's recent ICR 
makes the same assumption that State FTEs cost the same as EPA FTEs. On 
an hourly basis, this is the equivalent of a fully loaded cost of 
$40.37 per hour. In this cost analysis, therefore, we assume that 
incremental State technical LOE required by the proposed regulations 
costs $40.37 per hour.
    This accounts for the cost of the incremental technical staff 
hours. To this we add the costs of clerical and supervisory support for 
the technical staff hours, as follows. The State representative cited 
the detailed study conducted by the Stale of Washington that found that 
one clerical worker was needed for every 8.5 technical staff end one 
supervisor was needed for every 7.7 technical staff. Together, clerical 
and supervisory personnel needs are thus approximately .25 FTE for 
every 1 technical FTE. \5\ We thus added a 25 percent Actor for 
clerical and supervisory support to the estimates provided for the 
technical FTE needed to accomplish a task required by the proposed 
regulations. All the LOE estimates provided in this report include this 
25 percent factor, they therefore include both the technical and the 
clerical/supervisory support needed to meet the requirements of the 
proposed regulations.
---------------------------------------------------------------------------
    \5\ 8.5 technical staff per 1 clerical staff means 1/8.5 or 0.118 
clerical per technical. 7.7 technical staff per I supervisory staff 
means 1/7.7 or .130 supervisory per technical. Summing the two gives 
.248 clerical plus supervisory per one technical.
---------------------------------------------------------------------------

Affected Entities
    In this document, we use the term ``States'' for convenience to 
include the 50 States plus the District of Columbia, Puerto Rico, the 
Virgin Islands, American Samoa, Guam, and the Commonwealth of the 
Northern Marianas. When we refer to the cost for a typical State to 
perform an activity, we mean the average cost that will be incurred 
across these 56 entities. We will often then multiply this average cost 
by 56 to obtain a national cost estimate. In the future, Tribes may 
apply and be authorized to implement the TMDL program for their waters. 
If so, the average cost per ``State'' would need to be multiplied by 
more than 56 to obtain a national cost estimate.
Costs When EPA Performs a Function Rather Than a State
    Many TMDL program activities must be performed by EPA in instances 
when a State fails to perform a required function. When this happens, 
it is likely that EPA's cost of performing these functions will be 
higher than the State's costs for several reasons: EPA's performance in 
stepping in for a State will likely be less efficient than the State's 
performance would have been; EPA personnel will be less familiar with 
the particular State context and because of increased travel needs, 
EPA's LOE would probably be greater than the State's would have been.
    We have not estimated in this report the likely increased costs for 
EPA to perform a required TMDL program function when a State does not 
perform it. There are several reasons why we have not made such 
estimates:
    Most importantly, it is EPA's expectation that in virtually all 
cases the States will perform the functions that are being asked of 
them. Two primary purposes of the proposed regulations and supporting 
draft guidance are to clarify and bring consistency to the TMDL program 
and to provide States with the necessary information so that they will 
fully and successfully implement the program.
    Apart from the reasonable assurance issue, we have no reason to 
foresee any instances in which a State is unlikely to perform a 
required function, and no basis for estimating quantitatively how often 
States might not perform required functions.
    However, in the case of the reasonable assurance requirement, 
States may occasionally be unable to meet a specific requirement of the 
proposed regulations. The specific procedures for this requirement are 
included in the proposed revisions to the Agency's permitting 
regulation, and a separate analysis addresses the incremental costs 
that may result.

               I. PROPOSED REVISIONS AFFECTING TO PROGRAM

    The proposed revisions that alter the listing program in ways that 
might be thought to affect cost are:
    1. Clarifying the definition of ``threatened'';
    2. Codifying the scope of the lists to include waterbodies that are 
impaired or threatened by atmospheric deposition, and by all 
combinations of point and nonpoint sources (i.e., point sources only, 
nonpoint sources only, and a combination of point and nonpoint 
sources);
    3. Expanding the scope of the lists to include waterbodies that are 
impaired or threatened by pollution (as well as pollutants);
    4. Requiring that waterbodies remain listed until standards are 
attained (rather than only until TMDLs are approved);
    5. Changing the format for specifying priorities by requiring that 
listed waterbodies be grouped into 4 categories (Parts 1 through 4, 
with TMDLs required for Part 1 waterbodies only), requiring that Part 1 
waterbodies be prioritized into three groups (as either high, medium or 
low priority), and requiring that Part 1 waters with certain 
characteristics be assigned high priority;
    6. Eliminating the requirement that states identify the TMDLs to be 
completed within 2 years, and replacing it with a requirement for 
comprehensive, TMDL-specific schedules as part of the listing;
    7. Requiring that a State's listing methodology be subject to 
public review and submitted to EPA by January 31 prior to each 
submission;
    8. Changing the format for a State's required description of its 
listing methodology; and
    9. Changing the date by which lists must be submitted to EPA to 
October 1 from April 1.
    The incremental impact of each of these revisions is discussed 
below in Sections I.1.-I.9. The combined incremental impact of these 
revisions is summarized at the conclusion of this chapter.
    In addition, the proposed regulations ask for public comment on 
options for further altering the frequency with which lists must be 
submitted:
    10. Options for altering the listing cycle, ranging from leaving it 
a 2-year cycle to changing it to a 4-year or 5-year cycle, either 
effective immediately or subsequent to the next listing due in the year 
2000.
    The incremental costs (which in this case amount to savings rather 
than costs) associated with some of these options are evaluated in 
Section 1.10.
    Some provisions in the proposed regulations affecting the listing 
program arc not addressed in this chapter because they clearly have no 
or minimal incremental cost or savings associated with them. These 
include:
    Revising the definitions of TMDL, wasteload allocation and load 
allocation, as well as adding definitions for the terms pollution, 
pollutant, impaired waterbody, thermal discharge, and waterbody. These 
definitions are intended to clarify meaning rather than to change the 
substance of the definitions, and do not affect the listing program. To 
the extent that any of these revisions might affect the cost of 
developing TMDLs, they are discussed in the next chapter (II. Proposed 
Revisions Affecting the Development and Content of TMDLs.)
    Requiring a georeference for each listed waterbody does not affect 
incremental cost because EPA already has a program nearing completion 
that provides this capability at no cost to the States.
    Additional revisions that do not affect cost include:
    Eliminating the existing regulatory provision that a rationale be 
provided for any decision not to use some existing and readily 
available data and information.
    Clarifying that violation of a narrative criterion is a basis for 
placing a waterbody on the Sec. 303(d) list.
    Clarifying the steps and timeframes for actions that EPA will take 
if the Agency disapproves a State submittal (list or TMDL).
    This chapter focuses on the incremental costs or savings that 
States may realize due to the provisions of the proposed regulations. 
Chapter IV includes the impact of the proposed regulations on the 
Agency's workload.

I.1. The definition of ``threatened'' waterbody is clarified

            Requirement
    The proposed regulations clarify ``threatened'' to mean that 
adverse declining trends for a waterbody currently meeting water 
quality standards indicate that standards will be exceeded by the next 
listing cycle.

            Baseline
    The existing regulations include the requirement to list threatened 
waterbodies, but do not define ``threatened.''

            Incremental Cost
    The additional costs of this clarification are expected to be 
minimal for two reasons. First, no additional data or information are 
needed for States to apply this definition. Second, the time horizon 
specified in the definition only requires a very near-term focus (one 
listing cycle). and likely represents the minimum time horizon that 
States might use to comply with the existing requirement to list 
threatened waterbodies. Further, this clarification may reduce costs in 
those cases where States previously interpreted ``threatened'' to 
require a longer term assessment, such as projecting a decade ahead.

I.2. The scope of the lists is codified to include waterbodies that are 
        impaired or threatened by atmospheric deposition, and by all 
        combinations of point and nonpoint sources

            Requirement
    The proposed rule codifies EPA's existing policy that waterbodies 
impaired or threatened by atmospheric deposition be listed. The 
proposed regulations also codify the Agency's long-standing 
interpretation that the Sec. 303(d) listing requirement applies to 
waterbodies that are impaired or threatened by any combination of point 
and nonpoint sources (i.e., point sources only, nonpoint sources only, 
or a combination of point and nonpoint sources).

            Baseline
    The proposed regulations are consistent with the Agency's long-
standing interpretation and policy regarding atmospheric deposition and 
combinations of point and nonpoint sources.

            Incremental Impact
    No additional costs are anticipated since the proposed regulations 
do not alter existing requirements.

I.3. Expanding the scope of the lists to include waterbodies that are 
        impaired or threatened by pollution

            Requirement
    This proposed revision requires States to use existing and readily 
available data and information to list waterbodies that are impaired or 
threatened by ``pollution'', in contrast to only those impaired or 
threatened by ``pollutants''. States are not required to obtain any new 
data or information to comply with this requirement. The revision adds 
cases where impairments or threats cannot be linked back to any 
specific substance or parameter added to the water (i.e., 
``pollutant'', including chemicals, sediment, BOD, bacteria, heat, 
etc.), such as for flow alterations. Waterbodies that are listed as 
impaired or threatened by pollution but not pollutants will be listed 
as Part 2 waterbodies (discussed further below in Section I.5.) and 
TMDLs are not required for them.

            Baseline
    Waterbodies impaired or threatened by pollution are already 
identified as part of the 305(b) reports that States provide. Many 
States have gone further and include on their 303(d) lists some of 
their waterbodies that are threatened by pollution. For example, during 
the 1996 listing cycle, 35 of the States' lists identified at least one 
water listed because of a pollution cause, and 16 of these States' 
lists identified many waterbodies listed due to pollution causes. From 
available information for the 1998 listing cycle for 38 States, at 
least an additional 6 States have identified pollution causes, of which 
4 states identified many causes.

            Incremental Cost
    EPA does not anticipate that these proposed revisions will 
significantly increase the resources needed to prepare listings. States 
have already identified all impaired and threatened waterbodies in 
their 305(b) reports whether due to pollution or pollutants. Further, 
States that have already listed many waterbodies that are impaired or 
threatened by pollution should be only minimally affected by this 
requirement.
    As discussed above, at least 20 States have already listed many 
waterbodies for such causes. The 36 States that have not listed 
waterbodies for such causes previously, or who have done so only to a 
limited extent, may feel it appropriate to hold a public meeting 
regarding their new policy for listing waterbodies affected by 
pollution. This public meeting might be in addition to the public 
participation that already occurs as part of the State's listing 
process. If needed, this additional public participation effort would 
only occur once in support of the State's 2000 listing. However, as 
discussed below in Section I.7., the proposed regulations already 
require that all States hold an additional public meeting that could be 
appropriate for this purpose. The additional public participation cost 
that might be associated with this requirement has been included in the 
incremental cost estimated in Section I.7. below.

I.4. Waterbodies are listed until standards are attained

            Requirement
    Currently, most States list waterbodies until TMDLs are approved, 
then drop them from their lists. The proposed revision requires that 
waterbodies remain listed until water quality standards are actually 
met. This only affects when waterbodies are removed from the list, and 
does not require the development of any information that wouldn't 
otherwise be available anyway. These waterbodies will be listed as Part 
3 waterbodies, as discussed later in I.5.

            Baseline
    In most States, a water is removed from the list when all required 
TMDLs for that water are approved. However, the Agency's current 
guidance allows waterbodies to remain on a State's list until standards 
are attained. Some States, such as those in Region 10, have already 
been following this practice.

            Incremental Cost
    No additional costs are anticipated as a result of keeping 
waterbodies listed until standards are attained.

I.5. Waterbodies must be grouped into 4 Parts (1-4). with only Part 1 
        waterbodies requiring TMDLs and these must have high. medium 
        and low priorities set for them. Part 1 waterbodies with 
        certain characteristics must be classified as high priority

            Requirement
    The proposed revision requires that waterbodies be grouped into 4 
categories as follows:
    Part 1: Waterbodies impaired or threatened by one or more 
pollutants requiring the development of TMDLs.
    Part 2: Waterbodies impaired or threatened by pollution rather than 
pollutants. A TMDL is not required for waterbodies on this pan of the 
list.
    Part 3: Waterbodies for which EPA has approved or established a 
TMDL, but for which water quality standards have not yet been attained.
    Part 4: Waterbodies that are impaired, but for which planned 
activities other than TMDLs will bring them into attainment. If such a 
waterbody does not attain water quality standards by the next listing 
cycle, the waterbody must be included in Part 1.
    Only Part 1 waterbodies require TMDLs to be developed and 
priorities to be established. The proposed regulations funkier specify 
that, starting with the 2000 listing, Part 1 waterbodies must be 
grouped into three classes of priorities: high, medium and low. The 
proposed regulations specify that high priority Part 1 waterbodies must 
include all waterbodies for which the designated use is public drinking 
water supply or that contain or serve as habitat for endangered or 
threatened species under section 4 of the Endangered Species Act. The 
definition of medium and low priority is left to the States' 
discretion. High priority waterbodies must have TMDLs completed for 
them before low and medium priority waterbodies, and all of the Part 1 
waterbodies must have TMDLs completed for them within 15 years of being 
listed as Part 1--the impact of requiring that TMDLs be developed 
within these specified timeframes is evaluated in chapter III (III. 
TMDLs Must Be Completed Within Specific Time Periods).

    Part 2 waterbodies were discussed earlier in Section I.3. and Part 
3 waterbodies were discussed earlier in Section I.4.

    The proposed regulations do not alter the current requirements for 
Part 4 waterbodies. The proposed regulations do clarify that the time 
horizon over which attainment must be achieved for these waterbodies is 
15 years plus the length of one listing cycle.

            Baseline
    There is no current requirement to group waters. However, no new 
data or information is needed for States to group their waterbodies in 
accordance with the four categories (Parts I 4) as now specified in the 
proposed revisions.
    With regard to setting priorities, States are already required to 
set priorities for listed waterbodies under the current program. About 
75 percent of the States in their 1996 lists assigned some type of 
priority to their impaired waterbodies, and an additional 10 percent 
assigned some type of priority in their 1998 lists. Some States 
assigned explicit high, medium and low priorities to each water. Some 
States separated their lists into several tiers (e.g., First, Second, 
Third) and waterbodies in each tier were assigned the same priorities. 
Some States actually ranked all their waterbodies or watersheds in 
numerical priority order. Some States set priorities using a rotating 
basin approach, planning to develop TMDLs at the same time for all 
waterbodies located in the same basin. Overall, about 10 of the 56 
States used approaches for setting priorities that are essentially 
equivalent to high, medium and low priorities or that can readily be 
grouped in this manner.

            Incremental Cost
    Setting priorities is already a statutory requirement and an 
ongoing process under the current program. The cost of developing and 
applying approaches for setting priorities is part of the cost of the 
existing program, even for States that have not yet developed or 
applied approaches for setting priorities. Therefore, it is not 
appropriate to attribute any of the cost of this existing requirement 
to set priorities to the proposed revisions. The proposed regulations 
do specify the way that priorities must be set, adding modestly to the 
cost of setting priorities, as discussed below.
    The proposed revisions require a change in the way that waterbodies 
and priorities are grouped. It is anticipated that the additional 
effort to group waterbodies into the 4 Parts would be small. Further, 
it is anticipated that there would not be much additional effort needed 
to identify the small number of high priority waterbodies (i.e., those 
for which the designated use is public drinking water supply or that 
contain or serve as habitat for endangered or threatened species).
    States that are not already grouping waterbodies according to high, 
medium and low priorities may require an additional one-time effort to 
re-orient their approaches for setting priorities for Part 1 
waterbodies. On average, about 100 hours of effort should be adequate 
for revising an existing priority setting system to meet the 
requirements of the proposed regulations. Since 10 of 56 States already 
employ approaches that provide the equivalent of high, medium and low 
priorities, perhaps 46 listings may require the additional 100 hours of 
effort to revise their priority setting systems. However, since the 10 
states that already have appropriate priority setting systems may still 
wish to reevaluate their systems in light of the proposed regulations, 
we conservatively assume that all 56 states will require, on average, 
an additional 100 hours of effort. This one-time effort amounts to an 
additional 5,600 hours (about 2.7 FTE) at $40.37/hour for a total one-
time cost of $226,075 to be incurred in 1999. The present value of this 
cost is $226,075 \6\ and the annualized cost of this one-time effort 
through 2015 is $21,641.
---------------------------------------------------------------------------
    \6\ As discussed previously in the methodology section, all costs 
are discounted to January 1, 1999 and all costs incurred in a year are 
conservatively assumed to occur at the beginning of the year Thus, the 
present value of any costs incurred at any time in 1999 ($226,075 in 
this case) is the same as the undiscounted cost ($226,075). This is a 
conservative simplifying assumption because it maximizes the present 
value of any costs incurred.
---------------------------------------------------------------------------
    In addition, States that are substantially revising their priority 
setting systems as a result of the proposed regulations might wish to 
hold an additional one-time public meeting for this revision. This 
additional public participation has been included within the 
incremental cost for the new requirement for public participation 
discussed below in Section I.7.
    Finally, it is not anticipated that the proposed regulations will 
result in additional costs for Part 4 waterbodies. Part 4 waterbodies 
are cases where States expect attainment of standards without TMDLs.
    If a State's expectation for a waterbody proves wrong, the existing 
regulations would require the development of TMDLs. The proposed 
regulations' requirement to reclassify Part 4 waterbodies as Part 1 
waterbodies if they fail to achieve attainment within one listing cycle 
only clarifies that there must be a reasonable time horizon for the 
expectation that standards will be attained. This requirement limits 
the time horizon to one listing cycle plus 15 years (the time limit for 
completing TMDLs that are newly listed as Part 1 waterbodies). Thus, a 
waterbody that is classified as Part 4 in the 2000 listing, must 
achieve attainment by the next listing--2002 for the current 2-year 
cycle, 2004 if a 4-year cycle is adopted and 2005 if a 5-year cycle is 
adopted; if the waterbody is not in attainment by then, it must then be 
classified as a Part 1 waterbody, and therefore it must either achieve 
attainment or have a TMDL developed for it within 15 years--2017 for 
the current 2-year cycle, 2019 for a 4-year cycle, and 2020 for a 5-
year cycle. The timeframe that States currently apply when anticipating 
that waterbodies will achieve attainment without the need for TMDLs 
should be well within the 17-20-year time horizon as clarified by the 
proposed regulation.

I.6. A State's list must include a schedule for establishing each TMDL. 
        replacing the existing requirement to target only those TMDLs 
        that will be completed within 2 years

            Requirement
    The proposed regulations require that States develop comprehensive 
schedules for developing TMDLs for all waterbodies included on Part 1 
of the list. This requirement would replace the existing requirement to 
identify only those TMDLs to be developed within 2 years. Further, the 
workload for establishing TMDLs must be reasonably paced over the 
duration of the schedule. As time passes, States may alter the sequence 
of TMDL development from the original schedule as technical and 
analytic needs demand. Therefore, the comprehensive schedule commits 
States more to the overall pace of TMDL development, rather than to a 
rigid schedule for specific TMDLs.

            Baseline
    The proposed provision replaces the current requirement that States 
identify those waterbodies for which TMDLs will be developed over the 
next 2 years.
    Past and ongoing litigation has and will likely continue to result 
in States preparing comprehensive schedules for developing TMDLs. 11 
States representing about 30 percent of the national total of listed 
waterbodies have already developed comprehensive schedules as part of 
Consent Decrees. Plaintiffs have filed litigation for another 15 
States, representing 33 percent of the national total of listed 
waterbodies; and notices of intent to sue have been filed in 5 
additional States. Thus, it is likely that, due to current litigation, 
comprehensive schedules for developing TMDLs would be prepared in the 
baseline for perhaps half of the States, representing a substantial 
portion of the TMDLs.
    About half of the States use a rotating basin or watershed approach 
to water quality management, in which States work sequentially through 
each of their basins on a 5-year cycle, and schedule all their 
activities in these basins or watersheds accordingly, including 
establishing TMDLs.

            Incremental Cost
    States with Consent Decrees already have comprehensive schedules 
for developing TMDLs. States that use a rotating basin or watershed 
approach to water quality management should be able to readily schedule 
TMDL development in accordance with their existing basin schedule of 
activities, especially given the flexibility in the regulations 
regarding the specific sequencing of TMDL development. States without 
Consent Decrees or States that do no use a rotating basin or watershed 
approach may require the most planning effort to develop realistic, 
comprehensive schedules.
    For the purpose of estimating incremental cost, we conservatively 
assume that all 45 States without existing Consent Decrees will need to 
develop new comprehensive schedules. The task of developing a 
comprehensive schedule is simplified since all these States will 
already have developed high, medium and low priorities for Part 1 
waterbodies (the incremental cost for this effort was included above in 
Section 1.5.). The task is further simplified because the regulations 
emphasize primarily the pace of TMDL development rather than the 
precise sequence (the proposed regulations provide States with the 
flexibility to alter the sequence of the specific TMDLs that are to be 
developed). Thus, it is anticipated that the additional effort needed 
to develop a comprehensive schedule for each of the 45 States would be, 
on average, about 20 hours. The total effort for all 45 States for 
developing the initial comprehensive schedule would amount to 900 hours 
(.4 FTE) at $40.37/hour for a total cost of $36,333 to be incurred in 
2000. However, it is anticipated that the schedule would also need to 
be reviewed with each listing cycle and revised as needed. These 
revisions might require perhaps half of the original effort or an 
average of about 10 hours per listing cycle per State for a total cost 
of $18,167 in each subsequent listing cycle. Across all the States, the 
present value cost of preparing the initial schedule and revising it 
through 2015 (8\1/2\ listing cycles under the existing regulations) 
would be $108,764 and the annualized cost through 2015 would be 
$10,411.

I.7. Requiring that the listing methodologies be subject to public 
        review and submitted to EPA by January 31 for each submission

            Requirement
    States' listing methodologies must be subject to public review and 
submitted to EPA 8 months prior to the deadline for submission of the 
list (which the proposed regulations shift from April I to October I of 
the listing year as discussed later under Section I.9.).

            Baseline
    States currently must submit their listing methodologies to EPA for 
review. The current program requires public participation and review of 
all aspects of the listing submission, which would include the listing 
methodology. In compliance with the Paperwork Reduction Act, EPA has 
periodically prepared Information Requests (ICRs) for the National 
Water Quality Inventory Reports, which include the estimated burden 
associated with the TMDL listing process for respondents and for EPA. 
EPA's current approved ICR (in effect through 2128/99) estimated the 
States' effort to conduct public participation for the 303(d) program. 
For EPA's current ICR, the total State effort for public participation 
(for the listing program) per listing cycle per State was estimated to 
be, on average, about 120 hours.

            Incremental Cost
    The requirement to submit the listing methodology to EPA 8 months 
before submitting the list should not increase the level of effort 
needed by a State to develop the listing methodology. This requirement 
may result in the need for some States to shift forward their effort 
for developing or revising their listing methodology by a few months. 
Generally, it is not anticipated that the cost of developing the 
methodologies will be affected by this requirement.
    However, separating the public review of the listing methodology 
from the State's public participation activities regarding the list 
itself by 8 months would likely result in the need for States to 
increase their public participation effort. This additional effort for 
public participation would occur for every listing cycle. Further, as 
discussed previously (in Sections 1.3., and I.5.), more extensive 
public participation would likely be required for the first listing 
cycle under the proposed regulations to review changes in the listing 
methodology regarding ``pollution'' causes, changes in the priority 
setting approach, and perhaps changes regarding how atmospheric 
deposition and combinations of point/nonpoint sources are covered. In 
addition, the proposed regulations emphasize the importance of public 
participation. Therefore, the resulting increased State effort for 
public participation is estimated as follows:
    For the first listing cycle under the proposed regulations (i.e., 
for the year 2000), we anticipate that the additional public 
participation effort for a State might range from 200-800 hours 
depending on the level of interest in the State and the extent of the 
revisions in the listing methodology. This is considered a conservative 
estimate, given the Agency's current estimate that the on-going State 
effort for all public participation for the listing program is on 
average about 120 hours per listing cycle per State. To estimate the 
national one-time cost for the first listing cycle, we conservatively 
assume that, on average, the increased level of effort across the 56 
States and Territories would be 500 hours per State (i.e., over four 
times the estimated current average for all public participation 
activities), for a total increased effort of 28,000 hours or 13.5 FTE 
for the year 2000 listing cycle.
    For subsequent listing cycles. we anticipate that public 
participation would likely be more routine in nature and require far 
less effort than for the first listing cycle under the proposed rules. 
Nevertheless, to conservatively estimate national cost for subsequent 
listing cycles (beyond the year 2000), we assume that the average State 
effort for public participation will nearly double from current levels, 
with the average level of effort increasing by 100 hours for a total of 
5,600 hours or 2.7 FTE per cycle subsequent to the year 2000 listing.
    Therefore, the overall incremental cost for the additional State 
effort for public participation for the first listing cycle (January, 
2000) would be $1,130,373 and would drop to $226,075 for subsequent 
cycles. The present value of this additional cost through 2015 (8\1/2\ 
listing cycles under the existing regulations) would be $1,987,363 and 
the annualized incremental cost through 2015 would be $190,239.

I.8. New format for the listing methodology

            Requirement
    The proposed revision specifies a new format for describing the 
listing methodology. This new format will not affect the methodology 
that States use.

            Baseline
    The current regulations already require that the listing 
methodology be described. About 69 percent of the 1998 State lists 
explained their listing methodology (up from 56 percent for the 1996 
listing cycle). Because the existing regulations require that the 
listing methodology be described, the cost of describing the listing 
methodology is considered to be part of the baseline, regardless of 
whether a State is currently complying with this requirement.

            Incremental Cost
    Describing the listing methodology is an on-going requirement of 
the current program. However, changing the format may result in some 
additional one-time effort to repackage and clarify the description of 
the listing methodology in accordance with the new format. An 
additional one-time effort of 40 hours in the year 2000 should be 
adequate for adopting the new format. For all 56 listings, the total 
additional level of effort would be 2,240 hours (1.18 FTE), amounting 
to a one-time cost of $90,430 assumed to occur in the year 2000. The 
present value of this cost is $84,514 and the annualized value over the 
period of analysis is $8,090.

I.9. Changing the listing cycle so that lists must be submitted to EPA 
        on October I instead of April 1

            Requirement
    The proposed regulations will require States to submit their lists 
to EPA on October I instead of April I in each year that lists are due 
to be submitted.

            Baseline
    The current regulations require that States submit their 
Sec. 305(b) water quality reports and Sec. 303(d) lists on April I of 
every even-numbered year.

            Incremental Cost
    Shifting the due date for listing submissions by 6 months to 
October I is expected to ease any difficulties that States may have in 
completing both Sec. 305(b) water quality reports and Sec. 303(d) lists 
for submission at the same time. This revised due date is not expected 
to result in increased costs.

I.10. The Proposed rule requests comment on options for changing the 
        listing cycle from a 2-year cycle to a 4-year or 5-year cycle, 
        either effective immediately or subsequent to the listing due 
        in the Year 2000

            Requirement
    The proposed revision asks for comment on options for altering the 
listing cycle. These options include:
    Option A.--Retain the current 2-year listing cycle,
    Option B.--Adopt a 4-year or 5-year listing cycle immediately,
    Option C.--Require that the first list submission under the new 
rule occur no later than October 1, 2000, with subsequent list 
submissions occurring every 4 or every 5 years.
    If the listing cycle is lengthened (Option B or C), then fewer 
lists would need to be prepared and approved in the future. For 
example, the current listing cycle (Option A) would require 8\1/2\ 
lists to be prepared and approved through 2015, while switching to a 5-
year cycle after the 2000 list (Option C) would require 4 lists. From a 
cost perspective, lengthening the listing cycle would result in savings 
for both States and the Agency. Potential savings to States are 
evaluated in this section, while potential savings to the Agency are 
evaluated in chapter IV. For simplicity, we have only assessed the 
savings that States would realize from Option C where a listing is 
required for October, 2000 and subsequent listings are required every 5 
years (instead of every 2 years as currently required). \7\
---------------------------------------------------------------------------
    \7\ Generally speaking, the savings associated with a 4-year cycle 
would be somewhat less than for a five-year cycle--for Option C, for 
example, a 4-year cycle through 2015 requires effort for 4\3/4\ lists 
as opposed to the 4 lists needed for a 5-year cycle. The savings 
associated with Option C would be somewhat less than for Option B--for 
example, for 5-year cycles through 2015, Option C requires effort for 4 
lists as opposed to the 3\2/5\ lists needed for Option B.
---------------------------------------------------------------------------

            Baseline
    In compliance with the Paperwork Reduction Act, EPA has 
periodically prepared Information Collection Requests (ICRs) for the 
National Water Quality Inventory Reports, which include the estimated 
burden associated with the TMDL listing process for respondents and for 
EPA. EPA's current, approved ICR (in effect through 2128/99) estimates 
the current respondents' burden of preparing a 303(d) listing, and is 
summarized in the following table. Over the time horizon for this 
analysis (1999-2015), the current program would require 8\1/2\ 
listings. At 25,424 hours per listing cycle, the Agency's total effort 
through 2015 would be 216,104 hours or 103.9 FTE. These estimates are 
also the basis for the Agency's submission to renew the existing ICR.

            Current State Listing Program Effort Per Listing
          As Estimated In EPA's Information Collection Request
------------------------------------------------------------------------
                                                       Effort    Efforts
                                    Description of       per       all
       ICR Activity Number             Activity         State    States
                                                       (hours)   (hours)
------------------------------------------------------------------------
7...............................  Identify waters          215    12,040
                                   needing TMDLs.
8...............................  Prioritize waters        118     6,608
                                   needing TMDLs.
9...............................  Conduct 303(d)           121     6,776
                                   participation.
    Total hours:................                           454    25,424
------------------------------------------------------------------------

    When analyzing the impact of Option B or Option C, it would 
appropriate to include the incremental effort associated with the 
proposed regulations as part of the baseline. As discussed in previous 
sections, the proposed regulations will likely result in increasing 
States' efforts as follows:

  Incremental Effort for All States Due to the Proposed Regulations Per
                                 Listing
                      As Estimated In This Chapter
------------------------------------------------------------------------
                                                       Total Effort for
                                                          all States
                                    Description of   -------------------
    Chapter I Section Number           Proposed        Effort    Efforts
                                      Regulatory         per       all
                                       Revision         State    States
                                                       (hours)   (hours)
------------------------------------------------------------------------
I.5.............................  Revise the listing     5,600
                                   methodology.
I.6.............................  Develop                  900       450
                                   comprehensive
                                   schedules for
                                   TMDLs.
I.7.............................  Provide additional    28,000     5,600
                                   public
                                   participation.
I.8.............................  Revise the format      2,240
                                   for the listing
                                   methodology.
    Total Hours:................                        36,740     6,050
------------------------------------------------------------------------

    Thus, over the time horizon for this analysis (1999-2015), the 
proposed regulations would increase the effort of the current listing 
program by 36,740 hours for the 2000 listing and by 6,050 hours for 
each subsequent listing.
    The total listing effort for all States per listing cycle for both 
the current and proposed regulations is summarized in the following 
table:

         Total State Listing Program Effort Per Listing for All States
                    Due to the Current and Proposed Regulations
------------------------------------------------------------------------------
                                            Increment Due to
                                            Proposed Regula-  Total Resulting
                                            tions (hours-all  Effort (hours--
         Listing Year       Current Program (hours--States)   all States
                            (hours--States)                                                          ------------------------------------------------------------------------------
2000 listing..............    25,424..................  36,740          62,164
Each subsequent listing...    25,424..................   6,050          31,474
------------------------------------------------------------------------------

    Thus, under the current 2-year listing cycle, the States' total 
listing effort through 2015 would be 62,164 hours for the year 2000 
listing and 31,474 for each of the 7\1/2\ subsequent listings. The 
total effort through the year 2015 under the 2-year current listing 
cycle would amount to 298,219 hours or 143.4 FTE.

            Incremental Cost

    The current 2-year listing requirement would result in 8\1/2\ 
listings, occurring biennially starting in 2000 and continuing through 
2015. As shown above, taking into account the requirements of the 
proposed regulations, the total effort under the current 2-year listing 
cycle would be 143.4 FTE.
    Option C would lengthen the listing cycle to 5 years, requiring 
only 4 listings over the same period (i.e., for 2000, 2005, 2010 and 
2015). It is not anticipated that a 5-year listing would require more 
effort than a 2-year listing. In addition, Option C does not affect the 
effort needed for the 2000 listing. Consequently, the total effort 
associated with Option C is 62,164 hours for the year 2000 listing and 
31,474 for each of the subsequent 3 listings, for a total of 156,586 
hours or 75.3 FTE.
    Therefore, Option C results in substantial savings compared to the 
current 2-year listing cycle, as summarized in the following table:


   Savings To States Associated with Option C: Lengthening The Listing
Cycle to 5 Years through 2015 for Two Cases: 1) the Current Program Only
                         and 2) the New Program
------------------------------------------------------------------------
                                     Total Effort for All      Savings
                                      States Through 2015      Through
                                  -------------------------- 2015 Option
                                                              C: 5-Year
      Applicable Regulations          2-Year    Option C: 5-  Cycle Over
                                      Cycle      Year Cycle    Current
                                   (hours--all  (hours--all     Cycle
                                     States)      States)    (hours--all
                                                               States)
------------------------------------------------------------------------
1. Current Program...............      216,104      101,696      114,408
2. Including Proposal............      298,219      156,586      141,633
------------------------------------------------------------------------

    Including the proposed regulations, Option C amounts to a savings 
over the baseline of 141,633 hours or 68.1 FTE. Furthermore, even with 
the increased effort that results from the requirements of the proposed 
regulations, the resulting effort of 156,586 hours is still less than 
the current effort of 216,104 hours under the existing regulations--
this amounts to a savings through 2015 of 59,536 hours or a 27 percent 
reduction of effort.
    The cost associated with the 31,474 hours for each list beyond the 
year 2000 is $1,270,621. For the current 2-year listing cycle, the 
present value of completing the 7\1/2\ lists from 2002 through 2015 
would be $5,232,210. The present value for the Option C listing cycle 
for the three lists on 2005, 2010 and 2015 would be $1,880,734. 
Therefore the present value of the savings associated with the 5-year 
cycle of Option C is $3,351,476 and the annualized incremental savings 
through 2015 would be $320,818.

                             I.11. SUMMARY

    The costs and savings associated with the proposed revisions 
discussed in this chapter are summarized in the table on the following 
page. As shown in the table, the proposed revisions affecting the 
listing program through 2015 are expected to amount to an annualized 
cost of about $230,000.
    If Option B or Option C for the listing cycle were selected, then a 
savings would result that would offset some or all of the additional 
listing program costs of the proposed regulation. Using Option C as an 
example, switching to a 5-year cycle after the 2000 listing would save 
about $320,000 annually, more than offsetting the additional listing 
program costs of the proposed regulation, and resulting in a net annual 
savings over this period of about $90,000 per year.


    Summary of the Incremental Costs and Savings Associated with the
             Proposed Revisions to the Listing Requirements
------------------------------------------------------------------------
                                                              Annualized
                                                                 Cost
                      Proposed Revision                        (Thousand
                                                                  $)
------------------------------------------------------------------------
I.1. Clarifying the definition of ``threatened''............
I.2. Codifying the scope of lists to include waterbodies
 Impaired or threatened by atmospheric deposition & all
 combinations of point and nonpoint sources.................
I.3. Expanding the scope of the lists to include waterbodies
 impaired or threatened by pollution (as well as
 pollutants). (Additional public participation cost included
 in #7).....................................................
I.4. Requiring that waterbodies remain listed until
 standards are attained.....................................
I.5. Listed waterbodies must be grouped into 4 Parts, with         $22
 only Part 1 waterbodies requiring TMDLs. Part 1 waterbodies
 be prioritized into high, medium and low priorities.
 (Additional public participation cost is included in 7)....
I.6. A State's list must include a schedule for establishing       $10
 each TMDL..................................................
I.7. Listing ``methodology'' must be subject to public            $190
 review and submitted to EPA on January 31 before each
 submission. (Includes public participation cost of 3 & 5)..
I.8. New format for the listing methodology.................        $8
I.9. Requiring lists to be submitted October 1 instead of
 April 1....................................................
------------------------------------------------------------------------
    Total Annualized Incremental Cost (1998 $)..............      $230

I.10. Option C: Changing to a 5-year cycle from a 2-year        ($320)
 cycle after the 2000 listing...............................
------------------------------------------------------------------------
    Total Annualized Cost (1998 $) Including Option C (net       ($90)
     Savings)...............................................
------------------------------------------------------------------------

  II. PROPOSED REVISIONS AFFECTING THE DEVELOPMENT & CONTENT OF TMDLS

    The proposed revisions affect how TMDLs are to be developed and 
what must be included, as follows:
    1. All TMDLs must include each of the following elements:
    Waterbody name and geographic location;
    Target pollutant load;
    Deviation from the target;
    Sources;
    Wasteload allocation and load allocation;
    Margin of safety;
    Seasonal variation;
    Allowance for future growth; and
    Implementation plan.
    2. States must meet minimum requirements for public participation 
in TMDL development.
    These provisions potentially add to the tasks that are typically 
performed for each TMDL. We estimate the cost of these provisions by: 
1) estimating the additional LOE needed to perform each new task for a 
typical TMDL; 2) converting this LOE into a corresponding cost; and 3) 
multiplying this unit cost by the projected number of TMDLs for which 
this task will have to be done.
    The incremental impact of each of these revisions is discussed 
below. The combined incremental impact of these revisions is summarized 
at the conclusion of this section.

II.1. All TMDLs must include specified elements

            Requirement
    The proposed regulations require that a TMDL include: (1) 
identification of the name and geographic location of the waterbody; 
(2) identification of the pollutant load that may be present and still 
assure attainment and maintenance of water quality standards (WQS); (3) 
identification of the amount by which the current pollutant load 
deviates from this target; (4) identification of the source categories, 
subcategories and individual sources of the pollutant; (5) WLAs for 
pollutants from point sources, and LAs for pollutants from nonpoint 
sources, including atmospheric deposition and natural background; (6) a 
margin of safety, expressed as unallocated assimilative capacity or 
conservative analytical assumptions used in calculating the TMDL; (7) 
seasonal variation such that WQS will be met during all seasons of the 
year; (8) an allowance for future growth that accounts for reasonably 
foreseeable increases in pollutant loads; and (9) an implementation 
plan, including 8 minimum elements described below.

            Baseline
    Items (1) through (7) in this list of required elements are 
explicitly required by existing regulations (40 CF11 130.2(i) and 
130.7(c)(1)). Item (8) requires a State to reserve an amount for future 
growth in their allocation strategy that accounts for reasonably 
foreseeable increases in pollutant loads and explain this decision. 
This is not currently an explicit requirement for TMDLs, although many 
TMDLs have included such reserves for future growth. This new 
requirement is discussed further in section II.1 a., below. Item (9), 
an implementation plan, represents another new requirement that many 
previous TMDLs have nevertheless included. It is discussed in section 
II.1b., below.

            Incremental Cost
    Each of the proposed required elements (1) through (7) represents a 
reiteration and clarification of existing regulatory requirements and 
common TMDL practice. As such, these proposed requirements add no 
incremental costs. The costs of the new requirements, items (8) and 
(9), are discussed below.

    II.1a. All TMDLs must include an allowance for future growth that 
accounts for reasonably foreseeable increases in pollutant loads

                              REQUIREMENT
    The proposed regulations require that a TMDL provide, in the 
allocation strategy, for foreseeable increases in pollutant loads. The 
State must document its decisionmaking process in determining the 
amount of this allowance for growth, and should explain to stakeholders 
the implications of the growth allocation decision.

                                BASELINE
    In developing TMDLs, States have pursued a variety of approaches 
with respect to projected future growth in pollution loads:
    In some cases, a portion of the target load is reserved--not 
allocated to any source or category of sources--for future growth. In 
these cases, the sum total of the WLAs, the LAs and the margin of 
safety is less than the target load that will assure attainment and 
maintenance of WQS.
    In other cases, the full target load is allocated across all 
sources and categories of sources, but the allocations to such 
categories as natural background, upstream loadings and air deposition 
reflect their projected load growth over time. In these cases, the 
allocations to the remaining sources and categories are sufficiently 
limited that WQS will be attained and maintained even when the 
projected future loadings growth from natural background, etc. occurs.
    In other cases, inadequate or no provision is made for growth. 
Sometimes likely growth in nonpoint source category loads is ignored, 
too much of the target loading is allocated to point sources, and the 
WLAs given to point sources eventually prove to be too high when growth 
in nonpoint source loads occurs.
    The first two of these common approaches will be allowable under 
the proposed regulations, the third will not be. No information is 
available on the relative frequency with which recent TMDLs have 
employed one or another of these approaches.

            Incremental Cost
    The proposed provision requiring an allowance for foreseeable 
growth will necessitate changed practice only for the portion of TMDLs 
like the third category. In our view, the requirement to provide for 
foreseeable growth will result in cost savings for these TMDLs. A TMDL 
that does not properly account for likely growth will ultimately prove 
insufficient to attain and maintain WQS when the growth occurs, and the 
TMDL will need to be redone. Much of the TMDL process will need to be 
repeated, and the WLAs and/or LAs for some sources or categories will 
need to be ratcheted down. Sources will need to implement control 
measures to meet the original WLA or LA, and then to implement 
additional controls to meet the subsequent, tighter requirements. This 
two-step process that becomes necessary when growth is not properly 
accounted for will likely be more costly to both the State and to the 
sources than it would have been to account for likely growth and get 
the TMDL right the first time. We are unable to estimate the likely 
magnitude of this savings.

II.1b. States must develop an implementation plan for each TMDL. 
        including 8 required elements

            Requirement
    The eight elements required in implementation plans include: (1) a 
description of the control actions and/or management measures needed to 
implement the TMDL; (2) a timeline for the implementation activities, 
including a schedule for revising NPDES permits, implementation of 
BMPs, etc.; (3) reasonable assurance that the implementation activities 
will occur; (4) a description of the legal authorities under which 
implementation will occur; (5) an estimate of the time required to 
attain water quality standards; (6) a monitoring plan to determine the 
effectiveness of the implementation actions; (7) a description of 
milestones that will be used to measure progress in attaining WQS; and 
(8) a description of when failure to meet milestones will trigger a 
revision of the TMDL.
    The proposed regulations will allow a State substantial flexibility 
regarding the scale at which these implementation-related components of 
a TMDL must be developed. In general, the scale at which an 
implementation plan is written should match the scale at which the 
TMDLs have been done. Thus, it may sometimes be appropriate for a State 
to develop an implementation plan for each particular TMDL for each 
specific water. Other times, it may be appropriate to develop a broader 
implementation plan that covers multiple waters in a watershed if all 
these waters had their TMDLs developed in an aggregated watershed-wide 
process or if all the waters suffered from similar problems caused by 
similar sources. In some cases, it might even be appropriate for the 
State to develop a single broadly applicable State-wide implementation 
plan if there was substantial similarity in how the State planned to 
implement the TMDLs in all the State's listed waters of some particular 
variety.
    The proposed requirement that a State provide reasonable assurance 
that implementation activities will occur merits further explanation. A 
State must demonstrate with a high degree of confidence that WLAs and 
LAs will be implemented. For point sources, this means that NPDES 
permits must be revised consistent with any WLA contained in the TMDL. 
For nonpoint sources, reasonable assurance can be demonstrated if the 
planned nonpoint source controls are specific to the pollutant of 
concern, implemented according to an expeditious schedule, and 
supported by reliable delivery mechanisms and adequate funding. 
Examples of reasonable assurance for nonpoint sources might include 
State regulations or local ordinances, performance bonds, memoranda of 
understanding, contracts or similar arrangements.

            Baseline
    These proposed requirements are new in the sense that current 
regulations do not explicitly require TMDLs to include implementation 
plans. They are not new, however, in the sense that most of these 
elements have long been understood to be included in thorough TMDLs, 
and perhaps roughly i/. of the TMDLs in fact have included them. \8\ 
Also, all of these elements are currently required to be addressed in 
State WQM plans, albeit on a more aggregated State-wide or basin-wide 
basis than would be required by the proposed regulations. In essence, 
States currently generate most or all of the information needed to 
prepare TMDL-specific implementation plans, but usually generate such 
plans at a higher level of aggregation.
---------------------------------------------------------------------------
    \8\ Discussions with a State representative and consultants who 
have assisted in preparing a great many TMDLs for States suggest that 
perhaps roughly a quarter of the TMDLs that have been developed 
recently have included all eight required implementation plan 
components. This is consistent with the results of a recent review of a 
sample set of TMDLs received by the Agency, in which \1/3\ of the 
States that submitted TMDLs included ``good'' implementation plans.
---------------------------------------------------------------------------
    With respect specifically to the required demonstration of 
reasonable assurance, States currently do so for all TMDLs involving 
point sources, but do not necessarily now do so for TMDLs involving 
nonpoint sources only. For TMDLs involving nonpoint sources only, the 
baseline of current State TMDL practice falls somewhat short of the 
proposed reasonable assurance requirement:
    For TMDLs involving point sources only. States currently 
demonstrate reasonable assurance regarding WLAs for point sources by 
providing the schedule by which NPDES permits for the relevant point 
sources will be revised to incorporate their WLAs. Existing regulations 
require NPDES permits to incorporate effluent limitations consistent 
with an applicable TMDL (40 CFR 122.44(d)).
    For TMDLs involving both point and nonpoint sources. EPA's 1991 
TMDL program guidance provides that if a point source NPDES permit 
limit is based on a WLA that relies on nonpoint source load reductions, 
then the NPDES permit record must include (1) reasonable assurance that 
the needed nonpoint source controls will be implemented and maintained, 
or (2) a monitoring program to demonstrate the nonpoint source load 
reductions. NPDES permits must provide for more stringent limits on the 
point source if the expected nonpoint source load reductions are not 
demonstrated. In effect, reasonable assurance for implementation of an 
entire TMDL involving both point and nonpoint sources is provided by 
existing, mandatory regulatory controls over point sources.
    For TMDLs involving nonpoint sources only. Current regulations do 
not require States to have or demonstrate assured controls over 
nonpoint sources. In practice, States have a wide variety of workable 
mechanisms for control of different sorts of nonpoint sources. \9\ For 
probably the majority of nonpoint source TMDL situations that arise, 
States likely have within this tool kit of mechanisms and authorities 
some that can provide reasonable assurance. States have developed many 
TMDLs that do include effective measures to assure achievement of LAs 
for nonpoint sources. However, the pattern of potential State 
authorities over nonpoint sources is widely varied, and there are 
undoubtedly TMDL situations that arise in one or another State where 
that State does not currently have an assured means of controlling the 
load from some category of nonpoint sources. For example, State 
authority to control air deposition to waters, particularly when the 
sources of the air emissions are dispersed or from other States, is 
limited. As another example, State mechanisms for control over 
agricultural nonpoint sources also open not rise to the level of 
reasonable assurances. \10\
---------------------------------------------------------------------------
    \9\ See, for example, this summary: Environmental Law Institute. 
Enforceable State Mechanisms for the Control of Nonpoint Source Water 
Pollution. October, 1997.
    \10\ The Environmental Law Institute study cited above observes, 
for example:
    ``Agriculture is the most problematic area for enforceable 
mechanisms. Many laws of general applicability, as noted above, have 
exceptions for agriculture. Where state laws exist, they often defer to 
incentives, cost-sharing, and voluntary programs. Nevertheless, about a 
fifth of the states have some statewide sediment requirements 
applicable to agriculture, often administered by local governments or 
soil and water conservation districts. Even more states (about a 
fourth) authorize individual soil and water conservation districts, as 
a matter of local option, to adopt enforceable ``land use regulations'' 
for the control of erosion and sedimentation, but most of these require 
approval by landowner referendum, with approval requiring a super-
majority (ranging from 66 to 90 percent) in order for such regulations 
to become effective.''
---------------------------------------------------------------------------
    In short, for TMDLs involving nonpoint sources only, current State 
practice often falls short of the requirements of the proposed 
regulations. There are two reasons for this. First, most commonly, 
States often develop TMDLs without including an implementation plan. In 
these cases, the issue of demonstrating reasonable assurance for 
nonpoint source controls never arises. Second, less commonly, for some 
nonpoint source TMDL situations, the State does not have an authority 
or mechanism for a relevant category of nonpoint sources that would be 
sufficiently effective as to constitute reasonable assurance. The first 
of these shortcomings relative to the requirements of the proposed 
regulations would obviously be easier for a State to rectify than the 
second.

            Incremental Cost
    For a typical TMDL that does not include an implementation plan, a 
State representative estimates the average additional LOE necessary to 
meet the requirements of the proposed regulation as:
    Preparing a monitoring plan--75 to 100 hours; and
    Preparing the remaining eight required elements of an 
implementation plan--75 to 100 more hours. Some of the remaining eight 
elements are prepared as a matter of course in developing TMDLs 
currently, including the description of planned control actions, 
reasonable assurances for point source controls, and at least a rough 
timeline, estimate of the time required to attain WQS, and set of 
milestones. Other elements, such as the required description of the 
legal authorities under which implementation will occur and reasonable 
assurance for nonpoint sources can typically be developed easily from 
existing materials in the State's WQM plan and section 319 plan. Other 
elements, such as the required description of when failure to meet 
milestones will trigger a revision of the TMDL, can rely largely on 
State-wide policy that needs only little tailoring for adaptation to a 
particular TMDL.
    In total, the eight required elements of an implementation plan 
would add $6,056 to $8,074 (150 to 200 hours at a cost of $40.37 per 
hour) to the cost of a typical TMDL that did not include them.
    In addition, for some sorts of nonpoint source TMDLs in some 
States, no adequate authorities or mechanisms will exist allowing 
demonstration of reasonable assurance. In such instances, the State 
would have a choice between: 1) developing adequate authorities; or 2) 
developing a TMDL that does not include reasonable assurance and that 
is therefore not approvable by EPA. For these States, the first course 
would likely be difficult (the State would presumably need to establish 
new legal and enforcement authorities or find adequate funding to 
ensure compliance by the nonpoint sources with their LAs) and the 
outcome would be unpredictable (the State might not succeed in 
establishing the new authorities). Under the second course, in the 
absence of an approvable TMDL from the State, EPA would need to develop 
the TMDL itself. The proposed regulations include revisions to EPA's 
NPDES permitting rules that describe how EPA will proceed in such cases 
where EPA must develop a TMDL because the State cannot provide 
reasonable assurances for implementation. For cost estimating purposes, 
we assume the second of these courses. We have no basis for estimating 
what the costs might be for States to develop the additional 
authorities necessary so they can provide reasonable assurance for 
implementation for all nonpoint source TMDLs. Instead, in the portion 
of the cost analysis addressing the proposed changes to the permitting 
rules, we estimate the costs for EPA in cases where States have 
inadequate authorities for reasonable assurance. That analysis is 
provided in a separate report. Thus, the incremental costs for meeting 
the reasonable assurance requirements of the proposed regulations are 
not covered in this chapter.

II.2. States must meet minimum requirements for public participation in 
        TMDL development

            Requirement
    The proposed regulations require States to provide the public with 
at least 30 days to comment on TMDLs prior to their submission to EPA. 
In addition, the State must provide EPA with a written summary and 
response to public comments.

            Baseline
    Existing regulations (40 CFR 130.7(c)(1)(ii)) require ``that 
calculations to establish TMDLs shall be subject to public review as 
defined in the State CPP''. EPA has long encouraged States to carry out 
hill public participation in establishing TMDLs consistent with States' 
administrative procedures requirements. All or nearly all States now 
routinely provide for public notice and comment and the opportunity for 
a hearing in their TMDL processes. It is not known how many States 
develop a written summary and response to public comments.

            Incremental Cost
    A State representative has estimated that providing for additional 
public participation consistent with the proposed regulations and 
beyond that which routinely occurs (i.e., developing a written summary 
and response to public comments, and increasing the proportion of TMDLs 
for which a public hearing is held) might require an average of 100 
hours (or $4,037 at $40.37 per hour) per TMDL.

II.3. Scaling Up the Cost Estimates From a Single Typical TMDL to All 
        TMDLs

    In this section, we have estimated the following incremental costs 
for a typical TMDL to meet the additional requirements of the proposed 
regulations:





7 required elements of a TMDL......  No cost
Allowance for future growth........  Savings not estimated
Implementation plan................  $6,056 to $8,074 (150 to 200 hours)
Reasonable assurance (some nonpoint  EPA's cost is estimated in the
 source TMDLs).                       permit rule analysis
Additional public participation....  $4,037 (100 hours)


    These costs represent unit costs that must be scaled up by the 
number of TMDLs for which these additional elements will need to be 
developed.
    In the Methodology section, we estimate that 20,000--40,000 TMDLs 
will need to be developed during the period of analysis. If we assume 
that implementation plans sufficient to meet the proposed new 
requirements are routinely developed now for about one quarter of all 
TMDLs and that this baseline practice will continue in the future, 
three quarters of all future TMDLs (roughly 15,000--30,000 of them) 
will face incremental costs for implementation plans under the proposed 
regulations. The estimated additional costs for enhanced public 
participation will apply to all 20,000--40,000 future TMDLs.
    To the extent that the required implementation plan and public 
participation requirements are met on an aggregated watershed basis 
rather than individually for each TMDL, the number of instances in 
which these additional activities will need to occur will be less than 
shown above. We have no adequate basis for estimating the likely extent 
to which such geographic aggregation will occur and reduce the 
incremental workload. To be conservative, we will assume no geographic 
aggregation. We assume that the additional workload for implementation 
plans will be necessary for three quarters of all TMDLs (15,000 to 
30,000 of them), and the additional workload for enhanced public 
participation will be necessary for all TMDLs (20,000 to 40,000 of 
them).
    Multiplying these numbers of TMDLs needing additional work by the 
added cost for a typical TMDL and annualizing over the 17-year period 
of analysis, we estimate the cost of the proposed new requirements to 
be $10.1--$23.8 million per year.

II.4. Summary
    The costs of the proposed revisions discussed in this chapter are 
summarized below:


 Summary of the Incremental Costs Associated With the Proposed Revisions
                     Affecting the Content of TMDLs
------------------------------------------------------------------------
                   Proposed Revision
-------------------------------------------------------  Annualized Cost
                                                           (million $)
------------------------------------------------------------------------
1. TMDLs must include 9          7 elements...........  0
 elements:.
                                 Allowance for future   Savings
                                  growth.
                                 Implementation plan..  5.3-14.3
                                 (Reasonable            (estimated
                                  assurances).           elsewhere)

2. Minimum required public       .....................  4.8-9.5
 participation in TMDL
 development.
    Total......................  .....................  10.1-23.8
------------------------------------------------------------------------

       iii. tmdls must be completed within specific time periods
    As discussed previously in chapter 1, the proposed regulations 
require that TMDLs be developed for Part 1 waterbodies and that States 
must determine the priority of these TMDLs as either high, medium or 
low priority. All Part 1 waterbodies must have TMDLs completed for them 
within 15 years as described below:
    TMDLs for high priority Part 1 waterbodies must be completed before 
low and medium priority waterbodies. When feasible, EPA encourages 
States to adopt a goal of completing the development of TMDLs for high 
priority waterbodies within 5 years. However, EPA recognizes that a 5-
year timeframe may not be feasible for all States.
    TMDLs for all Part 1 waterbodies must be completed within 15 years 
of being listed as Part 1 waterbodies. Thus, for example, waterbodies 
that are newly listed Part 1 waterbodies in the year 2000 must have 
completed TMDLs by 2015; similarly, TMDLs for waterbodies that are 
newly listed, for example, in 2010 must be completed by 2025.
    Requiring that TMDLs for Part 1 waterbodies be developed within 
specific time periods might result in the acceleration of the 
development of some of these TMDLs relative to the pace that might have 
occurred in the baseline. Accelerating the development of a TMDL 
results in its cost of development being incurred sooner, and therefore 
increases the present value cost of TMDL development.
    The potential cost impacts of accelerating the development of TMDLs 
that might have otherwise taken longer than required by the proposed 
regulations are estimated in this chapter for the following proposed 
requirements:
    Requiring that TMDLs for high priority Part 1 waterbodies be 
developed first, and requiring that high priority waterbodies include 
all those for which the designated use is public drinking water supply 
or that contain or serve as habitat for endangered or threatened 
species.
    Requiring that TMDLs for all Part 1 waterbodies, regardless of 
priority, be developed within 15 years of listing as Part 1.
    The incremental costs of these requirements due to resulting 
changes in the listing process were covered in chapter I.

III.1. TMDLs for high priority Part 1 waterbodies must be developed 
        first

            Requirement
    The proposed regulations require that States identify all Part 1 
waterbodies for which the designated use is public drinking water 
supply or that contain or serve as habitat for endangered or threatened 
species under section 4 of the Endangered Species Act. These must be 
classified as high priority, and TMDLs for these waterbodies must be 
completed first. States are encouraged to adopt a goal of completing 
TMDLs for high priority waterbodies within 5 years of being listed as a 
Part 1 waterbody.

            Baseline
    As discussed further in section III.2. below, nearly all States 
have committed to completing TMDLs for all of their Part 1 waterbodies 
within 15 years. Of these States, 21 States have committed to schedules 
of 10 years or less. To accomplish any of these schedules, substantial 
portions of the States' TMDL workload would need to be completed within 
the first 5 to 10 years in the baseline.

            Incremental Cost
    It is not anticipated that this proposed requirement will result in 
incremental costs to the States for several reasons.
    To the extent that States have waterbodies for which the designated 
use is public drinking water supply or that contain or serve as habitat 
for endangered or threatened species, the Agency believes that States 
would have scheduled prompt development of TMDLs for these waterbodies 
in the baseline anyway.
    The proposed regulation allows waterbodies which have endangered 
species present to be assigned a medium or low priority if the State 
has an approved Habitat Conservation Plan or other specific, 
enforceable mechanism developed in accordance with the Endangered 
Species Act. \11\
---------------------------------------------------------------------------
    \11\ This regulation, however, does not require consultation with 
the U.S. Fish and Wildlife Service.
---------------------------------------------------------------------------
    The goal of completing TMDLs for high priority waters within 5 
years will likely be feasible for many States. Given the States' 
current commitments to complete their TMDLs within the next 10-15 
years, States will generally be developing an appreciable fraction 
(perhaps \1/4\-\1/3\) of their TMDLs within the next 5 years anyway. 
Therefore, it should not be difficult for many States to sequence TMDL 
development schedules to ensure that TMDLs for high priority waters be 
developed first, and completed within 5 years. EPA recognizes that this 
timeframe may not be feasible for all States. Therefore, the 5-year 
completion timeframe is only a goal, not a requirement.
    Thus, the proposed regulations' requirement to complete TMDLs for 
high priority waterbodies first will not result in increased costs 
because the Agency believes that TMDLs for these waterbodies would 
likely have been scheduled for priority development by States anyway in 
the baseline; and if not, overall TMDL development schedules could 
readily be re-sequenced within the States' current commitments in the 
1998 listing program to address the high priority TMDLs first. Finally, 
the goal of completing TMDLs for high priority waters within 5 years is 
a goal, not a requirement.

III.2. All Part 1 waterbodies must have TMDLs completed for them within 
        I 5 years

            Requirement
    The proposed regulations require that TMDLs for all priority Part 1 
waterbodies be developed within 15 years. This schedule will be 
required for all Part 1 waterbodies starting with the 2000 listing--
TMDLs for these waterbodies must be completed by 2015. Waterbodies 
listed in 1998 actually have a 17-year maximum schedule, since the 15-
year time limit does not apply until the 2000 listing. In listings 
subsequent to 2000, TMDLs for newly listed Part 1 waterbodies will need 
to be completed within 15 years from their listing date. The following 
calculations focus on the cost of this requirement for the TMDLs that 
will need to be completed within the 17 years through 2015.

            Baseline
    Most States have already committed to completing TMDLs for their 
currently listed waterbodies prior to 2015--i.e., they will not be 
affected by the proposed revision. Based on EPA's December 11, 1998 
Status of 1998 303(d) Lists, 48 States have committed to schedules and 
sent them to EPA. Schedules are anticipated soon for the remaining 8 
States. Draft schedules are available for 5 of these States. Therefore, 
at this point, we have a basis for estimating the TMDL completion 
schedules for 53 States, which represent 95 percent of the listed 
waterbodies. Over the next few months, the remaining 3 States will 
submit their schedules, eliminating the need for any assumptions 
regarding their schedules.
    For the 53 States (having draft schedules or final schedules), 
commitments for completing TMDLs for their 1998 listed waterbodies 
range from 3 years to 20 years (i.e., completion by 2001 to 2018). Only 
two of these States have scheduled TMDLs to be completed past 2015: 
Missouri and New Mexico. However, New Mexico's Consent Decree 
specifically allows it to develop TMDLs for its 1996 listed waterbodies 
through 2018, and therefore New Mexico is not subject to the 15-year 
requirement of the proposed revision. Missouri has listed about 77 
waterbodies. Assuming that Missouri will develop TMDLs uniformly 
through 2018, then TMDLs for about 12 waterbodies are currently 
scheduled to be developed past 2015.
    It is more difficult to determine the baseline for the remaining 3 
States whose schedules are still pending. Therefore, we provide a range 
of possibilities. Based on the schedules for the 53 States, it would be 
reasonable to anticipate that all of the TMDLs for 1998 listed 
waterbodies for the remaining 3 States will be completed by 2015. This 
assumption provides the basis for our ``low'' estimate. To provide a 
``high'' estimate we assumed that all of the remaining 3 States will 
complete their TMDLs by 2020 instead of by 2015, exceeding by 2 years 
the longest of any of the State schedules that have been submitted. 
This is a very conservative assumption since only 2 of the 53 States 
with schedules extend to even 2018. Assuming that these 3 States 
develop TMDLs uniformly through 2020, then under the ``high'' estimate, 
TMDLs for an additional 249 waterbodies are scheduled to be developed 
past 2015.
    Thus, given current State commitments, at least 52 States will not 
be affected by the proposed revision requiring that TMDLs be developed 
by 2015 (51 States with current or expected schedules prior to 2015, 
and New Mexico). 1 -4 States may-need to accelerate the development of 
TMDLs for as many as 12-249 1998-listed waterbodies. This range should 
narrow over the next few months as States submit their schedules for 
developing TMDLs. The details of this baseline analysis of TMDL 
development are shown in Attachment 1, which provides State-by-State 
schedules and projected year-by-year TMDL development by State past 
2015.
    As discussed in the Methodology section, it is important to note 
that the number of listed waterbodies requiring TMDLs is only an 
indication of the number of waters needing TMDLs, not the actual number 
of TMDLs that will be done.
    To some extent, the number of 1998 listed waterbodies can overstate 
the number of waterbodies that will require TMDLs, because not all 
1998-listed waterbodies will be considered to be Part 1 waterbodies In 
the 2000 listing, some of these waterbodies will be classified as Part 
2 waterbodies (which do not require TMDLs because the are not impaired 
due to pollutants), some will be classified as Part 3 waterbodies (for 
winch a TMDL has been completed) and some will be classified as Part 4 
waterbodies (which do not require TMDLs because other measles will 
address the problems). Therefore, since the 12-249 estimate of 
waterbodies for which TMDLs that might be developed past 2015 assumed 
that all 1998-listed waterbodies would be Part 1 waterbodies, it is 
likely that this estimate is overstated.
    On the other hand, most listed waterbodies have more than one cause 
of impairment and a TMDL may be needed to address each cause. For the 
1996 listings there were slightly more than twice as many causes as 
waterbodies, and for the 1998 listings there were slightly less than 
twice as many causes as waterbodies. If each cause requires a TMDL, 
then about twice as many TMDLs would be required as waterbodies. 
However, TMDLs that handle multiple causes can be developed.
    For this analysis, we have assumed that the number of TMDLs to be 
completed ranges from the number of listed waterbodies to twice this 
number of waterbodies. Thus, the number of TMDLs that in the baseline 
would be developed past 2015 would range from 12 to 499 \12\:
---------------------------------------------------------------------------
    \12\ From Attachment 1. the low end is 11.6 waterbodies rounded up 
to 12, and the high end is 249.3 x 2 = 498.6 rounded up to 499.
---------------------------------------------------------------------------
    The low end of the range (12 TMDLs) assumes that all 3 States 
without schedules submitted yet will choose schedules completing TMDLs 
for their listed waterbodies prior to 2015. The low end of the range 
also assumes that the number of 1998 listed waterbodies likely 
significantly overstates the number that will eventually be categorized 
as Part 1. This also assumes that multiple causes for a listed water 
will not commonly necessitate multiple TMDLs for that water.
    The high end of the range (499 TMDLs) assumes that all 3 States 
will submit schedules that reflect even longer timeframes than those 
that have been submitted to date (i.e., completion by 2020). It also 
assumes that separate TMDLs will generally be needed to address every 
cause.
    This broad range provides the basis for analyzing the incremental 
cost of the acceleration of TMDL development caused by the proposed 
rule's requirement that TMDLs must be completed within 15 years after a 
water is listed.

            Incremental Cost
    In the absence of the proposed rule, we assume that approximately 
12-499 TMDLs would be developed (we assume at a steady rate) between 
2016 and 2020. As a result of the proposed rule, the development of 
these TMDLs will need to be accelerated, and we assume they will be 
rescheduled to be developed at a steady rate between 1999 and 2015. The 
incremental cost of accelerating the development of these TMDLs is the 
time-value of incurring these expenditures sooner. This is just the 
difference between the present value of completing the TMDLs under the 
baseline schedule versus the present value of completing the TMDLs 
under the new schedule required by the proposed rule.
    Thus far, we have estimated the number of TMDLs and their alternate 
schedules. The remaining key element that is needed is the average cost 
of developing these TMDLs. Studies estimating the cost of TMDL 
development have shown a wide range of potential cost. For example, one 
study \13\ examined 14 TMDL case studies in which the costs ranged from 
about $4,000 to $1,000,000. The costs for six of the TMDLs were under 
$22,000 and the costs for the remaining eight were over $145,000. The 
cost for a given TMDL can depend on a wide range of factors including 
the watershed size, the complexity of the analytic work needed, the 
number and type of pollutants addressed, and the level of public 
interest. There are reasons to expect that the average cost to develop 
a TMDL will be at the low end of the range found in this study, and 
that the average cost will decline over time:
---------------------------------------------------------------------------
    \13\ EPA, TMDL Development Cost Estimates: Case Studies of 14 
TMDLs. EPA-R-96-001, May 1996.
---------------------------------------------------------------------------
    The cost depends on the extant to which TMDLs for similar 
circumstances have been developed and on the extent of the State's 
experience in developing TMDLs. The first TMDLs to be developed tend to 
be the most costly because staff is less experienced and many technical 
issues will be addressed for the first time. As more TMDLs are 
completed, staff will become more experienced and the work routine, so 
that the cost of developing TMDLs will tend to decline.
    Recent experience has shown that once a ``template'' is created for 
developing TMDLs for a pollutant, that approach can often be applied to 
other waterbodies at a relatively low cost.
    The technology for developing TDMLs has steadily improved over the 
years and its cost has declined.
    As States increasingly adopt a watershed approach, some costs, such 
as for public participation, can decrease dramatically on a per/TMDL 
basis. For example, a single public participation process at the 
watershed level, costing, say, $50,000, might serve to take the place 
of similar efforts for perhaps tan TMDLs, resulting in a cost of $5,000 
per TMDL.
    Thus, while the cost of developing a specific TMDL might be at the 
higher end of the range, the average cost of developing TMDLs across 
the program is expected to be at the lower and of the range.
    For this report, the average cost of developing a TMDL is assumed 
to be $25,000. This includes the increased costs that were identified 
in chapter II of this report as likely to result from the proposed 
regulations. Note that the cost estimates for accelerating the 
development of TMDLs depend directly on this assumption: if the assumed 
average cost of developing a TMDL were increased to $50,000 the 
estimated incremental cost of accelerating TMDL development would 
double; if the assumed average cost of developing a TMDL were decreased 
to $12,500, the estimated incremental cost of accelerating TMDL 
development would decline by 50 percent.
    The detailed calculations for the cost of accelerating the 
development of 12-499 TMDLs so that they are completed by 2015 are 
shown in Attachment 2--Attachment 2 shows the step-by-step calculations 
that use the specific TMDL development patterns derived in Attachment 

1. The results are summarized below:
    Low estimate. The total cost of developing the 12 TMDLs over the 
period 2016-2020 is about $300,000 and its 1999 present value is about 
$85,000. Developing these 12 TMDLs over 1999-2015 has the same total 
cost, but a 1999 present value of about $175,000. Thus, the incremental 
cost of accelerating the development of these 12 TMDLs is about 
$90,000. The annual cost of acceleration as annualized over 1999-2015 
is about $9,000.
    High estimate. The total cost of developing 499 TMDLs over the 
period 2016-2020 is about $12.5 million and its 1999 present value is 
about $3.5 million. Developing these 499 TMDLs over 1999-2015 has the 
same total cost, but a 1999 present value of about $7.7 million. Thus, 
the incremental cost of accelerating the development of these 499 TMDLs 
is about $4.2 million. The annual cost of acceleration as annualized 
over 1999-2015 is about $400,000.
    In summary, given the assumptions made in this report, accelerating 
the development of 12-499 TMDLs from the period 2016-2020 to the period 
1999-2015 results in an increased annualized cost ranging from about 
$9,000 to about $400,000 through 2015. \14\
---------------------------------------------------------------------------
    \14\ Note that the incremental cost of accelerating TMDL 
development from the period 2016-2020 to the period 1999-2015 roughly 
results in doubling the cost of TMDL development. For example, for the 
low estimate of 12 TMDLs, the 1999 present value cost is roughly 
doubled from about $85,000 to about $175,000, for an incremental cost 
of about $90,500. This is not surprising, since on average, TMDL 
development is accelerated from about 2018 (the midpoint of the 
baseline period) to about 2007 (the midpoint of the accelerated 
development period). an average acceleration of about 11 years. At 7 
percent annually, time-value doubles in 10 years and increases to 210 
percent in 11 years. Conversely, delaying TMDL development by 10 years 
halves its cost.
---------------------------------------------------------------------------

  IV. INCREASED COSTS FOR EPA RESULTING FROM THE PROPOSED REGULATIONS

    The proposed regulations alter the requirements for States for the 
listing program and for the content and development of TMDLs. These 
requirements have implications for the Agency as well:
    1. Proposed revisions to the listing program and for the content of 
TMDLs will also result in increased costs to EPA for reviewing and 
approving lists and TMDLs.
    2. Options for reduced frequency with which lists must be submitted 
will reduce the number of State lists EPA must review and approve and 
thereby reduce cost to EPA.
    3. The suggestion that the public petition EPA for action to 
establish TMDLs rather than proceed directly to litigation will likely 
reduce costs for both EPA and the public.
    Each of these proposed requirements is evaluated in this chapter.
    This report does not evaluate the incremental costs to EPA in cases 
where EPA must develop portions of a TMDL if a State cannot provide 
reasonable assurance for implementation of the TMDL. The specific 
procedures for this are included in the proposed revisions to the 
Agency's permitting regulation, and a separate analysis addresses the 
incremental costs that may result.

IV.1. Proposed revisions to the listing program and for the content of 
        TMDLs will also result in increased costs for EPA for reviewing 
        and approving lists and TMDLs

            Requirement
    EPA's new requirements under the proposed revisions (as described 
in chapters I, II and III) will result in changes in the content of 
list submissions as well as of TMDLs.

            Baseline
    The Agency's current activities regarding the listing program and 
for reviewing/approving lists are identified in the Agency's current 
approved Information Collection Request (in effect for the 3-year 
period ending 2/28/99). The Agency is in the process of renewing the 
ICR for the next period (ending 2/28/01) and has developed new 
estimates for the Agency burden associated with these activities. The 
estimates for the current ICR and its proposed renewal are shown in the 
following table.
    The Agency has estimated that its burden will increase 
significantly over the next 3 years, primarily due to the increased 
pace for developing TMDLs that States have committed to in their 1998 
lists. This increase in the expected Agency burden is part of the 
baseline--as detailed in chapter III, States have already committed in 
their 1998 list submissions (in the baseline) to increasing the pace of 
TMDL development, and the State schedules are consistent with the 
requirements of the proposed regulation for nearly all of the States. 
This factor accounts for the bulk of the expected increase in the 
Agency's effort as anticipated in the ICR, amounting to 5,580 hours 
(out of the total increase 6,032 hours). This expected increase also 
includes consideration of any increased effort that might be associated 
with the proposed regulation's new requirements for the content of 
TMDLs.


     Comparison of EPA's Current and Expected Burden For Activities
Identified In Its Information Collection Requests for the 303(d) Program
------------------------------------------------------------------------
                                                          ICR Burden
                                                       Estimate (annual
                                                            hours)
                                           Frequency -------------------
    Description of Activity and Number      (years)   Existing   Renewal
                                                         (to       (to
                                                        March     March
                                                        1999)     2001)
------------------------------------------------------------------------
8. Prepare 303(d) guidance...............          1        62        62
9. Provide technical assistance to States          1        96       236
 for 303(d)..............................
10. Review draft 303(d) lists 2..........          2        96       236
11. Send TMDL approval/disapproval                 1        20     5,600
 notices to States.......................
12. Review final 303(d) lists. Negotiate           2       328       500
 to resolve disapprovals.................
    Total Annual Agency Burden...........                  602     6,634
    Expected Increase in Total Annual                              6,032
     Agency Burden.......................
------------------------------------------------------------------------

            Increment
    The new estimates for the Agency's effort for 303(d) activities 
also take into account the provisions of the proposed regulation for 
the listing program. As shovel in the following table, the Agency 
anticipates that its activities for preparing 303(d) guidance, 
providing technical assistance to States, reviewing draft lists, and 
reviewing final lists and negotiating to resolve disapprovals will 
increase by 452 hours annually--an increase of nearly 80 percent. At 
the average loaded hourly rate of $,40.37/hour used in the ICR to 
estimate the cost of the Federal burden, the increased effort is 
estimated to cost $ 18,247 annually.

IV.2. Options for altering the listing cycle will affect EPA's workload 
        by changing the number of lists EPA must evaluate

            Requirement
    As discussed in Chapter I, the proposed revision asks for comment 
on options for the listing cycle. These options include:
Option A         Retain the current 2-year listing cycle,
Option B         Adopt a 4-year or 5-year listing cycle immediately,
Option C         The first list submission under the new rule 
    would occur no later than October 1, 2000, with subsequent 
    list submissions occurring every 4 or every 5 years.

    As shown in Chapter I, using Option C as an example, lengthening 
the listing cycle would result in savings for States because fewer 
lists would need to be prepared. This assessment of the corresponding 
savings to the Agency also focuses on Option C, where a listing is 
still required for October, 2000 and subsequent listings are required 
every 5 years.

            Baseline
    The current listing cycle requires the submission of lists every 2 
years.

            Incremental Cost
    Altering the listing cycle would not be expected to affect the 
annual burden for EPA's activities for preparing 303(d) guidance, 
providing technical support to States, or sending TMDL approval/
disapproval notices to States. Altering the listing cycle would affect 
the Agency's annual effort for reviewing draft and final 303(d) lists 
and negotiating to resolve disapprovals. The Agency's total effort for 
these activities for a list submission is 1,472 hours. Switching from 
the current 2-year cycle to a 5-year cycle would lower the Agency's 
annual effort from 736 hours to 295 hours annually, for a savings of 
441 hours annually as shown in the following table.


Comparison of EPA's Burden For 303(d) Program Activities for the Current
                   2-Year Cycle Versus a 5-Year Cycle
------------------------------------------------------------------------
                                                   ICR Burden Estimate
                                     Current         (annual hours)
   Description of Activity and      Frequency  -------------------------
              Number                 (years)       2-Year       5-Year
                                                   Cycle        Cycle
------------------------------------------------------------------------
10. Review draft 303(d) lists....            2          236           95
12. Review final 303(d) lists.               2          500          200
 Negotiate to resolve
 disapprovals....................
    Total Annual Agency Burden...                       736          295
    Expected Decrease in Total                                       441
     Annual Agency Burden........
------------------------------------------------------------------------

    This savings of 441 hours annually would essentially offset the 
increased annual burden of 452 hours identified in the previous 
section. The value of the undiscounted savings is $ 17,803. However, 
since the bulk of these savings would be realized after the year 2000, 
the actual savings is slightly less as explained below.
    Putting it another way, the current 2-year cycle through the year 
2015 would require the Agency to provide 1,472 hours for 8\1/2\ listing 
cycles for a total effort of 12,512 hours. Option C, which maintains 
the 2000 listing but requires only an additional 3 listings through 
2015 would result in a burden of 5,888 hours. Thus, switching from a 2-
year to a 5-year cycle would save the Agency 6,624 hours after the 2000 
listing through the year 2015. Taking into account the pattern of 
savings through 2015, the present value of the savings would be 
$156,744 and the annualized savings over this period would be $15,004.

IV.3. The proposed regulations suggest that the public petition EPA for 
        action to establish TMDLs rather than proceed directly to 
        litigation

            Requirement
    The proposed regulation clarifies that the public must petition EPA 
prior to filing a lawsuit seeking to compel EPA to carry out TMDL 
program actions that States are directed to perform. The petition 
requirement applies only to discretionary EPA actions under CWA Section 
303(d). The petition requirement does not apply to non-discretionary 
EPA actions under Section 303(d) (i.e., to approve or disapprove a TMDL 
or list after it is submitted by a State, or to establish a TMDL or 
list if EPA disapproves a State's submission). For non-discretionary 
EPA actions, no petition is necessary and a party seeking to compel EPA 
action may proceed directly to litigation.
    The petition requirement will apply to discretionary EPA actions 
such as establishing TMDLs for a State in the alleged absence of State 
TMDL activity. Several groups objecting to what they view as slow State 
progress on TMDLs have filed lawsuits to compel EPA to step in and 
develop TMDLs or lists for a State. In such cases, EPA feels that 
litigation is premature because the Agency has not yet made a final 
decision whether or not to establish TMDLs or lists in place of the 
State. Absent a final Agency decision, EPA believes that courts lack a 
factual record to evaluate. If instead a party petitions EPA to take 
the desired discretionary action, EPA's response to the petition will 
constitute final Agency action and the record established by the Agency 
in responding to the petition will provide a record that is reviewable 
by courts in any subsequent litigation.

            Baseline
    Groups dissatisfied with State progress on TMDLs or lists have 
filed more than 40 cases involving about 34 States. High costs have 
been incurred by all litigants: plaintiffs in preparing and arguing the 
cases, and States and EPA in defending and settling them. EPA believes 
that petitions filed under the Administrative Procedures Act provide an 
opportunity to resolve many TMDL program issues in a less costly 
manner, without litigation.

            Incremental Cost
    EPA believes that compliance with this requirement will reduce 
costs for both the Agency and the public. Preparing and filing 
petitions will cost the public far less than preparing and filing 
lawsuits, and it is far less resource-intensive for the Agency to 
respond to petitions than to lawsuits. The Agency believes that many 
issues call 'tee resolved through the petition process, avoiding 
litigation and the unnecessary expenses that all parties would 
otherwise incur. To the extent that petitions do not avoid lawsuits, 
the Agency believes that most of the effort to prepare and respond to 
petitions would have occurred anyway as part of the litigation process. 
The Agency acknowledges the possibility that the low cost of preparing 
petitions might result in more petitions being filed by parties that 
otherwise would have been deterred by the cost of litigation. 
Nevertheless, on balance, the Agency believes that compliance with this 
existing requirement would benefit all parties, and reduce the overall 
cost that otherwise would be incurred.

        V. IMPACT ON THE AGENCY'S INFORMATION COLLECTION REQUEST

    The Agency is proposing a revised Information Collection Request 
for certain activities under the 303(d) program to replace the existing 
3-year ICR which expires on 311/99. As discussed in chapters I and IV, 
the Agency's ICR estimates the burden for States' preparation of 303(d) 
lists, and for the Agency's activities regarding the listing program as 
well as for reviewing and approving TMDLs. This chapter summarizes the 
information developed earlier in this report regarding the extent to 
which the proposed regulation affects the burden of both the States and 
the Agency for those activities identified in the proposed ICR, which 
covers the period from 3/1/99 to 2/28/01.

Estimated Change In State Burden
    The next ICR will encompass the next listing which is currently due 
in the year 2000. As discussed extensively in chapter I, the proposed 
regulation increases the total State effort for the year 2000 listing 
by 36,740 hours. As estimated in the ICR, at a cost of $40.37 per hour, 
this amounts to a total cost increase of nearly $1.5 million for the 
period.
    Since the next ICR covers the period ending 2/28/01, a portion of 
the increased effort for the next listing after the year 2000 listing 
should also be considered. However, this additional burden depends on 
whether the current 2-year listing cycle is continued, or whether a 4- 
or 5-year listing cycle is adopted instead:
    If the current 2-year listing cycle continues, then half of the 
2002 cycle would need to be included in the ICR as well. As discussed 
in chapter I, the proposed regulations increase the total State effort 
for listings subsequent to the year 2000 listing by 6,050 hours. If 
half of this effort occurs in 2001, then the proposed regulations 
increase the burden in the ICR by 3,025 hours or about $ 122,000.
    If a 4- or 5-year listing cycle were adopted, it does not seem 
likely that those activities that account for the increased burden due 
to the proposed regulations would take place as early as 2001. 
Therefore, an additional adjustment for an increased burden associated 
with the next cycle would be unnecessary.
    Therefore, the total adjustments to the respondent burden as 
estimated in the Agency's ICR for the period ending 2/28/01 for the 
303(d) program range from an additional 36,740 hours at S1.5 million if 
the listing cycle is lengthened, to 39,765 hours at $1.6 million if the 
current 2-year listing cycle is maintained.
    However, for future ICRs, as discussed in chapter I, if the listing 
cycle is lengthened, savings that result from avoiding future listing 
cycles (i.e., under Option C, States would only be required to submit 4 
lists instead of 8\1/2\ lists through 2015) would more that cover the 
increased burden to States that results in the near term from the 
proposed regulations. As summarized at the end of chapter I, through 
the year 2015, the proposed regulations would increase the States' 
annualized costs by $230,000 but this would be more than offset by the 
$320,000 annually that States would save if the listing cycle were 
lengthened. The net annualized savings would be about $90,000 per year.

Estimated Change in Agency Burden
    As discussed in chapter IV, EPA's estimates of its ICR burden for 
the period ending 2/28/01 for the 303(d) program already include 
consideration of both:
    1. Increases in the States' baseline level of activity which 
results in an increased annual burden for the Agency of 5,580 hours, 
and
    2. Increases in Agency activity that might result from the proposed 
regulations, amounting to an additional annual burden of 452 hours or 
$18,247.
    Altogether, the Agency has proposed to increase its burden estimate 
in the proposed ICR by a factor of 11 from the current ICR, 
representing an increase in burden from 602 hours annually to a total 
of 6,634 hours annually. Since the Agency's estimates already reflect 
expected changes in burden, no additional revisions to the estimates 
for the Agency's burden are needed to further reflect the proposed 
regulations.
    However, as noted in chapter IV, if the listing cycle were 
lengthened, then the Agency would realize savings that would offset the 
increased burden associated with the proposed rule.
    Attachments 1 & 2 (Worksheets for Chapter III)

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Smith. Senator Voinovich.
    Senator Voinovich. I have as much concern as the other 
members of this committee regarding TMDL, and I have written 
you a letter on the 10th, and I am anxious to get your response 
back in terms of your rationale for the regulations in this 
area.
    Ms. Browner. Mr. Chairman, without using Senator 
Voinovich's time but given the interest in TMDL, maybe before 
the end of the hearing I can have a few minutes to explain 
where we are and what we are thinking, if that would be helpful 
to the committee.
    Senator Smith. Certainly.
    Ms. Browner. I do not want to use up your time since you 
are waiting for a response from us.
    Senator Voinovich. Well, I----
    Senator Smith. We will do that after we complete the first 
round.
    Ms. Browner. OK.
    Senator Smith. You can make those comments.
    Ms. Browner. Thank you.
    Senator Voinovich. Again, the 11 percent increase, I have 
not really sat down and looked at all the aspects of it, but, 
again, it is the last year of the Administration. From a public 
policy point of view, usually you do not have those kind of 
increases in administrative budget the last year of an 
administration. That is just an observation.
    Ms. Browner. I am happy to explain why. I can give you 
maybe an individual example. Would that be helpful?
    Senator Voinovich. Yes. Why do not you?
    Ms. Browner. An example would be the financial assistance 
we want to provide to the States so they can upgrade their 
information system is in that portion of our budget request. 
That is a good example. That is $30 million that we did not ask 
for last year.
    Senator Voinovich. Yes. And I think that is good.
    Ms. Browner. I mean, that is one example.
    Senator Voinovich. That is something that would benefit the 
States in the future in terms of making decisionmaking and, 
quite frankly, give us more accurate information in terms of 
some of the environmental groups that pick stuff out and then 
go with it.
    Ms. Browner. Right.
    Senator Voinovich. OK.
    Ms. Browner. And it is not a new program. I think you would 
agree it builds on a lot of work that we have had going on with 
the States. It happens to be that we are now in a place where 
that kind of financial investment makes sense, and that is why 
you see an increase in our operating budget request.
    Senator Voinovich. OK.
    Ms. Browner. Another area where we are asking for an 
increase--and, again, this is an example where Congress gave us 
a new law and we are moving into additional phases, as Congress 
required us to do, of implementing the laws in food safety. I 
mean, you have things you told us to do on certain schedules, 
and more of those schedules are coming up on us, and so we are 
seeking additional money to meet the direction of Congress.
    Senator Voinovich. OK. We will, as I say, that is a good 
one to look at for you again.
    Ms. Browner. OK.
    Senator Voinovich. Then we have some other increases and 
decreases. Clean air partnership, new, unauthorized initiative, 
$85 million; clean water Great Lakes grant program, $50 
million. That is a new, unauthorized initiative. Rural drinking 
water technical assistance grants--well, that is an 
unauthorized earmark that we like.
    Ms. Browner. That is an earmark. We can talk about 
earmarks, $450 million worth.
    Senator Voinovich. The point is, you know, you have got $50 
million in here for the Great Lakes. That is my favorite 
subject. And $50 million for 31 sites--how long do you--if we 
authorize the $50 million, how fast do you think you could 
identify the 31 areas where you would spend the money?
    Ms. Browner. We would work with the States to identify the 
areas. There is also a State map. The money is actually, it, a 
very reasonable and a wise investment because it leverages 
State dollars.
    Senator Voinovich. Well, the thing is that $50 million for 
31 sites is--and even with the match, it is not--I think the 
thing that really disturbs me is that we have identified, for 
example, contaminated sediment problems in the Great Lakes. The 
Ashtabula River, for example; Saginaw Bay; Sheboygan; Grand 
Calumet River, Indiana; Buffalo River, New York; and Duluth 
Superior Harbor, Minnesota and Wisconsin. Those are serious 
problems, and I want to know--they are already working. For 
example, Ashtabula is a $42.4 million project, and it is 
underway.
    Are you going to give priority to some of these areas that 
are already underway and where the money could make a 
difference----
    Ms. Browner. Yes.
    Senator Voinovich.--or are we going to just take $50 
million and divide it up 31 ways and have a lot of projects out 
there?
    Ms. Browner. No. You and I both know this is a serious 
challenge in the Great Lakes. I think what is important here is 
that for the first time ever an Administration has come forward 
and said, ``Let us put $50 million.'' Is it enough money? I am 
the first to say it is not enough money. Do I wish it could be 
a lot more money? Absolutely. But I do not know why we would 
all walk away from $50 million to help address a real problem.
    Senator Voinovich. Well, we are using some of the WRDA 
money for some of those projects, like the Ashtabula River 
situation.
    Ms. Browner. I understand what you are saying.
    Senator Voinovich. And I am just saying that if you are 
really--it is a question of how do you do the most good. But 
you have got projects that could be finished up with $50 
million, and my suggestion is that if you are going to do this 
there ought to be a priority that gives--your priority list 
should really give serious consideration to the important 
projects. And if they are underway, you are much better off 
putting the money into those projects and getting them finished 
than it is to have them laying out there and start another 31 
projects.
    Ms. Browner. Senator, we would be happy to work with you. 
The point is to move money out to these sites. I do not 
disagree with what you are saying, that if you can, for a small 
investment, get a bunch of projects done and then move on to 
some new ones, that certainly makes sense to me.
    What we have said in the budget explanation is that these 
should be awarded competitively.
    I agree, you cannot just divide it up and act as if all 
sites are equal and as if all expenditures are equal.
    Senator Voinovich. Well, I am talking about the competitive 
thing would be to take the projects that are already underway 
that are there that have been identified and curing them would 
make a----
    Ms. Browner. I agree.
    Senator Voinovich. I want to go fly fishing for steelhead 
on the Ashtabula River.
    Ms. Browner. Let us do it.
    Senator Voinovich. The fact is that is a project that has 
been around that I worked on from the time that I was Governor, 
and it seems to me that if you are going to spend $50 million, 
you put the money into those projects that----
    Ms. Browner. I agree.
    Senator Voinovich.--are ready to go or all ready to be 
finished and make the difference there. That is the only point 
I am making.
    Ms. Browner. And we do not disagree. We certainly, I do not 
think, would be adverse to some kind of Congressional 
direction, although we never seek riders or earmarks in the 
appropriations bill, but one could recommend to us that in a 
competitive process we give prioritization to those kinds of 
sites.
    We would be happy to work with you on something like that.
    Senator Voinovich. And, last but not least, is that I would 
sure like to have an authoritative opinion from you guys on the 
reauthorization of the State revolving loan fund, 1699 which I 
have introduced.
    Ms. Browner. Sure. We would welcome that opportunity.
    Senator Smith. Thank you, Senator.
    Senator Chafee?
    Senator Chafee. Thank you, Mr. Chairman. And thank you 
also, Administrator, for the kind comments at the beginning of 
the session. I am sure that the new chairman will continue to 
provide strong bipartisan leadership of the committee.
    I do not have any questions.
    Ms. Browner. We are doing OK on your brownfield sites?
    Senator Chafee. I do not have any questions on the budget. 
I have questions on how we proceed on some of the important 
issues--CSOs, Superfund, brownfields.
    Ms. Browner. OK.
    Senator Smith. You are going to get very popular on this 
committee if you do not have any questions.
    [Laughter.]
    Senator Smith. Administrator Browner, you asked for a 
moment or two on TMDL?
    Ms. Browner. On TMDLs, yes, let me begin by saying it has 
been made increasingly clear to me--I was aware that there is a 
fair amount of confusion about what TMDLs are. If I might just 
take a quick moment to explain them as simply as possible.
    Total maximum daily load--the whole idea is that, for those 
rivers, for those streams that are still not fishable and 
swimmable, as Congress promised the American people they would 
be with the Clean Water Act, that it is a very sensible 
approach.
    You analyze that river, you figure out how much extra 
pollution is in there, and you set loads. You set a total 
maximum daily load: How much pollution needs to come out to 
make that river or to make that stream fishable and swimmable.
    Then you write a plan as to how you are going to get those 
pollution reductions. And the plan--and these plans are done by 
the States. They are not done by EPA. They are done by the 
States. And the plan could include best management practices. 
Specifically in the Federal Register we point out that plans 
should include best management practices.
    This is not about requiring a top-down permitting regime. 
This is about allowing States the ability to develop water-body 
specific, not one-size-fits-all, but water-body-specific plans 
for reducing those pollutants that are causing the ongoing 
problem to the water.
    It is up to each State to decide how to get there. They 
want to go get it all from some point source, that is their 
business. If they want to apportion it--they do not have to 
apportion it based on how much each party is putting in. There 
is nothing that requires that. But they could decide to 
apportion it. It might be more cost effective to apportion it.
    But this is the final portion of the Clean Water Act as 
originally passed in 1972 that will take us to the original 
commitment of fishable, swimmable, drinkable. There is no other 
way to get there than these water-body specific plans.
    Senator Smith. I think it is the addition of the new 
requirements, though, that is the issue here--logging----
    Ms. Browner. But, again, remember, the State has to write 
the plan. The State can decide what steps it will take to meet 
its plan. That is up to the State to decide.
    You are talking, I think, about forestry. That has been a 
big part of this discussion. We believe that the vast majority 
of forestry activities properly done will continue as is. They 
will continue as is. They will not need permits. They will not 
need permits.
    Let me be clear about something----
    Senator Smith. I think that the perception----
    Ms. Browner.--the Clean Water Act does not allow EPA to 
require a Federal permit. States may have some State laws 
requiring permits, but a Federal permit for nonpoint source is 
not a Federal requirement. Federal law does not allow it, 
period. It does not allow it.
    Senator Smith. Yes, I did not mean to lead into this, but 
since you made a comment on it, I think the issue, as I see it, 
is this: What happens if your Agency disapproves a State plan 
involving forestry matters and identifies the forestry activity 
as a source of nonpoint source pollution in that river?
    Ms. Browner. Well, a State could decide that certain--a 
culvert coming off of certain lands should be subject to a 
permit. They clearly have that authority today. Nothing in this 
proposal changes that.
    But you know what? In some ways this issue is no different 
than all of the issues we deal with at EPA. We do not have the 
ability to manage these programs on a day-to-day basis. It is 
not in our interest to simply say no to a State. It is in our 
interest to work it out.
    One of the reasons we are proposing 15 years is we realize 
the magnitude of working all of this out with the States. But 
it is not as if we are sitting here with a lot of people with 
nothing to do who are going to yank this stuff back and do it. 
That is simply not the world.
    Senator Smith. But your regional administrators are 
certainly giving the impression that there is a possibility 
that some of the State plans would be disapproved and that they 
could pull forestry practices into this TMDL. That is clearly 
the impression, at least, in Region 1. I cannot speak for all 
the regions, but certainly it is in Region 1.
    Ms. Browner. Clearly, something got said in Region 1, 
because this is the third time I have heard today about 
something in Region 1. We need to go back and check what got 
said, and if a--it sounds like a bad impression got created. We 
need to correct that, and we will do our best to figure out 
what got said there.
    [The information follows:]
    The Agency believes Senator Smith's statement likely refers to 
statements made at the EPA public meeting on TMDLs held in Concord, NH, 
on December 12, 1999, or several press articles that appeared around 
that time regarding the public meeting and the silviculture industry. 
At the public meeting, there were questions about how a State's TMDL 
limits would be translated into effluent limits for applicable point 
sources.
    There was also discussion at the December 12 public meeting 
regarding silviculture and Region 1 staff made clear that in New 
England only two segments of surface waters are listed as impaired due 
to silviculture. These listed segments are in Vermont. Therefore, the 
TMDL rule would not likely have any appreciable effect on the 
silviculture industry in New England. That fact aside, it is important 
to note that the TMDL rule allows that if silviculture activities are 
contributing to a violation of a water quality standard, the State has 
the discretion, rather than the obligation, to bring that activity 
under a permit.
    Realizing the concerns about silviculture, Region 1 staff briefed 
representatives from all four of the New Hampshire Congressional 
offices on February 2. The meeting was hosted by Jeff Rose of Senator 
Smith's staff. Region 1 reiterated that there was no listing of 
impaired waters in New Hampshire due to silviculture. Mr. Rose 
requested that EPA Region 1 meet with the forestry industry to answer 
any remaining questions they have; and, that meeting is scheduled in 
New Hampshire for March 21.
    But, Mr. Chairman, you know, several years ago I was called 
up here to testify a number of times on clean air plans, and 
everyone was screaming that we were going to simply reject a 
bunch of State or city clean air plans. The truth of the matter 
is we work really hard to avoid that. We work really, really 
hard not to ignore the standards or the pollution reductions 
but to get the plan to a place that works.
    Senator Voinovich, we worked really hard with your State, 
and I think right now we have approved plans in your State, and 
I can go through other States. I know we do in Rhode Island. We 
do in New Hampshire.
    So, similarly, with water we are going to have to work 
really hard to get these programs into a place that the States 
can manage them.
    Senator Smith. Let me just make one more point on this. My 
time has expired and I am going to go to Senator Warner for the 
end of the first round.
    The way I understand it now, if EPA fails to require a 
permit from loggers, for example, which you are saying you may 
do, then----
    Ms. Browner. No.
    Senator Smith.--a citizen suit can be filed, and so here we 
go down this track again. See, this is----
    Ms. Browner. The track is about 20 years long and----
    Senator Smith. I know, but it can disrupt a lot of 
practices that, in my view, are not contributing to the 
problem.
    Ms. Browner. The first thing that would have to happen is 
the State did not write a plan, but we should start there. If a 
State does not write a plan--as is true in the Clean Air Act 
and other acts--we can be forced to come in and write the plan. 
We can be sued. We can be forced to come in and write the plan.
    As is true in the Clean Air Act, so it is true in the Clean 
Water Act. If we are forced to do it, the range of options that 
we get to choose from--because Congress tied our hands in a way 
they did not tie the State's hands--is a smaller range of 
options.
    If you go back to the Clean Air Act, the States have a long 
list of things they can decide as to how they are going to get 
air pollution reductions. We have only written one major air 
pollution reduction plan since I have been at EPA, and that was 
in the first year, and it was for Los Angeles, and eventually 
they did it, but we were forced by a judge to do the first 
round of it.
    The options, the menu we chose from was, like, this big 
[indicating small amount]. The menu they could choose from was 
about that big [indicating large amount]. That is why they 
ended up doing it.
    The same is true here. If you got to that place--and there 
is no reason to ever get there--the options that we have become 
quite small, which makes it in everyone's interest, including 
ours, to get the States to do it.
    That is point one.
    Point two is the States can give credits--and we will make 
this as clear as we possibly can--for best management 
practices. No permit. Best management practices.
    Your State has some great things going on in terms of 
stream bank reforestation. We know that nature actually does a 
better job of solving this problem than just about anything any 
of us are ever going to dream up. We can now measure how well 
nature does the job. Credits can be given.
    So if you need 4,000 pounds of phosphorus reduction and the 
State can show that putting back in the buffer zones along the 
stream gets you 4,000 pounds of reductions, it is over. That is 
it. They met the requirements of the Clean Water Act, all 
through best management practices--practices that are 
frequently in the interest of the forestry industry, 
themselves.
    Foresters do not necessarily want the water rushing off the 
land. They need the water on the land to help grow the trees. 
So every time they do these kind of stream bank restorations, 
not only does the water in the stream benefit, but, quite 
frankly, they benefit. It is good business for them.
    Senator Smith. Thank you for clarifying that.
    Senator Warner?
    Senator Warner. Thank you very much.
    Did our colleague from Ohio have a question?
    Senator Voinovich. No, you go ahead. You have not had a 
chance to speak this morning.
    Senator Warner. All right. I can remember the day when you 
came before this committee for confirmation. According to my 
recollection that is 7 years ago.
    Ms. Browner. Yes. My son was in kindergarten and he is now 
in middle school. I used to pick him up. He picks me up.
    Senator Warner. That is a point of record, Madam Secretary. 
I think that we should pause for a moment. According to my 
calculations, you have set the record for a Cabinet officer in 
this particular post.
    Ms. Browner. Yes, by many years over.
    Senator Warner. Well, do not be too modest about it.
    [Laughter.]
    Ms. Browner. I could not find another job.
    [Laughter.]
    Senator Warner. Well, I add to those comments of others.
    Ms. Browner. Thank you.
    Senator Warner. My congratulations, just as a citizen of 
this country and as a Member of the Congress. I think you have 
done well.
    Ms. Browner. Thank you.
    Senator Warner. And every time that I have had a matter 
which I felt had to come to your attention, while I may not 
agree with your resolution of my question, you certainly have 
been very gracious and accommodating.
    Ms. Browner. Thank you.
    Senator Warner. I thank you.
    Now, having said all of that, let us get down to a subject 
which my dear friend over here is an expert on, and that is 
transportation--and our new chairman of the Transportation 
Subcommittee--and that is that the Circuit Court of Appeals 
here in Washington, DC, struck down your regulations that gave 
certain flexibility. You know what I am talking about. 
Flexibility on the conformity regulations.
    Ms. Browner. Conformity. We have a lot of court cases in.
    Senator Warner. I was a law clerk on that before you were 
born.
    Do you want to take a minute to get briefed on that?
    Ms. Browner. No. I know what conformity is. I apologize. I 
just was not sure which case.
    Senator Warner. But I say to my colleagues, there are some 
20 States that have projects that they are concerned whether or 
not they can go forward.
    Now, the sequence of events--and you can elaborate--is that 
the Circuit Court of Appeals here in the Nation's capital, one 
of the outstanding circuit courts in America, struck it down. 
You then rewrote another set of regulations.
    Ms. Browner. Right.
    Senator Warner. Presumably your lawyer is saying, ``Madam 
Secretary, we feel this meets the court's criteria.''
    Ms. Browner. Yes.
    Senator Warner. Well, speaking as a former law clerk, I 
disagree. I think you need a legislative solution.
    Ms. Browner. Yes.
    Senator Warner. And this committee, the Bond bill, which we 
are familiar with, begins to work in that area. I think that 
you ought to sit down with our chairman and ranking member and 
figure out--and Senator Bond and others--what we can do to put 
together that legislative fix.
    Do you want to comment on that?
    Ms. Browner. I think we agree that if we could reach the 
appropriate legislative fix that might make everyone's life 
easier. We have done some work up here to try to find that, and 
we are also working within the Administration, for example, 
with the Department of Transportation, to try and figure out 
what that legislative fix would be. We have also looked at 
administratively what we might need to do.
    I am probably wading into dangerous ground here, but, as we 
understand it, Senator Bond's bill I think gave us a basis that 
we could all perhaps look at working together, but we are under 
the impression it has now been changed.
    If that is the case, the change that we have been informed 
of we would be troublesome. But, having said all of that, we 
would be more than happy, Mr. Chairman, however you want to 
proceed to get a group of people together and to really see if 
we can fashion something.
    Senator Warner. I am definitely speaking for myself, and I 
want my chairman to, of course, speak for the committee, but I 
think we would better to find a legislative fix. We cannot 
allow 20 States, given the enormous employment, jobs associated 
with these projects, much less the alleviation of all the 
problems, whether it is clean air or transportation or gridlock 
or anything. My State is a virtual crisis situation on 
gridlock.
    We have got to go ahead with these transportation projects 
in 20 States. I offer--and I am going to defer to my chairman, 
but I offer to sit down with Senator Bond and others. It should 
be a bipartisan solution.
    Ms. Browner. I agree.
    Senator Warner. So you will commit to get on with it.
    Ms. Browner. Absolutely.
    Senator Warner. Is that right?
    Ms. Browner. Absolutely. And one of the things we might 
want to do in the meantime is just make sure the staff has been 
briefed on our discussions with the Department of 
Transportation, because I think we have made some progress 
there and we should share that with people. That may affect how 
people want to move forward.
    Senator Warner. OK. I think what I am told by my senior 
staff is that the Bond bill just reincorporates the old 
regulations that were struck down by the court, which said 
simply you did not have the flexibility. Well, we want to give 
you the flexibility.
    Ms. Browner. OK. Well, we would be happy to talk to you. I 
think that what we worked out with DOT could be used.
    Senator Warner. OK.
    Ms. Browner. This could be done administratively and not 
jeopardize projects.
    Senator Warner. You have indicated you would work with us?
    Ms. Browner. Let us work with you. Right.
    Senator Warner. Mr. Chairman, I would like to be a part of 
that group, if I may, designated by you to try to reach a 
solution.
    I thank you and wish you luck.
    Ms. Browner. Thank you.
    Senator Smith. You will be a part of it, Senator Warner.
    Senator Warner. Thank you very much.
    Senator Smith. Senator Lautenberg?
    Senator Lautenberg. Yes. Thanks, Mr. Chairman.
    I was pleased to hear the comments by the Senator from 
Virginia, who is known for his gallantry and grace, and what he 
said, Administrator Browner, I think was----
    Senator Warner. [returning to the dais] I will have to come 
back if you are saying nice things about me. Thank you very 
much.
    [Laughter.]
    Senator Lautenberg. The gentleman from Virginia is known 
for his manners, and I said gallantry----
    Senator Warner. Thank you. I appreciate that.
    Senator Lautenberg. So here we are----
    Senator Warner. Spoken like a retiring Senator.
    [Laughter.]
    Senator Lautenberg. But not a retiring personality. That I 
can tell you.
    Anyway, I think what Senator Warner said, Administrator, 
goes for all of us. You have done a terrific job.
    The question I ask, having said that, is brownfields. I see 
a reduction in the funding level from last year, 600,000. Is 
that the number?
    Ms. Browner. I think we are at 91-something.
    Senator Lautenberg. Let us see what we have got here. It is 
$91.6 million decrease from the enacted level of $600,000. And, 
even though $600,000 and $91 million is----
    Ms. Browner. That is a good question. I do not know what 
happened----
    Senator Lautenberg.--is not a lot, but, you know, that 
could be----
    Ms. Browner. You are right.
    Senator Lautenberg.--three sites.
    Ms. Browner. You are right.
    Senator Lautenberg. And these things work so well, so I 
would appreciate it if you would take a look at that.
    [The information submitted by EPA follows:]
      
                         BROWNFIELDS REDUCTION
    Question: The President's fiscal year 2001 budget request reflects 
a reduction of 18.3 workyears and $588,400 to the Brownfields program. 
Why is there a reduction in this key program area?
    Response. In fiscal year 2001, the Agency is requesting a total of 
88.3 workyears and $91,626,700 to support work performed by the Offices 
of Solid Waste and Emergency Response (OSWER), Enforcement and 
Compliance Assurance (OECA), the Administrator's Office, and the 
General Counsel (OGC).
    OSWER is requesting a total 78.0 workyears and $89,773,000, 
representing a reduction of 0.8 FTE and an increase of $845,000 from 
the fiscal year 2000 enacted operating plan. This increase is 
attributed mainly to work force costs.
    Major changes in the make-up of OSWER's fiscal year 2001 
Brownfields Budget are planned:
    $4 million will be redirected from Brownfields assessment pilots to 
Brownfields Cleanup Revolving Loan Fund pilots. This redirection 
reflects a shift in program emphasis as more Brownfields communities 
move into the cleanup phase.
    $3.4 million will be redirected from Brownfields assessment pilots 
to Brownfields Technical Support. This redirection reflects development 
and implementation costs of information systems to collect, track and 
report key Brownfields program data. It also reflects the increased 
cost of oversight and technical support for the increased number of 
Brownfields pilots.
    $4 million, which will be derived from assessment pilot funding, 
will be invested to award 10 new Brownfields Showcase Communities. 
These communities will serve as models to demonstrate the benefits of 
interagency cooperative efforts in addressing environmental and 
economic issues related to Brownfields.
    OECA is requesting a total of 4.5 workyears and $427,800, 
representing a reduction of 17.5 FTE and $1,504,800 in payroll. The 
reduction is not reducing the Agency's commitment to Brownfields. In 
prior years, the key program area for Brownfields contained enforcement 
resources for both comfort letters, which support the Brownfields 
program, and for Prospective Purchaser Agreements, which are generally 
used at NPL sites. Since the Brownfield program is targeted toward 
lesser contaminated sites, the resources for Prospective Purchaser 
Agreements have been redirected into the `` Maximizing PRP Involvement 
(including reforms)'' key program area to more accurately reflect the 
program which they support. Resources for comfort letters are still 
found under the Brownfields key program area at the same level as 
fiscal year 2000.
    The Administrator's Office is requesting a total of 5.8 workyears 
and $1,190,900, representing an increase of $71,400 in payroll. OGC's 
request of $235,000 does not change from the fiscal year 2000 enacted 
operating plan.
    Senator Lautenberg. I was also pleased to see that you are 
proposing an increase in funding for RCRA.
    Ms. Browner. Yes.
    Senator Lautenberg. Corrective action.
    Ms. Browner. Yes.
    Senator Lautenberg. I hope that will provide additional 
cleanups at these ongoing facilities.
    Ms. Browner. Yes.
    Senator Lautenberg. How do these funds get used, because 
there is some confusion about cleaning up sites under RCRA 
versus cleaning up sites under Superfund.
    Ms. Browner. I think the significant distinction--and you, 
yourself, said this--is that Superfund is really for the 
abandoned sites, the out-of-commissionsites, while RCRA is for 
facilities that are ongoing operations.
    Senator Lautenberg. So it is prevention?
    Ms. Browner. Well, it is cleanup.
    Senator Lautenberg. Right.
    Ms. Browner. I mean, there are a lot of facilities, 
unfortunately, that are continuing to operate but have 
significant contamination problems. In fact, we just did a 
prioritization so that we could target those with the greatest 
problems, and then we enter into agreements with the owners, 
with the operators to secure the cleanup while they continued 
in operation.
    Senator Lautenberg. So how much was that increase?
    Ms. Browner. It is almost, I think, $12 million increase.
    Senator Lautenberg. All right. But hopefully that would 
preclude having to deal with these sites 1 day in the future as 
Superfund sites?
    Ms. Browner. That is the real hope, to keep them out of 
Superfund and to get them cleaned up and keep them economically 
viable operating facilities. I mean, that is what you want to 
do.
    Senator Lautenberg. I understand that you had to shut down 
the website last week.
    Ms. Browner. Well, our entire computer system--our website, 
everything.
    Senator Lautenberg. Well, I have heard from industry and 
environmentalists about that, and the Agency provides a very 
important service with that, and that was some of the 
discussion we heard earlier.
    Ms. Browner. Yes.
    Senator Lautenberg. What are the circumstances that forced 
that shutdown, and what do we do about making sure it does not 
happen in the future?
    Ms. Browner. Well, like any large agency, like any large 
private computer site, we are constantly working to upgrade our 
security systems. Hackers become smarter, technology gets 
better, and so we are constantly working, and we had been 
working with GAO and with several committees about a series of 
firewalls and upgrades that we would be making.
    Unfortunately, our vulnerabilities or potential 
vulnerabilities were made public. That then led the experts 
that we were working with to counsel us that we were now a 
target for hackers. Our ability to install all of the firewall 
systems that we had planned could not be done in about the 8 
hours they recommended to us that we had before we became the 
target of hackers. So I made the decision that we would take 
down the system.
    We have been able to bring back up our public portion of 
the system and parts of our internal system, although we are 
not at 100 percent. We do have firewalls that we have been able 
to get.
    By going down, we were able to put firewalls in more 
quickly. We would have been able to put them in more slowly 
while we stayed up, but, once it was put out to the public, we 
were really left with very little decision.
    I think it was unfortunate. I think that information we 
provide to the public is important information. We get about 52 
million visits a month to what we refer to www.epa.gov. It is 
an equally important tool for us in terms of all the work we do 
all day long. And I am not just talking about e-mail. I am 
talking about very complex analytical work. We need to access 
data bases which we now have some limitations on and will until 
we can get some more procedures in place.
    Let me just close by saying all of us face a challenge in 
this new cyberspace world, and I think that, for the 
Administration and for the Congress, it is going to be 
important to work together when we encounter potential 
problems, and I know this committee will do that.
    There is no evidence that we had any real problems in terms 
of any confidential business information, but there is always 
the potential. And we can probably better serve the needs of 
the American people if, you know, we can set aside whatever our 
political differences may be on any host of issues and work 
together, and we are committed to doing that. We do have the 
firewalls in now, and hopefully in the next several days we 
will be able to get all of the public access fixed. We are 
still going to have some issues internally that will take us a 
while.
    Senator Lautenberg. Yes. Sometimes we invite problems 
unnecessarily.
    Ms. Browner. Right.
    Senator Lautenberg. And it ought not to happen, because 
there are a lot of excessively playful people out there, some 
of them----
    Ms. Browner. Yes.
    Senator Lautenberg.--criminally, many of them criminally.
    Ms. Browner. Right.
    Senator Lautenberg. That does not help any of us. It is a 
theft of efficiency and good judgment.
    Ms. Browner. Right.
    Senator Lautenberg. That is too bad.
    Mr. Chairman, I have just one other thing, if I might, and 
that is, the administrator I know is a strong supporter of 
Better America Bonds for brownfields. What is the extra impetus 
that that lends us besides just the borrowing? What does it do 
to expand the cleanup of these brownfield sites, as you see it?
    Ms. Browner. Well, Better America Bonds--in addition to 
greenspace preservation, the Administration has also proposed 
that it would be available for brownfields that are going to be 
converted into greenfields. It may make sense in a community--
which, they may be redoing maybe their waterfront, and part of 
it they want for economic redevelopment, part of it may be for 
commercial residential mixtures, but part of it they want as 
greenspace. They want it restored. They want to go back in and 
replant it.
    And so the Administration is proposing to Congress that 
Better America Bonds would be available for the brownfields 
into greenfields. We sort of feel like we have another program 
for brownfields into redevelopment, and it is a very successful 
program, and so this would be for brownfields into greenfields.
    Senator Lautenberg. And there are tax credits?
    Ms. Browner. It is a tax credit bond. Right. It drives down 
the cost to communities for greenspace preservation very, very 
dramatically.
    In some ways, if you think about it, we think nothing of 
asking future generations to share in the cost of a highway 
that gets built today, so why not ask future generations to 
share in the cost of greenspace preservation or brownfields 
into greenfields that they will enjoy in the future?
    I think it is about 30 States that have a program of this 
nature, and the President and Vice President felt very strongly 
that within a balanced budget the Administration should become 
a financial partner.
    There are no regulations, there is no requirement, but if 
States wanted to, if communities wanted to take advantage of 
this, they could apply and receive the tax credit bond.
    Senator Lautenberg. But the purposes for which this money 
is used is specific, in turn.
    Ms. Browner. Right.
    Senator Lautenberg. Mr. Chairman, I would ask for a 
unanimous approval to submit a letter sent to Senator Baucus by 
Chuck Fox, who is the assistant administrator for water.
    Senator Smith. Without objection, it is part of the record.
    [The letter to Senator Baucus from Mr. Fox follows:]

                           Environmental Protection Agency,
                                                    Washington, DC.

The Honorable Max Baucus,
U.S. Senate,
Washington, DC

Dear Senator Baucus: Thank you for your recent letter to EPA 
Administrator Carol Browner expressing your interest in proposed 
regulations to restore the over 20,000 polluted water bodies around the 
country. You asked for a detailed assessment of issues relating to 
water pollution from forestry operations The Administrator asked that I 
work with the Office of General Counsel to respond to your questions. 
We expect to have a detailed response available shortly.
    I want to take this opportunity to assure you that EPA is not 
proposing that water pollution caused by diffuse runoff be regulated 
under the Clean Water Act or be required to have a permit under the 
Act. This type of pollution should be accounted for in the Total 
Maximum Daily Load (TMDL) program, but commitments to reduce it can be 
based on a ``reasonable assurance,'' of implementation of control 
measures. A ``reasonable assurance'' of implementation can be 
established based on voluntary or incentive-based programs of proven 
effectiveness. Where States identify forest operations as contributors 
of pollutants to polluted waters, States may choose to assign pollution 
reductions to these sources and may use effective, nonregulatory 
programs to reduce pollution.
    In the case of point source discharges of storm water, EPA 
recognizes that these discharges are generally exempt from the Clean 
Water Act permit program under section 402(p)(1) of the Act Permit 
issuing authorities (i e. the State in 42 States and one Territory), 
however, have the option of requiring a specific storm rearer discharge 
to have a permit under section 402(p)(2)(E) of the Act, but only where 
the discharge causes environmental harm (e.g. nonattainment of a State 
water quality standard). EPA has proposed in the TMDL regulations to 
change existing regulations to allow this narrow designation authority 
to be used with respect to discharges from forest road building and 
harvesting, as well as the storm water discharges from other sources to 
which the authority now applies. EPA could use this designation 
authority only where EPA developed a TMDL for a State. As we will 
discuss more fully in our more detailed response to your letter, the 
authority to designate a storm water discharge as needing a permit is 
based on the Clean Water Act definition of a ``discharge'' and ``point 
source'' and recognizes that such sources are those that add pollutants 
from a discrete and discernible conveyance (see Sierra Club v. Abston 
Construction).
    Finally, it is important to note that section 402(p)(2)(E) of the 
Clean Water Act and EPA implementing regulations provide that the 
permit issuing authority has the discretion, rather than the 
obligation, to designate a discharge of storm water as needing a 
permit. Discharges of storm water that cause the nonattainment of a 
water quality standard may be required to have a permit or may be 
managed through other programs, at the discretion of the permit issuing 
authority. These discharges, even once identified by a State or EPA as 
causing environmental harm, would not become automatically subject to a 
citizen suit for failing to have a permit unless and until they were 
subsequently designated as needing a permit.
    I look forward to working with you on this important problem.
            Sincerely,
                                            J. Charles Fox,
                                 Assistant Administrator for Water.

    Senator Lautenberg. I thank you, Mr. Chairman.
    Thank you, Ms. Browner.
    Ms. Browner. Thank you.
    Senator Smith. Before I turn it over to Senator Voinovich, 
I just want to clarify something.
    As I understand the numbers, yes, it was a $600,000 
decrease in your brownfields grant program, but you also had a 
$4 million increase on your revolving loans, so you really do 
not have a decrease.
    Ms. Browner. I think the total program goes up.
    Senator Smith. Right.
    Senator Lautenberg. As young people often say, Mr. 
Chairman, ``I want it now.''
    Senator Smith. Instant gratification.
    Senator Voinovich?
    Senator Voinovich. I would just like to go back to a 
statement that you made about the fact that the Agency has 
tried to work with the States in terms of complying with the 
regulations. I specifically, as you know, have a real 
disagreement with your Agency. Ohio and many other midwest 
States and southern States, in order to comply with the NOx 
requirement, came back with a plan of 65 percent reduction that 
would have allowed us to achieve the standard before even your 
proposed 85 percent, and then it was rejected, and now we are 
in court over that issue.
    On this TMDL, there are a lot of people that do not believe 
that you have the authority under the law to regulate nonpoint 
sources.
    Ms. Browner. We agree. We do not.
    Senator Voinovich. You do not?
    Ms. Browner. Right. That is not what TMDLs are about.
    Senator Voinovich. OK. But, if I heard you correctly, you 
are going to regulate them indirectly because you are going to 
require States to come up with a plan to deal with nonpoint 
pollution?
    Ms. Browner. No. States are required to come up with a plan 
that provides reasonable assurances that the plan will meet the 
pollution reduction targets of the TMDL. That is what States 
have to do. They have to come up with a plan.
    And if there are best management practices on forest lands 
that are reducing pollution, they can claim credit for that. 
There is no requirement.
    Maybe this is the confusion. I know there is a huge amount 
of confusion. Maybe people think that the only way you can 
write down on your plan and get credit for pollution reductions 
is if there is a permit that has either been required or been 
issued.
    Senator Voinovich. Our farmers in Ohio----
    Ms. Browner. That is not true.
    Senator Voinovich.--are livid over the prospect of having 
to get a discharge permit in conjunction with their farms.
    Ms. Browner. We are very clear about this. The Clean Water 
Act----
    Senator Voinovich. Especially when Ohio is a leader in the 
country in no-till farming. I mean, they have done a terrific 
job in terms of trying to deal with runoff and----
    Ms. Browner. We agree.
    Senator Voinovich. But you are saying that ultimately, 
after these States submit their plans, that--I mean, you can 
reject the plans and you can say they are not adequate.
    Ms. Browner. And then we work with the States to resolve 
them over a period of time.
    But, Senator, I think it might be worth just clarifying one 
thing. And I will say it again. We are very clear that the 
Clean Water Act does not allow or require a Federal permit for 
nonpoint source.
    Moreover, the Clean Water Act does not allow or require a 
Federal clean water permit for agriculture. There is a 
distinction in the law with silviculture for agriculture.
    Having said all of that, why would not--this is just common 
sense now. Why would we not give credit to a State who is 
getting pollution reduction from no-till farming? We would. We 
do now. Why would we not?
    We do not really care where you get the pollution 
reductions from. We just want the pollution reductions. And if 
you can get them all through current activities, you can get 
them all through no-till farming, fine. But because a State 
gives us a plan saying that is where they are going to get them 
from does not mean that suddenly a Federal permit can be 
required. The Federal law is clear.
    But, having said that the Federal law is clear, we would be 
silly to walk away from these very good practices.
    Senator Voinovich. Well, I can say that there is a great 
deal of concern out there today about it, and I think part of 
the problem is that some of us have had some bad experiences, 
and so we are reluctant in these areas, and so we are going to 
have to be very clear about what you are and what you intend to 
do, and we are anxious to monitor that.
    Ms. Browner. I agree. Thank you.
    Senator Voinovich. That is it.
    Senator Smith. Thank you, Senator Voinovich.
    We are just about to wrap up here, Administrator Browner. 
Let me just followup on a couple of points for some 
clarification.
    As you know, we were talking about the authorization 
process, which is new, and we always are dealing with 
individual bills, and what I am looking at is to try to get a 
set of priorities between statutes so that we get a little more 
consistency there.
    Ms. Browner. Yes.
    Senator Smith. Can you work with us on it? What is your 
feeling on it, Number 1? And, Number 2, can you and your staff 
work with us on this over the next few months----
    Ms. Browner. Certainly.
    Senator Smith.--as we try to put it together. The goal is 
honorable, I assure you. It is to try to get a better handle on 
the whole process, rather than just looking down a tunnel at 
each individual----
    Ms. Browner. We agree. And I certainly think the time has 
actually been ripe for some time now to see if we cannot craft 
something of that nature. I think it is hugely difficult. There 
are various groups that have tried to make proposals along 
those lines and have sort of walked away, the most recent being 
Electronic-form, Mr. Ruckleshaus, who came to believe that a 
lot of this integration across the statutes was going to occur, 
was occurring, and would occur naturally, and that in some ways 
that was probably going to be the best.
    We are happy to sit down with you, because it is something 
that we are constantly grappling with, which is: how do you 
weave together the various requirements and how do you end up 
not being in a situation where you are simply moving the 
pollution around? OK, the air office solved it, but, guess 
what, it just popped up in the water office, the exact same 
thing.
    We have had some successes and we have had some challenges, 
and we would be happy to share those with you.
    Senator Smith. Another area that we would like to focus on, 
as well, is what EPA is doing in the innovative technology 
area. Just two things. I am sure they are on your Agency's 
screen, but you can comment on them if you wish. If not, we can 
followup on it later.
    Ms. Browner. Yes.
    Senator Smith. But in the area of MTBEs, microbes, as to 
where we are on that, we are going to have to make a decision. 
I have committed to trying to resolve this MTBE matter one way 
or the other. I am not sure just where we are going to go yet, 
whether we are going to go to a ban or whether we go to a 
waiver for the Governors or how we deal with it, but obviously 
it is a huge problem, as you know, and we have to deal with it, 
so I would be interested in what microbes do in that area.
    Second, are you familiar with the proposal out there on 
encapsulating phosphorus on the manure, specifically chicken 
manure? There is a company out there--Fisher Scientific, for 
one. There may be others--that could have a tremendous impact 
on nonpoint source pollution as it deals with various manures.
    I would certainly like to----
    Ms. Browner. Apparently Mr. McCabe knows about this chicken 
manure issue.
    Senator Smith. What do you think?
    Ms. Browner.
     I do not.
    Senator Smith. Ready to jump right on that one?
    Mr. McCabe. I am the expert on chicken poop.
    [Laughter.]
    Mr. McCabe. This is something that is being explored. I 
believe it is an alum-based approach. It is something that I 
think is being experimented with by a couple of chicken 
integrators.
    We would certainly be willing to look further into it and 
see whether there could be broad application of it.
    Ms. Browner. I think at this point any solution to manure 
is something we are willing to explore.
    Senator Smith. Well, I did talk to Mr. McCabe about that 
privately, and I think it is something we ought to pursue, and 
I think also the microbe issue for MBTA also.
    Senator Smith. Bob Perciasepe just handed me a note. It 
says that we do have about $1 million in research for cleanup 
and treatment of MTBE-contaminated sites and we will talk to 
you all about looking at a microbial test as part of that.
    Senator Smith. And the final point that I wanted to raise--
we do have some questions we will submit for the record, but 
let's get us out of here at 12:30. Let me just ask this.
    In terms of the whole gamut of the clean air problem--and 
we all know you have that as a high priority--in terms of 
getting to some solution, how do you feel about the so-called 
``bubble concept'' where we seek a level of reductions?
    You just said a moment ago--which perked me up a little 
bit--where you said, ``I do not care how we get there, as long 
as we get there.''
    Ms. Browner. Yes.
    Senator Smith. And you were not talking about air, but in 
general.
    Ms. Browner. Water.
    Senator Smith. And so I think this, to me, is a concept 
that is kind of exciting. It is not new. We have done it 
before.
    Ms. Browner. For acid rain.
    Senator Smith. Acid rain--it worked.
    Ms. Browner. Right.
    Senator Smith. And I think that if we are going to get to 
stop, to get out of court, to stop the feuding between regions, 
it just seems to me that we ought to put everything on the 
table and let us just see where we can get with this.
    I just put that out there as an area that I would like to 
explore. We are not, as you know--and I have talked to Senator 
Inhofe in some detail about this. We are not trying to go down 
the fast track to reauthorize this year, but I think we can 
certainly do a lot of ground work toward getting a resolution 
of this matter and be ready to go next year.
    Ms. Browner. We would be happy to work with you. I think 
that the acid rain program has been incredibly successful and 
cost effective. It has turned out EPA's estimates on that 
actually turned out to be closer than anybody's of what it 
would cost to achieve the reductions. Even we were way above 
what it has cost. I think they are trading right now at about 
$78 a ton, which does not capture the full cost, but is an 
indication of just how successful it has been.
    Second--and it is really important for people to know 
this--the acid rain emissions credit trading program in terms 
of the pollution reductions has all but 100 percent compliance. 
No other program has that level of compliance. You know why? 
Because the business community is not going to buy a credit 
that is not what it is supposed to, so it becomes sort of a 
self-enforcing system. There is no other program at EPA that 
achieves 100 percent--not at EPA, not in a regulated community, 
that achieves 100 percent compliance.
    The business community becomes the check and balance in it.
    So we long had the position, for example, in dealing with 
the long distance transport of ozone, that a emissions credit 
trading program for NOx would make a lot of sense.
    I think the challenge in any of these is going to be the 
cap. I mean, all these programs work once you set a cap. And I 
am sure we will have large discussions between various regions 
of the country over what an appropriate cap would be, but we 
certainly think that----
    Senator Smith. But that is the beginning.
    Ms. Browner. That is the beginning.
    Senator Smith. If we can decide on that, if we can get 
there, we can work out how to get there, so I think we need to 
work on that.
    Ms. Browner. Right.
    Senator Smith. I would just conclude, we talked about a 
number of issues here today, and I am pleased to hear your 
views on them. We did not mention the Everglades, which is 
something of importance to you, I know. But, in terms of where 
our priorities are, I think it is fair for me to give you some 
indication of that publicly, as well as I have already 
privately. I think we are looking at the possibility of 
brownfields, certainly looking at the clean air issue regarding 
the bubble concept. RCRA we did not mention here this morning, 
but something we would like to work with you on, the 
Everglades, WRDA initiative, and MTBE.
    Ms. Browner. That is a good list.
    Senator Smith. Those are certainly five high priorities, 
and we will not get them all done, but if we could get four out 
of the five we would be doing well and finish up clean air 
perhaps early next year.
    I appreciate your being here this morning.
    Ms. Browner. Thank you.
    Senator Smith. It has been very informative, and I know you 
had a long morning because you testified before the Agriculture 
Committee, but thank you very much, Administrator.
    Ms. Browner. Thank you very much.
    Senator Smith. Before I adjourn, let me just say if 
Senators have questions for the record we will leave the record 
open until Friday at close of business at 5.
    The hearing is adjourned.
    [Whereupon, at 12:35 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    Thank you Mr. Chairman for holding today's hearing. I know I join 
you and other Members of the Committee in wanting to ensure that the 
Environmental Protection Agency's budget priorities reflect the 
programs Congress entrusted the Agency to administer.
    Mr. Chairman, as in previous years, the EPA's budget contains 
funding for several initiatives which I believe, do not accurately 
reflect Congressional intent. For fiscal year 2001, the Administration 
is requesting the largest increase ever for the EPA's operating budget, 
while at the same time, cutting funds for popular and successful state-
administered programs. Certainly, it is this Committee's responsibility 
to see that the Agency's focus and funding resources are directed to 
programs the EPA was authorized to implement.
    Again Mr. Chairman, I thank you for holding today's hearing and I 
look forward to hearing the Administrator's justification for these 
funding proposals.
                               __________

Statement of Hon. Lincoln Chafee, U.S. Senator from the State of Rhode 
                                 Island

    Thank you, Mr. Chairman, for conducting this important hearing on 
the President's fiscal year 2001 budget request for the Environmental 
Protection Agency. I would also like to extend my appreciation to EPA 
Administrator Carol Browner for being here today to discuss EPA's 
budget.
    As Chairman of the Subcommittee on Superfund, Waste Control, and 
Risk Assessment I am particularly interested in hearing your testimony 
regarding funding for Superfund, brownfields, Underground Storage 
Tanks, and the Resource Conservation and Recovery Act. In today's 
atmosphere of limited resources, we must ensure that every dollar spent 
returns the highest yield possible. I am especially interested to hear 
how EPA plans to ensure that cleanup activities continue at an 
acceptable rate. In addition, I am eager to hear testimony on EPA's 
efforts to enhance brownfields redevelopment. This is an issue with 
important implications for Rhode Island, and I commend Administrator 
Browner on the focus EPA has placed on brownfields.
    I would also like to take this opportunity to express my concern 
about the proposed $550 million cut to the clean water revolving fund, 
which would have adverse impacts on Rhode Island and many other states. 
This is a program that has worked incredibly well and is supported by 
virtually all stakeholders. Last year, Congress refused to cut this 
important program and I urge my colleagues to once again protect 
funding for the clean water S-R-F.
    Thank you, Mr. Chairman.
                               __________
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut

     Thank you, Mr. Chairman. I'd like to welcome Administrator Browner 
and her staff. I know that this time of year is extremely busy in the 
agencies, and budget oversight hearings are sometimes not so eagerly 
anticipated. EPA's budget has a significant impact on the quality of 
life in our states and across the nation, and I look forward to hearing 
Ms. Browner's testimony regarding the President's $9.5 billion budget 
request for the Environmental Protection Agency (EPA) for fiscal year 
2001.
    Let me begin by saying that in general I am pleased to see an 
increase in funding for nonpoint control grants, the proposal to allow 
states to use State Revolving Fund (SRF) money for estuary management, 
and strong funding for the Climate Change Technology Initiative. The 
latter proposes promising investments in energy efficient technologies 
and partnerships with businesses, schools, and state and local 
governments to reduce greenhouse gas emissions. Programs like Energy 
Star and PATH have already saved consumers money and improved 
industrial efficiency, demonstrating that emissions reductions can be 
achieved in a cost-effective manner. New funding proposals in these 
areas will continue to spur critical technology innovation.
    I have serious concerns about other aspects of the President's 
budget request, particularly in the area of Clean Water Programs. 
First, the President's request for the Office of Water reduces funding 
by 20 percent from the fiscal year 2000 level of $3.465 billion to 
$2.782 billion. The Clean Water State Revolving Loan Fund (SRF) is cut 
by more than 40 percent from the fiscal year 2000 enacted level of 
$1.350 billion to just $800 million.
    In Connecticut, the Clean Water SRF has been an important funding 
mechanism for addressing combined sewer overflows and water 
infrastructure projects that improve the quality of the Long Island 
Sound. In fact, Connecticut has one of the highest contributions to the 
SRF programs, matching Federal contributions with 4-5 times the level 
of state funds, making this an extremely cost-effective Federal 
program. In recent years, Connecticut received about $15 million in SRF 
funding while contributing $50 million in state bond authority. While 
the modest increase in nonpoint source grants offsets the cut to the 
SRF in part, it is not adequate to cover the existing needs, nor does 
it leverage the existing support of the state SRF contributions.
    I am even more disappointed by the apparent status in this budget 
of the Long Island Sound cleanup and management program in light of the 
President's requests for significant and, in several cases, increased 
funding for a number of other regional programs. Several of us in 
Congress have been appealing for full funding for the LIS program for 
years. Yet despite constant attempts to increase the budget levels to 
an amount consistent with the needs of the Sound and the $3 million 
authorization, this budget includes a mere $500,000--only half of last 
year's enacted amount.
    I am particularly troubled today because the Long Island Sound 
Program has enabled Connecticut and New York to make significant 
progress on improving water quality in ways that directly support the 
administration's goals in the Clean Water Action Plan. The Department 
of Environmental Protection and Natural Resources Conservation Service 
have already conducted a unified watershed assessment for the Sound. In 
November 1999, Connecticut and New York proposed a nitrogen total 
maximum daily load (TMDL), probably the most significant proposal set 
forth in the nation in terms of technical evaluation and resource 
commitments. In comments submitted to EPA on the Agency's proposed TMDL 
rule, the State of Connecticut supported the revisions but highlighted 
the need for flexibility and funding in order for the proposal to be 
effective. The state specifically estimated the cost for the Long 
Island Sound TMDL as $20 million--the bulk of which has been borne by 
the states and localities.
    And while the needs for Connecticut and New York to achieve the 
goals of the Long Island Sound Comprehensive Management Plan for 
restoring water quality are roughly $1 billion, EPA has not even 
included $1 million in this year's budget. For comparison, the 
President has included $19.5 million for the Chesapeake Bay, $4.1 
million for the Great Lakes, $4 million for the Gulf of Mexico, and 
$2.2 million for Lake Champlain.
    Administrator Browner, I hope you will address these questions 
during your testimony. I look forward to working with the EPA in the 
coming year to enhance our nation's environmental resources.
                               __________

 Statement of Hon. Carol M. Browner, Administrator, U.S. Environmental 
                           Protection Agency

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to present the Clinton-Gore Administration's FY 2001 budget 
request for the Environmental Protection Agency. Our $7.3 billion 
request, and the $2.15 billion Better America Bonds program, continue 
and strengthen the Administration's commitment to the environment and 
public health by providing our children, our communities with cleaner 
water, cleaner air and an improved quality of life.
    I would like to begin, Mr. Chairman, as I did last year, by 
thanking this distinguished Committee for its support over these past 
few years. I believe we have fostered a productive working 
relationship, which has enabled us to work together towards our mutual 
goal of protecting public health and the environment. I look forward to 
working with you, Mr. Chairman, as I know the strong bond between our 
Agency and this Committee will continue through your leadership.
    I am particularly proud of this budget request: $7.3 billion will 
directly support our operating programs, air and water infrastructure, 
and the trust funds. $2,150,000,000 are for the Better America Bonds 
program, to help communities invest in green-space preservation, water 
quality improvements and brownfields cleanup. Most importantly, this 
budget includes an 11 percent increase, or $384 million, for EPA's core 
environmental programs.
    Once again, the President presents a budget that maintains fiscal 
discipline while making essential investments in environmental 
priorities. This Administration repeatedly has demonstrated that we can 
enjoy enormous prosperity--including the longest economic expansion in 
history and a plan that will eliminate our national debt for the first 
time since 1835--while implementing important environmental and public 
health protections. The American people know that our Nation does not 
have to choose between a strong economy and a healthy environment.
    Over the past 7 years of unprecedented economic progress, this 
Administration, working with this Committee, has distinguished itself 
through unprecedented environmental progress.
    The 1996 amendments to the Safe Drinking Water Act, a fine example 
of what we can achieve when the Committee and the Agency work together, 
coupled with the President's Clean Water Action Plan, have contributed 
greatly to cleaning up the Nation's waters and to making drinkable, 
fishable and swimmable water a reality for all Americans.
    We have set the tightest emissions standards ever for cars and the 
first such standards that apply equally to SUV's and minivans.
    We have placed special emphasis on protecting our Nation's greatest 
resource--our children--through actions like working for, winning and 
implementing the Food Quality Protection Act, that for the first time 
puts emphasis on protecting the health of infants and children from 
pesticide risks.
    We have provided communities with new access to more information 
about toxic chemicals released into their communities by greatly 
expanding the public's right-to-know.
    Under this Administration, more than three times as many toxic 
waste site cleanups have been completed than were completed in the 
previous 12 years of the Superfund program.
    And we have taken the unprecedented step of revitalizing 
communities by accelerating the cleanup of Brownfields and returning 
the land to productive use.
    The budget we are announcing today preserves this record of success 
and builds on it.
    As it has since the inception of the Clinton-Gore Administration, 
the EPA budget builds upon those core environmental programs that are 
the backbone of this Agency. This includes: setting environmental 
standards; environmental enforcement and compliance; and direct 
implementation programs for the states.
    In FY 200 1, the Clinton-Gore Administration is requesting an 11 
percent increase, or $384 million, over last year in its operating 
programs to allow the Agency to meet the American public's expectations 
for a safe and healthy environment. The increased money in the 
operating budget is directed at programs for cleaner air and water, 
safer food and sound science.
    For water, the President's FY 2001 budget bolsters the successes we 
have achieved by providing $495 million in Clean Water state grants, 
including a $50 million increase to specifically address polluted 
runoff, the largest current threat to our Nation's water quality.
    The Great Lakes, among our Nation's most revered and beautiful 
water resources, receive $50 million in the President's Budget for a 
new initiative that will continue the progress we have made in their 
cleanup and restoration. Through this initiative, states and 
communities will be eligible for competitively-awarded matching funds 
to improve water quality through stormwater pollution control, wetlands 
restoration and remediation of contaminated sediment.
    We are stepping up our efforts to identify and restore polluted 
waterways by providing an additional $45 million in state grants for 
the Administration's new Cleaner Waters Across America program. The 
program is aimed at waterways still in need of improvements. Resources 
will be used to develop specific restoration plans for some 20,000 
waterways across the Nation.
    Consistent with our goal to provide sufficient capital so that, 
over the long-term, $2 billion in average annual assistance will be 
available to localities, the President's Budget provides $800 million 
for the Clean Water State Revolving Fund--a flexible funding mechanism 
designed to help communities provide clean, safe and healthy water. 
This year, we are requesting authority to give states the option of 
using 19 percent of their Clean Water SRF in the form of grants to 
fight polluted runoff. I am asking Congress to join us in providing 
states with this additional flexibility to provide clean and safe water 
for the public.
    The Administration has taken the most aggressive actions in history 
to provide cleaner, healthier air for all Americans, and this budget 
continues that effort.
    The President's Budget is providing $85 million for the Clean Air 
Partnership Fund--fund that will provide resources to states, cities 
and tribes to help reduce air pollution. This initiative will foster 
public-private partnerships to help communities achieve their own clean 
air goals in ways that make the best sense for them.
    In addition, to continue reducing the air pollution that 
contributes to global warming, $227 million has been proposed for the 
third year of the Climate Change Technology Initiative. This program 
promotes voluntary measures that reduce energy use and bring down the 
energy bills of all Americans, while also reducing greenhouse gas 
emissions.
    Furthermore, to continue to strengthen our relationships with our 
state and tribal partners, this budget provides $215 million in state 
and tribal grants to help find solutions to air pollution. Of these 
resources, $5 million will be granted to states and regional planning 
bodies specifically to combat the problem of regional haze--one of the 
most obvious effects of air pollution.
    The Administration remains dedicated to improving children's health 
by providing $68 million for the Children's Environmental Health 
Initiative. These funds go for critical programs that fight such 
threats as lead contamination and childhood asthma. We also are 
continuing our dedication to food safety through the Food Quality 
Protection Act by providing $75 million for its implementation so that 
the American public will continue to enjoy one of the safest, most 
abundant, and most affordable food supplies in the world.
    The President's Budget continues expanding the public's right-to-
know about toxic releases in their local communities through several 
initiatives. One of those new efforts is a new environmental 
information system that will provide the public more critical 
environmental information than ever before. Under this Initiative the 
Administration will provide $30 million to work with the states to 
provide one of the Nation's greatest sources of shared, key 
environmental information.
    To better protect America's communities, the Administration is 
again proposing the Better America Bonds Initiative. This Initiative, 
which has increased by more than $1 billion over 5 years from last 
year's proposal, will help communities grow in ways that ensure 
sustainable economic growth by providing them the resources they need 
to address local smart-growth challenges like protecting water sources 
and shrinking parklands as well as cleaning up brownfields.Through this 
initiative, the Administration will provide the authority to issue 
$2.15 billion for investments by state, local, and tribal governments 
in 2001.
    This budget provides almost $1.45 billion to continue our progress 
in cleaning up the Nation's Superfund toxic waste sites. The Agency 
plans to complete construction at 75 sites for a total of 830 
construction completions by the end of 2001. This will keep EPA on a 
path towards meeting the President's goal of 900 construction 
completions by 2002. In the Clinton-Gore Administration, about three 
times as many Superfund sites have been cleaned up--as in the 12 
previous years of the program. The new budget proposal will continue 
that progress. In addition, to help communities return their abandoned 
or idled industrial properties to productive use, the President has 
committed $92 million for the extremely successful Brownfields 
redevelopment program.
    The Clinton-Gore budget request for FY 2001 protects public health 
and the environment by ensuring that we will be able to provide America 
with cleaner water, cleaner air, better protection of children, more 
protection for individual communities and a continuing cleanup of toxic 
wastes and restoration of Brownfields.
    The Clinton-Gore Administration's budget protects the health and 
the environment of the American public. Last year, however, Congress 
``earmarked'' from EPA's budget some $470 million for more than 320 
special projects in individual congressional districts. These earmarks 
direct money from the Agency's core programs--the very programs that 
keep the environmental cops on the beat, use the best science to set 
standards to protect our children, and support the work of our 
partners, the states, tribes and local governments. That is why we are 
not carrying over last year's earmarks, and that is why we will 
continue to oppose earmarks this year.
    We also remain strongly opposed to any legislative riders that 
undermine our country's basic environmental laws. Our goal is to work 
with this Committee, which has the jurisdiction over almost all of this 
country's environmental laws, to provide real protections for the 
Nation. I strongly believe that the authorizing committees, the 
traditional forum for discussing these issues, should again guide the 
process.
    By providing our children and our communities with cleaner air, 
cleaner water and an improved quality of life, this budget maintains 
the Administration's dedication to the protection of public health and 
the environment. It ensures that the Environmental Protection Agency 
will be aggressively adding to 7 years of unprecedented environmental 
progress built under the Clinton-Gore Administration.
    These are the highlights of our fiscal year 2001 request. I look 
forward to discussing with you, as the year progresses, these 
initiatives and innovative financing mechanisms. I would be happy to 
answer your questions at this time.
                                 ______
                                 
 Responses by Carol Browner to Additional Questions from Senator Smith
Clean Water State Revolving Fund

    Question 1. EPA has revised the estimated total cost of 20-year 
wastewater infrastructure needs to be an estimated $200 billion. 
American communities absorb 90 percent of the wastewater infrastructure 
costs nationwide. States continue to have strong support for the Clean 
Water State Revolving Fund. The President's request for the Clean Water 
State Revolving Fund is $800 million, a $550 million reduction from the 
fiscal year 2000 enacted level of $1.35 billion. The President also 
requests to allow States to reserve up to an amount equal to 19 percent 
of their CWSRF capitalization grants to provide grants of no more than 
60 percent of the costs of implementing eligible nonpoint source and 
estuary management projects.
    The committee recognizes that EPA's budget office estimates that 
$800 million will allow the SRF to revolve at the $2 billion level. We 
also recognize the need to have the budget remain consistent with the 
balanced budget agreement. However, the $550 million reduction in SRF 
from fiscal year 2000 does not demonstrate an effort to take care of 
the infrastructure needs that exist today.
    How does EPA plan to take care of these needs? Will this budget 
allow us to take care of the infrastructure needs, as well as the TMDL, 
NPDES permit backlog, and CAFO permits?
    Response. Financing for wastewater infrastructure has been, and 
will continue to be, a partnership between EPA, other Federal agencies, 
State governments, and local communities. By capitalizing the SRF such 
that it will be able to provide at least $2 billion in financial 
assistance to local communities over the long run, the Agency is 
providing a substantial source of financing consistent with historic 
levels of Agency contribution. Over $17 billion has already been 
provided to capitalize the CWSRF, more than twice the original Clean 
Water Act authorized level of $8.4 billion. Total SRF funds available 
for loans since 1987 reflecting loan repayments, State match dollars, 
and other sources of funding are approximately $30 billion, of which 
$26 billion has been loaned to communities ($4.2 billion was available 
for loans as of June 1999).
    The Agency acknowledges that the preliminary needs estimates may be 
higher than previously estimated. Given that, and the fact that we now 
have a better understanding of the water quality challenges that States 
and local governments face, the Administration believes it would be 
useful to have a dialog with the Congress and the broad range of 
stakeholders on the future funding levels and project eligibilities of 
a reauthorized Clean Water SRF program.
    With respect to TMDLs, the President's request includes a 
substantial increase (+$45 million) explicitly to assist States in the 
development of TMDLs. This increase, coupled with the required State 
contributions for this Section 106 increase, State flexibility to use 
up to 20 percent of their also increased Section 319 grant, and other 
financial assistance would provide sufficient resources to allow States 
to substantially meet their TMDL obligations in 2001 based on the 
estimated cost of the new TMDL regulation proposed in August 1999. 
While earmarked for TMDL development, this increase in grant funding 
should allow States to reallocate existing base grant funds to their 
most significant priorities, including addressing their NPDES permit 
backlog and issuing permits for certain concentrated animal feeding 
operations. It is also critically important that the Congress provide 
full funding for the Agency's operating programs under which the Agency 
provides substantial technical support for State TMDL development and 
NPDES permitting efforts.

    Question 2. Has EPA analyzed the broader package of investments 
used to help State and local governments such as the Department of 
Housing and Urban Development and the Department of Agriculture's Rural 
Utility Service to name a few, in determining the adequate levels of 
funding for the SRF? Could you explain how all these sources will 
provide the adequate level of funding to take care of the 
infrastructure needs?
    Response. We estimate that total State, local, and Federal spending 
for the construction of municipal wastewater treatment for calendar 
year 2000 is currently about $9 billion per year. Most of this spending 
has traditionally come from State, and local government or local sewage 
authorities. EPA or Congress have never committed to addressing all 
wastewater needs through the CWSRF. Federal financial support (from 
EPA, the Rural Utility Service of the Department of Agriculture, and 
the Department of Housing and Urban Development) accounts for up to 
one-third of the total annual spending.
    Since expiration of the CWSRF authorization, much has been learned 
about the size and scope of water quality challenges the Nation faces. 
In that context, the Administration believes it would be useful to have 
a dialog with the Congress and the broad range of stakeholders on the 
future funding levels and project eligibilities of a reauthorized Clean 
Water SRF program.

    Question 3. What other programs did EPA see as needing greater 
funding so as to reduce the SRF by $550 million from the fiscal year 
2000 level?
    Response. The Agency believes its request for the Clean Water State 
Revolving Fund represents a substantial investment in needed 
infrastructure improvements. In the case of the CWSRF, the Agency is 
honoring and expanding its commitment to capitalize the Fund such that 
it will be able to provide at least $2 billion in annual financial 
assistance over the long-term, a level consistent with historical 
levels of wastewater funding through EPA. Since program inception, over 
$17 billion has been invested in the CWSRF--a level more than twice the 
original Clean Water Act authorization. Total SRF funds available for 
loans since 1987 reflecting loan repayments, State match dollars, and 
other sources of funding, are approximately $30 billion, of which $26 
billion has been loaned to communities ($4.2 billion was available for 
loans as of June 1999). The fiscal year 2001 budget level for the CWSRF 
continues to ensure the viability of the Fund. In terms of future 
funding for the CWSRF, the Administration believes it would be useful 
to have a dialog with the Congress and the broad range of stakeholders 
on the funding levels and project eligibilities of a reauthorized CWSRF 
program.
    EPA's fiscal year 2001 budget request reflects support for the 
numerous areas requiring focused attention on some of the most pressing 
threats to a clean and healthy environment. Ensuring all Americans live 
in a clean and healthy environment requires efforts addressing all 
sources of pollution and all means by which pollution threatens human 
health and the environment.
    In the area of water quality, nonpoint source pollution is the 
largest remaining threat, and EPA is dedicated to addressing water 
quality through increased funding in the Nonpoint Source Pollution 
grants, the water quality State grants addressing Total Maximum Daily 
Loads (TMDLs), and our new Great Lakes initiative grant program. 
Threats to human health along the U.S.-Mexico Border are of particular 
concern, and EPA is responding by investing in infrastructure financing 
for this geographic area susceptible to waterborne diseases.
    Cleaning America's air is also a top priority. Over one-third of 
Americans still live in areas where the air does not meet the new air 
quality standards. In fiscal year 2001 EPA is investing in three major 
areas to achieve clean air goals through cost-effective and innovative 
means: the Clean Air Partnership Fund, Climate Change Technology 
Initiative, and State and tribal air grants. The Clean Air Partnership 
Fund will be a catalyst for innovative local, State, and private 
partnerships for air pollution. Meeting the Climate Change challenge 
requires investments from across the Federal Government as we address 
the significant threat that global warming poses to public health and 
the environment. EPA's investment in air State and tribal grants will 
address regional haze and integrate those programs with approaches to 
reducing ozone and fine particulate matter.
    In addition, EPA is committed to building a strong environmental 
presence on Tribal lands. To that end, EPA's investment in Tribal 
General Assistance Program (GAP) grants will help ensure the 
development of sustainable and comprehensive core environmental 
programs in Indian Country.
    Other areas of EPA investment include protecting food quality, 
drinking water research, and integrating environmental information. 
Implementing the Food Quality Protection Act of 1996 poses multiple 
challenges, and EPA will continue working toward ensuring all Americans 
enjoy the safest, most abundant, and most affordable food supplies in 
the world. EPA's investment in drinking water research will continue to 
strengthen the scientific basis for safe drinking water standards. 
Finally, EPA proposes to invest in an initiative aimed at enhancing the 
coordination of data collection activities with States and to improve 
collection methods.
    In sum, all of these vital resource investments are ensuring that 
EPA and its partners meet the multi-faceted requirements in achieving 
human health and environmental protection.
Section 319--Nonpoint Source
    Question 4. Is EPA concerned with the way that States are 
allocating their funds in the SRF and/or 319 grant programs to a point 
that we need to require that up to 19 percent of the SRF be set-aside 
for Nonpoint Source programs? What States are failing to adequately 
prioritize their SRF projects?
    Response. The proposal would not require that States provide grants 
from their CWSRF, nor would it reduce allotments of States that chose 
not to provide grants. The President's fiscal year 2001 budget proposal 
would allow States, at the Governor's discretion, to use up to 19 
percent of their capitalization grant for nonpoint source and estuary 
management projects. Since its inception, the CWSRF has been a 
flexible, State-run program in which the States choose which projects 
to fund based on their water quality goals and needs. In fact, although 
the Clean Water Act establishes broad project eligibilities, States are 
not required to fund all types of eligible projects. Also, States 
determine the priority order of funded projects. Some States have made 
substantial progress toward meeting Wastewater treatment needs, but 
still have very large needs for control of pollution from nonpoint 
sources. Our intent is to provide the States additional flexibility, if 
they so choose, to direct a portion of their CWSRF funds into grants 
for nonpoint source and estuary purposes. Many of the States have 
communicated to us that they have a critical need for these nonpoint 
and estuary projects and have not been able to finance this work with 
loans alone. This is especially true for projects involving small and 
disadvantaged entities. Although we do not expect that all the States 
will use this flexibility, or may use only a portion of it, we believe 
that in order to make greater strides toward addressing nonpoint source 
pollution, it is appropriate to allow interested States to use the 
funds in the CWSRF in this manner.

    Question 5. The budget calls for a 20 percent increase in 319 funds 
to a total of $250 million. EPA is currently examining the States' 
upgraded 319 programs in making allocation determinations. How many 
State have been approved? How many States is EPA currently reviewing 
for approval? How many States have not submitted their programs?
    Response. 45 States and six Territories have submitted upgraded 
programs; and 26 of these programs have been approved by EPA. Of the 
remaining 25 programs that have been submitted, EPA is nearing the 
approval stage. Specifically, EPA has provided written comments to the 
States/Territories on 21, and is currently preparing comments on the 
remaining 4. Five States have not yet submitted upgraded programs.

    Question 6. In the States that have been approved would EPA 
consider these programs to be providing the ``reasonable assurance'' 
under the proposed TMDL program, that non point sources are adequately 
included in the State TMDL program?
    Response. No, not solely by themselves. Enhanced State NPS programs 
will provide a stronger framework to better control NPS problems, 
including a clearer statement of short- and long-term goals; 
identification of public- and private sector partners who will help the 
State implement its program; a summary of watershed and state-wide 
programs in the States; a prioritization strategy to help the States 
focus on priority problems; a process to review Federal programs for 
consistency with the State program; and the incorporation of review and 
feedback mechanisms into their programs. The upgraded programs are not 
specifically required to provide reasonable assurance that TMDLs will 
be implemented, although some programs may in fact be capable of 
providing such assurance for some or all categories of sources that 
will need to be addressed to implement particular TMDLs. Under the TMDL 
proposed rule, the implementation plan for TMDLs must specifically 
describe how the TMDLs will be implemented including reasonable 
assurance for NPS. For NPS, reasonable assurance would mean that the 
controls are specific to the pollutant(s) of concern, implemented 
according to an expeditious schedule and supported by reliable delivery 
mechanisms and adequate funding. We assume that in most, if not all, 
cases, implementation plans for TMDLs involving NPS controls will take 
advantage of the programs, authorities and approaches encompassed in 
the State's overall NPS program.

    Question 7. The increase of 20 percent is outlined as another 
source of funding for the proposed revisions to the Total Maximum Daily 
Load program. Would this 20 percent set-aside be allocated to those 
waters that are solely impaired by nonpoint sources?
    Response. EPA's 2001 budget is proposing an increase of 25 percent 
in the Section 319 State NPS grant program (from $200 million to $250 
million). Under EPA's current 319 grant guidelines, States have the 
flexibility (at their discretion) to use up to 20 percent of their 319 
funds for NPS program development needs, specifically including 
developing TMDLs for waters impacted by NPS. States will continue to 
have this flexibility in 2001.
Total Maximum Daily Loads

    Question 8. The budget calls for an increase in Section 106 grants 
from $116 million to $161 million ($45 million increase) with a State 
cost share requirement of 40 percent of project costs. The budget calls 
for this increase, coupled with use of up to 20 percent of the 319 
grants and possibly other unidentified sources to provide sufficient 
resources to allow States to meet their TMDL obligations in 2001 based 
on the estimated cost of the EPA's TMDL proposed regulation.
    The proposed rule states that the incremental costs to States at 
less than $25 million per year and that the private sector would incur 
no costs. The budget states it based the number on the proposed 
regulation and not the existing TMDL program and calls for Federal and 
State dollars in just the Section 106 program of $75 million.
    Has there been a change in EPA's estimated costs of the proposed 
TMDL program?
    Response. No. Per our cost analysis released with the proposed TMDL 
rule, we estimate that the incremental costs to States to carry out 
those proposed requirements beyond the current TMDL program as $10 to 
$24 million annually.

    Question 9. If not, why does proposed budget provide dollars in 
excess of the $25 million suggested in the proposed rule?
    Response. The proposed 106 increase of $45 million, with 40 percent 
State match, is intended to help States carry out current TMDL program 
requirements as well as the incremental costs of the proposed rule. We 
appreciate that States face substantial resource needs in carrying out 
the existing TMDL program as well as their other Clean Water Act 
responsibilities. According to the 1998 303(d) list, there are roughly 
20,000 impaired waters nationwide with an average of 2 pollutants per 
water that will require TMDLs. Our 2001 budget justification indicates 
that States can take advantage of flexibility provided under Section 
319 grants (i.e., to use up to 20 percent of nonpoint source grant 
funds to support nonpoint source-related TMDL needs) and other funding 
sources to address incremental requirements associated with the new 
regulations if the final rule in fact results in additional needs. As a 
result, our request is not premised on any specific incremental needs 
antler the proposed rule.

    Question 10. Has EPA previously based budget allocations on a rule 
that has not been finalized?
    Response. No.

    Question 11. If so, could you provide some recent examples?
    Response. Not applicable.

    Question 12. The Association of State and Interstate Water 
Pollution Control Administrators claim the costs to the States and the 
private sector could total many billions of dollars. In the case that 
the States can not implement the proposed TMDL program, and if these 
cost estimates are true, is EPA prepared to assume many of the State 
TMDL programs?
    Response. We believe the ASIWPCA statement relates to their rough 
estimate of the direct additional pollution control and abatement costs 
necessary to achieve State water quality standards in their currently 
impaired waters, not the annual costs of carrying out the TMDL program 
itself. EPA is working with States and proposing a significant resource 
increase for TMDLs in the sec. 106 budget to help assure that States 
can and will succeed in carrying out their TMDL responsibilities. As 
required by recent court orders and consent decrees resulting from TMDL 
lawsuits, EPA is prepared on a case-by-case basis to backstop State 
TMDL development if necessary. EPA is also supporting increased funding 
for TMDL implementation (e.g., increase $50 million for nonpoint source 
grants and State discretion to use 19 percent of their SRF for nonpoint 
source and estuary management project grants). In addition, the fiscal 
year 2001 budget includes significant increases in funding for USDA 
conservation programs.

    Question 13. What portion of the budget will allow EPA to complete 
the increased NPDES permits that will be needed for those States that 
do not have delegated authority?
    Response. Funding of the fiscal year 2001 President's budget 
request for the NPDES program would enable EPA to address the increased 
NPDES permits for those States that do not have delegated authority.

    Question 14. The proposed TMDL program has the potential to force 
many silviculture and agriculture operations which have traditionally 
been nonpoint sources, to get Clean Water Act NPDES permits. The EPA is 
currently working on taking care of a backlog of NPDES permits. The EPA 
has proposed the need to have approximately 20,000 Concentrated Animal 
Feeding Operations permitted in the next 5 years. This work load seems 
dramatic over the next 5 years. The costs of many of these projects 
will be placed on the States. Does this budget adequately fund the 
States and/or EPA to allow for all these permits? What are the cost 
estimations for implementing the 20,000 CAFO permits?
    Response. EPA is still refining its estimates of the number of 
CAFOs that will need to be permitted both to achieve full compliance 
with current regulations and under revised regulations to be proposed 
this December. EPA currently estimates that 18,000 CAFOs will receive 
permits. Many of the CAFOs will be covered by general permits which 
require fewer EPA, State and regulated community resources. As for EPA, 
it is important to fully fund the fiscal year 2001 request for the 
NPDES program which provides critical funding for addressing the permit 
backlog and permitting of CAFOs. With respect to silviculture, under 
the proposed regulations, forestry operations that are not causing 
significant water quality problems would not be subject to a permit as 
a point source. Even in cases where forestry activities are causing 
significant water quality problems, the State would have the options of 
determining whether other approaches, such as existing voluntary 
programs, are effective and sufficient to restore the health of the 
polluted water body.

    Question 15. EPA has continued to work on the issue of urban sprawl 
and the need to protect green areas and redevelop brown areas. The TMDL 
proposal has a provision that would require a 1.5-to-1 offset provision 
while States are developing their TMDLs for all new and expanding point 
sources. According to many of the industries that would have to 
purchase these offsets, the provision will drive urban sprawl because 
the Publicly Owned Treatment Plants and others will be unable to expand 
to handle population growth and thus urban sprawl. How will EPA 
coordinate the need to reduce urban sprawl and implement the TMDL 
proposal?
    Response. Decisions regarding urban sprawl are fundamentally a 
State responsibility. TMDL development is also a State responsibility, 
but EPA has the legal authority to approve TMDLs and to backstop State 
TMDL development. As part of their TMDL development process, States 
must include an allowance for future loadings that accounts for 
reasonably foreseeable increases in pollutant loads. States may choose 
to completely allocate the pollutant loading for a water body and thus 
leave no loading for future growth. EPA encourages State and local 
governments to adopt ``smart growth'' policies and requirements. Where 
adoption and/or implementation of ``smart growth'' policies and 
requirements will reduce future loadings, the allowance for future 
loadings may be reduced accordingly.

    Question 16. What are the incremental costs the TMDL proposal will 
place on other agencies such as Natural Resource Conservation Service, 
Forest Service, FWS or the BLM?
    Response. We did not make any cost estimates concerning other 
Federal agencies and the TMDL proposal. Federal agencies may and do 
participate now in State TMDL programs. Also, under Section 313 of the 
Clean Water Act, Federal agencies are responsible for complying with 
all State requirements for controlling and abating water pollution. The 
proposed TMDL rule, while clarifying and strengthening State TMDL 
development programs, does not provide any new Clean Water Act 
authorities to implement nonpoint source controls. Such controls will 
necessarily depend on existing Federal, State and local authorities and 
voluntary action.

    Question 17. What does EPA believe to be the largest contributor to 
environmental risks facing the American public today? Specifically 
describe the hazard, health effects, and the number of people affected. 
Please provide a risk comparison for those hazards.
    Response. EPA's programs address a variety of different risks, and 
each of the programs addresses risks that are significant. 
Unfortunately, comparing and ranking dissimilar risks is not an easy 
task. Some scientists question whether such rankings are possible or 
even useful, since science does not provide us with the information 
that allows us to compare different risks in equivalent terms. We are 
not able to compare the risks of high blood-lead among children in 
substandard housing to the risks posed by mercury in the Great Lakes or 
nitrogen in the Chesapeake Bay to the risks of cancer and other adverse 
health effects for a community with several chemical plants. We would 
like to be able to do this, but different people will have different 
judgments about which risks are worst, and science does not provide the 
answers.
    In addition, when setting priorities for EPA activities, risk 
comparison should not be the only consideration. The greatest 
reductions in health and environmental risks are not necessarily 
achieved by starting at the top of a list of greatest risks and working 
our way down. Instead, we have to consider the potential for reducing 
the risks posed by each hazard, taking into consideration costs, 
technical feasibility, and other implementation considerations.
    Although there are limitations to our ability to compare risks, and 
limitations to the utility of such comparisons, EPA has undertaken a 
number of activities over the years to try to compare different kinds 
of risks. The first effort was an EPA report titled Unfinished 
Business, which was completed in 1987. This report relied on expert 
judgment of a cross-section of EPA managers to rank risks in four 
categories: cancer risks, non-cancer health risks, ecological effects, 
and welfare effects (visibility impairment, materials damage, etc.). 
The report found that the risk rankings varied substantially by 
category--no hazard was found to rank high in all four categories, or 
low in all four categories. So any ranking will be highly dependent on 
the type of risk being considered. Comparing risks across categories is 
particularly difficult.
    The results of Unfinished Business included this identification of 
priority risks:

    Problems that ranks relatively high in three of four risks types, 
    or at least medium in all four include: criteria air pollutants; 
    stratospheric ozone depletion; pesticide residues on food; and 
    other pesticide risks (runoff and air depositions of pesticides).

    EPA has committed substantial effort in addressing risks posed by 
these hazards in the years since Unfinished Business was issued.

    Question 18. EPA proposed budget did not identify any efficiencies 
in its operating programs that would effectively do more with less. In 
fact an 11 percent increase is proposed. Why is the EPA not including 
in its performance goals improvements in efficiencies and 
effectiveness? What message is EPA sending to its staff by not 
highlighting in its performance goals the need to improve efficiencies 
and effectiveness?
    Response. Improving the efficiency and effectiveness of EPA's 
programs is an integral component of the Agency's overarching goal of 
increasing protection of public health and the environment. We do not 
view efficiency and effectiveness as separate, stand-alone goals, 
however. Rather, EPA has integrated these concepts into our broader 
strategies aimed at addressing the most serious environmental problems. 
Much of this work has been accomplished through increasing reliance on 
innovative approaches to help industry improve its environmental 
performance. Innovative ideas are helping EPA to think and operate more 
efficiently and effectively, and they are leading to real environmental 
improvements accompanied in many cases by reductions in costs to the 
regulated community. EPA's objective is to incorporate innovative 
approaches in environmental management throughout our many diverse 
programs, so that the Agency and its external partners achieve greater 
and more cost-effective public health and environmental protection.
    Specific examples of Agency activities where our efforts to operate 
more efficiently and effectively have been integrated into our core 
programs include:
    <bullet>  Providing timely and accessible compliance assistance by 
becoming a more effective ``wholesaler'' of compliance information; 
providing tools, assistance, and resources needed to comply with 
regulatory requirements as new rules take effect; and using compliance 
assistance in strategic combination with enforcement, monitoring, and 
incentives to achieve environmental results.
    <bullet>  Creating flexible and streamlined permitting by working 
with the States to make permit systems more effective at meeting 
environmental goals without creating unnecessary social and economic 
burdens; and moving permitting toward measuring performance while 
providing regulated parties more flexibility in how standards are met.
    <bullet>  Reducing or eliminating unnecessary regulatory paperwork 
and red tape. Over the past few years, the Agency has been successful 
in creating a greater awareness among EPA managers and staff about the 
need to streamline regulatory procedures. As a result, since 1995, the 
Agency has cut the size of the environmental section of the Code of 
Federal Regulations by 1,500 pages. Along the way, we have made a 
conscious effort to achieve our environmental goals in more efficient 
and effective ways. For example, in our pesticides program, products 
that pose very low risk due to their inherent low toxicity now have 
been exempt from EPA review. New options allow companies to proceed 
with certain registration steps, such as making minor labeling changes, 
as long as they notify EPA first. Internal management improvements at 
the Agency have reduced the average time that companies spend waiting 
for a decision on acute toxicity testing from 24 to 4 months.
    <bullet>  Increasing the numbers of innovative facility- and 
sector-based strategies to achieve improved environmental protection 
and make successful approaches more broadly available. EPA approaches 
this concept through Project XL Excellence and Leadership) and the 
Agency's sector-based programs growing out of the Common Sense 
Initiative (CSI). Overall, EPA has found that XL projects produce 
greater reductions in environmental releases than would have occurred 
under conventional regulatory approaches. At the same time, XL project 
participants have reduced environmental management costs and improved 
their competitiveness as a result of expedited or consolidated 
permitting, reduced recordkeeping and reporting requirements, and 
greater operational flexibility afforded by use of innovative 
approaches such as facility-wide emission caps. The Agency has 
undertaken a process to evaluate the outcomes of its XL and sector-
based programs, in order to more fully integrate the most efficient and 
effective approaches into our core programs.
    <bullet>  Committing to a number of actions to help accelerate 
environmental progress. These actions include promoting the voluntary 
use of Environmental Management Systems (EMSs) that help organizations 
to better incorporate environmental considerations into business 
operations. In addition, the Agency is developing a new ``performance 
track'' that will distinguish between different levels of environmental 
performance. The goal is to reward and recognize top environmental 
performers and provide meaningful incentives for others to improve. EPA 
sees these programs as a major step toward creating a more performance-
based system for driving continuous environmental improvement. Despite 
the voluntary nature of these programs, we believe they have the 
potential to result in significant improvements in the efficiency and 
effectiveness with which environmental protection is achieved, 
augmenting the traditional regulatory approach.

    Question 19. What is the EPA doing differently in order to improve 
effectiveness, be less prescriptive, and become more outcome oriented?
    Response. As discussed in greater detail in the response to 
question No. 4, the Agency has undertaken many actions to improve the 
effectiveness of its programs and to focus its activity on the 
achievement of public health and environmental outcomes. Much of this 
work has been accomplished through increased reliance on innovative 
approaches to help industry improve its environmental performance. 
These innovative approaches typically are characterized by an increase 
in the flexibility provided to the regulated community, with a 
corresponding decrease in EPA's reliance on traditional, more 
prescriptive methods.
    Specific examples of Agency activities where our efforts to improve 
effectiveness, be less prescriptive, and operate in a more outcome-
oriented manner include:
    <bullet>  Providing timely and accessible compliance assistance, in 
strategic combination with enforcement, monitoring, and incentives to 
achieve environmental results.
    <bullet>  Moving toward less prescriptive and more flexible 
permitting aimed at achieving environmental results; providing 
regulated parties more flexibility in how standards are met, with 
primary emphasis on results to be achieved.
    <bullet>  Reducing or eliminating unnecessary regulatory paperwork 
and red tape, without sacrificing protection of public health or the 
environment.
    <bullet>  Increasing the numbers of innovative facility- and 
sector-based strategies (through Project XL and programs growing out of 
the Agency's Common Sense Initiative) to achieve improved environmental 
protection. As a result of the Agency being less prescriptive, these 
efforts have allowed the regulated community to achieve superior 
environmental outcomes, using more cost-effective and efficient methods 
than would be allowed under conventional regulatory approaches.
    <bullet>  Actions including promoting the use of Environmental 
Management Systems (EMSs) that help businesses to better incorporate 
environmental considerations into their operations. EPA sees these 
voluntary programs as a major step toward creating a more performance-
based system for driving continuous environmental improvement focused 
on outcomes, augmenting the more traditional regulatory approach.
Children Health Testing Program
    Question 20. What criteria is presently being considered for 
selecting chemicals to be included in EPA's Children's Health Testing 
Program?
    Response. EPA is currently working with stakeholders on the 
chemical selection criteria to be used by this program. In all 
likelihood, chemicals selected for testing under this program will be 
based on presence in tissues of children, foods children regularly eat 
and drink, air children breathe, including residential or school air 
and products children use. EPA also will rely on readily available data 
from existing sources, including:
    <bullet>  National Health and Nutrition Examination Survey III 
(NHANES);
    <bullet>  National Human Adipose Tissue Survey (NHATS);
    <bullet>  Total Exposure Assessment Methodology (TEAM);
    <bullet>  FDA data base of Everything Added to Food in the United 
States (EAFUS);
    <bullet>  National Contaminant Occurrence Data base (includes 
unregulated drinking water contaminants);
    <bullet>  National Human Exposure Assessment Survey (NHEXAS); and
    <bullet>  EPA Office of Research and Development studies and other 
published indoor air data.
    At this time, EPA estimates that about 50 chemicals will be 
selected for testing.

    Question 21. What are the estimated costs for testing and exposure 
data collection for chemicals to be included in the Children's Health 
Testing Program?
    Response. If a chemical were to have all 10 tests in the proposed 
battery conducted, the estimated cost of testing would be approximately 
$3 million per chemical. Because of the criteria used to select 
chemicals for this Program, it is likely that most of the chemicals 
selected will have many of the 10 tests in the battery already 
conducted. EPA expects the average chemical currently under 
consideration in this Program would actually need only five tests done, 
at an average cost ranging from $1.5 to $2.0 million per chemical.
Safe Drinking Water Act
    Question 22. In the fiscal year 2001 budget request, $48.9 million 
will be directed toward Safe Drinking Water Research. Considering the 
Safe Drinking Water Act requires the issuance of new standards for a 
substantial number of contaminants within the next year, what is your 
justification for the proposed level of research funding? Is this 
adequate to ensure that regulations are based on sound science while 
considering health risks, risk reduction and implementation costs? How 
will the research dollars be allocated within the Safe Drinking Water 
account?
    Response. EPA funding for drinking water research has grown from 
$20.8 million in fiscal year 1995 to $48.9 million in fiscal year 2001. 
This has enabled the Agency to improve the science and provide new data 
and technologies in support of all priority Safe Drinking Water Act 
rulemakings and risk management decisions required to date. We believe 
that the level of funding in the President's Request for fiscal year 
2001 will allow us to continue to meet the requirements of the SDWA in 
a timely and scientifically sound manner.
    In the near-term, the Agency is required to make regulatory 
determinations on a subset of the chemicals and microbial pathogens on 
the Contaminant Candidate List (CCL). The contaminants that will be 
selected for this first round of regulatory determinations are not 
expected to have significant research requirements. The fiscal year 
2001 President's budget includes $13.3 million in support of CCL 
research, which represents a near doubling of resources over fiscal 
year 2000 when congressional add-one are excluded. This funding level 
will help to ensure that future decisions on unregulated contaminants 
will be based on sound science while considering health risks and cost-
effective risk reduction strategies. EPA's drinking water research 
budget in fiscal year 2001 also includes funding to address scientific 
issues for special topics (e.g., sensitive subpopulations) as well as 
for rules that have already been or will soon be promulgated (e.g., 
microbes/disinfection by-products and arsenic).
    Attached is an allocation of research dollars according to the 
major SDWA provisions.

                            Drinking Water Research Program Summary (SDWA by statute)
----------------------------------------------------------------------------------------------------------------
                           Pending 2000 Enacted*                                   2001 President's Budget
----------------------------------------------------------------------------------------------------------------
                                                                                 Total $
                   Total $ (millions)                           FTE             (millions)            FTE
----------------------------------------------------------------------------------------------------------------
$47.4..................................................              221.0              $48.9              220.1
----------------------------------------------------------------------------------------------------------------
*fiscal year 2000 includes $6.3 million congressional add-on

    The Agency requests a total of $48.9 million and 220.1 total work 
years in the 2001 President's budget for the Drinking Water Research 
Program. (The request includes the operational support staff and 
associated operating expenses necessary to implement the research 
program.)
    The Safe Drinking Water Act (SDWA) amendments require that the U.S. 
Environmental Protection Agency (EPA) set standards and establish 
processes to ensure that drinking water from public water systems is 
safe to drink. The Office of Research and Development (ORD) research 
efforts contribute to the Agency's scientific basis for regulations 
implementing SDWA. The research also seeks to increase our 
understanding of the health effects, exposure, assessment, and risk 
management issues associated with contaminants in drinking water from a 
public health basis. EPA scientists also provide technical assistance 
to EPA program and regional offices, States, municipalities, and 
private suppliers of drinking water to assist in prevention or removal 
of contaminants in drinking water. Implementation of the research 
requirements in Sec. 1458(a-d) and Sec. 109 of the SDWAA required an 
expanded program in several areas, with a particular emphasis on 
research on sensitive subpopulations, adverse reproductive effects of 
drinking water contaminants (toxicology and epidemiology studies), 
research and assessment of selected disinfection by-products (DBPs) 
(single chemical and complex mixtures) and arsenic, and waterborne 
disease occurrence studies, as well as treatment and distribution 
system development.

                         Allocation of Drinking Water Research resources by SDWA Statute
----------------------------------------------------------------------------------------------------------------
                                                                      2000 Pending Enacted    2001 President's
                                                                    -----------------------        Budget
                                                                                           ---------------------
                                                                       Total $      FTE      Total $
                                                                     (millions)             (million)     FTE
----------------------------------------------------------------------------------------------------------------
Section 103, 1412(b)(3)............................................        $1.1        5.3       $1.4        4.9
Section 109, 1412(b)(12)...........................................        $3.4       16.3       $2.3       15.3
Section 137, 1458(a)...............................................        $2.3        7.8       $2.6        7.7
Section 137, 1458(b)...............................................        $4.8       18.5       $3.8       16.5
Section 137, 1458(c)...............................................       $15.9       67.6      $17.7       65.5
Section 137, 1458(d)...............................................        $6.0       26.6       $6.7       27.0
Section 201........................................................       $13.9       78.9      $14.4       83.2
----------------------------------------------------------------------------------------------------------------


    Question 23. In last year's EPA fiscal year 2000 budget hearing 
record, EPA referred to an intensive, comprehensive evaluation of 
research that was underway to assess the support needed for a wide 
range of regulatory activities facing the Agency over the next 5 years 
(e.g., the Contaminant Candidate List, Stage 2 Disinfection Byproduct 
Rule, and reevaluation of existing national primary drinking water 
standards). Please describe the results of this evaluation in detail, 
taking into account the regulations listed above and other regulations 
to be promulgated in the coming years.
    Response. The EPA is still in the process of conducting the 
comprehensive evaluation of drinking water research needs and resource 
requirements over the next 5 years, and is still on track to complete 
this evaluation in fiscal year 2001. We have, however, conducted a 
thorough assessment of research needs and resource requirements in the 
context of EPA's annual budget cycle and ORD's research planning 
process. This assessment has been guided by a consideration of: 1) the 
progress made toward addressing critical scientific issues described in 
the Agency's research plans for Microbial Pathogens/Disinfection By-
Products and for Arsenic; and 2) the research priorities described in 
the draft Contaminant Candidate List Research Strategy. In the process 
we have considered input on research needs and resource requirements 
from outside stakeholders,including the American Water Works 
Association (AWWA), the AWWA Research Foundation (AWWARF), other 
governmental agencies, universities and other public and private sector 
groups.
    As noted in response to Question 22 above, we believe that the 
fiscal year 2001 budget request of $48.9 million will allow us to meet 
the requirements of the SDWA in a timely and scientifically sound 
manner.

    Question 24. EPA is to be congratulated for its pioneering work 
with the National Park Service (NPS) to establish a network of 
Groundwork organizations in Brownfields communities. We are familiar 
with the excellent work that is going on in Bridgeport, CT; Lawrence, 
MA; and Providence, RI; and have a strong interest in the Concord, NH 
program. Most impressive are the broad-based committees that are 
directing Groundwork organizations, and their ability to leverage 
dollars for redevelopment projects in Brownfields communities.
    What are your plans to expand the Groundwork network beyond the 
northeast?
    Response. In fiscal year 2000, the Groundwork network will mature 
in six communities, all in the northeast. One additional community, 
probably in New Jersey, will begin preparing a business plan. In 
addition, a central organizing Groundwork USA organization will be 
established to support all of the sites.
    Once a level of sustainability has been achieved in the initial 
communities in the northeast, we would expect to support the expansion 
of the network to other Brownfields communities which are well prepared 
to make the required commitment. Our approach will be to continue to 
work with the National Park Service's (NPS) Rivers & Trails program to 
build additional Groundwork Trusts that will facilitate the cleanup and 
reuse of Brownfields sites and the development of sustainable 
community-based environmental conservation efforts.

    Question 25. What will it take in support from EPA and NPS to 
assure the sustainability of the Groundwork organizations?
    Response. To sustain the existing Groundwork organizations and 
expand the system by 10 communities would require a commitment of $0.5 
million in fiscal year 2001 and an estimated $1.5 million in fiscal 
year 2002.
    EPA funding is transferred to NPS through an Interagency Agreement 
between the EPA and the NPS. These funds are currently awarded to 
eligible public entities to be used for environmental response planning 
and implementation activities at Brownfields sites, including the share 
of overhead costs attributable to such activities. Examples of these 
activities include, outreach efforts, community participation and the 
hiring of staff for building local Groundwork Trust organizations.
    Currently, in fiscal year 2000, NPS is funded at $150,000 and the 
Groundwork network will mature in six communities, all in the 
northeast. One additional community, probably in New Jersey, will begin 
preparing a business plan. In addition, a central organizing Groundwork 
USA organization will be established to support all of the sites.
    Once we are successful in achieving a level of sustainability in 
the initial communities in the northeast, we would expect to expand the 
network to other Brownfields communities which are well prepared to 
make the required commitment. Our approach will be to continue to work 
with the NPS Rivers & Trails program to build broad-based steering 
committees with strong support from the local government and the 
private sector to undertake the necessary planning and assessment 
critical to establishing new Groundwork organizations.

Resource Conservation and Recovery Act (RCRA)

            Leaking Underground Storage Tank Program
    Question 26. EPA's fiscal year 2001 Annual Plan Summary states that 
EPA intends to achieve 93 percent compliance with the requirements of 
RCRA Subtitle I. However, the deadline for compliance with these 
requirements was December 22, 1998. Although the States are the primary 
enforcers of the UST program, it seems appropriate for EPA to increase 
enforcement efforts when owners have been on notice of the requirements 
since 1988 and the deadline has passed without full compliance. How 
have the Agency's enforcement resources been targeted in the past?
    Response. Since States are the primary, and most effective, 
enforcers of the UST program, EPA's major efforts are aimed at 
augmenting and assisting State programs where possible. It is in this 
area that the Agency's resources can be most effectively utilized and 
leveraged.
    The Agency's assumption that 93 percent of the existing underground 
storage tanks will be in compliance by the end of fiscal year 2001 is 
based, in part, on the fact that many States have laws and enforcement 
tools that go well beyond those available to EPA. This includes the 
``red tag'' laws in 20 States which allow them to prevent delivery of 
fuel to noncompliant facilities. In addition, distributors in many 
other States have decided not to deliver fuel to non-complying 
facilities for liability reasons. These State enforcement tools are the 
best way to force increased compliance.
    EPA's Office of Enforcement and Compliance assurance has designated 
compliance with the 1998 requirements as an ``important activity'' in 
its fiscal year 2000/2001 Memorandum of Agreement (MOA) Guidance to all 
EPA regions, noting that ``EPA efforts should be focused on States 
where compliance rates are lowest or States' compliance monitoring and 
enforcement programs are a concern.'' Thus, EPA is increasingly 
targeting Federal efforts in this direction. Inspection and enforcement 
full time equivalents (FTEs) for the UST program were increased to over 
30 FTEs by the time of the December 22, 1998 deadline, and will remain 
approximately at that level for fiscal year 2001. The Federal Facility 
Enforcement Office recently conducted an inspection initiative 
targeting Federal facilities. In addition, EPA recently changed its 
field citation policy for 1998 upgrade violations by both increasing 
the penalty amount from $900 to $1,300 and narrowing the categories of 
owners/operators eligible for field citations to private operators of 
two or fewer small facilities as well as all State, local, and tribal 
facilities. The remainder of non-compliant facilities will be subject 
to substantially higher administrative penalties.

    Question 26a. How many underground storage tanks were addressed 
(cleaned up, replaced or closed) in fiscal year 1999?
    Response. As of September 30, 1999, EPA estimated that 60 percent 
of 760,000 (i.e., about 456,000) active tanks were in compliance with 
the leak detection requirements. As of December 1999, approximately 85 
percent of 760,000 (i.e., 646,000) active tanks were in compliance with 
the 1998 deadline for upgrading, replacing, or closing tanks. In fiscal 
year 1999, approximately 25,000 tanks were cleaned up.

    Question 26b. Are there impediments to achieving 100 percent 
compliance with the enforcement of this deadline?
    Response. There are major impediments to achieving 100 percent 
compliance with the enforcement of this deadline. The size of the UST 
universe is enormous (760,000). Bringing all non-compliant facilities 
into compliance represents a huge workload for the States and EPA, and 
is an on-going activity. This difficulty is increased by the fact that 
the owners of USTs still out of compliance are generally either 
recalcitrant or are financially unable to comply. This group will not 
be easy to bring into compliance. Furthermore, every year the States 
and EPA discover unregistered tanks that need to be brought into 
compliance. In addition, there are operation and maintenance 
requirements that need to be met over time. It will be a continuing 
challenge to ensure that UST operators and owners properly operate and 
maintain their USTs to remain in compliance. Nonetheless, EPA is 
committed to working with the States to bring the compliance rate to as 
close to 100 percent as is possible.

    Question 26c. EPA's fiscal year 2001 budget request indicates that 
the Agency intends to assist in the cleanup of 21,000 leaking 
underground storage tank cleanups for a cumulative total of 271,000 
cleanups since 1987. How many historical cleanups still remain?
    Response. There is a backlog of approximately 170,000 cleanups not 
completed. There have been approximately 400,000 releases confirmed and 
approximately 230,000 cleanups have been completed. EPA, with very few 
exceptions, does not perform the cleanups of the leaking underground 
storage tanks. States and Territories use the Leaking Underground 
Storage Tanks (LUST) Trust funds to administer their corrective action 
programs, oversee cleanups by responsible parties, undertake necessary 
enforcement actions, and pay for cleanups in cases where a responsible 
party cannot be found or is unwilling or unable to pay for a cleanup. 
Most States have cleanup funds that cover the majority of owners and 
operators' cleanup costs. These State funds are separate from the LUST 
Trust Fund. Collectively, the States have and spend about $1 billion 
annually to pay for cleanup of releases from underground storage tanks.

    Question 26d. How many new cleanups come up each year?
    Response. Since 1989, States have overseen the completion of an 
average of 21,000 cleanups annually.

    Question 26e. How is EPA going to address the preliminary 
assessment of California's UST data base by the University of 
California at Davis which indicates that the annual leak rate for UST 
systems in compliance with upgrading requirements is still almost 1 
percent per year?
    Response. EPA, working with the States, has undertaken activities 
to evaluate UST system performance, determine ways to improve UST 
systems, and improve owners'/operators' operation and maintenance of 
UST systems. For example, EPA is working with States to identify the 
cause of a release from a 1998 upgrading compliant UST system that is 
currently leaking. OUST is also working to increase the education of 
owners and operators of UST systems. Along this undertaking, OUST is 
finalizing an ``Operations and Maintenance Manual'' planned for 
distribution to State inspectors and individual tank owners and/or 
operators. The manual identifies maintenance procedures that must be 
accomplished by Federal regulations. In addition, the manual is filled 
with numerous suggestions to optimize the performance and benefits that 
are derived from leak detection, spill and overfill, and corrosion 
protection equipment that are part of a total UST system. Although no 
system is foolproof against failure, increasing awareness of proper 
maintenance is essential in averting a return to the magnitude of leaks 
that are presently being cleaned up from previously substandard 
underground storage tank systems.

            Addressing Risk in the RCRA Program
    Question 27. --EPA's Summary of the fiscal year 2001 budget states 
that ``the Agency will continue work to develop concentration-based 
exemption levels for constituents occurring in hazardous waste''. Does 
EPA intend to revisit efforts to propose a ``bright line'' approach for 
contaminated media (a point at which waste is no longer considered to 
be hazardous) as was rejected in the final HWIR-Media rule?
    Response. EPA does not intend to propose a ``bright line'' approach 
for contaminated media.

    Question 28. What progress has the Agency made ``to better address 
risk in the RCRA Program?'' Specifically, at what stage of 
implementation are the following programs: Agency's Air Toxics Multi-
Media Initiative, Risks from Surface Impoundments, Toxic Constituents 
Leaching Procedure, Hazardous Waste Minimization and Combustion 
Strategy, Hazardous Waste Listings Determinations and Industrial Non-
Hazardous Waste Guidance?
    Response. Agency's Air Toxics Multi-Media Initiative: In 1996, 
EPA's Hazardous Waste Characteristic Scoping Study identified direct 
inhalation risks from emissions of waste management units as one 
potential gap in the RCRA hazardous waste characteristics. The Air 
Characteristic Study, completed in May, 1998, and revised in August, 
1999, addressed this issue by examining the potential direct inhalation 
risks due to emissions from certain waste management units. The study 
was designed to highlight areas that might require more detailed 
review. Out of all waste management units analyzed, risk assessment 
showed that wastewater treatment tanks proved to be of most concern for 
risks from the inhalation pathway. Important elements of the RCRA 
program exist that would reduce the air risk from certain tank units 
and land-based units. However, if EPA chose to address these risks 
under R(: RA, wastewater treatment units would remain exempt unless 
current regulations on these units are modified. EPA is starting to 
look at whether some air release controls could be imposed on those 
exempt tanks under RCRA in a reasonable way and whether we can get 
better information as to how often potentially risky concentrations are 
present in wastewaters managed in such exempt tanks.
    Risks from Surface Impoundments: Under the 1996 Land Disposal 
Program Flexibility Act, EPA was charged with conducting a study of the 
risks associated with those surface impoundments that had received 
wastes that had been previously but were no longer hazardous waste. EPA 
is progressing well with the surface impoundment study. After several 
years of public comment, external peer review, methodology design and 
clearance under the Paperwork Reduction Act, a screener survey was 
issued last year. The results of that initial survey were used to 
design and focus a subsequent more in-depth survey. The long survey was 
sent out late last year and most respondents have returned their 
surveys. EPA is actively organizing and automating the responses. In 
addition, EPA after several years of peer review finalized its risk 
assessment methodology earlier this year. The final methodology was 
evaluated by an external group of peers reviewers and we are now 
finalizing our approach in response. Field sampling of selected surface 
impoundments will be conducted this spring and summer. The risk 
analysis will be conducted this summer and fall. The Agency is on track 
to develop a final risk report before the deadline of March 2001.
    Toxic Constituents Leaching Procedure: The Toxicity Characteristic 
Leaching Procedure (TCLP) is used in a wide array of applications: for 
making hazardous waste determinations (toxicity characteristic and 
listing) decisions, demonstrating compliance with land disposal 
restrictions (LDR), delisting of hazardous waste, and evaluating the 
hazardous nature of contaminated media. In the Phase IV LDR/mineral 
processing final rulemaking, the Agency committed to conducting and 
concluding a 3-5 year review of the TCLP test and its application to 
mineral processing and other waste types. A public meeting on the TCLP 
and leach testing was held in July 1999 as part of the leach testing 
review process. EPA is considering what further steps should now be 
taken in this area.
    Hazardous Waste Minimization and Combustion Strategy: EPA has set a 
goal under GPRA of 50 percent reduction of persistent, bioaccumulative 
and toxic (PBT) chemicals. This is followup from the Waste Minimization 
National Plan, part of the Strategy. EPA proposed a draft PBT list in 
1998, and is presently considering comments, and plans to finalize the 
list later this year.
    EPA issued Phase I of its Maximum Achievable Control Technology 
(MACT) controls in 1999, part of the Strategy. We plan to pursue 
development of the Phase II MACT standards in late Fall and plan to 
propose the Phase II controls in 2002.
    Hazardous Waste Listing Determinations: Under a consent decree with 
the Environmental Defense Fund (EDF), EPA must complete hazardous waste 
listing determinations for wastes from numerous industries. In June 
1999, EPA renegotiated the deadlines for the remaining four industry 
listing determinations. The court has accepted the negotiated 
revisions. The revised deadlines, however, are extremely tight and the 
Agency is taking extraordinary efforts to meet them.
    Industrial Non-Hazardous Waste Guidance: EPA is currently 
summarizing the comments received on the Draft Industrial D guide. The 
comment period closed on December 13, 1999, but some comments were not 
received until mid-January. The Agency has a 2-year plan to finalize 
the Industrial Waste guidance and as such the Guide is currently 
scheduled to be finished at the end of 2001 or the beginning of 2002.

            Addressing Risk in the RCRA Program
    Question 29. EPA's Summary of the fiscal year 2001 budget indicates 
that the Agency is moving toward a RCRA program that reflects actual 
levels of risk. How does the Agency intend to regulate based on risk 
and not fall back to the traditional technology based regulation of 
hazardous waste?
    Response. EPA's Office of Solid (OSW) waste remains committed to 
considering risk in the RCRA regulatory program. There are a number of 
developments that offer tangible evidence that we continue to move 
forward in this arena. First, all of our major regulatory programs are 
supported by intensive, detailed national scale risk analysis efforts. 
Recent examples of these include analyses to support hazardous waste 
listing determinations such as those for petroleum refining, solvents 
wastes, chlorinated aliphatics, paint wastes, inorganic chemical wastes 
and dye and pigment wastes. In addition, we are increasing by looking 
toward the development of risk-based criteria so that only those wastes 
posing a risk of concern would be captured in our listing description. 
In addition to our listings program, we continue to rely on risk 
assessment tools for evaluating, waste derived fertilizers and soil 
amendments, hazardous waste air emissions and Bevill wastes (fossil 
fuel combustion wastes, mining and mineral processing wastes, cement 
kiln dust wastes exempt from RCRA Subtitle C regulation).
    We also use risk assessment tools to help implement our existing 
programs. Local communities often express considerable concern 
regarding the permitting of hazardous waste combustion units and 
hazardous waste cleanup sites. We have developed extensive guidance for 
conducting site specific human health and ecological risk assessments 
of the stack emissions from hazardous waste combustors. In addition, 
under the Government Performance and Results Act (GPRA) we have 
developed risk-based goals for measuring progress in our cleanup 
programs. For example, one indicator of progress is to what extent has 
our cleanup program prevented human exposures.
    Finally, our commitment to considering risk in the RCRA regulatory 
program is evidenced by OSW's organizational and resource commitments. 
Several years ago OSW formed a division to serve as a center of risk 
assessment excellence and serve the entire office. There are over 20 
staff with expertise in environmental chemistry, toxicology,

            Corrective Action Program
    Question 30. EPA's Summary of the fiscal year 2000 budget states 
that the goal for fiscal year 2000 was to address 170 high-priority 
RCRA corrective actionsites. EPA's Summary of the fiscal year 2001 
states that the Agency will address 172 high-priority RCRA Corrective 
Actionsites. The Agency has request an increase of $3.4 million from 
the amount enacted in fiscal year 2000, yet it only intends to address 
two more high-priority sites than last year. Can you explain why there 
is such a disparity between the increase in funding requested and the 
disproportionate increase in high priority sites to be addressed?
    Response. Additional funding in fiscal year 2001 is not expected to 
yield increases in the number of facilities addressed annually for 1 to 
2 years. The delay is a function of the lead time needed to hire and 
train additional staff, then move increased numbers of facilities 
though the cleanup process. The expected increase in annual output is 
therefore reflected in the RCRA national cleanup goals for control of 
human exposures which jumps from 172 in 2001 to 257 for each of the 
years 2002-2005. Without the requested funding increase, it is unlikely 
that this higher annual number can be sustained that the national 
cleanup goal can be met. Additionally. the potential for exposure to 
pollutants or for groundwater contamination could increase at the 
identified sites. The annual cleanup goal for control of groundwater 
contamination which remains constant at 172 for the years 2001 through 
2005 reflects the relative difficulty in meeting this goal. Without the 
requested funding increase, the program will similarly fall short in 
meeting this cleanup goal.

    Question 31. Where is the additional $3.4 million requested to be 
used in the RCRA Corrective Action Program?
    Response. The full increase over fiscal year 2000 enacted for 
corrective action is $11.4 million. This includes $8 million to augment 
State programs and $3.4 million to implement the RCRA Corrective Action 
Reforms announced by Assistant Administrator Fields July, 1999. these 
reforms include training for regional and State program implementers, 
and guidance on implementing the flexibility inherent in the RCRA 
regulations.

    Question 32. Since the Agency only focuses on ``controlling human 
exposure'' and/or controlling groundwater releases,'' how many high 
priority RCRA sites has EPA completed remediation or cleanup, if any?
    Response. As the committee notes, the RCRA Corrective Action 
Program's national cleanup goals through 2005 are controlling hurr.an 
exposure and migration of contaminated groundwater at the roughly 1,700 
worst facilities. In addition to the goals we plan to achieve by 2005 
for our highest priority facilities. all RCRA permitted facilities are 
legally required to eventually complete any final cleanup actions 
necessary at their facilities. To date, 73 facilities have completed 
cleanup, and there has been substantial progress at other facilities. 
For example, 1,276 of the facilities are under enforceable permits or 
orders to conduct cleanup. Measures to stabilize releases have been put 
in place at 848 facilities, and 216 have completed construction of 
final remediation measures. Last, human exposures are under control at 
487 facilities, and migration of contaminated groundwater is under 
control at 419 facilities.
    Question 33. EPA has reached a settlement in the Corrective Action 
Management Unit (CAMU)Rule litigation. The settlement agreement 
includes deadlines by which EPA is to publish a notice of proposed 
rulemaking on whether the CAMU Rule should be amended by August 2000 
and whether the Agency should take final action regarding such proposal 
by October 2001. Does EPA have adequate resources to meet these 
deadlines?
    Response. EPA has adequate resources to meet the August 2000 and 
October 2001 deadlines in the CAMU settlement.

Superfund

            National Priority List
    Question 34. In the Presidential Justification for fiscal year 2001 
it is obvious from Chart 4-1, Major Progress in Superfund Cleanups, 
that there is a ramp down of sites at which construction is to be 
completed in the Superfund program. Fiscal year 1999 and 2000 had a 
goal of 85 construction completions. In fiscal year 2001, the Agency 
will complete construction at 75 sites and it is projected that in 
fiscal year 2002 70 sites will be construction complete. Will this 
decrease in construction completions jeopardize the ability of the 
Agency to meet the GPRA goal of 925 construction completes by 2002?
    Response. In the 2001 budget request the GPRA construction complete 
target is 900 by 2002. This is lower than the target of 925 completions 
by fiscal year 2002 that was included in the fiscal year 2000 budget 
request, because Congress appropriated less for the Superfund program 
in fiscal year 2000 than the fiscal year 2000 budget request.
    The current pace of 75 sites in 2001, and 70 sites in 2002, will 
assure that the Agency meets the revised GPRA goal of 900 construction 
completions by 2002.

    Question 35. Will the proposed change of the definition of 
construction complete allow the Agency to meet the GPRA goals that it 
would not otherwise meet without the new definition?
    Response. The GPRA goals for completion will be met using the 
existing construction completion definition. EPA is considering the 
creation of a parallel measure that will capture legitimate 
construction work completed at sites ``proposed'' to the NPL. This new 
measure will not be used for meeting current GPRA goals.

    Question 36. Does the Agency intend to apply the new definition of 
construction complete retroactively?
    Response. The original construction completion definition will be 
used to measure progress toward the GPRA goal.The parallel construction 
completion definition will be used to capture the legitimate 
construction work at completed sites ``proposed'' to the NPL and will 
be used as part of a parallel measure with our current GPRA goal.

    Question 37. There are fewer sites on the National Priorities List 
every year. The Agency is removing 85 sites per year and adding about 
30 sites, for net reduction of about 55 sites per year. Why is the 
Superfund budget request increasing instead of decreasing when there is 
a net reduction of about 55 sites per year?
    Response. The budget for fiscal year 2001 maintains the pace to 
achieve 900 completions by fiscal year 2002. Although there are fewer 
sites listed than are completed, our workload has remained steady as we 
continue to work on ongoing sites. The President's request for $1.45 
billion in fiscal year 2001 is a $50 million increase over the fiscal 
year 2000 enacted budget of $1.4 billion.

            Brownfields
    Question 38. The Brownfields program has been successful in 
bringing local, State and Federal resources together to achieve 
environmental and economic improvements around the country. EPA's 
fiscal year 2001 Annual Plan Summary requests approximately the same 
amount as in fiscal year 2000 but the number of projects to be 
supported has decreased. In fiscal year 2000, you pledged to provide 
supplemental support for 50 existing assessment pilots and to fund 50 
additional assessment demonstration pilots. In fiscal year 2001, the 
Agency does not plan to start any new assessment demonstration projects 
and will only support the 50 existing assessment pilots. What is the 
explanation for decreasing the number of projects supported while 
maintaining the same level of funding?
    Response. By the end of fiscal year 2000, more than 350 Assessment 
pilots will be awarded. As the earlier awarded pilots complete their 
assessment activities, an increased need for cleanup dollars, 
supplemental funding for existing assessment pilots and assessments to 
support greenspace preservation activities has emerged. Major shifts 
between the funding levels of assessment and cleanup activities within 
the Brownfields budget reflect this need:

    <bullet>  $4 million will be redirected from Brownfields assessment 
pilots to Brownfields Cleanup Revolving Loan Fund pilots. This 
redirection reflects a shift in program emphasis as more Brownfields 
communities move into the cleanup phase.
    <bullet>  $4 million, which will be derived from assessment pilot 
funding, will be invested to award 10 new Brownfields Showcase 
Communities. These communities will serve as models to demonstrate the 
benefits of interagency cooperative efforts in addressing environmental 
and economic issues related to Brownfields.
    <bullet>  $3.4 million will be redirected from Brownfields 
assessment pilots to Brownfields Technical Support. This redirection 
reflects development and implementation costs of information systems to 
collect, track and report key Brownfields program data. It also 
reflects the increased cost of oversight and technical support for the 
increased number of Brownfields pilots.

    EPA is still evaluating the appropriate balance between awarding 
new assessment pilots within the existing dollar amount and providing 
funding to supplement existing assessment pilots.

            National Institutes of Environmental Health Sciences
    Question 39. The President's fiscal year 2001 budget request for 
the National Institute of Health Sciences (NIEHS) is $48.5 million. 
This is a decrease of $11.8 million from last year's enacted budget. 
The NIEHS program has been traditionally underfunded and has taken the 
brunt of cuts in EPA's budget. Should NIH be the funding mechanism for 
the NIEHS program, instead of EPA, since your Agency apparently does 
not consider NIEHS a priority?
    Response. EPA is very supportive of the work NIEHS has been doing 
for a number of years. The request of $48.5 million for NIEHS 
represents what the Administration has consistently requested for the 
last several years. Congress, over the past 3 years, has increased its 
budget to $60 million while at the same time reducing Superfund cleanup 
funding.
    The Agency has attempted to balance cleanup dollars versus research 
needs, and has reflected this with a substantial budget request of 
almost $50 million for NIEHS which will allow NIEHS to continue to do 
very important work in support of the Superfund program.

Pesticides/Toxic Substances

            Food Quality Protection Act
    Question 40. The Food Quality Protection Act (FQPA) requires the 
Agency to reevaluate 9,721 food residue tolerances approved before the 
passage of the Act by 2006. The Agency met its first deadline to 
reassess 33 percent of these tolerances by August 1999. In fiscal year 
2000, the Agency planned to assess 20 percent of 9,721. In fiscal year 
2001, the Agency plans to reassess 1,200 tolerances. Assuming that the 
Agency meets both of these goals, 842 tolerance reassessments will need 
to be completed in 2002-2006. Is the Agency e we on an ``appropriate'' 
schedule to meet the 2006 tolerance reassessment deadline?
    Response. Yes. EPA is planning to complete tolerance reassessment 
on schedule.

    Question 41. How many tolerances have been reassessed to date?
    Response. As of March 21, 2000, EPA has reassessed 3,471 
tolerances.
            Pesticides
    Question 42. The Agency has two deadlines to meet regarding safe 
food. By 2002 reregistration of pesticides currently on the market must 
be completed to ensure they meet the latest health standards. By 2006, 
a review of tolerances and exemptions for pesticide residues approved 
before FQPA are to be reviewed. EPA has been conducting reregistration 
in conjunction with tolerance reassessments. Can you explain the 
reasoning behind this seeing as it may jeopardize meeting the 
deadlines?
    Response. EPA is conducting reregistration in conjunction with 
tolerance reassessment because it saves resources and improves the 
efficiency of both programs to conduct them together. During 
reregistration, EPA conducts a complete assessment of a pesticide's 
risks to human health and the environment, including acute and chronic 
dietary risk assessments for any food uses. Mitigation measures are 
developed for risks posing concerns. In reassessing tolerances for a 
pesticide, the Agency similarly must conduct a complete dietary risk 
assessment. The goal of both review programs is to determine whether 
pesticides with food uses meet the safety standard of FQPA, and to 
mitigate any dietary risks of concern. It makes sense to combine 
schedules and integrate reviews for reregistration and tolerance 
reassessment, so that the needs of both programs are met through one 
effort. EPA has prioritized pesticides for reregistration and tolerance 
reassessments based on their potential risks, as required under FQPA. 
There are three groups, with group 1 having the highest potential risk, 
group 2 lesser risk and group 3 the least. Pesticides under the 
reregistration program fall into each of the three groups, and this 
impacts the schedule for completing the reregistration program. At 
present, EPA is planning to complete tolerance reassessment on 
schedule, in 2006, and to complete reregistration prior to the deadline 
for completing tolerance reassessment.

    Question 43. What is the total number of pesticides needing 
reregistration by 2002?
    Response. A universe of 612 reregistration cases (groups of related 
pesticide active ingredients) will be complete prior to the deadline 
for completing tolerance reassessments in 2006.

    Question 44. How many have been completed to date?
    Response. To date, EPA has completed 198 REDs (15 of which were 
early voluntary cancellations), and 231 more cases have been 
voluntarily canceled by their registrants. Thus, 429 cases have 
completed the reregistration eligibility decisionmaking process, 
leaving 183 cases to complete.

    Question 45. Will you meet the deadline?
    Response. EPA is combining schedules and integrating reviews for 
reregistration and tolerance reassessment, so that the needs of both 
programs are met through one effort. At present, EPA is planning to 
complete tolerance reassessment on schedule, in 2006, and to complete 
reregistration prior to the deadline for completing tolerance 
reassessment.

            Toxic Substances Control Act
    Question 46. There seems to be a lot of basic hazard testing being 
done at EPA. Although it is good to know what risks exist in the 
environment, some of these efforts appear to overlap. Reducing 
duplication in testing will provide us with hazard data while 
preventing the loss of animal lives used in the process of testing. 
Some of your testing projects include: High Production Volume Chemical 
Testing Challenge; Children's Health Initiative; Endocrine Disruptors 
Screening Program; National Program Chemicals. Can you distinguish 
between the data each of these programs provides?
    Response. EPA does not anticipate having any problem in 
distinguishing between the data each of these programs will provide. 
Each of these programs has been structured to meet a different need, 
and there has been substantial coordination both within the Agency and 
with outside groups, including industry, to guarantee that duplicative 
testing will be avoided. Under section 4 of TSCA, EPA must not require 
duplicative testing and therefore applies extreme care and diligence in 
assuring that none of the testing it proposes either has already been 
conducted, is being conducted, or is in the process of being proposed 
by another program or entity.
    The HPV Challenge Program will provide only screening-level 
toxicity and fate data on high production volume chemicals. Some of the 
HPV Challenge Program chemicals may also be included in the Children's 
Health Program and in the Endocrine Disruptors Screening Program, but 
the data being sought in each program are different. The Children's 
Health Program builds upon the basic screening-level data to pursue 
additional information directly relevant to children's exposures where 
the data included in the Challenge Program may not be sufficient; it 
would not duplicate the Challenge Program data, nor require a company 
or consortium to perform two different levels of tests on the same 
chemical to achieve a more refined hazard characterization. The 
Endocrine Disruptors screening program has only one point of overlap 
with the HPV Challenge and Children's Health programs--a two-generation 
reproductive toxicity study--and the programs are being closely 
coordinated to ensure that no duplication of testing will be necessary 
or requested. The National Program Chemicals work does not involve 
testing of chemicals.

    Question 47. Are many of the same chemicals tested in each of these 
programs?
    Response. As noted in the response to Question 46, there will be 
some overlap among the programs in terms of which chemicals are being 
tested. However, the specific testing requirements and the data 
generated from the testing will differ from program to program. There 
will be substantial inter-program coordination to ensure against 
duplication of effort.

    Question 48. Does the Agency intend to consolidate these efforts in 
such a way as to reduce the loss of animal lives? Is the Agency 
currently working on the validation of non-animal testing methods?
    Response. The Agency is committed to reducing the number of animals 
used for testing, to reducing pain and suffering of test animals, and 
to replacing animals in testing with validated in vitro (non-animal) 
test systems. These are fundamental principles to which EPA has been 
committed for many years. In addition to pursuing the validation of in 
vitro test methods (which is addressed more fully in response to 
questions 4b, 4c, and 4d, below), EPA is committed to incorporating 
these principles into the design of its various hazard testing programs 
by, for example, encouraging participating companies to first make 
available all existing data pertaining to the chemicals and endpoints 
being addressed. In this way, available existing data will be evaluated 
for their adequacy in assessing the potential health risk of a chemical 
before additional testing is conducted. EPA also observes these 
principles by ensuring that duplicative testing is avoided, and by 
strongly encouraging the use of chemical categories and the application 
of chemical structure-activity relationships, to reduce the absolute 
number of chemical substances that may need to be tested.

            HPV Chemical Testing Program
    Question 49. EPA's fiscal year 2001 summary budget states that ``in 
2001, EPA will initiate safety reviews on chemicals already in commerce 
by obtaining data on an additional 10 percent of the 2,800 HPV 
chemicals on the master test list.'' How many HPV Chemicals has 
toxicity data been gathered?
    Response. Under the HPV Challenge Program, 437 companies, either 
individually or as part of more than 150 consortia, have committed to 
sponsoring over 2,070 chemicals by 2005. In their commitments to 
participate in the Program, companies and consortia specify a ``start 
year'' for each chemical, during which work on that chemical will 
begin. Presently, companies have committed to start 413 HPV chemicals 
during calendar year 2000 and 1,150 chemicals during calendar year 
2001. These calendar year commitments are not perfectly in step with 
the government fiscal year.
    To ``start'' a chemical, the sponsoring company or consortium 
begins by collecting and assessing the existing data on the chemical, 
which it furnishes to the Agency and to the public in the form of a 
robust summary. The company or consortium then also provides a test 
plan or work plan on the chemical, indicating where existing data are 
deemed adequate and where new testing may be required. We have not yet 
received robust summaries or test plans for the 2000 and 2001 
chemicals, although we expect those submissions to begin shortly.

    Question 50. The MEIC human cell line replacement is a promising 
method for replacing the LD/50 test. Will the MEIC receive a portion or 
all of the Agency's monetary commitment in the HPV agreement for non-
animal test methods for fiscal year 2001 ?
    Response. EPA has previously responded to this question in Acting 
Assistant Administrator Susan H. Wayland's letter to you dated March 
15, 2000. Ms. Wayland stated that the funding committed to by EPA in 
its letter of October 14, 1999 to participants in the HPV Challenge 
Program, is intended to promote the development and validation of non-
animal alternative test methods and protocols, and that the Multicenter 
Evaluation of In Vitro Cytotoxicity (MEIC) test battery is one of 
several alternative in vitro methods that will be given priority 
attention. The MEIC is already receiving consideration: the Interagency 
Coordinating Committee on Validation of Alternative Methods (ICCVAM) 
initiated a review of the MEIC test battery on August 24, 1999. EPA co-
chairs the ICCVAM along with the National Institute for Environmental 
Health Sciences (NIEHS). ICCVAM recommended that an Expert Panel 
Workshop be convened to evaluate the current validation status of the 
proposed MEIC test battery and other in vitro tests for predicting 
acute toxicity. This workshop is now scheduled for October 17-19, 2000, 
and will be announced in a notice published in the Federal Register.

    Question 51. If so, how soon do you anticipate sponsoring the 
validation of this method?
    Response. Validation consists of ensuring that a new method is both 
reliable and relevant for the proposed use. At its meeting in August 
1999, ICCVAM initiated a process to investigate the potential for 
validation of various acute in vitro methods, including the MEIC test 
battery. The workshop that will be convened on October 17-19, 2000 is 
to identify and prioritize the research, development, and validation 
efforts necessary to demonstrate the extent that in vitro methods could 
be used to reduce animal use for predicting acute oral toxicity of 
chemicals, and what would be necessary to further reduce or replace 
animal use. For example, some of these methodologies may hold some 
promise but still require additional basic research prior to 
validation; the October workshop may help to focus such research.
    EPA is committed to incorporating into the HPV Challenge Program, 
as appropriate, any alternative methods that have been scientifically 
validated and peer reviewed via recognized authorities, such as ICCVAM, 
and that have achieved regulatory acceptance. The funding which EPA is 
making available will support these activities.

    Question 52. If not, how does the EPA intend to spend the $250,000?
    Response. The EPA budget for alternative animal models will be used 
to fund an agreement with NIEHS to act on the recommendations of the 
October Expert Panel Workshop regarding validation of, and further 
research on, in vitro toxicological tests.

            Endocrine Disruptor Screening Program
    Question 53. The Agency received $4 million in congressional 
appropriations for fiscal year 1999 to, in part, develop and validate a 
High Throughput Screen Program (HTPS) for the Endocrine Disruptor 
Screening Program. However, the initial contract for $70,000 for the 
HTPS did not produce the desired results, causing the EPA to put the 
project on hold until later in 2000. Will the Agency invest adequate 
resources for ensuring that the HTPS (which will expedite priority for 
chemical testing, save animals and save money) becomes a valid method 
prior to beginning animal testing in the Endocrine Disruptor program?
    Response. The Agency initiated and completed a High Throughput Pre-
Screening (HTPS) demonstration project that was judged by an external 
scientific peer review panel in May 1999 to be insufficiently developed 
for regulatory use. HTPS was intended to pre-screen chemicals using 
computer automated robotic systems to measure the potential of 
chemicals to bind to the estrogen receptor. EPA has committed to 
expending additional resources to evaluate other HTPS technologies as 
recommended by the external scientific peer review.
    The Agency is investigating the use of computer simulation 
techniques (Quantitative Structure Activity Relationship Models or 
QSARs,) alternative HTPS technologies, and conventional in vitro bench 
methods for use in priority setting and initial screening of chemicals. 
EPA is conducting research internally and collaborating with the Food 
and Drug Administration and the National Institute of Environmental 
Health Sciences to accomplish the development of these simulation and 
in vitro methods for use in its Endocrine Disruptor Screening Program. 
One to 2 years will be required to fully develop these approaches.
    Neither HTPS nor the existing in vitro methods replace animal 
tests. These methods were to be used with animal screens and tests, 
until they could be appropriately validated as sound replacements for 
conventional animal methods testing. This approach was recommended by 
the Federal Advisory Committee that was formed to provide advice on the 
design of EPA's endocrine disrupter screening program (the Endocrine 
Disruptor Screening and Testing Advisory Committee, or EDSTAC). It was 
also endorsed by the National Research Council, as well as the Agency's 
scientific peer review panel. HTPS was to be used to facilitate the 
sorting process for the large number of chemicals for which we have 
little or no data on endocrine effects. It was to be used only as a 
screening and prioritization tool.

            Toxic Release Inventory
    Question 54. EPA's fiscal 2001 summary budget states that the 
quantity of Toxic Release Inventory (TRI) pollutants released, disposed 
of, treated, or combusted for energy recovery will be reduced by 200 
million pounds, or 2 percent from 2000 reporting levels. How does EPA 
plan to limit the amount of pollutants released, disposed of, treated, 
or combusted for energy recovery?
    Response. EPA has several authorities and programs that can 
encourage waste prevention and reduction, including:
    State grants under the Pollution Prevention Act (PPA) fund State 
programs, which provide technical assistance to help TRI releasers 
implement source reduction measures.
    EPA-sponsored voluntary programs, such as those under Partners for 
the Environment, which helps businesses reduce waste and TRI releases.
    Design for the Environment which helps businesses incorporate 
environmental considerations into the design of products, processes and 
technical management systems.
    The Green Chemistry program which promotes the use of chemical 
products and processes that reduce or eliminate the use and generation 
of hazardous substances, through methods that include benign feedstocks 
and safer substitutes.
    The EPA-sponsored Michigan Source Reduction Initiative which 
demonstrates the value of collaborative approaches for finding 
pollution prevention opportunities at industrial facilities. EPA is 
supporting the development of additional pilots for this approach.
    These programs can help to encourage source reduction for TRI 
chemicals, although they are not focused exclusively on TRI releasers. 
The process of TRI reporting itself can lead to waste reduction without 
any further effort on the part of the Agency, as business adopt source 
reduction practices in response to public interest and the 
opportunities to save money by reducing waste. The Pollution Prevention 
Act provides for reporting of source reduction measures undertaken at a 
facility subject to TRI reporting.
    EPA is exploring ways to better focus its authorities and ongoing 
programs on reducing TRI releases. The first step is to identify a 
subset of TRI chemicals and industry sectors on the basis of risk and 
the feasibility of reductions that would be the target for more 
intensive efforts.
    Technical assistance would emphasize approaches that can reduce 
waste at the source, since the goal relates to waste generation, and 
not simply release reduction.

    Question 55. Is the Toxics Release Inventory strictly a reporting 
statute to inventory releases as opposed to a regulatory mechanism?
    Response. The Toxics Release Inventory was created by the Emergency 
Planning Community Right to Know Act of 1986 (EPCRA) Section 313. It 
requires that certain industries report annually to EPA and their State 
government on their releases of toxic chemicals into the environment. 
In other words, it is a regulatory requirement to report.

Nuclear Waste
            Setting standards
    Question 56. The EPA fiscal year 2001 summary budget focuses on the 
benefits of partnerships and working with academia, however, you have 
refused suggestions to work jointly with the Nuclear Regulatory 
Commission and National Academy of Sciences to set joint standards for 
the Yucca Mountain repository. If you encourage cooperation, wouldn't 
the setting of Yucca Mountain standards be a good place for 
collaboration?
    Response. In developing the standards for Yucca Mountain, the 
Environmental Protection Agency (EPA) held numerous meetings with the 
Nuclear Regulatory Commission (NRC) and the National Academy of 
Sciences. In developing the proposal, EPA incorporated most of NAS' 
recommendations and accommodated several of NRC's suggestions for 
improving the rule.
    EPA has gone to great length to work with a variety of interested 
stakeholders including other Federal agencies, the scientific community 
and members of the public. We realize that this project involves a 
unique facility with many complex issues. EPA has made every effort to 
consider all of the issues which have been brought to our attention. 
This includes meetings with interested parties and discussions within 
the Administration. A significant amount of this time was spent 
addressing scientific issues in coordination with NAS, the 
Administration's Office of Science Technology and Policy, the 
Department of Energy (DOE) and NRC. EPA has worked diligently to 
resolve the many complex issues. We took the necessary time to ensure 
that we prepared standards that were technically sound, legally 
defensible, that could be reasonably be implemented, and were 
protective of public health and the environment.
    The EPA's proposed Yucca Mountain standards are entirely consistent 
with other standards the Agency has established and, in almost every 
respect, are consistent with the recommendations of the NAS. For Yucca 
Mountain, NAS suggested a risk level equivalent to an annual dose in 
the range of 2 to 20 millirem/yr. The annual risk associated with EPA's 
proposed l 5 millirem standard and 4 millirem standard for drinking 
water fall within this range. The 25 millirem/yr dose limit proposed by 
the NRC would allow greater risk than that recommended by NAS. NAS has 
supported EPA's proposed 15 millirem standard. In its November 26, 1999 
comments on the 15 millirem standard, NAS stated that ``the magnitude 
of the proposed numeric value of the individual-protection standard is 
consistent with the recommendations in the [NAS] report.''
    We will continue to make every effort to consider all of the issues 
which have been brought to our attention by the NRC, NAS, and other 
interested parties. Both NRC and NAS have submitted written comments on 
EPA's proposed standards. EPA will work closely with NRC and NAS to 
address their comments in EPA's final standards.

    Question 57. If it is decided that EPA, as opposed to NRC, is 
adequately prepared to set standards for the Yucca Mountain repository 
where the nation's highest level nuclear waste will be stored, would it 
be reasonable for EPA to also set standards for low activity waste, 
NORM, FARM and FUSRAP waste?
    Response. Yes. EPA currently has broad authority under the Atomic 
Energy Act of 1954 to set generally applicable standards for waste 
disposal of radioactive materials. This arrangement of having EPA set 
the standards and NRC implement them is the system of checks and 
balances that was established when EPA was formed in 1970 and how 
nuclear facilities have been regulated for the past 30 years.
    EPA has the expertise to set appropriate health and safety 
standards for the disposal of radioactive waste and has done so for 
decades. EPA also has expertise in implementing such standards 
successfully. In fact, EPA set the safety standards for, and certified, 
the only operating geologic repository for permanent disposal of 
radioactive waste in the United States--the Waste Isolation Pilot Plant 
in New Mexico.
    In addition, EPA has a wealth of experience in setting standards 
for, and licensing, hazardous waste facilities. This has informed our 
proposed Yucca Mountain standard. Our Yucca Mountain proposal was 
designed to achieve the same level of protectiveness, an increased risk 
in the 10-6 to 10-4 range (1 chance in 1,000,000 to 1 chance in 
10,000), as all these other Agency standards.

EPA Initiatives

            Integrated Information Systems
    Question 58. EPA's fiscal year 2001 summary budget provides $30 
million for Integrated Information Initiative. Is this a similar 
initiative as the Integrated Risk Information System, an EPA data base 
of Agency consensus health information on environmental contaminants?
    Response. The Integrated Information Initiative is designed to 
fundamentally change the way the Agency integrates and manages 
information by creating a centralized, integrated information network 
that supports EPA's core business needs and establishes a data exchange 
network to provide a wide-range of shared information systems with the 
States (who provide the bulk of environmental information), Tribes, and 
other stakeholders to improve data quality and accuracy. The Integrated 
Risk Information System (IRIS) is a much smaller and contained system. 
Its functionality addresses lists of chemicals and their attributes and 
enables chemical modeling. As the Agency implements a chemical 
standard, we anticipate that the IRIS information will likely be more 
useful and could be linked to the information integration efforts to 
provide as complete an environmental picture as possible for those who 
provide and access environmental information.
    The Administration's budget request of $30 million will support the 
first steps for EPA, in close partnership with the States, to 
nationally integrate a core set of shared environmental information 
into a single, easy to use, and less burden some source of reliable 
information. The $16 million will support State and tribal efforts to 
integrate and manage their environmental information systems and the 
remaining $14 million will fund EPA's efforts. It is critical for EPA 
to modernize and integrate the Agency's systems together with the 
States and develop a mutually agreed upon approach that will coordinate 
all of the integration efforts.

    Question 59. How does the Agency ensure that the data input into 
these information systems is accurate?
    Response. EPA must ensure the quality of the environmental 
information that is provided for use and delivery in Agency information 
systems. The information systems must maintain the integrity of the 
data that are delivered to the Agency. The Information Integration 
Initiative will substantially contribute to data accuracy by initiating 
and incorporating improved data quality efforts including the Facility 
Identification System that will provide high quality, accurate, and 
authoritative facility identification records. In addition, the 
electronic reporting/central receiving facility supported in the 
integration initiative will centralize and streamline the receipt, 
validation, storage and sharing of the environmental data reported to 
EPA; thus transcription errors will be greatly reduced. Central 
receiving will address issues of security, data quality, error 
prevention and correction, burden reduction, and efficiency in the 
electronic transmission of data.

    Question 60. Does the IRIS system only include data produced by EPA 
or other sources, for example academic papers or industry groups?
    Response. IRIS contains EPA's consensus positions on the potential 
human health effects resulting from lifetime exposure to chemical 
substances found in the environment. IRIS assessments address two 
components of risk assessment: hazard characterization and dose 
response assessment. For hazard characterization, the question is: Does 
exposure to the chemical agent have the potential to cause adverse 
health effects and what are the nature of these health effects. For 
dose-response assessment, the question is: What is the relationship 
between the exposure and dose and the likelihood of adverse health 
effect?
    In performing hazard and dose response assessments for IRIS entry, 
EPA utilizes the best available scientific information, both in the 
published and unpublished literature. EPA conducts a thorough open 
literature search for pertinent scientific information for each 
chemical substance. During the information gathering phase, the Agency 
also invites the public to provide scientific comments, analyses, 
studies, and other pertinent scientific information, particularly 
unpublished studies or other primary technical sources that EPA may not 
otherwise be able to obtain through open literature searches.

    Question 61. If IRIS does include information from a wide variety 
of sources, does it lose credibility in that the data may not have been 
peer reviewed or has been taken out of context?
    Response. Most data utilized in conducting hazard and dose-response 
assessments for IRIS entry, (e.g., those generated by the National 
Toxicology Program or presented in the academic literature), have 
received independent peer review. Some data submitted by industry 
groups directly to EPA generally have not received peer review prior to 
EPA submission. However, all information used in IRIS has received peer 
review within EPA, at a minimum through the consensus review of each 
chemical assessment in which each EPA organization has participated. 
Since 1995, all IRIS assessments have undergone an external peer review 
prior to consensus review and inclusion in the IRIS data base.

    Question 62. Please quantify the reduction in public health and 
ecological risks affecting the American public directly attributable to 
EPA activities in the last decade or so.
    Response. Quantifying all of the human health and ecological risks 
facing the country today is not a simple task, and one that is not 
complete. We have made significant efforts over the last decade in 
improving our understanding of risks and incorporating risk reduction 
into our strategic planning and programmatic activities. However, there 
is still much more to learn about the nature and extent of relative 
environmental risks, as we do not yet have tools and methods for 
quantifying many of the health and ecological risks that are addressed 
by EPA activities. Understanding risk is one factor in making decisions 
for the Agency. Decisions also need to factor in technological and 
policy opportunities to reduce risk, costs and benefits from actions, 
and the legislative and administrative authorities available to address 
risks.
    We believe that EPA's programs to reduce air pollution, reduce 
water pollution, cleanup hazardous waste sites, and to manage new 
wastes, toxic substances and pesticides have made great strides over 
the last decade in reducing health and ecological risks affecting the 
American public. At the beginning of the decade, the Reducing Risk 
report from EPA's Science Advisory Board (SAB) made ten recommendations 
to EPA to help set priorities in reducing environmental risks. These 
ten recommendations are as follows:
    1. EPA should target its environmental protection efforts on the 
basis of opportunities for the greatest risk reduction. Since this 
country has already taken the most obvious actions to address the most 
obvious environmental problems, EPA needs to set priorities for future 
actions so the Agency takes advantage of the best opportunities for 
reducing the most serious risks.
    2. EPA should attach as much importance to reducing ecological risk 
as it does to reducing human health risk. Because productive natural 
ecosystems are essential to human health and to sustainable, long-term 
economic growth, and because they are intrinsically valuable in their 
own right, EPA should be as concerned about protecting ecosystems as it 
is about protecting human health.
    3. EPA should improve the data and analytical methodologies that 
support the assessment, comparison, and reduction of different 
environmental risks. Although setting priorities for national 
environmental protection efforts always will involve subjective 
judgments and uncertainty, EPA should work continually to improve the 
scientific data and analytical methodologies that underpin those 
judgments and help reduce their uncertainty.
    4. EPA should reflect risk-based priorities in its strategic 
planning processes. The Agency's long-range plans should be driven not 
so much be past risk reduction efforts or by existing programmatic 
structures, but by ongoing assessments of remaining environmental 
risks, the explicit comparison of those risks, and the analysis of 
opportunities available for reducing risks.
    5. EPA should reflect risk-based priorities in its budget process. 
Although EPA's budget priorities are determined to a large extent by 
the different environmental laws that the Agency implements, it should 
use whatever discretion it has to focus budget resources at those 
environmental problems that pose the most serious risks.
    6. EPA and the Nation as a whole should make greater use of all the 
tools available to reduce risk. Although the national has had 
substantial success in reducing environmental risks through the use of 
government-mandated end-of-the-pipe controls, the extent and complexity 
of future risks will necessitate the use of a much broader array of 
tools, including market incentives and information.
    7. EPA should emphasize pollution prevention as the preferred 
option for reducing risk. By encouraging actions that prevent pollution 
from being generated in the first place, EPA will help reduce the 
costs, intermedia transfers of pollution, and residual risks so often 
associated with end-of-the-pipe controls.
    8. EPA should increase its efforts to integrate environmental 
considerations into broader aspects of public policy in as fundamental 
a manner as are economic concerns. Other Federal agencies often affect 
the quality of the environment, e.g., through the implementation of 
tax, energy, agricultural, and international policy, and EPA should 
work to ensure that environmental considerations are integrated, where 
appropriate, into the policy deliberations of such agencies.
    9. EPA should work to improve public understanding of environmental 
risks and train a professional work force to help reduce them. The 
improved environmental literacy of the general public, together with an 
expanded and better-trained technical work force, will be essential to 
the nation's success at reducing environmental risks in the future.
    10. EPA should develop improved analytical methods to value natural 
resources and account for long-term environmental effects in its 
economic analyses. Because traditional methods of economic analysis 
tend to undervalue ecological resources and fail to treat adequately 
questions of intergenerational equity, EPA should develop and implement 
innovative approaches to economic analysis that will address these 
shortcomings.
    Using these recommendations, EPA has made great progress in 
reducing human health and environmental risks facing the country. 
Although we have not fully quantified and measured all environmental 
risks, we have used the broad guidance from the SAB to reduce relative 
risks. In the last decade, EPA fostered the use of market-based 
mechanisms to effectively control pollution. EPA placed great emphasis 
on pollution prevention, rather than simply focusing on end-of-the-pipe 
controls. Improving the public's understanding of environmental risks 
is at the cornerstone of EPA's efforts to improve access to 
environmental information. We have worked closely with other Federal, 
State, and local government agencies and departments to include 
environmental considerations in their decisionmaking. EPA has placed 
greater emphasis on ecological risks, most notably in efforts to 
address global warming which is in many ways the greatest global 
ecological threat that we face.
    Our ability to understand and use risk assessment in decisionmaking 
continues to be a great challenge. As EPA has implemented the SAB 
recommendations over the last decade, we have continued to call on them 
to revisit this important issue. We requested the SAB revisit the 1990 
effort and update it. Specifically, we requested that the SAB explore 
additional techniques and criteria for identifying environmental risks, 
identify risk reduction opportunities and strategies, identify 
uncertainties and data quality issues associated with risk rankings, 
provide an assessment of the costs and benefits of various risk 
reduction options, and propose a new framework for assessing ecosystem 
value.
    In response to our request, the Science Advisory Board continues to 
work on these issues and has prepared a draft report entitled 
Integrated Environmental Decision-making in the Twenty-first Century. 
The title of this report indicates at new direction for the SAB in 
using risk assessment in decisionmaking. As the report notes,
    Seen from a scientific perspective, integration (of risks) can 
improve the environmental decisionmaking process in several ways. 
Interrelated and cumulative environmental risks, as they are found in 
specific integrated contexts such as particular ecosystems, local 
communities, segments of the population, or industrial sectors, can be 
assessed and compared. Formal cost/benefit methodologies can be 
improved so they weigh the full costs and benefits of different risk 
management options, and so they begin to weigh difficult-to-monetize 
values, such as ecological sustainability and intergenerational equity 
They can be designed not only to control well-understood risks and 
prevent potential risks, but also to manage emerging risks whose 
implications are just beginning to be studied the focus of 
decisionmaking in goals that are defined in terms of improved human 
health and ecosystem outcomes, rather than simply documenting steps 
taken, is consistent with accountability mandates that EPA must meet as 
a result of the government Performance and Results Act (GPRA).
    To help inform the public and environmental policymakers on the 
economic benefits and costs of environmental protection, it is critical 
to have information on expenditures incurred by society to meet 
environmental requirements. Historically, one of the most important 
data sources for national spending by manufacturing and electric 
utilities has been a survey performed by the Census Bureau--the 
Pollution Abatement Costs and Expenditures (PACE) survey. The PACE 
survey has enabled the Agency to prepare Congressionally mandated 
reports on national spending on environmental protection, including 
EPA's Environmental Investments: The Cost of a Clean Environment. The 
``retrospective'' and ``prospective'' studies on the economic benefits 
and costs of the Clean Air Act also have made extensive use of the PACE 
data.
    The most comprehensive efforts to date to assess reduced risks from 
EPA activities have been EPA's studies of the benefits and costs of the 
Clean Air Act: The Benefits and Costs of the Clean Air Act 1970-1990 
(the ``retrospective'' study) and The Benefits and Costs of the Clean 
Air Act 1990-2010 (the ``prospective'' study). Large reductions in 
risks to public health and ecosystems were obtained from the 1970 Clean 
Air Act (CAA) and the Clean Air Act Amendments (CAAA) of 1977 and 1990. 
Throughout the last decade, these laws have required that all areas in 
the United States meet specific National Ambient Air Quality Standards 
(NAAQS), which are routinely re-evaluated by EPA as the state of our 
knowledge progresses to ensure that public health in the U.S. is 
protected with an adequate margin of safety. NAAQS have been 
established for seven ``criteria'' pollutants--sulfur dioxide 
(SO<INF>2</INF>), nitrogen oxides (NO<INF>x</INF>), carbon monoxide 
(CO), particulate matter (PM), ozone (O<INF>3</INF>), volatile organic 
compounds (VOCs) and lead. In addition, the statute has also required 
controls on emissions of hazardous air pollutants (``air toxics'').
    Concerning risk reductions over the last decade or so, the 
prospective study found substantial risk reductions have been achieved 
in the area of criteria pollutants, including a mean of 14,000 avoided 
deaths per year in the year 2000. Additionally, millions of persons are 
projected to avoid a wide variety of ailments ranging from major 
illnesses such as chronic bronchitis, asthma and hospitalization to 
minor respiratory illnesses. Additional, non-health improvements to 
society's welfare are achieved from enhanced visibility in recreation 
areas, increased worker productivity, increased agricultural and timber 
yields, as well as improved recreational fishing from decreases in acid 
deposition into freshwater streams and lakes. The quantified and 
monetized benefits, as of the year 2000, amount to $71 billion per 
year. Methodologies are insufficient at this time to quantify the risk 
reductions achieved by other portions of the Clean Air Act, such as 
provisions for reducing air toxics emissions, but that the Agency is 
making substantial progress in developing such methodologies.
    It should be noted that several years of methodological 
development, including numerous reviews by EPA's Science Advisory 
Board, were required for the CAA retrospective and prospective 
assessments to be completed. EPA is now in the process of planning a 
similar assessment of the costs and benefits of the Clean Water Act, 
which we also expect to require a significant methodology development 
effort. We hope to move on to conduct similar assessments for other 
statutes and program areas in the future, and to update these 
assessments on a regular basis. Independent of these program-level 
assessments, EPA will continue with its numerous research activities, 
including its extramural grants programs, to improve our ability to 
quantify reductions in health and ecological risks.

    Question 63. For the most risk significant hazards identified 
above, what are the options available to decisionmakers to reduce risk? 
What are the most effective risk reduction opportunities? Describe the 
role of Federal, State and local government, industry, the public and 
interest groups in the various options. Based on your knowledge, are 
stakeholders in agreement with your responses?
    Response. This is an important question, as risk-reduction options 
can not be identified in a generic manner, independent of a particular 
hazard to be addressed. Whenever EPA initiates activities to seek 
reduction of an environmental hazard, an extensive effort is undertaken 
to identify an array of potential risk-reduction options for further 
assessment. Options identification usually includes extensive public 
participation. Depending on the particular hazard, the options 
identification process may include interactions with other Federal 
agencies and State and local government agencies, as well as regulated 
industries, interest groups and individual citizens. The most effective 
risk reduction opportunities are identified through cost-benefit 
analysis.
    For example, particulate matter (PM) is a criteria pollutant found 
to be a priority concern under the Clean Air Act. There are many 
sources of PM, both natural (biogenic) and man-made (anthropogenic.) 
There are large particles (PM<INF>10</INF>) and smaller particles 
(PM<INF>2.5</INF>). Natural sources like road dust is composed of more 
large particles then small particles. Emission inventories conducted by 
EPA find that for PM<INF>10</INF>, typical anthropogenic sources such 
as transportation, industrial processes and fuel combustion only make 
up about 10 percent of the total emissions inventory, with fugitive 
dust, wind erosion, and agriculture/forestry producing the bulk of 
emissions. However, this does not imply that these latter sources are 
uncontrollable. Various policy options are available to reduce 
emissions from these sources. While for PM<INF>2.5</INF>, there is more 
uncertainty about the components which make up this pollutant due to a 
less developed monitoring network.
    There are many possible methods to reduce both large and small 
particles from being released into the air. These range from controls 
on large industrial sources to strategies such as the paving of dirt 
roads. The National Ambient Air Quality Standards promulgated by EPA in 
1997 for Ozone and PM give flexibility to the States in designing plans 
for meeting these new standards in cost-effective ways. If the States 
are ultimately called upon to implement these standards, local 
governments, industry, the public and special interest groups will all 
be able to work with their States to develop strategies for attaining 
compliance.
    The issues raised by these three questions are important ones for 
EPA, and have significant implications for our future activities. As we 
look forward and plan for our activities for next several years, we 
must consider not only the risk posed by existing environmental 
hazards, but our expectations about how these risks may change in the 
coming years, as well as our statutory authorities, available options 
to address these risks (including market incentives, information 
campaigns and other methods in addition to traditional regulatory 
approaches), the costs and benefits of those options, and the 
feasibility of implementing the options.
    At the same time as we look forward to identify the best risk 
reduction opportunities, it is also important that we look back to our 
past activities to estimate the actual risk reductions that these 
activities have achieved. This type of analysis can help to determine 
if EPA has been on the ``right track'', and also provides important 
lessons that we can apply to our future activities. We have recently 
completed two substantial analyses of the benefits and costs of the 
Clean Air Act, and are now initiating similar efforts for other program 
areas.
    We have learned a great deal from the analyses of relative risks, 
and from our efforts to quantify risk reductions achieved by EPA 
activities. While these analyses have been hindered in some areas by 
limitations in the available data and methodologies, we seek continual 
improvement our risk analysis capabilities by applying the findings of 
EPA research, research conducted by EPA grantees, and efforts such as 
the Integrated Risk Project conducted by EPA's Science Advisory Board. 
We would welcome a continuing dialog with Congress and with our 
stakeholders addressing how we can best improve our risk analysis 
capabilities, and how we can best apply these capabilities, in the 
coming years.

            Persistent Bioaccumulative and Highly Toxic Chemicals
    Question 64. EPA's fiscal year 2001 summary budget states that ``in 
2001, the Agency will encourage and support implementation activities 
to meet our GPRA commitment of reducing PBT chemicals.'' What is the 
GPRA goal for PBT chemicals?
    Response. EPA has committed to reducing the levels of the highest 
priority PBTs in hazardous waste by 50 percent in the year 2005, 
starting with a 1991 baseline.

    Question 65. Is the Agency on track to meet those goals?
    Response. EPA has set internal milestones to track progress toward 
meeting the goal. First, EPA released a draft PBT list of 53 chemicals 
in late 1998, and is nearly finished responding to issues raised in 
public comments on that proposal. We expect to issue a final list later 
this year. Second, EPA must develop a methodology to allow us to 
measure progress. We have developed a draft methodology which uses 
existing data collected under the Toxics Release Inventory (TRI), so 
that no additional burden will be imposed on States or the regulated 
community. EPA is making progress toward these interim milestones and 
we expect that is 2001 we will be able to issue a preliminary report on 
progress toward meeting the 50 percent goal.
    In the meantime, the Agency, the States, and industry, have a 
number of activities underway for certain key PBTs, such as mercury. 
For example, levels of mercury in fluorescent lamps have been greatly 
reduced over the past 10 years, and EPA recently issued ``special 
collection'' rules to facilitate the collection and proper management 
of lamps.
                                 ______
                                 
Responses by Carol Browner to Additional Questions from Senator Bennett
Midvale Slag Superfund Site

    Question 1. When should I expect a courtesy of a written response 
to the jointly signed November 30, 1999 letter?
    Response. A letter, dated February 25, 2000 was sent to your office 
from William Yellowtail, Regional Administrator for Region 8. The 
letter described past and ongoing efforts to reach a settlement with 
Littleson, Inc.

    Question 2. I am very interested in seeing progress toward a 
resolution of this matter. I understand that EPA has been working on 
this site (Midvale Slag) for over 15 years. The majority of the site is 
cleaned up. What is the impediment to completing the full cleanup of 
this site?
    Response. There is no impediment to completing cleanup of the site. 
Work is underway to ensure that the final remedy is consistent with 
future land use and redevelopment. The Midvale Slag site comprises 
approximately 450 acres of property in the City of Midvale, Utah. The 
southern portion of the site, approximately 180 acres, was used by U.S. 
Smelting, Refining and Mining Company (U.S. Smelting) for smelting and 
refining activities for approximately 80 years, beginning in the 1870's 
until 1958. Five different lead or copper smelters operated over time 
on the site. In addition, zinc, silver, and cadmium were recovered at 
the site. Arsenic production began as early as 1913 with the 
construction of an arsenic plant and arsenic baghouse. These activities 
resulted in the creation of large amounts of waste material containing 
heavy metals, including lead and arsenic, in levels that threaten human 
health and the environment. The smelter was shut down in 1958, and, 
thereafter, the smelter buildings were demolished. Large piles of mixed 
smelter wastes including tailings, calcine, demolition debris, and 
baghouse dust cover the property. Massive slag piles also cover large 
portions of the property.
    The northern portion of the Midvale Slag site, approximately 270 
acres, was contaminated with mining wastes created from the smelting 
and refining activities on the southern portion which were dispersed 
through disposal and migration. While most of the northern portion is 
vacant land, the northwest portion contains the Winchester Estates, a 
trailer park residential development.
    U.S. Smelting also conducted operations on the Sharon Steel 
Superfund site, adjacent to the Midvale Slag site, where lead, zinc, 
and copper ores were milled from 1906 to 1971. Approximately 10 million 
tons of tailings from milling operations were left in uncovered piles, 
in some places over 50 feet deep. In addition to the 270 acre milling 
facility, the Sharon Steel site also includes 571 acres of residential 
and commercial areas downwind of the milling facility that had been 
contaminated by wind borne tailings.
    The Sharon Steel site was listed on the National Priorities List in 
August 1990; the Midvale Slag site was listed in February 1991.
    EPA has completed cleanup of the Sharon Steel site. Contamination 
from the milling facility that had migrated onto more than 600 
residential and business properties was excavated from the properties 
and moved to the milling facility. The tailings were consolidated and a 
soil cap was constructed over the consolidated pile. The cleanup also 
provided for groundwater monitoring and restoration of wetlands.
    Cleanup of the residential portion of the Midvale Slag site has 
also been completed. Contaminated soils in the Winchester Estates 
residential development and the adjacent undeveloped residential area 
were excavated and removed by the State of Utah under a cooperative 
agreement with EPA. The excavated material was placed on the southern 
portion of the Midvale Slag site pending a final remedy decision.
    Cleanup on the southern portion of the Midvale Slag site, the old 
smelting facility, is ongoing. To date, EPA has erected fencing to 
limit access, removed and disposed of hazardous chemicals in 
approximately 2,500 chemical containers that had been left in old 
laboratory buildings, plugged old production wells that may have been 
conduits for contamination to the deep groundwater aquifer and 
monitoring wells that were no longer needed, excavated contaminated 
material from a small unmarked pioneer cemetery and from a small area 
of this site currently being used as a lumber yard. In addition, EPA is 
in the process of evaluating potential remedies for final site cleanup 
that will address mixed smelter wastes, the slag piles, and groundwater 
contamination.
    In completing the cleanup of the site, EPA is very concerned about 
the impact of its activities on future development. In making a final 
remedy decision, EPA wants to take into account future land use to the 
maximum extent possible consistent with our ultimate objective of 
protecting human health and the environment. We believe that the most 
efficient and effective way to incorporate future land use into remedy 
selection is to promote the creation of a development plan for the 
property simultaneously with the evaluation of remedial alternatives. 
We are encouraging your constituent, Littleson, Inc., the owner of the 
site, to work with us in a cooperative fashion together with the City 
of Midvale, local citizens, and the State of Utah, and to begin working 
on a development plan for future use of the Midvale Site. We could then 
carefully evaluate the impact of various cleanup alternatives on the 
development plan and take all appropriate factors into account in 
selecting the final site-wide remedy.
    In order to promote this integrated approach to remediation and 
development of the Midvale Slag site, EPA has taken a number of steps. 
First, EPA has included the Midvale Slag site in the Superfund 
redevelopment initiative. Under this program, the City of Midvale has 
received, pursuant to a cooperative agreement, with EPA $100,000 to 
assist it in assessing potential future use of the site. Second, EPA is 
working closely with Littleson's technical advisors regarding cleanup 
issues. At Littleson's request, EPA is now evaluating additional 
remedial alternatives that your constituent indicated would be more 
conducive to its future development of the site property. Third, EPA is 
encouraging the creation of a process to be facilitated by a neutral 
party whereby all stakeholders, including Littleson, Inc., the City of 
Midvale, the State of Utah, the local citizen's group, and EPA would 
have the opportunity to discuss remedy selection and future development 
of the site. Fourth, EPA has provided additional funding through our 
technical assistance grant program to allow the local community to 
evaluate redevelopment issues.

    Question 3. My constituent is anxious to resolve the liability 
issues and move forward with Site (Midvale Slag) redevelopment. 
However, every settlement offer has been rebuffed without EPA on any 
level showing any willingness to suggest counter-proposals to resolve 
the matter. Why can't my constituent obtain any meaningful feedback 
from the Agency?
    Response. In the fall of 1990, the United States and the State of 
Utah entered into settlements with former owners and operators of both 
the Sharon Steel and Midvale Slag sites. The settling parties 
collectively paid approximately $61 million to EPA to resolve their 
potential liability for cleanup of both sites. During the same 
timeframe, the United States also made a cash-out settlement offer to 
Littleson which was rejected. EPA used the settlement proceeds to 
establish two special accounts, one for each site, and deposited 
approximately $56 million in the Sharon Steel special account and $5 
million in the Midvale Slag special account. Funds in the special 
accounts have been used to pay cleanup costs for the respective sites. 
EPA also reached an agreement with Ed Butterfield, the owner of a 5.3 
acre parcel that is included within the Midvale Slag site.
    EPA efforts to reach a settlement with Littleson, Inc., are on-
going. It is EPA's position that all potentially responsible parties 
should pay their fair share of cleanup costs. As Superfund money has 
been and continues to be used to cleanup the Midvale Slag site, 
restoring and enhancing the value of the site property, we believe that 
it is fair and equitable that a significant portion of the equity 
created by such cleanup be used to reimburse the Superfund. Estimates 
of the value of the site property once the cleanup is complete have 
ranged between $10 million and $20 million.
    Littleson has asserted that the United States is a liable party 
under CERCLA in light of the activities of Metals Reserve Company which 
took place over approximately two out of the 80 years that the facility 
was used for smelting and refining. EPA does not agree that the Federal 
Government is responsible for all the waste at the site and should 
therefore pay for virtually all past and future cleanup costs, as 
asserted by Littleson in its lawsuit against the United States. 
Nonetheless, we have advised Littleson's legal counsel that EPA is 
willing to discuss an allocation of cleanup costs that would be fair 
and equitable to all parties given the facts of the case, and that we 
would revisit the allocation of the settlement proceeds that involved 
the Sharon Steel site. We have also suggested to Littleson's counsel 
that the parties involve the services of a neutral mediator to 
facilitate these discussions. In addition, we have encouraged 
Littleson's counsel to consider entering into a prospective purchaser 
agreement that would involve the company, its development partners, and 
EPA. This settlement approach would address liability issues while 
allowing redevelopment to proceed without further delay and has been 
used successfully in many other similar situations.

    Question 4. I understand that Midvale City is using Federal 
Brownfields grant money to create a hypothetical master plan for the 
Site. This is being done without the involvement of the ultimate site 
developer, who cannot be identified until Littleson's liability issues 
are resolved. Why are we using limited Brownfields grant money to 
develop a hypothetical land use plan that in all likelihood will be of 
little or not value when it comes to actual Site redevelopment?
    Response. Midvale City is not the recipient of a Brownfields grant, 
rather it is the recipient of a Superfund Redevelopment Pilot 
cooperative agreement, which is being used to do future use planning 
for the site so that EPA can incorporate that information into remedy 
decisions. This planning is underway and has included participation by 
the Littleson's representative. A key visioning phase is scheduled to 
be completed in time to be factored into the plan for the Feasibility 
Study this spring. EPA has encouraged the Littleson's representative to 
get a developer involved in the planning and has suggested that working 
with them could lead to a better remedy.
                                 ______
                                 
 Responses by Carol Browner to Additional Questions from Senator Chafee
Superfund

    Question 1. In the fiscal year 2001 budget request, EPA asserts 
that more than 670 sites have been cleaned up. How many NPL sites 
currently have records of decision (ROD) in place? Furthermore, how 
many NPL sites that have a ROD in place have not yet achieved 
``construction complete'' status?
    Response. As of March 15, 2000, there are 1,205 NPL sites that 
currently have records of decision (ROD) in place. There are 543 NPL 
sites that have a ROD in place and have not yet achieved ``construction 
complete'' status. Some of the sites that have been cleaned up did not 
have RODs because the sites were addresses through State deferrals or 
cleaned up through the removal program.

    Question 2. EPA listed an average of 26 sites on the NPL per year 
from fiscal year 1995-1999. Last year, EPA listed approximately 40 
sites on the NPL. How many sites do you anticipate listing in fiscal 
year 2001? Is EPA taking any actions that would directly lead to an 
increase or decrease in the number of additional annual NPL listings?
    Response. The fiscal year 2001 President's budget request assumes 
that the Agency will list approximately 40 new sites on the NPL. It is 
difficult to predict future NPL listings due to a range of site-
specific technical, policy, and resource considerations which influence 
each listing decision. EPA is not taking any actions that would 
directly lead to an increase or decrease in the number of additional 
annual NPL listings.

    Question 3. EPA estimates that it currently takes 8 years from the 
time a site is listed on the NPL until it achieves ``construction 
complete.'' Do you anticipate that EPA can increase the pace of 
cleanups in the near future? In addition, is EPA taking any action that 
will reduce the cost of cleanups in the near future in order to lessen 
the burden on the Hazardous Substance Trust Fund?
    Response. EPA's estimate of an 8-year duration from site listing to 
construction completion is based on historical experience at sites 
where construction completions have been achieved. As a result of EPA's 
strong focus on achieving construction completions complemented by our 
implementation of the Superfund Administrative Reforms, this pace of 
activity is decidedly faster than the pace of construction completion 
during the first 12 years of the program.
    EPA expects to continue to implement the Administrative Reforms to 
ensure the most effective, efficient, and fair use of public and 
private time and resources. These efforts include making the most use 
of our Remedy Review Board to evaluate the soundness of proposed 
remedies, continuing to reassess remedies in light of new scientific 
and technical information, and using our enforcement tools to allocate 
liability for cleanup costs quickly and equitably.

    Question 4. EPA requested $1.5 billion for the Superfund program in 
fiscal year 2000 and $1.45 billion in fiscal year 2001. In EPA's view, 
what changes have occurred in the Superfund program to require 
decreased funding request?
    Response. The president's request for $1.45 billion in fiscal year 
2001 is a $50 million increase over the fiscal year 2000 enacted 
budget. This request for additional funding will allow the program to 
achieve the 900 construction completions by 2002. The Agency's entire 
fiscal year 2001 budget request balances fiscal responsibility with 
achieving environmental accomplishments.

    Question 5. EPA's fiscal year 2001 budget request states EPA will 
complete 75 construction completes. However, it has been reported that 
EPA will change the definition of construction complete to include work 
completed at sites that are proposed for NPL listing but were never 
finalized. How many of the estimated 75 construction completes in 
fiscal year 2001 will be attributable to the definition change? Will 
the change in the definition of the term ``construction complete' apply 
retroactively and increase the total universe of sites that are 
construction complete?
    Response. None of the estimated 75 construction completions in 
fiscal year 2001 will be attributed to the new definition. The original 
construction completion definition will be used to measure progress 
toward the GPRA goal. EPA is considering a new parallel measure to 
report construction completion work at sites ``Proposed'' to the NPL. 
This parallel construction completion definition will be used 
retroactively to capture the legitimate construction work at completed 
sites ``proposed'' to the NPL, but will not be used to increase the 
total universe of sites that are construction complete.
Brownfields

    Question 6. EPA has requested $600,000 less for fiscal year 2001 
than was appropriated by Congress in fiscal year 2000. Which part of 
EPA's Brownfields Initiative will absorb that funding cut?
    Response. The $600,000 to which the question refers was a technical 
change of one component of the Brownfields program. This was to have 
entailed no reduction in real terms to the total level of effort in the 
program. Based on Congressional inquiries concerning the apparent 
reduction, EPA will restore funding during the fiscal year 2001 
Operating Plan process and maintain the same level of effort in the 
program as appropriated in fiscal year 2000.

    Question 7. A significant number of States have implemented 
successful brownfields programs. Do you believe that EPA removal 
activities and NPL listings will decline in the future as State 
programs are strengthened further?
    Response. The Agency does not expect State Brownfields program to 
have a measurable impact on the number of removal activities or NPL 
listings because they address different types of sites. Removals are 
undertaken at sites that pose imminent risks to public health. NPL 
sites are the Nation's worst uncontrolled hazardous waste sites. 
Brownfields programs address sites that generally pose lesser risks.
Underground Storage Tanks

    Question 8. There have been several recent reports that MTBE is 
contaminating groundwater, due in large part to leaking underground 
storage tanks (USTs). As stated in the budget request, EPA's goal is to 
have 93 percent of underground storage tanks in compliance with Federal 
law by the end of fiscal year 2001. When do you anticipate that 100 
percent of the nation's USTs be in compliance?
    Response. Our goal is to achieve 93 percent compliance with the 
most recent regulatory requirement (December 22, 1998) to have spill, 
overfill, and corrosion protection. There are other requirements. Among 
those is the requirement to do leak detection. We anticipate that 
compliance with the spill, overfill and corrosion protection 
requirements may approach 100 percent in fiscal year 2003.

    Question 9. There are reports that underground storage tanks 
installed in compliance with the December 22, 1998 deadline are already 
leaking. What is EPA doing to ensure that tank owners that have made 
the necessary investments and upgraded their tanks to comply with 
Federal law will not have to make additional investments?
    Response. EPA has no data that underground storage tanks (USTs) 
installed in compliance with the December 22, 1998 deadline are already 
leaking. However, EPA, working with the States, is undertaking 
activities to evaluate UST system performance, determine ways to 
improve UST systems, and improve owners'/operators' operation and 
maintenance of UST systems. The results of this evaluation, expected in 
2002, will provide EPA with valuable data to make appropriate decisions 
about specific revisions to the UST regulations, should that be 
necessary.
    EPA is also working to increase the education of owners and 
operators of UST systems. For instance EPA is finalizing an 
``Operations and Maintenance Manual'' for State inspectors and 
individual tank owners and/or operators. The manual identifies 
maintenance procedures that must be accomplished by Federal 
regulations. In addition, the manual is filled with numerous 
suggestions to optimize the performance and benefits that are derived 
from leak detection, spill and overfill, and corrosion protection 
equipment that are part of a total UST system. Although no system is 
foolproof against failure, increasing awareness of proper maintenance 
is essential in averting a return to the magnitude of leaks that are 
presently being cleaned up from previously substandard underground 
storage tank systems. Owners and operators will have to make regular 
periodic investments to ensure they are performing proper operation and 
maintenance.

Clean Water

    Question 10. Combined sewer overflows present a serious problem in 
Rhode Island. The Narrangansett Bay Commission, the regional wastewater 
authority for metropolitan Providence, faces the burden of constructing 
a Phase One collection system at an estimated cost of $350 million. 
Each time there is a major storm in Providence, runoff overwhelms the 
treatment plants and raw sewage escapes into Narrangansett Bay. 
Shellfish beds must be closed and significant threats to public health 
are raised. This is a problem of national significance. Similar 
conditions exist in older urban coastal areas. Is EPA doing enough to 
help underwrite the enormous capital costs that we and all State 
governments and ratepayers are facing, considering the consequences to 
water bodies of national significance?
    Response. The President's fiscal year 2001 budget honors and 
expands the Administration's commitment to capitalize State's SRF 
programs such that they will be able to provide $2 billion in annual 
financial assistance over the long run. Given that, and the fact that 
we now have a better understanding of the water quality challenges that 
States and local governments face, the Administration believes it would 
be useful to have a dialog with the Congress and the broad range of 
stakeholders on the future funding levels and project eligibilities of 
a reauthorized Clean Water SRF program.
    With respect to Combined Sewer Overflow (CSO), it is important to 
note that EPA's Combined Sewer Overflow (CSO) Control Policy recognizes 
the site-specific nature of CSOs. The policy provides the necessary 
flexibility to tailor controls to local situations. Implementation of 
the Policy ensures that CSO controls are cost effective and meet 
appropriate health and environmental objectives.

    Question 11. Despite having made considerable progress over the 
years in cleaning our Nations' waters, significant investments are 
still required. According to your 1996 Clean Water Needs Survey, the 
Clean Water State Revolving Loan Fund (SRF) faces roughly $140 billion 
in eligible needs over the next 20 years. This number is expected to be 
revised upwards to $200 million in your next Needs Survey. EPA is in 
the process of conducting a ``gap analysis'' to estimate the difference 
between needed expenditures and actual expenditures. When will EPA 
complete its analysis and can you estimate what the funding gap will 
be?
    Response. The preliminary results of the ``gap analysis'' were 
reported to Environment and Public Works Committee staff at a briefing 
on February 11, 2000. We continue to work on other aspects of the study 
including a broad exploration of approaches to reducing the costs of 
meeting infrastructure needs.

    Question 12. What are the current annual expenditures on wastewater 
infrastructure? How much of the amount is paid for by the Federal 
Government and how much is covered by State and local governments?
    Response. We estimate that total State, local, and Federal spending 
for the construction of municipal wastewater treatment for calendar 
year 2000 is currently about $9 billion per year. Most of this spending 
has traditionally come from State, local government or local sewage 
authorities. Federal financial support (from EPA, the Rural Utility 
Service of the Department of Agriculture, and the Department of Housing 
and Urban Development) accounts for up to one-third of the total annual 
spending.

    Question 13. Despite the considerable existing need, your budget 
proposes to decrease funding for the Clean Water SRF by $550 million. 
Where do you intend to allocate those additional resources? Is this 
money being used to make significant investments in another area?
    Response. The Agency believes its request for the Clean Water State 
Revolving Fund represents a substantial investment in needed 
infrastructure improvements. In the case of the CWSRF, the Agency is 
honoring and expanding its commitment to capitalize the Fund such that 
it will be able to provide at least $2 billion in annual financial 
assistance over the long-term, a level consistent with historical 
levels of wastewater funding through EPA. Since program inception, over 
$17 billion has been invested in the CWSRF--a level more than twice the 
original Clean Water Act authorization. Total SRF funds available for 
loans since 1987 reflecting loan repayments, State match dollars, and 
other sources of funding, are approximately $30 billion, of which $26 
billion has been loaned to communities ($4.2 billion was available for 
loans as of June 1999). The fiscal year 2001 budget level for the CWSRF 
continues to ensure the viability of the Fund. In terms of future 
funding for the CWSRF, the Administration believes it would be useful 
to have a dialog with the Congress and the broad range of stakeholders 
on the funding levels and project eligibilities of a reauthorized CWSRF 
program.
    EPA's fiscal year 2001 budget request reflects support for the 
numerous areas requiring focused attention on some of the most pressing 
threats to a clean and healthy environment. Ensuring all Americans live 
in a clean and healthy environment requires efforts addressing all 
sources of pollution and all means by which pollution threatens human 
health and the environment.
    In the area of water quality, nonpoint source pollution is the 
largest remaining threat, and EPA is dedicated to addressing water 
quality through increased funding in the Nonpoint Source Pollution 
grants, the water quality State grants addressing Total Maximum Daily 
Loads (TMDLs), and our new Great Lakes initiative grant program. 
Threats to human health along the U.S.-Mexico Border are of particular 
concern, and EPA is responding by investing in infrastructure financing 
for this geographic area susceptible to waterborne diseases.
    Cleaning America's air is also a top priority. Over one-third of 
Americans still live in areas where the air does not meet the new air 
quality standards. In fiscal year 2001 EPA is investing in three major 
areas to achieve clean air goals through cost-effective and innovative 
means: the Clean Air Partnership Fund, Climate Change Technology 
Initiative, and State and tribal air grants. The Clean Air Partnership 
Fund will be a catalyst for innovative local, State, and private 
partnerships for air pollution. Meeting the Climate Change challenge 
requires investments from across the Federal Government as we address 
the significant threat that global warming poses to public health and 
the environment. EPA's investment in air State and tribal grants will 
address regional haze and integrate those programs with approaches to 
reducing ozone and fine particulate matter.
    In addition, EPA is committed to building a strong environmental 
presence on Tribal lands. To that end, EPA's investment in Tribal 
General Assistance Program (GAP) grants will help ensure the 
development of sustainable and comprehensive core environmental 
programs in Indian Country.
    Other areas of EPA investment include protecting food quality, 
drinking water research, and integrating environmental information. 
Implementing the Food Quality Protection Act of 1996 poses multiple 
challenges, and EPA will continue working toward ensuring all Americans 
enjoy the safest, most abundant, and most affordable food supplies in 
the world. EPA's investment in drinking water research will continue to 
strengthen the scientific basis for safe drinking water standards. 
Finally, EPA proposes to invest in an initiative aimed at enhancing the 
coordination of data collection activities with States and to improve 
collection methods.
    In sum, all of these vital resource investments are ensuring that 
EPA and its partners meet the multi-faceted requirements in achieving 
human health and environmental protection.
                                 ______
                                 
    Responses by Carol Browner to Additional Questions from Senator 
                               Hutchison

Storm Water Phase II
    Question 1. EPA determined under the final Phase II rule that the 
rule contains no regulatory requirements that might significantly or 
uniquely affect small governments and thus the rule is not subject to 
section 203 of the Unfunded Mandates Reform Act. Since the rule imposes 
six minimum control measures to be implemented by cities and counties 
on MS4s within their urbanized areas, please explain how that will not 
affect small governments?
    Response. The Phase II rule will affect small governments, however 
section 203 of the Unfunded Mandates Reform Act looks at whether a rule 
significantly or uniquely affects small governments. Although Phase II 
expands the NPDES program to certain MS4s serving populations below 
100,000 and although many MS4s are owned by small governments, EPA does 
not believe the rule significantly or uniquely affects small 
governments. Under the requirements of the Small Business Regulatory 
Enforcement Fairness Act of 1996 (SBREFA), EPA evaluated the economic 
impact of this rule on small governmental jurisdictions. EPA determined 
that compliance costs represent more than 1 percent of estimated 
revenues for only 10 percent of small governments and more than 3 
percent of the revenue for 0.7 percent of these entities. In both 
absolute and relative terms, EPA does not consider this a significant 
economic impact on a substantial number of small entities. Therefore, 
EPA certified that the rule will not have a significant impact on small 
governmental jurisdictions.

MTBE
    Question 2. As you know, Texas has several non attainment areas, 
that depend on blending MTBE to meet the 2 percent RFG oxygenate 
requirement to move closer to the achievement of the CAAs standards. I 
am concerned that current proposals to phase-out or limit MTBE 
production could result in unintended consequences that should be 
addressed before such action is taken.

    As you know, the RFG program has been very successful and plays an 
important part in helping nonattainment areas achieve clean air goals. 
I am aware that EPA has a proposal to allow an increase in Volatile 
Organic Compounds (VOC's), emissions to compensate for reduced MTBE 
use. However, as you know, increased VOCs would clearly have a negative 
health and environmental effect and would turn the o'clock back on air 
quality improvements that have been made over the last 25 years.
    Response. The EPA is very mindful that any new regulations or 
standards being proposed carefully consider the impact on our current 
air quality benefits. In considering a VOC adjustment to the 
reformulated gasoline (RFG) Phase II standards for ethanol blends, EPA 
recognizes the fact that the oxygen content of gasoline affects the 
amount of carbon monoxide (CO) emissions from automobiles. Oxygenates, 
like ethanol and MTBE, lead to reductions in emissions of CO from 1990 
technology cars, the benchmark used for the RFG program. MTBE-blended 
RFG typically contains 2.0 weight percent oxygen. Ethanol, on the other 
hand, is typically blended in RFG at levels of 10 volume percent which 
equates to 3.5 weight percent oxygen; thus, the oxygen content in 
ethanol-blended RFG is typically higher than in MTBE-blended RFG. 
According to EPA's complex model for certifying RFG, the CO reduction 
attributable to the typical ethanol-blended RFG (with 3.5 weight 
percent oxygen) is therefore greater than that attributable to the 
typical MTBE blend (with 2.0 weight percent oxygen).
    The National Research Council recommended that ``the contribution 
of CO to ozone formation should be recognized in assessments of the 
effects of RFG'' in its report ``Ozone-forming Potential of 
Reformulated Gasoline,'' p. 6, National Academy Press, 1999. 
Accordingly, the VOC proposal that EPA is considering would take 
account of the ozone benefits of CO emission reductions resulting from 
the use of oxygenates in the RFG program, which would allow for a 
slight increase in VOC. This would give fuel providers increased 
flexibility in blending ethanol into RFG.

    Question 3. If the Federal oxygenate requirement, or MTBE were 
eliminated, what steps is EPA prepared to take to counterbalance the 
loss of this important tool in reducing pollution to current non 
attainment areas?
    Response. If Congress amends the Clean Air Act to remove the 
Federal oxygenate requirement and eliminate or significantly reduce the 
use of MTBE, it is imperative that Congress at the same time insert 
into the Act language to ensure that the clean air benefits achieved 
through implementation of the reformulated gasoline program be 
preserved.

    Question 4. State and local government in Texas, and many private 
companies have spent millions of dollars to comply with current Federal 
air standards. Has EPA studied what additional burdens would be imposed 
on those entities if the rules change now and fuel oxygenates or MTBE 
were not required for RFG?
    Response. Additional burdens on State and local entities and the 
refining industry have been a major concern for the Agency. Any changes 
in fuel regulatory requirements must be implemented without disruptions 
to the nation's fuel supply system. Therefore, any changes to the 
current RFG requirements would need to provide sufficient lead time to 
both refineries and the distribution infrastructure while retaining 
flexibility in meeting the Agency's air quality goals and ensuring the 
fungibility in the nation's fuel system.

    Question 5. EPA has testified that in the year 2000, the second 
phase of the RFG program will achieve even greater average benefits: a 
27 percent reduction in VOCs, 22 percent reduction in toxics, and 7 
percent reduction in oxides of nitrogen emissions that also contribute 
to the formation of urban smog. This is equivalent to taking more than 
16 million vehicles off the road. Are these numbers still achievable 
without MTBE or the fuel oxygen requirement?
    Response. Yes. As a result of the Agency's Blue Ribbon Panel 
process, EPA concluded that a combination of the lifting of the mandate 
with gradually imposed limits to MTBE use would be a a cost-effective 
approach to significant reduction or an eventual phaseout of MTBE all 
together. During this phase-out period, and beyond, ethanol could be 
used by refiners in meeting RFG emission reduction requirements. 
Although the Agency would need to allow the industry adequate time and 
flexibility to modify their refining practices, we are confident that 
refiners can meet the Phase II standards should the Federal oxygenate 
mandate be lifted or MTBE use be restricted.
                                 ______
                                 
 Responses by Carol Browner to Additional Questions from Senator Inhofe

    Question 1. What is the status of EPA's consideration of the 
October 20, 1999 environmental groups' petition to regulate 
CO<INF>2</INF> emissions from new cars and trucks? When does EPA plan 
to respond to the petition?
    Response. On October 22, 1999, a coalition of 19 groups, headed by 
the International Center for Technology Assessment, submitted a 
petition asking EPA to regulate emissions of carbon dioxide and other 
greenhouse gases from new motor vehicles and engines. EPA has made no 
decision whether to grant or deny the petition. In compliance with the 
Agency's common practice and requests by Members of Congress, EPA plans 
soon to publish a notice asking for public comment on the petition. The 
notice will probably provide a 90-day comment period. Several comments 
have already been received and placed in a public docket that EPA has 
established for the petition. See docket number A-2000-04. EPA will 
consider all comments in making a decision on the petition.

    Question 2. Under EPA's reading of the Knollenberg funding 
restriction, the Agency may issue regulations to reduce greenhouse gas 
emissions as long as the regulation is ``not for the purpose of 
implementing, or in preparation for implementing, the Kyoto Protocol.'' 
But, reducing greenhouse gas emissions is the purpose of the Kyoto 
Protocol. As a practical matter, what real difference is there between 
issuing regulations to accomplish the purpose of the Kyoto Protocol and 
issuing regulations for the purpose of implementing the Protocol? Isn't 
EPA's reading of Knollenberg permissive rather than prohibitive or 
restrictive?
    Response. The Clean Air Act authorizes (and, in places, requires) 
EPA to take a variety of actions to address air pollution problems 
entirely unrelated to climate change. As elaborated below, some of 
these actions can also have the indirect effect of reducing greenhouse 
gas emissions, depending on the sources that are controlled and the 
types of pollution reduction measures sources elect to use. In 
addition, certain provisions of the Clean Air Act authorize regulatory 
actions that directly address emissions of greenhouse gases. These 
provisions pre-date the Kyoto Protocol, and action taken under them 
carries out purposes articulated in the Clean Air Act itself and does 
not implement or prepare to implement the Protocol. EPA does not 
believe that the Knollenberg language bars, or was intended to bar, 
either of these types of regulatory action under the Clean Air Act.
    The Knollenberg language covers EPA's proposal or issuance of a 
rule, regulation, decree, or order for the purpose of implementation, 
or in preparation for implementation of the Kyoto Protocol. EPA's 
regulatory activities implementing the requirements of the Clean Air 
Act are for the purpose of implementation of those particular 
requirements of the Clean Air Act, not the Kyoto Protocol.
    As noted above, many EPA activities authorized under the Clean Air 
Act are entirely unrelated to climate change, but have various indirect 
effects, including reduction of greenhouse gas emissions. For example, 
control of sulfur dioxide for the purpose of reducing acid rain, or 
control of nitrogen oxides for the purpose of reducing tropospheric 
ozone, may have the indirect effect of reducing greenhouse gas 
emissions, depending upon the sources controlled and the types of 
abatement measures they elect to use. Protecting human health and the 
environment from ozone pollution and from acid rain are major goals of 
the Clean Air Act. The Knollenberg language does not on its face bar 
expenditures on such activities, and it would be unreasonable to assume 
that Congress intended such an interpretation.
    Other provisions of the Clean Air Act authorize regulatory actions 
that directly address emissions of greenhouse gases, but do not 
implement or prepare to implement the Kyoto Protocol. For example, 
Title VI of the Clean Air Act, enacted in 1990, provides for EPA to 
take certain actions regarding the health and environmental risks of 
substances that serve as replacements for ozone-depleting chemicals. 
Section 612 directs EPA to place limits on the use of particular 
replacement chemicals if the Agency determines that other existing 
alternatives ``reduce overall risk to human health and the 
environment.'' EPA believes that a reasonable and common-sense 
interpretation of the quoted language includes the consideration of 
contribution to climate change. Thus, in comparing the ``overall risk'' 
of various substitutes for ozone-depleting substances, EPA considers 
ozone depletion potential, human toxicity, flammability, contribution 
to global warming, occupational health and safety, and effects on water 
and air quality. Actions taken under section 612 of the Clean Air Act 
carry out the purposes of that provision (i.e., ensuring that 
replacements for ozone-depleting substances do not in turn create new 
and unnecessary risks). These actions are not for the purpose of 
implementing or preparing to implement the Kyoto Protocol.

    Question 3. Similarly, EPA continues to work toward it's clearly 
anticipated objective of implementing the Kyoto Protocol, despite that 
the treaty has yet to be submitted to the Senate for a vote, and 
despite the ``Knollenberg'' restrictions. The most recent euphemism for 
the prohibited ``implementation'' is pursuing the ``compliance regime'' 
under the Kyoto Protocol. Given this on its face appears to be a 
distinction without a difference, crafted to circumvent congressionally 
mandated limitations on expenditure of taxpayer funds, please explain 
how pursuing a ``compliance regime'' to followupon Kyoto's ratification 
is not in fact pursuing implementation, including distinguishing these 
purportedly different activities.
    Response. EPA, together with the Department of State and other 
departments and agencies of the executive branch, is participating on 
behalf of the United States in continuing international negotiations 
over compliance-related issues under the Kyoto Protocol, as described 
in Decision 1/CP.4 of the Conference of Parties to the FCCC. These 
compliance-related international negotiations do not in any way 
implement the Protocol.
    The Decision 1/CP.4 issues that are under negotiation include the 
identification of compliance-related elements under the Protocol and 
the development of procedures by which compliance with Protocol 
obligations should be addressed. These negotiations are intended to 
flesh out how the Kyoto Protocol's compliance system will operate 
should the Protocol enter into force. That is something the Senate 
undoubtedly will wish to understand fully in considering whether the 
U.S. should ratify the Protocol.
    Participation in these compliance-related international 
negotiations also does not involve the proposal or issuance of rules, 
regulations, decrees or orders encompassed by the Knollenberg 
restriction in EPA's appropriations legislation. EPA believes it is a 
reasonable interpretation that this language covers only domestic 
regulatory activity; domestic regulations are, in fact, the only kind 
of ``rules, regulations, decrees or orders'' that EPA ``propose[s] or 
issue[s].''
    This interpretation of the Knollenberg restriction is supported by 
statements from the legislative history of the restriction as part of 
EPA's funding legislation. See, e.g., 144 Congressional Record 8425, 
8434 (daily ed. July 17, 1998) (Statement of Senator Bond) (``Our only 
goal here is to prevent the issuance of Federal regulations designed 
solely for the purpose of Kyoto Protocol implementation.'').
    Further, as stated in President Clinton's signing statement 
accompanying the Consolidated Appropriations Act for Fiscal Year 2000 
(which applies the same Knollenberg language to the State Department), 
the Administration construes this language so as not to detract from 
the Constitutional authority of the President ``to engage in the many 
activities, both formal and informal, that constitute negotiations 
relating to climate change.'' Negotiation of the compliance-related 
elements and procedures referred to in the Kyoto Protocol clearly is 
one such activity.

    Question 4. Some environmental groups contend that early action 
crediting would turn into a corporate windfall, rewarding companies for 
emission reductions they would make anyway under a business as usual 
scenario. Do you agree, or do you think a well designed early action 
program could motivate companies to make energy efficiency and carbon 
reduction investments they would not otherwise make?
    Response. EPA believes that a well designed early action program 
could motivate companies to make greenhouse gas reductions they would 
not otherwise make. Careful design of baseline requirements is critical 
to ensure that such a program would provide incentives for companies to 
take actions above and beyond those that would be taken under business 
as usual. A well designed program would have to balance the need for 
good baselines, monitoring, and verification with reasonable 
transaction costs.

    Question 5. On January 13, 2000, EPA hosted a stakeholders' meeting 
to examine ways of reforming the New Source Review (NSR) program. One 
proposal, developed by the Clean Energy Group and distributed by EPA to 
all the stakeholders, would allow companies to opt out of NRS 
technology-based requirements if they agree to participate in a 
``voluntary'' cap and trade program for multiple air ``pollutants,'' 
including CO<INF>2</INF>. Does EPA support this proposal? Do you agree 
that it is a misnomer to describe such an alternative as ``voluntary,'' 
when all the reform would do is give companies a second regulatory 
option? Also, wouldn't this second regulatory option allow EPA to do 
something it has never done to date, namely, regulate emissions of 
CO<INF>2</INF>?
    Response. EPA has made no commitment to any system such as the 
Clean Energy Group (``CEG'') is proposing. EPA is just beginning its 
consideration of options such as the one suggested by CEG and the 
Agency believes that there are a number of questions that must be 
addressed in the development of such a concept, including whether or 
not to allow trading between affected sources.
    For your reference, I am attaching a February 29, 2000 letter from 
Gary S. Guzy, EPA General Counsel, to Congressman McIntosh that 
responds to his questions on the CEG proposal (see response to 
questions 5 and 6). The response to Question 6 from Congressman 
McIntosh also responds to your question of whether the CEG proposal 
would establish a system that could be considered ``voluntary.'' As 
stated by Mr. Guzy, ``a system that cannot apply to a source unless the 
source volunteers to have it apply is plainly voluntary.''
    You have also asked whether the CEG proposal would ``allow EPA to 
do something it has never done to date, namely, regulate emissions of 
CO<INF>2</INF>.'' As stated in the February 29 letter from Mr. Guzy, 
EPA has not formed a legal opinion on whether the utility sector 
emission reduction program suggested by the Clean Energy Group could be 
implemented without amending the Clean Air Act. At a minimum, the issue 
of legal interpretation raised by your question would have to be 
addressed in a notice-and-comment rulemaking, which would be required 
in order to take action on the CEG alternative, and there would be a 
full opportunity for public participation and Congressional scrutiny.

    Question 6. Please provide a detailed description (identifying the 
EPA program) for all grants, contract funding, or assistance (technical 
or resources, including personnel) provided to the web site 
smartgrowth.org, for both past and current fiscal years as well as 
planned for the fiscal year 2001 budget cycle.
    Response. The Smart Growth Network is a voluntary partnership 
program of 24 government and non-government organizations, including 
those representing architects, planners, local governments, developers, 
environmental groups, citizens and a State government. The Network is a 
resource to inform development decisions with best practices, policy 
innovation, technical assistance, and research on the impacts of 
development alternatives. The home page of the Smart Growth Network 
(www.smartgrowth.org) provides the public (avg. 200,000 visits per 
month) and the more than 600 organizational and individual network 
members of the Smart Growth Network with access to: 1) research, news, 
case studies, tools, etc; 2) information on Network partners, 
activities and partner programs; and 3) best practices and policy 
innovations.
    The Smart Growth Network web site is a cooperative effort between 
CONCERN, Inc. and the EPA, each of whom are partners in the Smart 
Growth Network (SGN). This partnership is formalized in a cooperative 
agreement, a vehicle meant to support cooperation between the EPA and 
external organizations. Through the cooperative agreement, EPA has 
provided approximately $281,000 over 4 years in total funding from 
April 1996 through December 1999 to CONCERN, Inc. for website 
development and maintenance. Current year and budget year amounts have 
not yet been determined. Historical amounts are shown in the table 
below.


----------------------------------------------------------------------------------------------------------------
          Fiscal year              1996       1997       998        1999           2000               2001
----------------------------------------------------------------------------------------------------------------
Amount*.......................    $55,000   $127,000    $45,000    $58,000  To be determined.  To be determined
----------------------------------------------------------------------------------------------------------------
* Note: dollar amounts are estimates web activities are a subset of a larger cooperative agreement.

    EPA has committed to Congress that we will compete all of our new 
grants and cooperative agreements. We have not yet completed the 
competition for this activity for this year, and do not yet know how 
much funding will be allocated for either fiscal year 2000 or 2001.
    In addition to providing a vehicle for funding the cooperative 
agreement spells out the terms and conditions of collaboration. 
Substantive involvement on the part of the Agency is a basic 
requirement of all cooperative agreements.
    As part of the Agency's substantive involvement in this cooperative 
agreement, EPA has agreed to provide materials on smart growth--tools, 
research, links, events, news items--for possible inclusion on the 
smart growth network web site. There are no dedicated staff performing 
this function, but we do have a project officer for this cooperative 
agreement. Among his many duties, he helps to ensure that EPA's 
responsibilities as described in the cooperative agreement, are carried 
out.

    Question 7. In addition, please provide the same information for 
any additional websites supported by the EPA through grants, contracts, 
or assistance (technical or resources, including personnel). For the 
purposes of this question please provide the information for fiscal 
years fiscal year 1995 through fiscal year 2001.
    Response. EPA uses contracts to procure technical support for 
developing and maintaining webpages for various offices within the 
Agency. EPA does not award contracts to support a contractor's own 
webpages.
    For the past 6 years EPA has provided grants and technical 
assistance in support of the following websites:

EPA Program Office: Region 9
    U.S.-Mexican Border Environmental Information Project
    Website: www.borderecoweb.sdsu.edu/--Border EcoWeb

EPA Program Office: Office of Transportation and Air Quality, Office of 
Mobile Sources
    Grantee: Colorado School of Mines
    CX827973-01-0
    Website: www.smogtestlog.org

EPA Program Office: Office of Communication, Education and Media 
Relations, Office of Environmental Education
    Website: http://www.nceet.snre.umich.edu/index.html--EE Link

EPA Program Office: Region 6

Texas/Mexico Borderlands Data and Information Center
    Region 6: http://www.bic.state.tx.us/bicmain.html

Rio Grande Alliance Home Page
    Region 6: http://www.riogrande.org

U.S.-Mexico Border Geospatial Data Directory
    Region 6: http://us-mex-border-dir.unm.edu

P2 RX (at Univ. of Texas-El Paso)
    Region 6: http://www.p2.utep.edu

EPA Program Office: Region 10 Solid Waste, Product Stewardship
    Project: Medical Industry Round Table
    Website: http://dnr.metrokc.gov/swd/bizprog/waste--pre/medical.htm
    Fiscal year 1999

EPA Program Office: Office of Air and Radiation,
    Office of Transportation and Air Quality, Transportation and 
Regional
    Programs Division, Transportation and Market Incentives Group
    American Management Association for the Commuter Choice Initiative
    Website: COMMUTERCHOICE.COM.
    Fiscal year 1999--plan to continue funding this fiscal year

EPA Program Office: Office of Air and Radiation, Office of Atmospheric 
Programs
    Ruminant Livestock Efficiency Program, managed by Virginia Tech,
    http://www.isis.vt.edu/dss/plms/index.html (CX 826579-01-0)
    http://www.ext.vt.edu/cowcalf/ (CX 826568-01-1)
    http://hes.lbl.gov/HES/

EPA Program Office: USEPA Great Lakes National Program Office
    Great Lakes Information Network Project,
    Recipient of the cooperative agreement: Great Lakes Commission, US 
EPA was but one of numerous partners in this cooperative
    Website: http://great-lakes.net/
    Fiscal year: 1995

Project Title: Expanding the Great Lakes Information Network by 
Strengthening Connections for Great Lakes Ecosystem Management
    Grant ID: GL 995708
    Fiscal year: 1997

Project Title: Online Spatial Data Sharing and Integrated Mapping--
Great Lakes GIS Online
    Grant ID: GL97022
    EPA Contact: Pranas Pranckevicius

EPA Program Office: Office of Environmental Information
    EPA Project: Environmental Monitoring for Public Access and 
Community Tracking (EMPACT)
    Grantee: City of Las Vegas and Clark County.
    Website: www.epmact-lv.org
    Fiscal years 1998-2001.

EPA Program Office: Region 6
    Grantee: City of Houston Brownfields
    Website: http://www.gcr1.com/brownfields/
    The following submissions contain mostly grant information and 
reference only a few actual websites:

EPA Program Office: Office of Ground Water and Drinking Water, Source 
Water Assessment Programs
    Grants were given to help States develop (or add to existing) web 
sites where they could post their (drinking water) Source Water 
Assessment Programs:


------------------------------------------------------------------------
                                                               Dollars
                                                             (thousands)
------------------------------------------------------------------------
Georgia..........................  Web site development            $20K
                                    (partial).
Montana State University.........  On line discussion group        $10K
                                    (partial).
Florida..........................  Web site development             $9K
                                    (partial).
Massachusetts....................  Web site development....         $2K
New Hampshire....................  Web site development....         $2K
Rhode Island.....................  Web site development....         $2K
Vermont..........................  Web site development....         $2K
New York.........................  Web site development....       $1.5K
West Virginia....................  Web site development....         $3K
Mississippi......................  Web site development....         $3K
Oklahoma.........................  Web site development....       $7.5K
Colorado.........................  Web site development....         $2K
Montana..........................  Web site development....         $2K
Wyoming..........................  Web site development....         $2K
Hawaii...........................  Web site development....         $3K
Alaska...........................  Web site development....       $4.5K
Oregon...........................  Web Site development....       $4.5K
Drinking Water Source Assessment.  larger grants to
                                    associations.
New England Interstate Water       Source water list serve
 Pollution Control Commission/      (partial).
 Ground Water Protection Council/
 Association of State Drinking
 Water Administrators.
Interstate Council on Water        Interstate web site             $25K
 Policy.                            (partial).
Lehigh Valley Water Suppliers,     create an educational        $28,631
 Inc.                               drinking water web site
                                    that includes links to
                                    each of the member
                                    suppliers' Consumer
                                    Confidence Reports
                                    (www.lvwater.org).
------------------------------------------------------------------------


EPA Program Office: Region 4
    Environmental Education Grant:
    Fiscal year 1998 Walton County (GA) Board of Education, 
environmental education grant, Composting and Recycling.
    Fiscal year 1996 University of North Carolina Wilmington, Project 
University and Schools (US)

EPA Program Office: Office of International Activities
    1. Cooperative Agreement with San Diego State University
    Amount--$300,000.
    Agreement number: X999813-01-0.

    2. Grant to Environmental Education Exchange.
    Amount--$55,000
    Agreement number: X 826001-01-01.

    3. Cooperative Agreement with The Alliance to End Childhood Lead 
Poisoning
    Amount--$400,000
    http://www.globalleadnet.org/
    Agreement number: CX826748-01-0 [NOTE: This agreement was the 
result of a Congressional pass-through]

EPA Program Office: Region 6

                Web Site Development Maintenance Projects
------------------------------------------------------------------------
           GRANT NUMBER                   GRANT NAME            FUNDED
------------------------------------------------------------------------
CD-996397-01-0...................  Implement an Internet-      104(b)(3)
                                    Based Network to
                                    facilitate the
                                    acquisition, use, and
                                    exchange of wetlands
                                    information.
CD-996400-01-0...................  Wetlands training           104(b)(3)
                                    workshops for Extension
                                    staff, landowners and
                                    land managers.
CD-996563-01-0...................  Wetland Education           104(b)(3)
                                    Information Resources
                                    and Workshops for
                                    Landowners and Land
                                    Managers.
CD-996944-01-0...................  Enhanced Wetland            104(b)(3)
                                    Protection through
                                    Monitoring and
                                    Enforcement of
                                    Compliance with
                                    Conditions of Coastal
                                    Use Permit.
CD-986222-01-0...................  Development of Internet     104(b)(3)
                                    Wetlands Data base and
                                    Participation in
                                    Development of Wetlands
                                    Education Center.
CD-986233-01-0...................  Wetlands Environmental      104(b)(3)
                                    Education and Community
                                    Outreach Project.
1CD-996939-01-0..................  Still water Creek           104(b)(3)
                                    Wetlands Demo Project;
                                    Deep Fork Assessment;
                                    Interagency Co-op;
                                    Aquatic Plan manual;
                                    and Worldwide Web Site
                                    for Oklahoma.
X-996367-01-0....................  Watershed Planner.......    104(b)(3)
X-996369-01-0....................  Rio Grande Alliance.....    104(b)(3)
X-996097-01-0....................  Web Development and         104(b)(3)
                                    Implementation.                Misc.
X-986108-01-0....................  Sabal Palm Grove                  104
                                    Binational and
                                    Bilingual Education
                                    Program.
I-006350-99-0....................  Ground Water Data Base            106
                                    for Contamination
                                    Incidents.
I-006350-00-0....................  Ground Water Data Base            106
                                    and Outreach Website
                                    Maintenance.
I-006350-00-0....................  Wellhead Protection               106
                                    Website.
I-006642-97......................  Development/update a Web          106
                                    site.
C9-996102-06-0...................  Project for Web                   319
                                    Development.
C9-996102-07-0...................  Implementation for NPS            319
                                    Program.
C9-996236-03.....................  Update & maintain TSSWCB          319
                                    Website, to contain
                                    list of 319 projects.
C9-996260-05.....................  Tex*A* Syst-Ground Water          319
                                    protection project for
                                    land owners,
                                    information available
                                    on a TAES website.
C9-996146-03.....................  Educational Outreach to           319
                                    Teachers--information
                                    from the training
                                    session on TNRCC
                                    website.
C9-996146-03.....................  Hamshire-Fannett                  319
                                    Constructed Wetlands.
C9-996146-04.....................  Nonpoint Source Handbook          319
                                    (NCTCG).
C9-996146-04.....................  Texas Wtch Volunteer              319
                                    Monitoring--website use
                                    for general info about
                                    TX Watch and
                                    transmittal of water
                                    quality data.
C9-996146-05.....................  Alternative onsite                319
                                    treatment--information
                                    on website.
C9-996146-05.....................  Nonpoint source                   319
                                    protection through
                                    enforcement, adoption
                                    of city ordinances,
                                    information on city
                                    website.
C9-996146-06.....................  Big Cypress TMDL........          319
C9-996146-06.....................  E.V. Spence TMDL........          319
C9-996146-06.....................  Salado Creek TMDL.......          319
------------------------------------------------------------------------


    Question 8. As the author of S. 880 which was signed into law last 
year, I am very concerned about the security aspects of the 
implementation of the legislation. I understand your Agency is poised 
to issue a Site Security Chemical Alert. Last month I requested a list 
of all Federal employees who reviewed the technical aspects of the 
alert, which I have yet to receive. Before you issue the Alert, please 
provide me with the list.
    Response. I am pleased to say that the Agency responded to the 
initial request by forwarding a list to your staff some weeks ago. 
Following is a copy of the information we provided.
External Reviewing Group
    Chemical Manufacturers Association (CMA)
    American Petroleum Institute
    The Chlorine Institute
    Synthetic Organic Chemical Manufacturers Association, Inc.
    Texas Department of Health
    Oklahoma Department of Environmental Quality
    International Association of Refrigerated Warehouses
    National Association of Chemical Distributors
EPA Reviewing Group
    Office of Solid Waste and Emergency Response; Chemical Emergency 
Preparedness and Prevention Office.
    Contact: James Makris, Office Director, Tel. (202) 260-8600

    Office of General Counsel
    Contact: Alan Eckert, Associate General Counsel, Tel. (202)564-5606

    Office of Enforcement and Compliance Assurance
    Contact: David Nielsen, Director RCRA Enforcement Division,
    Tel. (202) 564-4067

    EPA Regional Offices
    Region 6--Superfund Division
    Contact: Myron Knudson, Director, Tel. (214)665-6701

    Region 8--Office of Ecosystems Protection and Remediation
    Contact: Max Dodson, Assistant Regional Administrator, Tel. 
(303)312-6598

    Question 9. Recently the GAO has criticized EPA's management of 
their Internet data. Considering the importance of the risk management 
information, how are you addressing the public access aspect of the 
pending regulations in light of the GAO's concerns?
    Response. The Agency is taking action to address GAO's concerns 
regarding our management of Internet data. We have assessed the issues 
and are managing the security risks, enhancing our hardware, software, 
and procedures to reflect state-of-the-art technologies. Further, EPA 
has been working closely with the Department of Justice (DOJ) and the 
Office of Management and Budget on public access to the risk management 
information collected under Section 112r of the Clean Air Act. EPA and 
DOJ will soon propose a rule that provides for limited public access 
while providing significant safeguards for the data. The data base 
itself will not be available over the Internet. As provided under P.L. 
106-40, the offsite consequence information of risk management plans is 
exempted from the Freedom of Information Act until August 5, 2000, 
while the provisions for limited public access are being formulated.

    Question 10. This July, the EPA is scheduled to begin designating 
nonattainment areas for the 8-hour ozone standard which has been placed 
on hold by the courts. Currently, which cities does the EPA believe 
will be designated nonattainment?
    Response. EPA does not now know which areas of the country will be 
designated as ``nonattainment'' for the 8-hour ozone standard. 
Designations (including the geographic area covered by a designation) 
will be based on recommendations from States and Tribes, but EPA could 
make changes that it finds are appropriate to State recommendations as 
needed. Under the Clean Air Act, we can not make changes until after a 
120-day consultation process with each affected State has been 
completed.
    In preparation for the 8-hour designations, last summer EPA asked 
all States to submit their most current air quality data. We are now 
updating this information with more recent measurements and will soon 
ask States to make their initial designation recommendations. EPA will 
soon be issuing further guidance on the designation process, timing and 
boundaries.

    Question 11. Due to the NAAQS court decision, States will not be 
updating their SIPs to reflect 8-hour designations. What will the 
highway funding effect be on cities and States with 8-hour 
nonattainment designations, both timing and sanctions-wise?
    Response. When EPA final designations are effective, the 
transportation conformity rule begins to apply. Specifically, that 
means that highway or transit projects must be part of a transportation 
plan that the Department of Transportation (DOT) has found to conform 
with air quality goals before DOT can fund or approve new projects. 
Projects that DOT has already committed to fund for construction would 
not be affected. Also, some projects are completely exempt from 
conformity, such as safety and maintenance projects.
    A nonattainment designation does not trigger highway sanctions. 
Highway sanctions would not come into effect until such time as a State 
fails to submit a required nonattainment State implementation plan 
(SIP) for its new 8-hour ozone standard. Even then, EPA must propose a 
sanction after a State's ``failure to submit'' or SIP disapproval and 
there is an 18-month ``clock'' that must expire before a sanction will 
be in place.

    Question 12. Last year I asked for specific examples of programs 
which would be eligible for grants under the Clean Air Partnership 
Trust, after a year's reflection on the program could you please 
provide a more detailed explanation for the types of programs and 
grants expected if the program is enacted.
    Response. President Clinton's fiscal year 2001 budget proposes a 
new $85 million Clean Air Partnership Fund. The Fund will provide an 
opportunity for cities, States and tribes to partner with the private 
sector, the Federal Government and each other to provide healthy clean 
air to local citizens. The Fund will demonstrate smart multi-pollutant 
strategies that reduce air toxics, soot, smog, and greenhouse gases.
    The Clean Air Partnership Fund will provide critical startup 
capital for innovative financing of local air pollution reduction and 
energy efficiency projects. The attached document, ``Clean Air 
Partnership Fund: Example Demonstration Projects & Programs'' provides 
specific examples of the types of programs that will be encouraged by 
using the Fund as an initial source of capital and as a magnet for 
creative partnership proposals. Also attached for your information are 
three additional documents that further describe EPA's initial thoughts 
on the program's design framework, examples of potential demonstration 
projects and programs, and frequently asked questions concerning the 
Fund.
Municipal Energy Efficiency Investments
    The City of Phoenix, Arizona, with a population of 972,000, 
established a revolving fund to encourage energy efficiency in 
municipal buildings. It started the Energy Conservation Savings 
Reinvestment Plan in 1984 with $50,000 seed money from State oil 
overcharge funds. Each year, Phoenix reinvested half of all documented 
energy savings in the Plan. By 1986, annual energy savings were over $1 
million, capping off the Plan at its maximum allowable limit of 
$500,000 a year. \1\ The Plan has financed retrofits which resulted in 
$18 million of audited savings from 1978 to 1992. Accrued projected 
savings from 1978 to 2002 are expected to total $42.6 million.
---------------------------------------------------------------------------
    \1\ International Council for Local Environmental Initiatives 
(ICLEI), 1998.
---------------------------------------------------------------------------
    In 1983, the School District of Philadelphia, embarked on an 
incentive based energy conservation program which has resulted in a 10-
year savings of $45 million. Faced with budget constraints, district 
personnel looked at the then $33 million energy budget as a potential 
resource. \2\
---------------------------------------------------------------------------
    \2\ ICLEI, 1998.
---------------------------------------------------------------------------
    With the cooperation of all departments, program guidelines were 
established that provided a financial incentive to any school that 
could show a savings on its annual--averaged over past 3 years--energy 
bills. The savings were divided with 40 percent going back to the 
school, 40 percent to the district and 20 percent earmarked for 
investment by the district in energy saving projects. By the end of the 
first year, district wide savings were $3 million, with two-thirds of 
schools showing savings. Twenty-five percent of the rebates to schools 
are to be spent on benefiting school maintenance staff, to reward their 
contribution and ensure their cooperation.
Energy Service Contracts
    An energy service company, CES/Way International, carried out a 
turnkey performance contract to retrofit seven municipal buildings in 
Jefferson County, Kentucky, U.S.A. The $2.5 million project included 
boiler, air infiltration, HVAC control and lighting retrofits, 
monitoring, and training of building operators. CES/WAY International 
also arranged funding and guaranteed the energy savings would be 
sufficient to repay the debt. After the debt payment, the ESCO split 
the remaining energy savings with the County in a standard ``shared 
savings'' arrangement. Annual energy savings were $530,000 in 1992, 
about 20 percent of the investment. \3\
---------------------------------------------------------------------------
    \3\ ICLEI
---------------------------------------------------------------------------
Lease Purchase Agreements
    The City of Buffalo, New York recently used tax exempt municipal 
lease purchase financing, provided by Oppenheimer & Co., Inc., to 
retrofit 55 City facilities. Total project cost was approximately $3.5 
million, $1.2 million of which was available as incentives from the 
local electric utility Niagara Mohawk. Total 15-year benefits to 
Buffalo will be in excess of $6,100,000. Energy saving measures 
implemented included energy efficient lighting, high efficiency motors, 
HVAC upgrades, programmable building controls and controllers on ice 
rink brine pumps. \4\
---------------------------------------------------------------------------
    \4\ ICLEI
---------------------------------------------------------------------------
State Bond Sales
    The sale of over $12 million in ``energy conservation bonds'' is 
financing the retrofit of office buildings, hospitals, and schools 
owned by State agencies in Iowa. The State of Iowa Facilities 
Improvement Corporation (SIFIC) uses the bond proceeds to pay for the 
installation of energy efficient equipment. The bond proceeds support a 
wide range of energy management improvements. Energy improvements 
installed to date in State-owned facilities total $19 million, and are 
saving the State $3.4 million a year. \5\
---------------------------------------------------------------------------
    \5\ ICLEI
---------------------------------------------------------------------------
State Revolving Loan Program
    The Texas LoanSTAR program is Texas' own program designed to ``Save 
Taxes And Resources'' by monitoring energy use and recommending energy-
saving retrofits. In 1988, the Texas Governor's Energy Office (now 
known as the State Energy Conservation Office) received approval from 
the U. S. Department of Energy to establish a statewide retrofit 
demonstration program. The initial capital came from oil overcharge 
funds. The LoanSTAR program is designed to demonstrate commercially 
available, energy efficient, retrofit technologies and techniques. 
LoanSTAR has already generated $62 million in savings (as of August 
1998) for Texas taxpayers, and the program is projected to save another 
$250 million over the next 20 years.
    State agencies, such as schools and public buildings, may apply for 
loans to make recommended retrofits. Participants must repay the loans 
in 4 years or less based on estimated energy savings. In most cases 
repayment is made from savings generated by the cost-effective retrofit 
measures. Once the loans are repaid, the savings are available for the 
agencies.
    Savings-generating retrofits to buildings include installing 
variable speed pumps and variable air volume systems, upgrading heating 
and air conditioning systems, and installing high efficiency chillers, 
energy management control systems, high efficiency lighting systems and 
thermal storage systems. \6\
---------------------------------------------------------------------------
    \6\ Texas Loan STAR Program, 1998.
---------------------------------------------------------------------------
Transportation Air Pollution Investments

            Clean-Fuel Taxi Cabs
    Funding from several sources (DOE, California and South Coast Air 
Quality Mgmt. District) combined to reduce the cost of purchasing an 
alternative-fueled taxi cab from $27,000 to $21,000. Each CNG fueled 
cab reduced on average HC by 6,300 lbs/year and NO<INF>x</INF> by over 
11,000 lbs/year. The Clean Air Partnership Fund could provide initial 
capital to attract such matching funds. \7\
---------------------------------------------------------------------------
    \7\ ``Spotlight on Niche Markets--Taxis Are Changing to AFVs,'' 
Alternative Fuel News, Department of Energy, Vol. 2, No. 5.
---------------------------------------------------------------------------
            Clean-Fuel Fork Lifts
    By converting 36 of 96 forklifts to natural gas, an airport 
facilities company demonstrated fuel cost savings of $10,000 in the 
first year. Conversion expenses were $1,200 per vehicle. CO, HC, 
NO<INF>x</INF> and CO<INF>2</INF> emissions were reduced an estimated 
90 percent, 70 percent, 50 percent, and 10 percent respectively. \8\
---------------------------------------------------------------------------
    \8\ Case Studies on Cost-Effective Forklift Truck Fleets. Gas 
Research Institute, May 1, 1996.
---------------------------------------------------------------------------

            Electric Buses
    Converting diesel buses to electric buses results in virtually zero 
tailpipe emissions. Air toxics, soot and smog are all reduced. 
Chattanooga Area Regional Transportation Authority has converted 16 of 
81 vehicles to electricity at a cost of $160,000 to $180,000 for 22- 
and 31-ft electric buses. Fuel costs ranged from $0.04 to $0.05/mile 
for electric compared to $0.16/mile for diesel. Maintenance costs 
ranged from $0.04 to $0.075/mile for electric and $0.185/mile for 
diesel. The initial capital costs of the bus conversions can be offset 
by fuel and operating cost savings. \9\
---------------------------------------------------------------------------
    \9\ Electric Buses Energize Downtown Chattanooga. Argonne National 
Lab, Department of Energy, August 1, 1997.
---------------------------------------------------------------------------
Residential and Commercial Energy Consumption
            Solar Water Heaters
    Replacing an average home electric water heater with a solar water 
heater would prevent 26 pounds of NO<INF>x</INF> and 40 pounds of 
SO<INF>2</INF> on average annually. It would also reduce 7,600 pounds 
of CO<INF>2</INF> annually. \10\
---------------------------------------------------------------------------
    \10\ ``Reducing Greenhouse Gases and Air Pollution: A Menu of 
Harmonized Options. Preliminary Findings, November 1998. State and 
Territorial Air Pollution Program Administrators (STAPPA) and 
Association of Local Air Pollution Control Officials (ALAPCO).
---------------------------------------------------------------------------
            Energy Efficient Lighting
    In a commercial office building project, replacement of over 12,000 
florescent T12 lamps with energy-efficient T8s with electronic ballasts 
prevented over 2.5 million pounds/year of CO<INF>2</INF>, and over 3 
million g/year of SO<INF>2</INF> and NO<INF>x</INF>. This reduced 
electricity consumption by 43 percent and saved over $100,000 per year.
Renewable Energy Sources
            Wind Turbines
    A 10-MW wind farm would annually displace 23,000 tons of 
CO<INF>2</INF>, 123 tons of SO<INF>2</INF> 80 tons of NO<INF>x</INF>. 
\11\
---------------------------------------------------------------------------
    \11\ STAPPA-ALAPCO, 1998.
---------------------------------------------------------------------------
            Fuel Cells
    Fuel cells emit about 1/250th as much NO<INF>x</INF> per unit of 
electricity generated as that from a conventional power plant. \12\
---------------------------------------------------------------------------
    \12\ STAPPA-ALAPCO, 1998.
---------------------------------------------------------------------------
Municipal Landfill Emissions as Energy Source
    Private developers use gas collected from a Raleigh, NC city owned 
landfill to fuel boilers, thus reducing GHG and conventional 
pollutants. The facility eliminates the methane emissions of the 
landfill avoids the emissions at the utility that provided the original 
supply of electricity. City of Raleigh receives royalties of $65,000-
$75,000 per year. \13\
---------------------------------------------------------------------------
    \13\ Department of Energy, Energy Solutions for Cities and 
Counties.
---------------------------------------------------------------------------
    The South Davis County Sewer Improvement District operates a 
cogeneration project that burns methane from sewage sludge processing, 
thus virtually eliminating the methane emissions and avoids the 
emissions at the utility that provided the original supply of 
electricity. The system saves $5,000 per month on utility bills for the 
District and provides 75 percent of the facilities electricity and all 
of its heating needs. \14\
---------------------------------------------------------------------------
    \14\ Department of Energy, Energy Solutions for Cities and 
Counties.
---------------------------------------------------------------------------

Municipal Cogeneration Facilities
    Trenton, NJ partnered with a private company to build and operate a 
cogeneration facility to avoid paying all the construction and 
maintenance costs itself. The private company keeps the electricity 
sales revenues. The cogeneration facility reduces oil and gas 
consumption by nearly 50 percent avoiding emissions of 33,000 pounds/
year of particulates.
    A new $52 million wood-fired combined heat and power system is to 
be built in St. Paul, Minnesota. The plant will provide 25 megawatts of 
electricity to Northern States Power--enough to supply electricity to 
20,000 homes and heat to 450 downtown St. Paul commercial customers. A 
substantial portion of the wood waste to fire the system will come from 
downed trees, trimmings and branches from the Twin Cities area.
    The project will significantly reduce air pollution by displacing 
110,000 tons of coal that are presently burned every year, with wood 
waste. This will reduce sulfur dioxide emission by roughly 600 tons per 
year and reduce fossil fuel derived carbon dioxide emissions by roughly 
280,000 tons per year. The power plant can operate at more than double 
the efficiency of conventional electricity-only power plants, resulting 
in twice the useful end-energy for the same raw energy input. \15\
---------------------------------------------------------------------------
    \15\ Trigen-Cinergy Solutions, January 8, 1999.
---------------------------------------------------------------------------
                                 ______
                                 
  Clean Air Partnership Fund Example Demonstration Projects & Programs
    President Clinton's fiscal year 2001 budget proposes a new $85 
million Clean Air Partnership Fund. The Fund will provide an 
opportunity for cities, States and tribes to partner with the private 
sector, the Federal Government and each other to demonstrate innovative 
approaches to providing healthy clean air to local citizens. The Fund 
will support grants to demonstrate smart multi-pollutant strategies 
that reduce air tonics, soot, smog, and greenhouse gases to protect our 
climate and our health.
    The Clean Air Partnership Fund will provide critical startup 
capital for innovative financing of local air pollution reduction and 
energy efficiency projects. Demonstration projects in the following 
areas, among others, will be encouraged by using the fund as an initial 
source of capital and as a magnet for creative partnership proposals.
    Electric Ground Service Equipment: Airport conversion of ground 
service equipment to electric power could reduce NO<INF>x</INF>, PM, 
and air toxic emissions and generate significant cost savings.
    Ultra Low-NO<INF>x</INF> Gas Fired Burners: Industrial furnaces and 
boilers in municipal and government owned buildings could apply ultra 
low-NO<INF>x</INF> technology. New technology can produce low 
NO<INF>x</INF> levels comparable to selective catalytic reduction 
technology at significantly lower costs.
    Urban Air Toxics Monitoring: As cities develop their urban air 
tonics control strategies, the need for ambient air toxic monitoring 
information is increasing. The Fund could be used to promote 
improvements to the existing air toxics monitoring networks.
    Cleaner Small Engines: New clean 2-stroke engines and alternative 
fuels for small consumer and commercial equipment will make significant 
advancements in traditionally uncontrolled sources of air pollution. 
The Clean Air Partnership Fund could establish programs to demonstrate 
these new cleaner engines in use at a local level.
    Energy Efficiency Revolving Loan Funds: The Fund could provide 
start-up capital for State and local energy efficiency revolving loan 
investment programs. In Texas, such a program (LoanSTAR) has generated 
$62 million in savings (as of August 1998) for Texas taxpayers, and the 
program is projected to save another $250 million over the next 20 
years. State agencies could apply for loans to make recommended 
retrofits in schools and other public buildings.
    Clean-Fuel Taxi Cabs: In California, funding from several sources 
(DOE, California and South Coast Air Quality Mgmt. District) combined 
to reduce the cost of purchasing an alternative-fueled taxi cab from 
$27,000 to $21,000. Each CNG fueled cab reduced on average 6,300 lbs/
year of HC and NO<INF>x</INF> by over 11,000 lbs/year. The Clean Air 
Partnership Fund could provide initial capital to attract matching 
funds in order to reduce the cost of purchasing an alternative fueled 
taxi cab and thus expand the presence of clean-fuel fleets.
    Solar Water Heaters: Replacing an average home electric water 
heater with a solar water heater would prevent 26 pounds of NO and 40 
pounds of SO, on average annually. It would also reduce 7,600 pounds of 
CO<INF>2</INF> annually.
    Energy Efficient Lighting: In a municipal office building project, 
replacement of over 12,000 fluorescent lamps with energy-efficient 
lights prevented over 2.5 million pounds/year of CO<INF>2</INF>, and 
over 100,000 pounds/year of SO<INF>2</INF> and NO<INF>x</INF>. This 
reduced electricity consumption by 43 percent and saved over $100,000 
per year. The Partnership Fund could demonstrate new innovative 
applications of energy efficient technology.
                                 ______
                                 
   U.S. EPA Clean Air Partnership Fund Draft Program Design Framework
Introduction
    This Clean Air Partnership Fund draft program design framework is 
being prepared and distributed to solicit suggestions from all parties. 
Please contact Keith Mason (202-564-1678) in EPA's Office of Air and 
Radiation with comments or questions. A final Clean Air Partnership 
Fund program design will be contained in the solicitation for proposals 
and accompanying guidance that will be developed and distributed at a 
later date.
Statutory Authority
    The CAPF will operate as an EPA grant program under Section 103 of 
the Clean Air Act which authorizes EPA to issue demonstration grants.
Eligible Grant Recipients
    The Fund will provide grants to local, State and tribal 
governments, and to multi-governmental organizations, specifically: 
Government agencies and organizations at the State, city, and county 
levels Tribal government agencies and organizations Regional and multi-
governmental organizations whose members are from State, city, county 
and tribal agencies.
Selection Criteria for Project/Program Evaluation
    EPA will use the following criteria in the evaluation of CAPF grant 
proposals:
    Reduce multiple air pollutants. Projects or programs should reduce 
or prevent more than one kind of air pollutant. All classes and types 
of air pollutants are eligible including: NO<INF>x</INF>, 
SOx<INF>x</INF>, SO<INF>2</INF>, PM, VOCs, CO, lead, air tonics, ozone-
depleting substances and greenhouse gases.
    Demonstrate innovative programs or technologies which reduce or 
prevent multiple air pollutants.
    Result in significant leveraging of Federal (CAPF) funds by:
    <bullet>  providing a minimum level of matching funds directly from 
the grant recipient (match percent to be determined)
    <bullet>  providing additional leveraging, as appropriate to the 
project or program, through one or more of the following mechanisms:--
revolving loan funds;--bond guarantees;--tax incentives;--supplemental 
matching funds;--funding from private sources; and/or--others to be 
proposed by applicant and approved by EPA
    <bullet>  Transferability. Project should demonstrate the potential 
to replicate results and create benefits in other areas of the country.
    Additional criteria will also be developed that address the role of 
partners and public participation. Criteria may also be developed that 
are specific to the types or categories of projects that are eligible, 
as appropriate, as part of the final Solicitation of Proposals and 
Guidance.
Eligible Projects & Programs
    The CAPE will provide an initial source of funding for many types 
of demonstration projects or programs that include but are not limited 
to the following: air pollution control technologies or processes; air 
pollution prevention technologies or processes; retrofits or 
improvements that increase the energy efficiency and reduce associated 
air pollution of--commercial, industrial, municipal or residential 
buildings and facilities;--transportation systems or fleets;--
industrial processes; or--existing pollution control technologies or 
systems power technologies using low or no-emitting resources as 
cleaner energy sources, such as renewable energy; financial mechanisms 
or other types of strategies that enable an eligible grant recipient to 
implement a number of demonstration projects.
    Apportioning the CAPF
    By size of grant--to make the CAPF accessible to as many entities 
as possible, different amounts of funding are apportioned to different 
sizes of programs or projects as follows:


----------------------------------------------------------------------------------------------------------------

                                                                                                No. of   percent
               Grant size                      Amount of pool               Size range          grants      of
                                                                                                          total
----------------------------------------------------------------------------------------------------------------
Large..................................  $20 million..............  $2.5--$5.0M each.........       4-8      25%
Medium.................................  $45 million..............  $1.0--$5.0M each.........     10-45      50%
Small..................................  $20 million..............  < $1.0M each.............    20-100      25%
----------------------------------------------------------------------------------------------------------------

    By EPA's strategic air goals--EPA will review the set of final 
award decisions to ensure alignment with the Agency's air goals, 
focusing at least \2/3\ of the Fund on projects/programs that address 
criteria pollutants and \1/3\ of the Fund on projects/programs that 
address air toxics and all projects/programs required to demonstrate 
significant co-benefit reductions of other categories of air pollutants 
such as greenhouse gases.
Project/Program Timeframe
    <bullet>  Projects or programs should minimize the time from 
proposal to project startup.
    <bullet>  Projects or programs should be implemented within 1-3 
years after the grant is awarded.
Grant Evaluation & Selection Process
    EPA will use a two-tiered process to evaluate proposals and select 
final grant awards.
    <bullet>  Tier 1 provides an initial screen of a project/program 
synopsis to see how well they meet a limited set of necessary selection 
criteria.
    <bullet>  Tier 2 provides a more in-depth evaluation of full 
proposals across all selection criteria for projects/programs that 
qualify based on the Tier 1 process.
    EPA's two-tier process for the CAPF comprises the following steps:
    <bullet>  EPA selects evaluation panels
    <bullet>  EPA sets parameters for Tier 1 and Tier 2 evaluations
    <bullet>  All applicants submit a 3-5 page synopsis of their 
proposals
    <bullet>  Panels evaluate proposal synopses using a pre-determined 
methodology
    <bullet>  Applicants that qualify based on Tier 1 evaluations 
develop and submit a full proposal
    <bullet>  EPA panels perform Tier 2 evaluations
    <bullet>  Final award decisions are made

                                           Design Process & Timetable
----------------------------------------------------------------------------------------------------------------
 Clean Air Partnership Fund Program Development Steps     Approximate Time Frame       Approximate Target Date
----------------------------------------------------------------------------------------------------------------
Gather information and stakeholder ideas & input.....  4-6 months..................  2/00-8/00
Develop draft program design options.................  2-5 months..................  4/00-9/00
Evaluate options and further develop guidance........  2-5 months..................  8/00-1/01
Issue Solicitation of Proposals and Guidance, and                                    2/01-4/01
 provide outreach and training about guidance to
 States, locals and tribes.
----------------------------------------------------------------------------------------------------------------


                      CAPE Grant Proposal Calendar



Grant Project/Program Synopses Due.  summer 2001
Full Grant Proposals Due...........  fall 2001
Final Selections Made..............  winter 2001/2002


  U.S. Environmental Protection Agency The Clean Air Partnership Fund
Frequently Asked Questions March 20, 2000--draft
    President Clinton's fiscal year 2001 budget proposes a new $85 
million Clean Air Partnership Fund. The Fund will provide an 
opportunity for cities, States and tribes to partner with the private 
sector, the Federal Government and each other to demonstrate innovative 
approaches to providing healthy clean air to local citizens. The Fund 
will support grants to demonstrate smart multi-pollutant strategies 
that reduce air toxics, soot, smog, and greenhouse gases to protect our 
climate and our health.
Why is the Clean Air Partnership Fund being created?
    Cities, States and tribes face many air quality challenges in 
providing clean air to their residents. Localities and States must 
develop plans to meet health-based Federal air pollution standards for 
ozone and particulate matter (e.g., smog and soot). Some localities 
must form State plans to reduce emissions of NO<INF>x</INF> to prevent 
the transportation of ozone from one region to another. Many urban 
areas are designing their urban air taxies reduction strategies. In 
addition, electric utility restructuring and visibility-degrading 
regional haze must be addressed by air quality planners. The Clean Air 
Partnership Fund is designed to help meet these existing clean air 
needs in an integrated fashion.
Why is the Clean Air Partnership Fund unique?
    Currently, businesses and municipalities often invest in short-
term, single-pollutant control approaches. The Partnership will 
encourage many industries, such as electric utilities and the 
transportation sector, to pursue comprehensive criteria pollutant 
reductions while improving energy and operational efficiencies, thereby 
also reducing air toxics and greenhouse gas emissions. Unique public-
private partnerships could also result.
What types of projects will be financed by the Clean Air Partnership 
        Fund?
    The Clean Air Partnership Fund will support demonstration projects 
that: (l) control multiple air pollution problems simultaneously; (2) 
leverage the original Federal funds; (3) facilitate meaningful public 
involvement; and (4) provide innovative approaches to air pollution 
control that could be replicated in other cities and States.
    <bullet>  Partnership Funds could help provide startup capital for 
municipalities to establish programs to convert existing diesel fleets 
of school buses to cleaner fuels.
    <bullet>  Partnership Funds could help establish home energy 
efficiency investment loan funds. Reducing energy use in homes will 
reduce local soot, smog and air toxics and greenhouse gas emissions.
    <bullet>  Partnership Funds could be used to create incentives for 
cleaner electricity generation at utilities. Increased use of combined 
heat and power and natural gas combined-cycle electricity generation 
will yield criteria, air toxic and greenhouse gas emission reductions.
    <bullet>  Partnership Funds could support local revolving loan 
funds to finance energy efficient retrofits for local and State agency 
buildings, public schools, hospitals and private industry. The cost 
savings realized from lower energy bills would allow borrowers to repay 
the loans and provide an ongoing source of funding for future 
innovative investments.
    <bullet>  Partnership Funds could help support tax credits for 
innovative air pollution control technology investments.
    <bullet>  Partnership Funds could be used to stimulate demand for 
renewable sources of energy. Renewable energy sources such as fuel 
cells, photovoltaics, wind and geothermal provide ideal integrated air 
pollution control technologies.
Who is eligible for funds under the Clean Air Partnership Fund?
    Entities eligible for grants through the Partnership Fund include 
local and State governments, tribes and multi-State organizations.
    Special consideration will be given to locally based governmental 
projects that leverage resources in order to obtain early multi-
pollutant benefits through innovative means.
How will EPA implement the program and select projects?
    EPA will solicit ideas from all stakeholders for potential multi-
pollutant projects and suggestions for program design. Shortly after 
Congress approves EPA's budget, EPA will prepare and release guidelines 
for proposals and the criteria for project selection.
How will the funding mechanism work?
    Grants will be made to cities, States and tribes. These 
organizations could receive funds to carry out projects themselves or 
to set up programs which might fund other projects. It is expected that 
the Fund will support the development of local revolving funds, low-
interest loan programs, matching funds, public-private partnerships, 
and other capitalization mechanisms.
What opportunities exist for harmonizing strategies to address multiple 
        air pollution problems?
    Many opportunities exist because air pollution sources usually 
contribute to more than one air pollution problem at a time. For 
example, reducing air pollution from the transportation sector by using 
cleaner fuels will help improve smog conditions, reduce particulate 
pollution' reduce hazardous air toxics as well as reduce greenhouse gas 
emissions. The same multiple pollutant reduction opportunities can be 
found in most sectors of our economy.

    Question 13. Taking into consideration the recent promulgation of 
the Tier Two sulfur standards, what would the effect of an MTBE ban be 
on Refiners ability to provide needed octane enhancement to make up for 
the octane lost from desulfurization?
    Response. During the course of the public comment period regarding 
the Tier Two sulfur standards, the Agency received comments on our 
proposed rule and the potential impact of a phase-down of MTBE use in 
gasoline. With growing public concern about MTBE and groundwater 
contamination, refiners can expect MTBE levels to be phased down or 
eliminated. We designed the gasoline sulfur control program to phase in 
over a number of years to allow refiners additional time to factor in 
their preferred method for MTBE phase down, should one occur. Gasoline 
desulfurization technologies do involve a small loss of either octane 
or gasoline production volume, losses which are similar to those 
resulting from a MTBE phase down. Refiners with fewer options available 
for making up the lost octane will likely select gasoline 
desulfurization technologies which minimize octane loss.
    The phase in of the gasoline sulfur control program also spreads 
out the capital investments associated with gasoline desulfurization, 
facilitating to some degree the need for further investment associated 
with the MTBE phase down.

    Question 14. Please identify in the budget (the change from fiscal 
year 2000 to fiscal year 2001) the resources to support the Refiner 
permitting changes required to address the desulfurization program in 
the Tier Two rule.
    Response. There are no changes in the fiscal year 2001 budget 
request to support new source permitting changes that may result from 
the desulfurization requirements of the Tier Two rule. When the Agency 
took comments on the proposed rule, States did not identify an 
inability to meet the permitting schedule with their current assistance 
levels. In fact, States with some of the largest number of sources 
subject to Tier Two have indicated that all their permitting could be 
completed rather quickly, even as quickly as 6 months.
    The Agency expects that the rule will require changes to only small 
parts of each of the 115 refineries nation-wide. These permit changes 
will occur over a 3-5 year period and will be assimilated into the base 
permit review load of the States affected. Therefore, States did not 
identify a need for additional funding assistance when they provided 
comment on the rule.
    EPA is taking a number of steps all of which should help ensure 
that permit review and issuance is done as quickly as possible in order 
for refineries to meet the Tier II requirements. For example, we have 
formed an EPA Tier II permits team of experts to help States facilitate 
Tier II permitting. This includes representatives from each of the 
regions where refineries are located, as well as across EPA. Another 
example is the development of best available control technology (BACT) 
guidance that will be available for public review in the next week or 
two. This will assist permitting authorities by letting them know what 
EPA would likely accept as best available control technology for 
emission units that are subject to the New Source Review Program. That 
being said, this guidance would not preclude any specific State 
permitting decisions that would be made due to new information or site 
specific information that arises during the public comment period. A 
third example is that EPA will be making available assistance in 
dispute resolution to States, refineries and communities where 
environmental justice concerns are raised.

    Question 15. Considering the Inhofe amendment to TEA-21 and the 
court decision regarding the NAAQS, to what extent is the EPA 
implementing the Regional Haze Rule? Are any aspects of the Regional 
Haze Rule on hold pending the implementation of the 8-hour standard?
    Response. The TEA-21 legislation links the schedule for submittal 
of regional haze SIPs to the dates for designation of attainment, 
unclassifiable, and nonattainment areas for PM<INF>2.5</INF>. EPA has 
requested that the Supreme Court review the decision by the Court of 
Appeals on the PM<INF>2.5</INF> NAAQS, and expects to know within the 
next few months whether this request is to be granted. Despite the 
constitutional issues raised by the Court of Appeals, the Court did not 
vacate the PM<INF>2.5</INF> standards. Accordingly, the schedule for 
regional haze SIPs remains linked to the PM<INF>2.5</INF> designation 
schedule.
    EPA is working on various planning activities to support future 
implementation of the regional haze rule by the States: development of 
technical tools and guidance; expansion of the IMPROVE visibility 
monitoring network; funding and work plan development for five regional 
planning bodies; and specific work with the Western Regional Air 
Partnership on an Annex to the recommendations of the Grand Canyon 
Visibility Transport Commission. We are not requiring any control 
strategies at this time to implement the PM<INF>2.5</INF> standard or 
the regional haze program. EPA is also proceeding with its plans to 
complete a review of the PM<INF>2.5</INF> standards by 2002. EPA will 
continue its work on the regional haze program in light of the future 
outcome of this review as well as the litigation on the 
PM<INF>2.5</INF> NAAQS.
    Regarding the 8-hour ozone standard, the regional haze rule does 
not depend on it for any aspect of program planning. Therefore, there 
are no aspects of the regional haze rule on hold pending its 
implementation.

    Question 16. What is the legal authority for the Federal Land 
Managers' Air Quality Related Values Workgroup (FLAG AQRV)?
    Response. The FLAG AQRV is not an EPA workgroup. This group is 
preparing guidance on how Federal land managers exercise their Clean 
Air Act mandated ``affirmative responsibility'' to protect the air 
quality related values (e.g., visibility, ozone impact to terrestrial 
resources, acidic deposition impacts to aquatic and terrestrial 
resources) in Federal Class I areas. The guidance is being developed to 
bring more predictability and uniformity to FLM participation in the 
new source review permit process. For information on the authority to 
convene this work group, we recommend that you contact the Federal land 
managers directly (U.S. Department of Interior--National Park Service, 
Air Quality Division, and U.S. Department of Agriculture--U.S. Forest 
Service).

    Question 17. Page 27 of the FLAG Phase I report issued October 1999 
states, ``The FLAG recommendation is designed to prevent new sources 
from causing visibility impairment.'' Do FLAG AQRV standards affect 
legal rights and responsibilities of permit applicants?
    Response. The recommendations by the FLAG do not affect the legal 
rights and responsibilities of permit applicants. Permit applicants are 
bound by the Clean Air Act and the applicable implementing regulations. 
Pursuant to the statute and these regulations, Federal Land Managers 
have the responsibility to identify AQRV's and protect them against 
adverse impacts. The work by the FLAG will promote more predictability 
in NSR permitting by providing more information up-front on the AQRV's 
in Class I areas.

    Question 18. Please describe the procedures used to develop the 
FLAG AQRV standards, particularly in view of the Administrative 
Procedures Act. Please detail EPA's role in the process.
    Response. Because the FLAG AQRV document is guidance that has been 
drafted by the National Park Service and the U.S. Forest Service, we 
recommend that you contact them for an explanation of the procedures 
followed in developing it. Regarding EPA's role in the process, EPA 
staff have reviewed and commented on drafts of the guidance.

    Question 19. Please explain the public process aspect of the FLAG 
AQRV standard development.
    Response. The Federal land managers drafting the FLAG AQRV guidance 
held a public hearing on the guidance in December 1999 and provided a 
public comment period as well. We recommend that you contact the 
National Park Service or U.S. Forest Service for more information on 
these issues.

    Question 20. Was any cost-benefit study conducted on the FLAG AQRV 
standards? Is so, what were the results?
    Response. It is our understanding that a cost-benefit study was not 
performed on this guidance. Because the FLAG AQRV guidance has been 
drafted by the National Park Service and the U.S. Forest Service, we 
recommend that you contact them with questions about this issue.
                                 ______
                                 
   Responses by Carol Browner to an Additional Question from Senator 
                               Lautenberg
Brownfields

    Question. Administrator Browner, although there was strong support 
for the work being done by EPA on Brownfields, there was some confusion 
in the hearing this week about the proposed overall funding level for 
the Brownfields program in the President's budget. Can you clarify 
whether the $4m increase in the Brownfields State Revolving Loan Fund 
(to a total of $41.1m) is within the overall budget of $91.626m for 
Brownfields, which is approximately $587m (sic) less than the fiscal 
year 2000 enacted level of $92.215m, or represents an overall increase 
of approximately $3.4 ($4m less the reduction of $587m) (sic), as was 
suggested?
    Response. The $4m increase in Brownfields Cleanup Revolving Loan 
Fund program is within the overall budget for Brownfields. It reflects 
a shift from assessment pilots to fund an increasing demand for cleanup 
assistance.
                                 ______
                                 
    Responses by Carol Browner to Additional Questions from Senator 
                               Lieberman

    Question 1. I am extremely concerned about the funding level for 
the Long Island Sound in the President's budget. Compared with other 
areas, the Sound gets only $500,000 while other areas are receiving 
over $19 million. The Long Island Sound is among the most complex 
estuaries in the National Estuary Program, and over 8 million people 
live within its watershed. Over the years, I have sought much stronger 
Federal funding of efforts to restore the Sound. Federal commitments to 
date have been minuscule compared with State and local funding. New 
York State approved $200 million for Long Island Sound as part of a 
$1.75 billion bond act. Connecticut has awarded more than $200 million 
in the past 3 years to support upgrades at sewage treatment plants and 
implement other point and nonpoint controls. The Long Island Sound 
Office now faces a daunting task, orchestrating a multi-billion dollar 
effort to implement efforts to reduce nitrogen loadings that degrade 
the waters of the Sound.
    To underfund the Long Island Sound program and cut overall SRF 
funding at a time when our States are attempting to implement goals 
stated as part of EPA's Clean Water Action Plan makes no sense to me.
    How do you justify the extremely low numbers for programs to help 
New York and Connecticut clean up the Long Island Sound?
    Response. The Long Island Sound Program is an outstanding example 
of local watershed management in general, and the National Estuary 
Program in particular. By bringing together numerous stakeholders from 
the region, the program has been able to identify specific problems and 
develop effective, workable, and widely accepted approaches for 
addressing them. The level of State support for the program by both New 
York and Connecticut reflects this success.
    EPA is proud of the assistance we have provided to the States of 
Connecticut and New York to restore Long Island Sound. As part of the 
National Estuary Program (NEP), the Long Island Sound Program has 
received over $18 million since 1985. None of the other 27 programs in 
the National Estuary Program have received as much funding through that 
program. As proposed in the President's fiscal year 2001 budget, the 
Long Island Sound Program is projected again to receive more funds than 
any other program in the NEP.
    We recognize that the Long Island Sound has major problems that 
will be very costly to resolve. Yet, we must also note that all of the 
programs in the NEP, as well as many other watersheds, face different 
but often equally daunting tasks in restoring their watersheds. The 
cost of implementing management plans from all 28 of the NEPs has been 
estimated at $50 billion. All the programs, including Long Island 
Sound, are encouraged to use other Federal, State, local, and private 
sources of funding to supplement the NEP-specific funding.

    Question 2. Could you describe any initiatives included in the 
President's budget that address the use of pesticides in and around 
schools?
    Response. One of our highest priorities is protecting children from 
unnecessary exposure to pesticides that are applied in their schools 
and homes to control pests. For some time now, EPA has instituted and 
engaged in activities designed to enhance children's protection from 
potentially harmful exposures to pesticides used in schools. 
Activities, for example, include developing websites, training manuals, 
videos, and curricula; holding workshops; and providing school 
officials with information on pest management. Specifically, EPA is:

    <bullet>  encouraging school officials to reduce student exposure 
to pesticides used in schools, through distribution of EPA's brochure 
``Pest Control in the Schools Environment: Adopting Integrated Pest 
Management'' (one million of these brochures have been distributed so 
far);
    <bullet>  developing education and training materials on Integrated 
Pest Management implementation in schools, through the Pesticide 
Environmental Stewardship Program. For example, a grant awarded to the 
Monroe County, Indiana, school system implemented a schools program as 
a pilot effort. Subsequently the school district received the 
Governor's Award for Pollution Prevention for a 92 percent reduction in 
pesticide use, and cost savings;
    <bullet>  providing funding to the American Mosquito Control 
Association to develop and distribute a board game to educate children 
on the mosquito life cycle and means of reducing mosquito reproduction;
    <bullet>  helping to sponsor internet sites, such as the University 
of Florida web site designed to assist schools and other organizations 
to develop pesticide stewardship programs; and a National Directory of 
IPM in Schools website created to assist individuals with finding 
specific information and State contacts for each State IPM program:
    <bullet>  working with the National Pest Management Association to 
develop the IPM for School Structures Certification Course which will 
further educate pest control applicators on safe and responsible use of 
pesticides in the school environment. Completion and implementation of 
this project is expected within the next 2 years.

    An EPA workgroup is also assessing our current array of activities 
relating to pesticides in schools. The workgroup has and will continue 
to make recommendations on the adequacy and direction of current 
efforts and any key new work that should be considered.

    Question 3. What steps has EPA taken to formalize its intention to 
conduct a full-scale statistical survey on the use of pesticides in 
schools to determine whether there are risks posed by pesticides to 
children through cumulative exposure?
    Response. For some time now, EPA has been undertaking several 
initiatives to better understand children's exposure to pesticides used 
in schools. Since the early 1990's, EPA has been expanding ways to 
collect and evaluate residential pesticide exposure data to determine 
whether, and how, children are being exposed to pesticides in schools. 
EPA's Office of Research and Development (ORD) has developed a peer-
reviewed draft ``Strategy for Research on Environmental Risks to 
Children,'' that includes research to assess children's exposure to 
pesticides in residential and institutional settings.
    EPA research efforts on children's exposure to pesticides used in 
residential settings started in 1996 under the auspices of ORD's 
Science to Achieve Results (STAR) Program. This program involves, among 
other things, conducting a series of field studies to gain accurate and 
precise measurements of children's exposure to toxic chemicals in the 
environment to ensure that we are conducting realistic health risk 
assessments for this vulnerable segment of the population. One such 
study is being conducted at the University of Minnesota, entitled 
``School-Based Study of Complex Environmental Exposures and Related 
Health Effects in Children.'' The study's objective is to characterize 
and document the exposure of 800 elementary school children from two 
low-income, racially diverse neighborhoods in Minneapolis to pesticides 
and other toxic chemicals. Using a combination of methods, the study 
team is monitoring the air in children's outdoor communities, schools, 
and residences to determine the extent of their exposure to pesticides, 
volatile organic chemicals, metals, environmental tobacco smoke, and 
other pollutants. The team is also evaluating the relationship between 
the amounts of pesticides measured in the air surrounding the children 
and the amounts of pesticides detected in their blood and urine. The 
team will compare the levels of children's exposures to these 
substances in a new school designed to enhance indoor air quality with 
the levels in an older school with more traditional architecture, 
mechanical systems, and furnishings.
    Additionally, ORD is conducting a series of pilot studies in rural 
U.S. Mexico border communities to understand the risks to children from 
multiple pesticide exposures. Some of the pilot studies will document 
children's exposure to pesticides in school settings.

    Question 4. As I'm sure you are aware, last fall communities in 
southwestern Connecticut and around New York experienced an outbreak of 
West Nile virus, a mosquito-borne virus that had never before been 
found in the western hemisphere. The outbreak generated widespread 
concern throughout the region, not only about the immediate health 
threat from the virus, but also about the health impacts of the 
pesticides that were used to respond to the outbreak. At a December 
field hearing to address the disease, several experts testified that a 
recurrence of the disease is not only possible but is probable. In the 
wake of the outbreak last fall, I am particularly concerned about 
ensuring that States and especially local communities receive Federal 
help in balancing the risks of insect-borne diseases with the risks of 
responding to these diseases with pesticides. One aspect of improving 
abilities to balance these risks will be additional research and 
development of independent assessments of the human health effects and 
benefits of the use of pesticides such as malathion.
    What role do you see the EPA playing in helping States and 
communities respond to future outbreaks of insect-borne disease? This 
is clearly an interdisciplinary issue involving public health and the 
environment. How should EPA and the Centers for Disease Control and 
Prevention coordination assistance to State and local agencies and 
organizations?
    Response. EPA is very concerned about the seriousness of threats to 
public health from outbreaks of insect-borne diseases such as the West 
Nile Virus. Consequently, we have important efforts underway to prepare 
for such eventualities in a number of ways.

    <bullet>  working with CDC on enhancement and better coordination 
of our efforts, and finding ways to support each other and State and 
local agencies in short and long range tasks.
    <bullet>  working with State lead agencies in developing prevention 
techniques, including increased monitoring, control of insect larvae, 
and encouraging citizens to help get rid of mosquito breeding grounds 
around their homes and property.
    <bullet>  expanding our efforts to grant priority status to 
registration of valuable public health pesticides.

    EPA is committed to ensuring that pesticides meet strict safety 
standards and will take action against any pesticide found to pose a 
threat to public health. We are rigorously reviewing a group of the 
oldest pesticides in use today, the organophosphates, including 
malathion (which was used in spray programs last year), to be sure they 
can be used safely or to take action to protect public health if 
necessary.
    EPA expects to release its preliminary risk assessment on malathion 
for public comment by the end of April. Concerns have been raised that 
malathion may be a carcinogen and since it is an organophosphate, it 
may cause neurological effects. The Agency has reviewed a wide array of 
scientific studies and information about these and other potential 
risks. Based on the exposure and risk analyses conducted to date, we 
believe that the potential risks from use of malathion in area-wide 
mosquito control programs are below the Agency's level of concern.
    Officials responsible for mosquito control programs and the public 
should weigh the risks of these products against the risks to the 
general public from diseases transmitted by mosquitoes. The experience 
with the outbreak of West Nile Virus last year highlights the 
importance of implementing effective mosquito prevention programs, 
including the use of larvacides and reduction in breeding habitats, to 
reduce the potential need for use of chemicals such as malathion to 
control adult mosquitoes. Since no pesticide is 100 percent safe, we 
have advised pesticide applicators and the general public to always 
exercise caution and care and follow specified safety precautions 
during use to reduce potential risks. Mosquito prevention and control 
programs also should include public education efforts and full 
notification of the public regarding control efforts, including 
spraying.
                                 ______
                                 
 Responses by Carol Browner to Additional Questions from Senator Thomas

    Question 1. According to the National Water Quality Inventory 
reports, 40 percent of all waters surveyed by States do not meet water 
quality standards. The EPA states that agricultural practices were 
estimated to contribute to the impairment of over 25 percent of the 
Nation's waters.
    Since not all States use credible data from water quality 
monitoring programs to assess water impairment problems, what funding 
has the EPA requested in the fiscal year 2001 budget to ensure that 
reports of water pollution problems are based on actual scientific data 
instead of non-quantitative or subjective estimates?
    Response. EPA recognizes that State ambient monitoring activities 
have not always kept pace with the growing data needs to implement a 
holistic water resource management program. All of the resources EPA 
has requested for monitoring and water quality data systems in the 2001 
budget are intended to help improve water quality monitoring and 
reporting across the country.
    EPA is concerned that a majority of waters have not been monitored. 
However, we believe States can take needed actions based on the data 
they have collected. It is not prudent to wait for a perfect data set 
on all waters before we initiate restoration activities on waters with 
known problems. In addition, some widespread kinds of water quality 
impairments can be identified without sophisticated measurements, such 
as nutrient over-enrichment and sedimentation. The later and more 
complex steps of quantifying the extent to which these pollutants 
exceed the assimilative capacity of a listed water and apportioning 
load reductions needs to occur when a TMDL is developed--which under 
our proposal may be as long as 15 years after listing.
    We do agree that efforts to improve the quality and completeness of 
water quality data are very important. We are encouraged that the 
increased attention to water quality monitoring from the U.S. Congress, 
State legislatures, and the public will result in increased support for 
State monitoring programs. We strongly believe that decisionmaking and 
resource allocations will be better if the data supporting water 
protection and restoration needs are more complete and reliable.
    The fiscal year 2001 budget includes two large increases, part of 
which can be used for monitoring at the States' discretion. A $45 
million increase for sec. 106 grants targeted specifically to State 
TMDL development is included. In addition, up to 20 percent of sec. 319 
nonpoint source grant funds can be used for monitoring and assessment 
activities if the State chooses. A $50 million increase is requested 
for sec. 319 grants for fiscal year 2001. Both of these funding sources 
would require that at least 40 percent of project costs come from non-
Federal funds.

    Question 2. In situations where water quality standards are not 
being met, the budget indicates it is the EPA's intention to work with 
States and tribes to improve implementation of total maximum daily 
loads (TMDLs). To support this effort, the Agency has requested an 
additional $45 million in Section 106 State Pollution Control grants.
    State Pollution Control Administrators have indicated to me that 
the EPA's $45 million request to assist the States in developing TMDLs 
grossly under-estimates the burden being placed on States. Why has the 
EPA not made funding for nonpoint source efforts a priority, as the 
Agency has done with point sources?
    Response. EPA has made NPS funding a priority in both the 2001 
budget and prior budgets. In 2001, EPA has requested $250 million for 
section 319 State NPS grants, an increase of $50 million (25 percent) 
over 2000. In addition, the fiscal year 1999 and fiscal year 2000 
budgets of $200 million per year for section 319 State NPS grants 
represented a doubling (100 percent increase) of the prior 319 funding, 
reflecting EPA's commitment to increase resources and attention on NPS 
problems and solutions consistent with the Clean Water Action Plan. To 
further support State NPS implementation, EPA proposes allowing States 
to reserve up to 19 percent of their Clean Water State Revolving Fund 
capitalization grants to provide grants for implementing NPS and 
estuary management projects.
    With its proposed State match, the requested Sec. 106 increase for 
TMDL development would provide $75 million for these activities. States 
can also use up to 20 percent of sec. 319 grants for TMDLs. These Sec. 
319 grants are increased by $50 million in the fiscal year 2001 budget. 
With these increases, EPA believes States should have the resources to 
implement both the existing TMDL requirements and the incremental costs 
of the August 1999 proposed rule in 2001.

    Question 3. With respect to the EPA's strategy for Confined Animal 
Feeding Operations (CAFOs), the budget states that the Agency estimates 
that all operations over 1,000 animal units will be issued permits in 
2000. The budget further states all remaining CAFO permits are expected 
to be issued by the end of 2002.

    Question 4. How does the EPA plan to meet this goal with the 
current NPDES permit backlog? Does the Agency intend to change its 
implementation dates?
    Response. We plan to meet the goal of NPDES permit coverage for all 
large CAFOs in 2000 and all remaining CAFOs in 2002 by emphasizing the 
use of general NPDES permits for most CAFOs. General NPDES permits 
reduce the administrative burden on EPA and authorized State permitting 
authorities. Individual permits will be appropriate for only a small 
percentage of CAFOs, including operations that are exceptionally large, 
new, or undergoing significant expansion, or those that have historical 
compliance problems or pose significant environmental concerns. These 
individual permits are not expected to significantly increase the NPDES 
permit backlog. EPA does not intend to change its implementation dates.

    Question 5. Is the EPA still considering lowering the NPDES 
threshold from 1,000 animal units to 300 animal units?
    Response. Existing regulations provide for including some AFOs 
between 300-1000 animal units in the NPDES program if specific 
conditions are met. EPA has stated that States should give top priority 
to issuing permits to facilities with greater than 1000 animal units 
and address smaller facilities, if appropriate, starting in 2002. In 
developing revisions to permit regulations, EPA has evaluated options 
related to different animal units thresholds, but no decision has yet 
been reached.
                                 ______
                                 
Responses by Carol Browner to Additional Questions from Senator Voinovich
    Clean Water State Revolving Fund (SRF)

    Question 1. The Administration's fiscal year 2001 budget proposes 
$800 million for the Clean Water State Revolving Fund (SRF) program, a 
$550 million decrease from the fiscal year 2000 enacted level of $1.35 
billion. With current water infrastructure needs estimated in the 
hundreds of billions of dollars, why has the Administration continued 
to shortchange the Clean Water SRF program by not asking for more 
funding?
    Response. Financing for wastewater infrastructure has been, and 
will continue to be, a partnership between EPA, other Federal agencies, 
State governments, and local communities. By capitalizing the SRF such 
that it will be able to provide at least $2 billion in financial 
assistance to local communities over the long run, the Agency is 
providing a substantial source of financing consistent with historic 
levels of Agency contribution. Over $17 billion has already been 
provided to capitalize the CWSRF, more than twice the original Clean 
Water Act authorized level of $8.4 billion. Total SRF funds available 
for loans since 1987 reflecting loan repayments, State match dollars, 
and other sources of funding are approximately $30 billion, of which 
$26 billion has been loaned to communities ($4.2 billion was available 
for loans as of June 1999).
    The Agency acknowledges that the preliminary needs estimates may be 
higher than previously estimated. Given that, and the fact that we now 
have a better understanding of the water quality challenges that States 
and local governments face, the Administration believes it would be 
useful to have a dialog with the Congress and the broad range of 
stakeholders on the future funding levels and project eligibilities of 
a reauthorized Clean Water SRF program.
    The Administration is also committed to providing States with the 
flexible tools they need to best address their greatest remaining water 
quality challenges. Toward that end, the Administration's budget also 
provides new discretionary authority for States that would allow them 
to use up to 19 percent of their SRF allocation for grants, rather than 
loans, for nonpoint source and estuary management projects. This new 
authority will promote integrated priority setting at the State level 
and will allow for greater consideration of projects that may not 
otherwise be attractive candidates under an all loan program.

    Question 2. The Administration proposes a $50 million Great Lakes 
Initiative. Please clarify the criteria the Agency will use to 
determine which of the 31 Areas of Concern will be awarded grant money.
    Response. EPA has not yet developed the specific criteria that 
would be used to make individual grant decisions among the Areas of 
Concern (AOCs). We are convening a cross-program Steering Committee to 
begin this process within the Agency and will finalize grant criteria 
after consultation with Congress, other Federal agencies including the 
Army Corps of Engineers, State and local governments, and other 
stakeholders.
    Although we have not finalized criteria for awarding grants EPA 
does expect to apply certain guiding principles in allocating the 
funds, including: a commitment to ``action oriented'' projects that 
make real progress toward cleaning up AOCs; a preference for projects 
that use partnerships creatively and leverage other sources of funding 
(where available); and a 40 percent match in non-Federal funds.
    EPA will consider various approaches to allocating funding. One 
approach that will be considered is to provide relatively large amounts 
of funding to a handful of AOC projects that are ready to initiate 
remedial actions in the field (e.g., dredging of contaminated 
sediments, installing stream buffers) and to offer moderate amounts of 
funding for projects in a larger number of AOCs for work that must be 
conducted before actual remedial actions can be taken (e.g., 
engineering studies prior to dredging or construction). This strategy 
would achieve tangible environmental benefits in selected AOCs that are 
ready to initiate field projects while enabling other AOCs to make 
further progress toward restoration.

    Question 3. I believe the $50 million for the Great Lakes 
Initiative would be better spent on completing one or two cleanup 
projects rather than dividing the money among several projects. Will 
the Agency give priority to those projects where the funding would make 
the most difference?
    Response. On-the-ground projects that make meaningful progress 
toward AOC restoration will be one of EPA's top priorities in 
allocating grant funds. At this time the Agency cannot provide a 
specific number of projects that will be funded. The exact details of 
how the competitive grants will be awarded will need to be worked out 
in cooperation with Congress, States, municipalities, and other Great 
Lakes interests.

    Question 4. What kind of projects are, included among the 31 Areas 
of Concern, eligible to compete for the Great Lakes Initiative grant 
program? Please provide background information and a status report on 
the 31 Areas of Concern.
    Response. Under the Great Lakes Water Quality Agreement (GLWQA) 
between the United States and Canada, 43 Areas of Concern (AOCs) have 
been identified where significant impairments exist; 31 of the AOCs are 
wholly or partially the responsibility of the U.S. Impairments in the 
AOCs include restrictions on drinking water and fish consumption, fish 
or animal deformities, beach closings, and loss of wildlife habitat. 
Much work has been done over the years to limit point source discharges 
to the Great Lakes and to begin the complex task of assessing and 
restoring the AOCs. However, all AOCs remain impaired from sources of 
degradation such as contaminated lake sediments, storm sewer and 
combined sewer overflows, nonpoint source runoff, Superfund or other 
hazardous waste sites, and others. Initiative funds would address the 
impairments by supporting projects to clean up contaminated sediments, 
control stormwater, acquire buffers and greenways, and control polluted 
runoff. A status report on each AOC is available at http://www.epa.gov/
glnpo/aoc.

    Question 5. The Administration's budget request proposes a Great 
Lakes Initiative to clean up Areas of Concern around the Great Lakes. 
EPA's budget requests $50 million for this initiative. How much does 
the Agency estimate it would cost to clean up the U.S. Areas of 
Concern?
    Response. It is not possible to generate a reliable cost estimate 
for cleaning up the 31 U.S. or Binational Areas of Concern because all 
of the Remedial Actions Plans (RAPs) for the AOCs are not fully 
developed to include definitive cost estimates. Each AOC is faced with 
developing and implementing a RAP to address multiple use impairments 
(restrictions on fish and wildlife consumption; tainting of fish and 
wildlife flavor; degradation of fish wildlife populations; fish tumors 
or other deformities; bird or animal deformities or reproduction 
problems; degradation of benthos; restrictions on dredging activities; 
eutrophication or undesirable algae; restrictions on drinking water 
consumption, or taste and odor problems; beach closings; degradation of 
aesthetics; added costs to agriculture or industry; degradation of 
phytoplankton and zooplankton populations; and/or loss of fish and 
wildlife habitat). The RAPs are in various stages of development and 
implementation. RAPs do identify some of the immediate solutions and 
costs for specific remedial actions. For example, a common problem in 
each of the Areas of Concern is contaminated sediments. Addressing that 
problem alone in the Waukegan Harbor Area of Concern is estimated to 
cost $21 million.

    Question 6. Clearly, it would cost several times what the 
Administration has proposed to clean up the Areas of Concern around the 
Great Lakes. What does the Agency expect to achieve when it would cost 
so much to clean up these sites?
    Response. We agree that completing the job of fully restoring all 
31 AOCs would require much more funding. EPA believes that providing 
the requested funding targeted to AOC cleanup will enable important 
projects to go forward that will significantly improve the condition of 
affected AOCs. Benefits to AOCs could include reduced contaminant 
levels in water and fish tissue, restoration of habitat, reduction in 
the number of beach closings or fish advisories, reduced fish tumors 
and lesions, and others. This funding may also be a catalyst for 
additional public and private investments in needed cleanup projects. 
In short, the additional funding could accelerate by many years the 
cleanup progress in AOCs and lead to tangible improvements in the 
health of the Great Lakes.

    Question 7. The last Clean Water Needs Survey came out in 1996. 
When will the Agency release the next survey?
    Response. The next Clean Water Needs Survey Report to Congress will 
be the 2000 Survey, which EPA will begin to develop with a national 
kickoff meeting in March, 2000. We expect to provide the 2000 Survey to 
Congress by February 2002.

    Question 8. What are the Administration's views on S. 1699, the 
Clean Water Infrastructure Financing Act?
    Response. On October 7, 1999, Chuck Fox, Assistant Administrator 
for Water at EPA, provided testimony before the Senate Committee on 
Environment and Public Works on H.R. 2720, the counterpart to S. 1699. 
A copy of applicable testimony is provided in attachment I.

    Question 9. The Administration's Great Lakes Initiative allows 
States and municipalities to compete for grants to improve water 
quality through stormwater pollution control, wetlands restoration and 
contaminated sediment remediation. Is EPA going to work with the Army 
Corps of Engineers to remove contaminated sediments from these sites?
    Response. EPA and the U.S. Army Corps of Engineers collaborate 
closely on removal of contaminated sediments from the Great Lakes and 
will continue to do so on projects supported by these funds. The form 
that this collaboration takes varies depending on the nature of the 
activity and the respective roles of the two agencies. Possibilities 
include routine coordination and reviews for Clean Water Act 404 
(dredge and fill) projects, coordination of Corps maintenance dredging 
with EPA/State remediation projects, coordination on activities related 
to numerous Water Resources Development Act authorities in the Great 
Lakes such as the Section 312 Environmental Dredging authority, and 
others.

    Question 10. Regarding the Army Corps of Engineers Everglades 
restoration project, why is EPA not paying for the advanced wastewater 
treatment facilities?
    Response. Generally, the costs of capital upgrades for wastewater 
treatment are eligible for loans under the Clean Water State Revolving 
Fund (SRF). It is important to note, however, that local communities 
typically are responsible for both repaying SRF loans and for covering 
the costs of annual operation/maintenance for treatment plants. 
Although projects like this are eligible, other sources of funding are 
necessary because Miami-Dade County is under no obligation to apply for 
loans or to improve treatment to a level suitable for Biscayne National 
Park or the Bird Drive-Everglades Basin wetlands. The purpose of the 
facilities is to provide clean freshwater to the environment during the 
dry season when the other restudy components will not have enough extra 
water available for the Biscayne Bay/Everglades restoration effort.

Government Performance

    Question 11. In a report last year assessing EPA's fiscal year 2000 
performance plan under the GPRA, GAO outlined several key weaknesses. 
Could you please indicate what the Agency has done to try to improve 
its performance and where the Agency has requested funding to help 
address these concerns?
    Response. Since 1998, EPA has had an effort underway to improve the 
quality, availability, and measurability of its performance information 
as a basis for assessing progress in achieving annual and longer-term 
results. Specifically, the Office of the Chief Financial Officer has 
worked cooperatively with Agency program offices to develop more 
outcome-oriented annual performance goals and performance measures. 
GAO's 1999 evaluation of EPA's performance information shows progress 
in this area, identifying 26 percent of the Agency's fiscal year 2000 
annual performance goals as intermediate and end outcomes. EPA is 
carrying out this effort as part of our core program responsibilities, 
and has not requested additional funding.
    The Agency is also working to make improvements in our performance 
plans in response to weaknesses identified by GAO in its review of 
EPA's fiscal year 2000 Annual Performance Plan. While the Agency has 
not requested funding specifically to address the weaknesses outlined 
in GAO's report, EPA is making progress, as noted below, to more fully 
describe crosscutting efforts in cooperation with other Federal 
agencies and strengthen the credibility of performance information.

    Question 12. EPA does not provide sufficient details on 
crosscutting goals and activities. GAO reports that the Agency did not 
completely describe how to coordinate with other Federal agencies that 
have related strategic or performance goals.
    Response. Cross-cutting programs and activities are those 
undertaken by more than one agency to achieve a common purpose or 
objective. Since the Agency's fiscal year 1999 annual plan, the 
programs have worked to improve the information that is presented 
describing their activities to coordinate with other Federal agencies 
regarding those goals of mutual interest. EPA is working closely with 
other agencies in a variety of ways to coordinate involvement in 
national efforts. For example, EPA worked with the Department of 
Interior, National Park Service, to develop the regional haze program 
and deploy the visibility monitoring system. Also, for the mobile 
sources program outreach, EPA is collaborating with the Federal Highway 
Administration and the Federal Transit Administration of the Department 
of Transportation to educate the public about the effects of 
transportation choices on traffic congestion, air quality, and public 
health. These illustrate important efforts to strengthen cooperation 
and understanding among agencies in achieving common goals.
    In addition, OMB reinforces the importance of collaboration among 
Federal agencies toward the achievement of crosscutting goals in their 
review and clearance of products associated with GPRA implementation. 
This happens at various stages, but is especially important for 
formulation of the annual budget submission and performance plan.

    Question 13. While EPA's performance plan provides a general 
discussion of strategies and resources to achieve its goals, it is 
silent on what steps the Agency proposes to mitigate the potential 
impact of external factors.
    Response. EPA chose to identify and describe key external factors 
that could directly affect the achievement of goals for the fiscal year 
covered by its annual plan, although GPRA requires this only in the 
strategic plan. EPA's Strategic Plan also discusses external factors to 
the extent that they are likely to occur, consistent with OMB guidance. 
The Agency's discussion of external factors in both the annual and 
strategic plans helps provide a fuller context to consider both the 
challenges and opportunities EPA faces in achieving its annual and 
longer-term goals. EPA does not provide details on possible steps to 
mitigate the potential impact of external factors, however, since these 
would be speculative at best and needlessly complicate the discussion 
of means and strategies intended to achieve the Agency's goals.

    Question 14. EPA's performance plan provides limited confidence 
that the Agency performance information will be credible. The Agency's 
existing data management system is outmoded. The report sites as an 
example the data bases used for tracking compliance with requirements 
under the Safe Drinking Water Act and the Clean Water Act. In addition, 
the report notes that the Agency talked about proposed action in its 
2000 performance plan to improve data quality, but did not set 
performance goals or measures for these actions.
    Response. The fiscal year 2000 and fiscal year 2001 Performance 
Plans were written before there was a true focal point for data quality 
in the Agency. With the creation of the new Office of Environmental 
Information in October 1999, EPA has placed clear leadership 
responsibility for this issue in the Agency. During the past year, EPA 
has focused on understanding the nature of some of its data quality 
issues, and the new Office of Environmental Information has now 
launched several initiatives with program managers to address them. In 
the fiscal year 2002 performance plan, the Agency plans to include 
specific commitments that reflect the data quality goals we plan to 
achieve in the Agency's systems.
    Although they are not formally part of the performance plan, EPA 
has established and will be closely monitoring the following goals for 
data quality in fiscal year 2000 and 2001. We are building a formal 
procedure to provide easier identification, tracking, and resolution of 
errors found in the national environmental data systems. The Integrated 
Error Correction Process is a Web-based system that will be implemented 
beginning in April 2000 with the release of the 1998 Toxic Release 
Inventory data. By the Fall of 2000, we expect that the error 
correction process will be in effect across eight of EPA's National 
systems. In addition, EPA currently supports Data Steward Network staff 
in each Regional office. These employees and contractors resolve 
conflicts in electronic records. During the past 18 months, almost 
60,000 discrepancies in facility and other records have been resolved 
by the Data Stewards. We also plan to complete the 6 REI data 
standards. Finally, EPA is establishing a Central Receiving Facility to 
process incoming information and data for the Agency. A key function of 
the Facility will be to conduct automated routines that will identify 
errors before incorrect or suspect data are displayed in the national 
data systems. In fiscal year 2000, we will also examine how to 
reinforce data quality in information systems through the investment 
review process in the future.
Sound Science

    Question 15. Your budget indicates that EPA intends to target your 
human health research dollars on issues relating to children such as 
asthma and development disorders. These are public health issues, the 
causes of which are not well understood and certainly complex. These 
should be looked at holistically so that we can determine all of the 
significant causes of these and other children's health problems, 
whether environmental or not, so that we can focus our prevention and 
treatment in ways that will best protect children in the future. We 
also want to make sure that if we are going to be making significant 
changes in environmental standards to address these problems facing 
children, potentially costing billions of dollars, that we really know 
we are addressing these problems. How are you coordinating with the 
Department of Health and Human Services to develop a holistic approach 
to researching these problems? Do you have a specific plan for 
coordinating with HHS, both with respect to the research conducted and 
with respect to how you will use the information to better protect 
children?
    Response. Conducting research and implementing programs on 
environmental health issues, such as asthma or developmental disorders, 
is consistent with the mission of the U.S. Environmental Protection 
Agency (EPA) to protect public health and safeguard and improve the 
natural environment--air, water, and land--upon which life depends. We 
agree that a holistic approach to public health issues is appropriate 
and fully recognize that many of the environmental health research and 
programmatic activities require close coordination across several 
departments and agencies. For example, EPA is a long-standing member of 
the Environmental Health Policy Committee, chaired by the Surgeon 
General, and participates in its subcommittees. Under the Executive 
Order to Reduce Environmental Health and Safety Risks to Children (E.O. 
13045, April 1997), EPA and the Department of Health and Human Services 
(HHS) are directed to jointly lead the Presidential Task Force on 
Environmental Health Risks and Safety Risks to Children. This Task 
Force has provided a framework for unprecedented levels of coordination 
on environmental health between EPA, HHS, the Department of Housing and 
Urban Development (HUD) and others. This coordination has led to a 
multi-million dollar interagency asthma initiative funded in fiscal 
year 2000, as well as a comprehensive interagency strategy to combat 
childhood lead poisoning announced on March 29, 2000, with Federal 
funding requested in the President's 2001 budget at $164.5 million.
    The President's asthma strategy (Asthma and the Environment: A 
Strategy to Protect Children) will join efforts across the Federal 
Government to increase research, enhance communications and community 
education, and implement programs aimed to reduce asthma incidence and 
prevalence. EPA's participation in research on environmental triggers 
of asthma brings the expertise and facilities unique to our Office of 
Research and Development, which is the only U.S. organization that has 
in-house capabilities for toxicological, clinical, and epidemiological 
research combined with extensive ambient air and personal exposure 
measurement. This expertise has been applied to asthma-related research 
for quite some time and has gained national and international 
recognition. In addition, the National Heart Lung and Blood Institute 
(NHLBI), the National Institute of Allergy and Infectious Diseases 
(NIAID), the National Institute of Environmental Health Sciences 
(NIEHS), the Agency for Toxic Substances and Disease Registry (ATSDR), 
and the National Center for Health Statistics (NCHS) are active in 
asthma research. These Federal efforts have been summarized in Action 
Against Asthma, a draft DHHS asthma strategy released in 1999. EPA 
scientists work closely with many of these HHS organizations to ensure 
that EPA research supplements and expands, but does not duplicate, 
current research efforts into the causes of asthma, asthma triggers, 
and effective intervention strategies.
    In addition, EPA and DHHS collaborate directly on asthma related 
research, such as joint funding of the Centers of Excellence in 
Children's Environmental Health and Prevention Research. These research 
centers are located within eight leading research institutions across 
the country and perform targeted research on asthma, pesticides, and 
toxics. Each of these unique Centers perform targeted research into 
children's environmental health, and each Center's work includes a 
community-based prevention research component. Later this year, EPA 
will enter into a cooperative agreement with an additional research 
center.
    The Task Force on Environmental Health Risks and Safety Risks to 
Children has also recently agreed to conduct feasibility analyses to 
determine whether to launch a longitudinal cohort study of the effects 
of environmental exposures on children and their families. At this 
point, HHS and EPA are evaluating various approaches which might be 
utilized to conduct such a study, as well as beginning to develop 
possible hypotheses which could be tested in such a study. Since the 
last large national study was done some 50 years ago, there have been 
major scientific breakthroughs both in terms of analyzing for 
environmental contaminants at very low levels as well as in beginning 
to understand the human genome. Both these factors could aid 
investigators' understanding of the influences of genetic 
susceptibility and environmental exposures in childhood disease.
    EPA and HHS will continue to work closely together on important 
environmental health programs, research efforts and policy committees. 
We are committed to protecting public health and the environment and 
are pleased to collaborate with our Federal partners to ensure good 
coordination, cost effectiveness and maximum benefit to the American 
people.

Public Right-to-Know

    Question 16. What steps are being taken by EPA to ensure that the 
Integrated Risk Information System (IRIS) data base, on which many 
Federal and State programs rely, contains the best available scientific 
information about the substances contained in the data base?
    Response. Since 1995, EPA has taken several steps to ensure that 
the best available scientific information is included in IRIS 
assessments. On an annual basis, EPA announces the next set of 
chemicals to be considered in the IRIS program, either to update an 
older assessment, or to be added to the data base. This announcement 
includes a request for all relevant information to be submitted to EPA 
for consideration in the assessments. In addition, all IRIS assessments 
go through an external peer review, which can include a public meeting. 
All scientific questions and responses generated through the external 
reviews are available to the general public.

    Question 17. How much is the Agency requesting to improve the IRIS 
data base? How many staff resources are working on this?
    Response. For the fiscal year 2001 President's budget request, EPA 
requested a total of $1.7 million and 7.8 work years under the R&D 
program to support the IRIS data base. Some key areas of effort in 2001 
will include producing, updating, and maintaining health assessments on 
IRIS, ensuring appropriate external peer review of IRIS summaries and 
support documents, facilitating Agency consensus and resolving issues 
in a timely manner, and maintaining a widely accessible Internet 
version of IRIS, available at the local level to support community-
based environmental protection.
Project XL
    Question 18. It is my understanding that Project XL, which is aimed 
at providing some flexibility on how to comply with environmental 
requirements, has not been aggressively pursued by the Agency. Please 
explain why this program has been slow to initiate.
    Response. On the contrary, Project XL has been pursued aggressively 
by EPA. We have signed 20 project agreements and over 30 additional 
projects are in development. Progress has been slower than we 
anticipated. When we first set out to implement this innovative 
program, the difficulties were not apparent. We needed to start by 
establishing a process and standards for something that had never been 
done before. For example, we put together guidelines for what 
constitutes superior environmental performance and a complete 
stakeholder process. We figured out how to provide project sponsors 
with flexibility while staying within the statutory framework.
    The guidelines and processes that we established in this program 
have been transferred to other EPA programs, resulting in substantial 
efficiencies. For instance, EPA issued the ``Guidance for Compliance 
Screening for Voluntary Programs,'' the Agency's comprehensive 
screening framework, which is applicable to all voluntary partnership 
programs. We also established the Reinvention Action Council (RAC) to 
further senior management involvement in advancing innovative efforts. 
The RAC's success in resolving problems in Project XL led to expanded 
responsibilities for the Council. Another example is the ECOS-EPA 
Innovations agreement, developed out of the XL experience, that defines 
seven principles to guide innovations and establishes a process that 
clarifies how EPA and the States will put innovations to the test. The 
prominent role of States in the XL process, along with the Innovations 
agreement, has advanced successful Federal-State partnerships in 
developing and managing innovation strategies for environmental 
protection.
    Project XL posed a significant internal coordination challenge. 
Many projects are multi-media involving multiple programs and offices 
that have to work together on new ways to protect the environment. We 
have discovered that making multi-media modifications is difficult 
because of the single-media focus of environmental statutes and EPA 
itself. However, Project XL has set up a framework for dealing with 
multi-media problems. Thus, EPA's pursuit of Project XL has eased 
future innovations work by having dealt with these difficult issues. In 
order to handle enforcement and legal issues, we involve the Office of 
General Counsel and the Office of Enforcement and Compliance Assistance 
in the projects. Although we have found that operating such a cross-
Agency team has inherent challenges, Project XL has overcome many of 
these obstacles and has established a framework for providing 
flexibility in exchange for superior environmental performance i.e., 
common-sense environmental protection. We expect to meet the goal of 50 
signed XL projects this year.

    Question 19. While I was Governor, three environmental groups filed 
a petition to US EPA requesting that the Agency revoke several Ohio's 
authority to administer the water, air and hazardous-waste pollution 
programs. The request stemmed from Ohio's environmental audit law. My 
Administration spent a very long time negotiating with US EPA to 
implement changes to our audit law. And we proceeded to get these 
changes passed in the State legislature. However, US EPA never 
dismissed the petition. These environmental groups have amended the 
petition two more times since then, each time requiring US EPA to 
investigate the accusations. Please explain to me why this petition has 
not been dismissed. Are you taking any actions to dismiss it now?
    Response. Between 1997 and January 2000, citizens and Ohio citizens 
groups (``petitioners'') joined in several petitions seeking withdrawal 
of Ohio's Federal Clean Air Act, Clean Water Act and Resource 
Conservation and Recovery Act programs. EPA has an obligation to 
explore issues raised by citizen petitions to withdraw States' Federal 
environmental programs.
    The Ohio petitioners based their allegations on both legal and 
implementation concerns. Specifically, the petitioners make two types 
of claims: 1) because of its audit law, Ohio lacks adequate legal 
authority to administer its Federal environmental programs; and 2) Ohio 
has failed to adequately implement key portions of its standard-
setting, permitting and enforcement responsibilities under its Federal 
environmental programs.
    With respect to the audit law concerns raised by petitioners, Ohio 
amended its audit privilege and immunity law effective September 30, 
1998. EPA sent a letter to the State on June 18, 1999, recognizing 
that, as modified, and as interpreted in a March 23, 1998 opinion from 
the Ohio Attorney General, the amended Ohio audit privilege and 
immunity law addressed the concerns that EPA had previously identified 
regarding the effect of the law on existing federally authorized 
environmental programs. The letter stated that, while EPA had not made 
a final decision on the citizens' petitions, it believed that, as 
amended and interpreted, Ohio's audit privilege and immunity law should 
not present a barrier to continued authorization of Federal 
environmental programs in Ohio.
    Due to the complexity of the petitions, EPA had to perform a 
careful and time-consuming review. However, EPA plans to respond to the 
petitioners' legal-authority concerns relating to Ohio's audit law this 
Spring. With respect to the implementation concerns raised by the 
petitioners, EPA is currently reviewing certain Ohio Clean Air Act, 
Clean Water Act and Resource Conservation and Recovery Act programs. We 
plan to distribute a report containing our draft findings to the public 
and to hold a public information session after we complete our reviews. 
We intend to complete both of these activities sometime this year.


</pre></body></html>
